<html>
<title> - NOMINATION OF HILLARY R. CLINTON TO BE SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 111-249]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-249

       NOMINATION OF HILLARY R. CLINTON TO BE SECRETARY OF STATE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 13, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





                  U.S. GOVERNMENT PRINTING OFFICE
54-615PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        








                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary Rodham, U.S. Senator from New York, 
  nominated to be Secretary of State.............................    15
    Prepared statement...........................................    25
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    11
    Prepared statement...........................................    13
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    38
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
    Prepared statement...........................................     8
Schumer, Hon. Charles E., U.S. Senator from New York, statement..    14

                                Appendix

Responses of Senator Clinton to questions submitted by the 
  following Senators:
    John F. Kerry................................................    99
    Richard G. Lugar.............................................   147
    Russell D. Feingold..........................................   192
    Barbara Boxer................................................   195
    Bill Nelson..................................................   198
    Robert Menendez..............................................   199
    Robert P. Casey, Jr..........................................   212
    George V. Voinovich..........................................   216
    Lisa Murkowski...............................................   217
    Jim DeMint...................................................   217
    Johnny Isakson...............................................   234
    David Vitter.................................................   235

                                 (iii)

  

 
       NOMINATION OF HILLARY R. CLINTON TO BE SECRETARY OF STATE

                              ----------                              


                       TUESDAY, JANUARY 13, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Nelson, 
Menendez, Cardin, Casey, Webb, Lugar, Corker, Voinovich, 
Murkowski, DeMint, Isakson, Vitter, and Barrasso.
    Also Present: Senator Schumer and Senator Shaheen.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Well, good morning, everyone. We welcome you 
all here. We're delighted to welcome Senator Clinton, Secretary 
of State-designate.
    I think every member of the committee believes very 
strongly that, in Senator Clinton, we have a nominee who is 
extraordinarily capable and smart, an individual with the 
global stature and influence to help shape events. She will 
take office on a first-name basis with numerous heads of state, 
but also with billions of people in every corner of the globe, 
those billions of people that the Obama administration hopes to 
reach, inspire, and influence. Her presence overseas will send 
a strong signal immediately that America is back.
    This morning, we look forward to a good, healthy dialogue; 
and, over the coming years, we particularly look forward to a 
strong, close, cooperative working relationship.
    This is a historic moment for this committee. For the first 
time in American history, one of our Members will be sworn in 
as President, and another one as Vice President. Before any of 
the newer members of our committee get too excited about future 
prospects, let Dick Lugar, Chris Dodd, and myself, and perhaps 
even Hillary will join in this, in saying, ``Trust us, it ain't 
automatic.'' [Laughter.]
    For me, it is a particularly special and personal privilege 
to be sitting here, having testified before Chairman Fulbright, 
in 1971, and having worked closely with the chairmen since who 
have set a strong example for this committee's ability to 
contribute to our security.
    And this morning we should remember one chairman, in 
particular. Last week, Dick, Chris, Sheldon, and I attended 
memorial services for Claiborne Pell in Rhode Island. President 
Clinton, who first met Chairman Pell when he was a college 
student interning on this committee, spoke movingly at the 
funeral. And today, I know we all join together in expressing 
our gratitude for Chairman Pell's exemplary service. His 
commitment to bipartisanship and multilateralism remains the 
guideposts by which this committee will continue its efforts.
    I'm privileged also to follow in the more recent footsteps 
of two respected chairmen and good friends. Vice President-
elect Biden and I first ran for office together in 1972. We 
grew up together in politics. I know Joe and his family well, 
as many of the members of this committee do. I value his 
friendship, and the country will come to value the wisdom and 
strength which he brings to the vice-presidency. The committee 
is grateful for his leadership.
    I also have the good fortune, as chairman, to have beside 
me, as ranking member, the senior-most Republican in the 
Senate, a Nobel Peace Prize nominee for his groundbreaking 
nonproliferation work, and a trusted, thoughtful voice in our 
national security dialogue.
    Senator Lugar, I look forward to working with you in the 
same cooperative way that Senator Biden did, and others have in 
the past, and I know that that will characterize the work of 
this committee as we go forward and I could not have a better 
partner, and I thank you for that.
    If we do our job correctly as we begin a new Presidency and 
a new Congress, we stand on the brink of a new era of American 
diplomacy, with great potential for significant, if not 
transformational, steps forward across the globe. And I look 
forward to working with Secretary Clinton to seize that 
potential.
    In the last 7 years, we have spent the treasure of our 
Nation--young American soldiers, first and foremost, and 
billions of dollars--to fight terrorism; and yet, grave 
questions remain as to whether or not we have chosen our 
battles correctly, pursued the right strategy, defined the 
right goals. That we are engaged in fighting a global 
insurgency is beyond doubt, but our task is to define the 
method and means of our response more effectively, and no 
challenge will be greater in the days ahead than to get this 
right.
    Pakistan and Afghanistan are definitively the front line of 
our global counterterrorism efforts. Having visited, several 
times recently, it is clear that no amount of additional troops 
will succeed, absent the effective instruments of a functioning 
state. We face a gargantuan task, and, to be successful, I 
believe we must fundamentally redefine our approach.
    We went into Afghanistan to deny al-Qaeda sanctuary. Our 
goals must be defined by our original mission, by the regional 
security context, and by the tribal, decentralized nature of 
Afghan society. I'm eager to hear Senator Clinton's thoughts on 
the road ahead in Afghanistan.
    Nor should anyone believe that Iraq is a completed task. 
Despite the Status of Forces Agreement that sets out a schedule 
for reduction of United States forces, Sunni and Shia tensions, 
the unresolved status of Kirkuk, the distribution of oil 
revenues, and setbacks to political reconciliation, each 
threaten to upend our fragile progress, and they will require 
active diplomatic engagement by Secretary of State Clinton and 
the rest of the Obama administration with Iraq's Government, 
and particularly with its neighbors.
    Iraq, as well as Iran, Syria, the West Bank, and Gaza, all 
require an approach that recognizes the interconnectedness of 
each of these challenges. We look forward to working with the 
administration and with Secretary Clinton on a significantly 
expanded and vigorous diplomatic effort.
    In the age of catastrophic terrorism, it is also urgent--
and I know Senator Lugar joins me in expressing this--urgent 
that we restore America's leadership on nonproliferation. 
Whatever our differences, we must reengage with Russia on 
nuclear security--specifically, the START Treaty. It is my hope 
that we will embrace deep, reciprocal cuts in our nuclear 
arsenals, and I'm eager to hear Senator Clinton's thoughts on 
this matter.
    Consistent with our security needs, I believe we should set 
a goal of no more than 1,000 deployed warheads; and that goal 
should be just a beginning. We should also lay the groundwork 
for ratification of the Comprehensive Test Ban Treaty.
    The last 8 years have resulted in increased suspicion of 
our motives abroad, especially in the Muslim world, where we 
must do much more to reduce the prevalent and costly perception 
of an assault on Islam. It is vital that we redouble our 
efforts to find common ground, including through interfaith 
dialogue.
    We must integrate all of the disparate elements of our 
national power into a single unified effort. And I agree with 
Secretary Gates that we need a State Department with more 
resources and greater capacity to deal with 21st century 
challenges in conflict zones and in weak and failing states.
    I was heartened to hear Senator Clinton signal her desire 
to radically improve our diplomatic capacity and finally give 
the State Department the tools it needs to put civilian 
functions back in civilian hands, and she can count on our 
support in that effort. She can also count on our support in 
efforts to reengage with Latin America and recognize how 
crucial renewed and expanded relationships with Russia and 
China are to our overall goals.
    I believe, Madam Secretary-designate, that China offers us 
extremely important opportunities for a more productive 
partnership, and we need to approach that relationship with 
greater respect for, and understanding of, our common 
interests.
    Before turning to Senator Lugar, let me just say one thing 
about global climate change. Many today do not see global 
climate change as a national security threat. But it is; 
profoundly so. And the consequences of our inaction grow more 
serious by the day. In Copenhagen, this December, we have a 
chance to forge a treaty that would profoundly affect the 
conditions of life on our planet itself. The resounding message 
from the recent Climate Change Conference in Poland was that 
the global community is looking, overwhelmingly, to our 
leadership. This committee will be deeply involved in crafting 
a solution that the world can agree to and that the Senate can 
ratify. And as we proceed, the lesson of Kyoto must remain 
clear in our minds: all countries must be part of the solution.
    Each of these challenges present major opportunities for a 
new administration and for a new Secretary of State. After the 
polarization of the last 8 years, diplomacy must be directed 
domestically, as well. Senator Clinton's record in the Senate 
shows her to be an alliance builder in the finest traditions of 
this body. She has repeatedly sought out the best people, the 
best ideas, and the common ground upon which solutions could be 
found.
    While the committee still has some questions with respect 
to the fundraising activities of the Clinton Foundation, I'm 
pleased that Senator Clinton will have an opportunity today to 
address them beyond the ways, in-depth, that they have already 
been addressed. I understand that Senator Lugar will be 
speaking to this issue in greater detail, and we look forward 
to hearing the Senator's responses.
    Let me just say, personally, that, in the year 2000, I had 
the privilege of joining the then-First Lady and her husband on 
the first visit by an American President to Vietnam after the 
normalization of relations. I have seen Senator Clinton's 
diplomatic acumen up close. I saw her immense curiosity, her 
quick and impressive grasp of detail, and her authoritative 
approach, all of which will serve her well in this new 
undertaking.
    Hillary Clinton has shown the intelligence to navigate the 
complex issues that we face, the toughness and the tireless 
work ethic that this job will require, the stature to project 
America's world leadership, and the alliance-building, at home 
and abroad, that will be vital to our success in the years 
ahead. As Senator, Hillary has earned the respect of her 
colleagues--Democrat and Republican alike--and we are honored 
to welcome her here today to our committee for confirmation as 
America's next Secretary of State.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I congratulate you on taking 
the gavel. We wish you every success, and we appreciate the 
very gracious comments you have made about previous chairmen. 
And I join you especially in your tribute to our former 
colleague, Senator Pell, and the life we celebrated together 
last week.
    It is a great pleasure to welcome Senator Hillary Clinton 
to the Foreign Relations Committee. Those of you who have 
served with her during the past 8 years can attest to her 
impressive skills, her compassion, her collegiality. I've 
enjoyed the opportunity to work with her in the Senate, and I 
look forward to the prospect of much more frequent 
collaboration when she is Secretary of State.
    I also want to congratulate Senator Kerry on the assumption 
of chairmanship of this committee. My first hearing as chairman 
of the committee, in 1985, was one of the proudest moments of 
my career, and I'm sure Senator Kerry is feeling the gravity, 
as well as the joy, of this historic occasion. And I want to 
thank him and his staff for their great assistance during the 
last several weeks. It's been a pleasure to work with them. I 
look forward to all that we can achieve together under Senator 
Kerry's chairmanship.
    I have frequently said the foremost criteria for selection 
of a national security Cabinet official should be whether the 
nominee is a big-leaguer who has achieved extraordinary 
accomplishments, is well known to the world, understands both 
process and policy, and can command global respect. In Senator 
Clinton, President-elect Obama has boldly chosen the epitome of 
a big-leaguer. Her qualifications for the post are remarkable. 
Her presence at the helm of the State Department could open 
unique opportunities for United States diplomacy and can 
bolster efforts to improve foreign attitudes toward the United 
States. She has a longstanding relationship with many world 
leaders that could be put to great use in the service of our 
country. Her time in the Senate has given her a deep 
understanding of how United States foreign policy can be 
enriched by establishing a closer relationship between the 
executive and legislative branches. She is fully prepared to 
engage the world on myriad of issues that urgently require 
attention.
    During the last 6 years, this committee has held more 
hearings than any other committee in the Senate, and we have 
tried to come to grips with issues involving Iraq, Afghanistan, 
Iran, North Korea, Russia, the Middle East peace process, 
Africa, the Western Hemisphere, the NATO alliance, 
nonproliferation, foreign assistance reform, the State 
Department budget, and numerous other priorities. All of these 
challenges will continue to occupy Senator Clinton as Secretary 
of State.
    I would highlight several other points to which I hope the 
Secretary will give very high priority in addition to the 
ongoing crises that will press for her attention.
    First, it is vital that the START Treaty with Russia be 
renewed. When the Senate gave its consent to ratification of 
the Moscow Treaty in 2002, it did so knowing that the United 
States could rely on the START Treaty's verification regime. It 
provides important assurances to both sides. At the time, this 
committee was assured that extension of START was a very high 
priority. Unfortunately, little progress has been made and the 
treaty will expire in 11 months. In other words, the conceptual 
underpinning of our strategic relationship with Russia depends 
upon something that is about to expire. Such an outcome will be 
seen as weakening the international nonproliferation regime.
    Second, energy security must be given a much higher 
priority in our diplomacy. Earlier this month, Russian 
President Vladimir Putin ordered a cutoff--or, rather, Prime 
Minister Vladimir Putin ordered a cutoff in natural gas 
supplies that struck allies across Europe, and this dispute is 
only the most recent example of how energy vulnerability 
constrains our foreign policy options around the world, 
limiting effectiveness in some cases, and forcing our hand in 
others. I look forward to supporting President-elect Obama in 
taking the necessary steps to dramatically reduce our domestic 
dependence on oil. Yet, domestic reform alone will not be 
sufficient to meet the global threats to our national security, 
our economic health, or climate change. In my judgment, energy 
security must be at the top of our agenda with nearly every 
country. Progress will require personal engagement by the 
Secretary of State.
    Third, eradicating global hunger must be embraced as both a 
humanitarian and national security imperative. Precipitous food 
price increases that occurred in 2007 and 2008 created havoc in 
many parts of the world, causing riots in some 19 countries, 
and plunging an additional 75 million people into poverty and 
increased vulnerability to malnourishment. Nearly 1 billion 
people are presently food-insecure. It is predicted the world's 
population will grow to such an extent that, by 2050, current 
food production will need to double in order to meet demand. 
There is no reason why people should be hungry when we have the 
knowledge, the technology, and the resources to make everyone 
food-secure. The United States is uniquely situated to help the 
world feed itself and has the opportunities to recast its image 
by making the eradication of hunger a centerpiece of United 
States foreign policy.
    Now, with these issues in mind, it is especially important 
we move forward with Senator Clinton's nomination. President-
elect Obama has expressed his confidence in her, and he 
deserves to have the Secretary of State in place at the 
earliest opportunity.
    The main issue related to Senator Clinton's nomination that 
has occupied the committee has been the review of how her 
service as Secretary of State can be reconciled with the 
sweeping global activities of President Bill Clinton and the 
Clinton Foundation. To this end, the Obama transition and the 
Clinton Foundation completed a memorandum of understanding 
outlining steps designed to minimize potential conflicts of 
interest. I share the President-elect's view that the 
activities of the Clinton Foundation, and President Clinton 
himself, should not be a barrier to Senator Clinton's service, 
but I also share the view implicitly recognized by the 
memorandum of understanding that the work of the Clinton 
Foundation is a unique complication that will have to be 
managed with great care and transparency.
    The core of the problem is that foreign governments and 
entities may perceive the Clinton Foundation as a means to gain 
favor with the Secretary of State. Although neither Senator 
Clinton nor President Clinton has a personal financial stake in 
the Foundation, obviously its work benefits their legacy and 
their public service priorities.
    There is nothing wrong with this, and President Clinton is 
deservedly proud of the Clinton Foundation's good work in 
addressing HIV/AIDS, global poverty, climate change, and other 
pressing problems. But the Clinton Foundation exists as a 
temptation for any foreign entity or government that believes 
it could curry favor through a donation. It also sets up 
potential perception problems with any action taken by the 
Secretary of State in relation to foreign givers or their 
countries.
    The nature of the Secretary of State post makes recusal 
from specific policy decisions almost impossible, since even 
localized U.S. foreign policy activities can ripple across 
countries and continents. Every new foreign donation that is 
accepted by the Foundation comes with the risk it will be 
connected in the global media to a proximate State Department 
policy or decision. Foreign perceptions are incredibly 
important to United States foreign policy, and mistaken 
impressions or suspicions can deeply affect the actions of 
foreign governments toward the United States. Moreover, we do 
not want our own government's deliberations distracted by 
avoidable controversies played out in the media.
    The bottom line is that even well-intentioned foreign 
donations carry risk for United States foreign policy. The only 
certain way to eliminate this risk going forward is for the 
Clinton Foundation to forswear new foreign contributions when 
Senator Clinton becomes Secretary of State. I recommend this 
straightforward approach as the course most likely to avoid 
pitfalls that could disrupt United States foreign policy or 
inhibit Senator Clinton's own activities as Secretary of State.
    Alternatively, the Clinton Foundation and the Obama 
transition have worked in good faith to construct a more 
complex approach based on disclosure and ethics reviews that 
would allow the Foundation the prospect of continuing to accept 
foreign donations deemed not to have the appearance of a 
conflict of interest. The agreement requires, among other 
measures, the disclosure of all Foundation donors up to this 
point; an annual disclosure of donations going forward; and a 
State Department ethics review process that would evaluate 
proposed donations from foreign governments and governmental 
entitles. All of these are positive steps, but we should be 
clear that this agreement is a beginning and not an end. It is 
not a guarantee against conflict of interest or its appearance. 
And for the agreement to succeed, the parties must make the 
integrity of United States foreign policy their first principle 
of implementation.
    For this reason, the requirements for transparency and the 
memorandum of understanding should be considered a minimum 
standard. I am hopeful the Clinton Foundation and the Obama 
administration will go further to ensure that the vital 
business of United States foreign policy upon which the 
security of our country rests is not encumbered by perceptions 
arising from donations to the Foundation. If there is a 
slightest doubt about the appearance that a donation might 
create, the Foundation should not take that donation. If there 
are issues about how a donation should be disclosed, the issue 
should be resolved by disclosing the donation sooner and with 
as much specificity as possible.
    Operational inconveniences for the Foundation or a 
reduction in some types of donations that have been accepted in 
the past are small prices to pay when balanced against the 
serious business of United States foreign policy that affects 
the security of every American.
    With this in mind, I have suggested several additional 
transparency measures that could be embraced by the Clinton 
Foundation and the Obama administration, going forward.
    Because time is limited, I will not discuss each one 
explicitly now, but I have provided a background sheet--
Attachment A--that outlines these measures. And my 
understanding is the Clinton Foundation has already accepted 
the fourth item listed. The willingness of all parties to 
voluntarily implement these additions would strengthen the 
commitment to transparency and at least partially mitigate the 
risks inherent in foreign contributions.
    I believe that every member of this committee will seek 
ways to support Senator Clinton's work as Secretary of State. I 
am certain every member wants her to succeed. We have the 
opportunity, through the leadership of President-elect Obama 
and Senator Clinton, to establish a new foreign policy path 
that will greatly benefit security and prosperity of the United 
States.
    And I look forward to our discussion with our esteemed 
colleague today. I applaud her willingness to take on the role 
of Secretary of State at a very difficult moment in history.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator Lugar follows:]

 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    It is a pleasure to welcome Senator Clinton to the Foreign 
Relations Committee. Those of us who have served with her during the 
past 8 years can attest to her impressive skills, her compassion, and 
her collegiality. I have enjoyed the opportunity to work with her in 
the Senate, and I look forward to the prospect of much more frequent 
collaboration when she is Secretary of State.
    I also want to congratulate Senator Kerry on assuming the 
chairmanship of our committee. My first hearing as chairman of this 
committee in 1985 was one of the proudest moments of my career, and I 
am sure Senator Kerry is feeling the gravity of this historic occasion. 
I want to thank him and his staff for their graciousness during the 
last several weeks. It has been a pleasure to work with them, and I 
look forward to all that we can achieve together under Senator Kerry's 
chairmanship.
    I have frequently said that the foremost criteria for selecting a 
national security Cabinet official should be whether the nominee is a 
``big-leaguer'' who has achieved extraordinary accomplishments, is well 
known to the world, understands both process and policy, and can 
command global respect. In Senator Clinton, President-elect Obama has 
boldly chosen the epitome of a big-leaguer. Her qualifications for this 
post are remarkable. Her presence at the helm of the State Department 
could open unique opportunities for U.S. diplomacy and could bolster 
efforts to improve foreign attitudes toward the United States. She has 
longstanding relationships with many world leaders that could be put to 
great use in the service of our country. Her time in the Senate has 
given her a deep understanding of how U.S. foreign policy can be 
enriched by establishing a closer relationship between the executive 
and legislative branches. She is fully prepared to engage the world on 
myriad issues that urgently require attention.
    During the last 6 years, this committee has held more hearings than 
any other committee in the Senate, as we have tried to come to grips 
with issues involving Iraq, Afghanistan, Iran, North Korea, Russia, the 
Middle East peace process, Africa, the Western Hemisphere, the NATO 
alliance, nonproliferation, foreign assistance reform, the State 
Department budget, and numerous other priorities. All of these 
challenges will continue to occupy Senator Clinton as Secretary of 
State. I would highlight several other points to which I hope the 
Secretary will give very high priority in addition to ongoing crises 
that will press for her attention.
    First, it is vital that the START Treaty with Russia be renewed. 
When the Senate gave its consent to ratification to the Moscow Treaty 
in 2002, it did so knowing that the U.S. could rely on the START 
Treaty's verification regime. It provides important assurances to both 
sides. At the time, this committee was assured that extension of START 
was a very high priority. Unfortunately, little progress has been made 
and it will expire in 11 months. In other words, the conceptual 
underpinning of our strategic relationship with Russia depends upon 
something that is about to expire. Such an outcome will be seen as 
weakening the international nonproliferation regime.
    Second, energy security must be given a much higher priority in our 
diplomacy. Earlier this month Russian Prime Minister Vladimir Putin 
ordered a cutoff in natural gas supplies that struck allies across 
Europe. This dispute is only the most recent example of how energy 
vulnerability constrains our foreign policy options around the world, 
limiting effectiveness in some cases and forcing our hand in others. I 
look forward to supporting President-elect Obama in taking the 
necessary steps to dramatically reduce our domestic dependence on oil. 
Yet domestic reform alone will not be sufficient to meet the global 
threats to our national security, economic health, and climate. In my 
judgment, energy security must be at the top of our agenda with nearly 
every country. Progress will require personal engagement by the 
Secretary of State.
    Third, eradicating global hunger must be embraced as both a 
humanitarian and national security imperative. Precipitous food price 
increases that occurred in 2007 and 2008 created havoc in many parts of 
the world, causing riots in some 19 countries, and plunging an 
additional 75 million people into poverty and increased vulnerability 
to malnourishment. Nearly 1 billion people are presently food-insecure. 
It is predicted that the world's population will grow to such an extent 
that by 2050, current food production will need to double in order to 
meet demand. There is no reason why people should be hungry when we 
have the knowledge, technology, and resources to make everyone food-
secure. The United States is uniquely situated to help the world feed 
itself, and has the opportunity to recast its image by making the 
eradication of hunger a centerpiece of U.S. foreign policy.
    With all these issues in mind, it is especially important that we 
move forward with Senator Clinton's nomination. President-elect Obama 
has expressed his confidence in her, and he deserves to have his 
Secretary of State in place at the earliest opportunity.
    The main issue related to Senator Clinton's nomination that has 
occupied the committee has been a review of how her service as 
Secretary of State can be reconciled with the sweeping global 
activities of President Bill Clinton and the Clinton Foundation. To 
this end, the Obama Transition and the Clinton Foundation completed a 
Memorandum of Understanding outlining steps designed to minimize 
potential conflicts of interest.
    I share the President-elect's view that the activities of the 
Clinton Foundation and President Clinton himself should not be a 
barrier to Senator Clinton's service. But I also share the view, 
implicitly recognized by the Memorandum of Understanding, that the work 
of the Clinton Foundation is a unique complication that will have to be 
managed with great care and transparency.
    The core of the problem is that foreign governments and entities 
may perceive the Clinton Foundation as a means to gain favor with the 
Secretary of State. Although neither Senator Clinton, nor President 
Clinton has a personal financial stake in the Foundation, obviously its 
work benefits their legacy and their public service priorities. There 
is nothing wrong with this, and President Clinton is deservedly proud 
of the Clinton Foundation's good work in addressing HIV/AIDs, global 
poverty, climate change, and other pressing problems.
    But the Clinton Foundation exists as a temptation for any foreign 
entity or government that believes it could curry favor through a 
donation. It also sets up potential perception problems with any action 
taken by the Secretary of State in relation to foreign givers or their 
countries. The nature of the Secretary of State post makes recusal from 
specific policy decisions almost impossible, since even localized U.S. 
foreign policy activities can ripple across countries and continents. 
Every new foreign donation that is accepted by the Foundation comes 
with the risk that it will be connected in the global media to a 
proximate State Department policy or decision. Foreign perceptions are 
incredibly important to U.S. foreign policy, and mistaken impressions 
or suspicions can deeply affect the actions of foreign governments 
toward the United States. Moreover, we do not want our own government's 
deliberations distracted by avoidable controversies played out in the 
media. The bottom line is that even well-intentioned foreign donations 
carry risks for U.S. foreign policy.
    The only certain way to eliminate this risk going forward is for 
the Clinton Foundation to forswear new foreign contributions when 
Senator Clinton becomes Secretary of State. I recommend this 
straightforward approach as the course most likely to avoid pitfalls 
that could disrupt U.S. foreign policy or inhibit Senator Clinton's own 
activities as Secretary of State.
    Alternatively, the Clinton Foundation and the Obama Transition have 
worked in good faith to construct a more complex approach based on 
disclosure and ethics reviews that will allow the Foundation the 
prospect of continuing to accept foreign donations deemed not to have 
the appearance of a conflict of interest. The agreement requires, among 
other measures, the disclosure of all Foundation donors up to this 
point, an annual disclosure of donations going forward, and a State 
Department ethics review process that would evaluate proposed donations 
from foreign governments and government entities.
    All of these are positive steps. But we should be clear that this 
agreement is a beginning, not an end. It is not a guarantee against 
conflict of interest or its appearance. For the agreement to succeed, 
the parties must make the integrity of U.S. foreign policy their first 
principle of implementation. For this reason, the requirements for 
transparency in the MOU should be considered a minimum standard.
    I am hopeful that the Clinton Foundation and the Obama 
administration will go further to ensure that the vital business of 
U.S. foreign policy upon which the security of our country rests, is 
not encumbered by perceptions arising from donations to the Foundation. 
If there is the slightest doubt about the appearance that a donation 
might create, the Foundation should not take it. If there are issues 
about how a donation should be disclosed, the issues should be resolved 
by disclosing the donation sooner and with as much specificity as 
possible. Operational inconveniences for the Foundation or a reduction 
in some types of donations that have been accepted in the past are 
small prices to pay when balanced against the serious business of U.S. 
foreign policy that affects the security of every American.
    With this in mind, I have suggested several additional transparency 
measures that could be embraced by the Clinton Foundation and the Obama 
administration going forward. Because time is limited, I will not 
discuss each one now, but I have provided a background sheet 
[Attachment A] that outlines these measures. My understanding is that 
the Clinton Foundation has already accepted the fourth item listed. The 
willingness of all parties to voluntarily implement these additions 
would strengthen the commitment to transparency and at least partially 
mitigate the risks inherent in foreign contributions.
    I believe that every member of this committee will seek ways to 
support Senator Clinton's work as Secretary of State. I am certain that 
every member wants her to succeed. We have the opportunity through the 
leadership of President-elect Obama and Senator Clinton to establish a 
new foreign policy path that will greatly benefit the security and 
prosperity of the United States. I look forward to our discussion with 
our esteemed colleague today and applaud her willingness to take on the 
role of Secretary of State at a very difficult moment in history.
                                 ______
                                 

                              Attachment A

    1. All donations of $50,000 or more in a given year from any source 
(foreign or domestic) should be disclosed immediately upon receipt, 
rather than waiting up to 12 months to list them in the annual 
disclosure. Multiple gifts of less than $50,000 should be disclosed at 
the time they collectively exceed $50,000 in a given calendar year.
    There is no appreciable administrative burden in having a staffer 
post these notable donations on the Web site at the time they are 
received. According to the Clinton Foundation Web site, 499 donors have 
given $50,000 or more during the entire period since the Foundation's 
inception in 1997--an average of less than one a week. They could be 
posted as part of the normal routine of processing a large donation. 
The transparency benefits of this simple step would be significant, and 
it would strengthen the Foundation's commitment to protecting the 
integrity of U.S. foreign policy activities.

    2. Pledges from foreign entities to donate more than $50,000 in the 
future should be disclosed both at the time the pledge is made and when 
the donation eventually occurs.
    This is likely to involve a very small number of cases, but it 
would mitigate the risk that large donors might seek to circumvent 
disclosure by promising donations in future years, including years 
beyond Senator Clinton's service at the State Department, when no 
disclosure would be required.

    3. Gifts of $50,000 or more to the Clinton Foundation from any 
foreign source, including individuals, should be submitted to the State 
Department designated agency ethics official for the same ethics review 
that will be applied to donations from foreign governments and 
government controlled entities.
    The MOU only commits the Foundation to submit gifts from foreign 
governments and government controlled entities for State Department 
ethics review. In many foreign countries, the line between the 
government and private citizens is blurred. Individuals with close 
connections to governments or governing families often act as 
surrogates for those governments. Consequently, contributions from 
foreign governments or government controlled companies are not the only 
foreign contributions that could raise serious conflict of interest 
issues. For example, conflicts of interest could arise from a donation 
from a Gazprom executive or a member of the Saudi Royal family as 
easily as from the governments of Russia and Saudi Arabia. All large 
foreign donations should be vetted by the State Department to discover 
any connections between the giver and a foreign government or other 
potential conflicts of interest.

    4. The annual disclosure requirement in the MOU does not specify 
the format of the disclosure. The Foundation should clarify that it 
will annually disclose a distinct list of the donors and corresponding 
donation amounts (or the amounts within a dollar range) for that year.
    It is important that each annual disclosure provides a distinct 
picture of donations for the previous year. Other formats might not 
satisfy the spirit of the annual disclosure requirement. For example, 
merely updating the original donor list released in December 2008 would 
not achieve transparency, because even a large donation might not push 
some previous donors into the next highest dollar range. To illustrate, 
a past donor who has given $5 million and has been disclosed in the 
December 2008 disclosure within the $5 to $10 million range, could give 
almost $5 million more without altering where their name appears.

    The Chairman. Well, I thank you, Senator Lugar. And let me 
just say that, for the record, first of all, the attachment 
will be made part of the record, with the statement. And 
second, I think it's fair to say that Senator Lugar is not 
speaking from a partisan perspective, but I think he is really 
expressing the view of the committee as a whole, and we look 
forward to having a good discussion about this.
    If I could just say to my colleagues that what we're going 
to do is at--I'm about--I want to take a point of personal 
privilege to let Senator Dodd say something, because he has to 
go chair a hearing--but, we're going to have a 10-minute round. 
We have not yet, obviously, been able to have our 
organizational meeting so we'll have a chance to talk about 
procedures, going forward. But, today we will go, as we have in 
the past, as a matter of seniority. My hope is, we can get a 
full round, maybe plus, before we break. We will take a break 
at about 12:45, until 2 o'clock, thereabouts. And that's by 
agreement with Senator Clinton and some other needs that we 
have to attend to.
    We also intend to try to do the business meeting, in order 
to try to expedite this nomination, Thursday morning, when we 
have another hearing on another nominee. So, we look forward to 
trying to have the cooperation of everybody to be able to do 
that.
    I think Senator Lugar, again, spoke for the committee in 
expressing our desire to have a Secretary of State in place and 
ready to go as rapidly as possible, and obviously on Tuesday of 
next week.
    That said, let me turn to Senator Dodd. I know, Senator 
Schumer, you're being very patient, and we appreciate it.
    Senator Dodd.

              STATEMENT OF HON. CHRISTOPHER DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. Well, thank you very much, Mr. Chairman.
    I apologize to my colleagues, but as we are in the midst of 
all of this, this is sort of a New York day. Sean Donovan is 
the nominee to be the new Secretary of HUD, and I have to chair 
that hearing, as chairman of the Banking Committee. Mr. Duncan 
is the designee to the new Secretary of Education; I'm the 
ranking Democrat on that committee, as well. We all have a busy 
day in front of us, so I'm going to be very, very brief and ask 
consent, Mr. Chairman, that a longer statement be included in 
the record.
    But, Mr. Chairman, I wanted to first of all commend you. 
You are so well suited to this job, as chairman of this 
committee--your background and experience, your knowledge of 
these issues. And I'm very excited about your leadership of 
this committee. And let me underscore the points you made about 
Claiborne Pell and Dick Lugar--as well as Joe Biden. We've been 
blessed in this committee over the years, with some remarkable 
people to chair this committee, and you're going to carry on in 
that tradition.
    Let me also welcome and congratulate my wonderful friend 
from New York, the nominee, Senator Clinton. I've worked with 
her over the years, and I am very excited, as all of us are, 
about your nomination, and I look forward to having a very 
strong and healthy relationship between the State Department 
and this committee.
    I don't think it's overstating the case to say that you 
will be inheriting some of the largest and most difficult 
international challenges the United States has faced in over 
half a century. And it's been said by Senator Kerry and Senator 
Lugar, the threat of terrorism and the proliferation of weapons 
of mass destruction still loom large. Our own prestige, 
influence, and elements of our soft power have been questioned 
as has our commitment to the rule of law.
    And while these issues and others, including the crisis in 
Gaza and our relationships with China and Russia, are very much 
at the forefront of our minds, I want to just raise one issue 
briefly before departing and hopefully get back later in the 
day to discuss this with you further.
    But, as I mentioned, I'm chairman of the Banking Committee. 
And the one issue that overlaps almost all of this, in many 
ways, is the global economic crisis. While we're very much 
aware of it here in our own country, with the problems we're 
grappling with every single day, I think most are aware today 
that this is not just a localized problem.
    In a sense, every other issue we are dealing with will be 
affected by our ability to grapple effectively with the 
economic crisis we face. This crisis has inflicted serious and 
wide-reaching damage from which no nation is immune. As 
important as our domestic response to this crisis is, I think 
it is particularly critical that we develop a well-coordinated 
international strategy to deal with what, in many ways, is 
fundamental to our own well-being as our physical security or 
economic security. Both the Senate Committee on Foreign 
Relations as well as the Senate Committee on Banking maintain 
jurisdiction over a wide array of international economic 
issues. And my intent is, along with Senator Kerry and Senator 
Lugar, to work together on these issues. We have jurisdiction, 
in the Banking Committee, over many of the international 
institutions, and yet, obviously it's a matter of deep concern 
to this committee, as well. So, we need to coordinate our 
activities. And I raise that because the jurisdictional overlap 
is similar to the jurisdictional overlap that currently exists 
within the executive branch, the State Department, and the 
Treasury Department.
    Senator Clinton, you and I have discussed this issue 
briefly, had a chance to talk about it, but in order to 
implement an effective international policy in response to the 
economic crisis, we first must ensure that there is coordinated 
leadership on this issue. And so, I raise this point before 
leaving. You may address it in your statement; I'm not sure if 
you're going to, but it's tremendously important. And I 
certainly look forward to working with Senator Kerry and you 
and others on these issues, and how we can coordinate our 
activities.
    And again, I welcome you. I'm excited about your leadership 
role as the new Secretary of State. I commend you and 
President-elect Obama. There's been a lot of speculation about 
having two candidates who sought the Presidency taking on these 
responsibilities. I think it says volumes about both of you. 
The idea that this President-elect is not in any way threatened 
by a significant challenger, to ask her to be a part of his 
team, and your willingness to step up and accept that 
challenge, is, I think, what makes this country so unique in 
the eyes of the world. So, I wish you the very best.
    Thank you.
    [The prepared statement of Senator Dodd follows:]

  Prepared Statement of Hon. Chris Dodd, U.S. Senator From Connecticut

    Thank you, Mr. Chairman, I have a longer statement which I'd like 
to submit for the record. I would like to join my colleagues in 
congratulating you, Senator Clinton, on your nomination. I have had the 
pleasure of working closely with you on a wide range of issues for many 
years, and I look forward to our continued partnership and to your 
leadership as Secretary of State. I have no doubt you will do a 
remarkable job.
    I don't think it is overstating the case to say that you will be 
inheriting some of the biggest international challenges the United 
States has seen in over 50 years. We are waging simultaneous wars 
overseas. The threat of terrorism and the proliferation of weapons of 
mass destruction still loom large, and our own prestige, influence, and 
elements of our ``soft power'' have been questioned, as has our 
commitment to the rule of law.
    And while these issues and others, including the crisis in Gaza, 
and our relationships with China and Russia, are very much at the 
forefront of our minds this morning, I want to raise with you another 
issue of particular importance before I must leave to chair a hearing 
at the Banking Committee: The global economic crisis.
    This crisis has inflicted serious and far-reaching damage, from 
which no nation is immune. As important as is our domestic response to 
the crisis, I think it is also critical that we develop a well-
coordinated international strategy to deal with what is in many ways as 
fundamental to our well-being as our physical security--our economic 
security.
    Both the Senate Committee on Foreign Relations as well as the 
Senate Committee on Banking, which I chair, maintain jurisdiction over 
a wide array of international economic issues.
    This jurisdictional overlap is similar to the jurisdictional 
overlap that currently exists within the executive branch, between the 
State Department and the Treasury Department and others.
    And Senator Clinton, as you have already pointed out, in order to 
implement an effective international policy response to the economic 
crisis, we must first ensure that there is coordinated leadership on 
this issue. In my view, the Secretary of State's leadership is key, and 
a well-coordinated strategy including aggressive diplomatic 
initiatives, Treasury's initiatives, and those of other Federal 
agencies is absolutely essential. We must ensure that the United States 
Government speaks with one coherent voice as we implement a set of 
strategic and well-coordinated international policies.
    In the short time that I have this morning, I was hoping you could 
respond to these thoughts and tell this committee how you envision 
coordinating and leading such a strategy from the State Department. 
Thank you again, Mr. Chairman, for allowing me to jump the queue and, 
Senator Clinton, thank you for your years of remarkable, dedicated, and 
historic public service to this country.
    I am fully confident that under your leadership we can restore not 
only American foreign policy but also our leadership in the world. I 
look forward to our conversation today, to your swift confirmation, and 
to working with you as Secretary of State.
    Again, congratulations on your nomination.

    The Chairman. Thank you, Senator Dodd, for those warm and 
generous comments, and we appreciate it. And we very much look 
forward, obviously, to working very closely with you on that. 
The international and global economic linkages nowadays have 
really transformed foreign policy, and we're already looking, 
within our staff structure on the committee, for ways to try to 
address that more effectively.
    Senator Schumer and Senator Clinton, you've both been very 
patient. We appreciate it enormously. Let me, as I introduce 
you, Senator Schumer, also welcome Chelsea.
    We are delighted to have you here. Your mother said, as we 
were walking across the dais, that she wished you weren't 
sitting behind her, that she could look at you up here. So, 
since your father served as an intern on this committee, maybe 
we can make you an intern for a day. Chairman's prerogative. 
[Laughter.]
    So, if you want to come here later, and look out, you know, 
we're happy to welcome you.
    So, Senator Schumer, thanks so much for joining us here. 
Happy to have you here.
    [Applause.]
    The Chairman. Is that for Senator Schumer or for Chelsea? 
[Laughter.]
    Senator Schumer. Chelsea, for sure. [Laughter.]

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. And it is a true 
honor to be here. I want to thank you and Ranking Member Lugar, 
all the members of the committee, for the opportunity, the 
honor--the true honor of introducing my friend and colleague 
Senator Clinton.
    Before I do, I want to congratulate you, Mr. Chairman, on 
your ascension to the chairmanship. And I share the confidence 
of many that you'll be a truly great chairman of this 
committee, and I look forward to watching the committee work.
    Now, colleagues, I've known Hillary a long time, and I'm 
confident that there is no one--no one who would better serve 
our country and the world as the next Secretary of State. We're 
in a new era. The world is yearning for strong, but 
consultative, American leadership in foreign policy. Hillary 
Rodham Clinton, as Secretary of State, is exactly the right 
person at the right time. Hillary has spent more time under the 
national political spotlight than almost anyone; first as First 
Lady, then in her race for the New York Senate seat, the 
subsequent 8 years of Senate, and then her historic victories 
in her campaign for the Democratic Presidential nomination, and 
now, finally, as President-elect Obama's choice for Secretary 
of State.
    Through all of this time, Hillary has demonstrated the 
equanimity, the prudence, the fortitude that have made her an 
exceptional leader and public servant. In her years as First 
Lady, Senator Clinton was one of the country's most important 
and best-loved ambassadors. She traveled to over 80 countries, 
meeting with heads of state from the Czech Republic to Nepal. 
She served as a representative to the United Nations, 
addressing forums around the world. She has negotiated aid 
packages in Asia, pushed democratic reforms in the former 
Soviet bloc, and promoted peace plans in Northern Ireland and 
Serbia.
    But, Hillary didn't just meet with world leaders; she has 
met with private citizens around the world whose lives are 
shaped by international decisions. She has met survivors of the 
Rwandan genocide, she's met with advocates for social justice 
and women's rights in Pakistan, and with the families of 
children kidnapped in Uganda.
    And after serving her country 8 years as First Lady, when 
most people would retire, Hillary stepped up and has served as 
a vital and powerful advocate on behalf of the people of New 
York. Going from the White House to White Plains, Hillary has 
continued to show just as much acumen in her dealings with 
national and global leaders as she shows empathy and interest 
in the needs of private individuals around New York.
    In all of her many roles as a public servant, Hillary has 
always shown the insight to see the heart of the problem, the 
courage to tackle it, and the talent to solve it. What could be 
a better description of what we need as Secretary of State?
    And no matter how abstract the problem, no matter how 
esoteric the question, Hillary has never once forgotten the 
peoples whose lives and happiness depend on her work.
    Hillary, you've dedicated your career to improving the 
lives of the least fortunate. Since your work, 30 years ago 
with the Children's Defense Fund, you've come a long way, but 
you've always retained your tireless efforts to better the 
world.
    For me, it's been a pleasure and a privilege serving with 
you in the Senate, and I will sorely miss you. But, I wish you 
the best of luck. And I know that you will be a brilliant 
Secretary of State.
    The Chairman. Thank you very much, Senator Schumer. And I 
know we need to excuse you, post-hug----
    [Laughter.]
    The Chairman [continuing]. To go about other duties. And I 
know that our Republican colleagues are thrilled that those 
duties no longer include being chairman of the Campaign 
Committee. [Laughter.]
    Senator Schumer. Mr. Chairman, it is, as Chris Dodd, 
mentioned, a New York day, and I have to go in to do Sean 
Donovan at----
    The Chairman. We understand that.
    Senator Schume [continuing]. The Banking Committee. Thank 
you.
    The Chairman. Thank you so much.
    Senator Schumer. Thank you, colleagues.
    The Chairman. Thank you.
    Senator Schumer. Appreciate it very much.
    The Chairman. Well, Madam Secretary-designate, we are, 
again, really delighted to welcome you here, and we look 
forward to your testimony and to have a chance to get some 
questions in. Thanks so much.

           STATEMENT OF HON. HILLARY RODHAM CLINTON, 
                   U.S. SENATOR FROM NEW YORK

    Senator Clinton. Thank you very much, Mr. Chairman. And as 
he's leaving, I want to thank Senator Schumer for that generous 
introduction, and, even more, for his support and our 
partnership over so many years. He's been a valued and trusted 
colleague, a friend, and a tribute to the people of New York 
whom he has served with such distinction.
    Mr. Chairman, I join in offering my congratulations as you 
take on this new role. You've traveled quite a distance from 
that day, back in 1971, when you testified here as a young 
Vietnam veteran. You have never faltered in your care and 
concern for our Nation, its foreign policy, and its future. And 
America is in good hands with you leading this committee.
    And, Senator Lugar, I look forward to working with you on a 
wide range of issues, especially those of greatest concern to 
you, including the Nunn-Lugar initiative.
    And let me say a word to Senator Voinovich, because of his 
announcement yesterday. I want to commend you for your service 
to the people of Ohio, and I ask for your help, in the next 2 
years, on the management issues that you have long championed.
    It is an honor and a privilege to be here this morning as 
President-elect Obama's nominee for Secretary of State. I am 
deeply grateful for the trust, and keenly aware of the 
responsibility, that the President-elect has placed in me to 
serve our country, and to serve our people at a time of such 
grave dangers and great possibilities. If confirmed, I will 
accept the duties of the office with gratitude, humility, and 
firm determination to represent the United States as 
energetically and faithfully as I can.
    At the same time, I must confess that sitting across the 
table from so many colleagues brings me sadness, too. I love 
the Senate. And if you confirm me for this new role, it will be 
hard to say goodbye to so many Members, Republicans and 
Democrats, whom I have come to know, admire, and respect 
deeply, and to this institution, where I have been so proud to 
serve on behalf of the people of New York through some very 
difficult days over the past 8 years. But, I assure you, I will 
be in frequent consultation and conversation with the members 
of this committee, the House Foreign Affairs Committee, the 
Appropriations Committees, and with Congress as a whole. And I 
look forward to working with my good friend Vice-President-
elect Biden, who's been a valued colleague and a very valued 
chairman of this committee.
    For me, consultation is not a catch word, it is a 
commitment. The President-elect and I believe that we must 
return to the time-honored principle of bipartisanship in our 
foreign policy, an approach that has served our Nation well. I 
look forward to working with all of you to renew America's 
leadership through diplomacy that enhances our security, 
advances our interests, and reflects our values.
    Today, our Nation and our world face great perils, from 
ongoing wars in Iraq and Afghanistan to the continuing threats 
posed by terrorist extremists to the spread of weapons of mass 
destruction, from the dangers of climate change to pandemic 
disease, from financial meltdowns to worldwide poverty. The 70 
days since the Presidential election offer fresh evidence of 
these challenges. New conflict in Gaza, terrorist attacks in 
Mumbai, mass killings and rapes in the Congo, cholera in 
Zimbabwe, reports of record-high greenhouse gases and rapidly 
melting glaciers, and even an ancient form of terror, piracy, 
asserting itself in modern form off the Horn of Africa.
    Always, and especially in the crucible of these global 
challenges, our overriding duty is to protect and advance 
America's security, interests, and values, to keep our people, 
our Nation, and our allies secure, to promote economic growth 
and shared prosperity at home and abroad, and to strengthen 
America's position of global leadership so we remain a positive 
force in the world, whether in working to preserve the health 
of our planet or expanding opportunity for people on the 
margins whose progress and prosperity will add to our own.
    Our world has undergone an extraordinary transformation in 
the last two decades. In 1989, a wall fell and old barriers 
began to crumble after 40 years of a cold war that had 
influenced every aspect of our foreign policy. By 1999, the 
rise of more democratic and open societies, the expanding reach 
of world markets, and the explosion of information technology 
had made globalization the word of the day.
    For most people, it had primarily an economic connotation; 
but, in fact, we were already living in a profoundly 
interdependent world in which old rules and boundaries no 
longer held fast, a world in which both the promise and the 
peril of the 21st century could not be contained by national 
borders or vast distances. Economic growth lifted more people 
out of poverty faster than at any time in our history, but 
economic crises can sweep across the globe even more quickly. A 
coalition of nations stopped ethnic cleansing in the Balkans, 
but the conflict in the Middle East continues to inflame 
tensions from Africa to Asia.
    Nonstate actors fight poverty, improve health, and expand 
education in the poorest parts of the world, while other 
nonstate actors traffic in drugs, children, and women, and kill 
innocent civilians across the globe.
    Now, in 2009, the clear lesson of the last 20 years is that 
we must both combat the threats and seize the opportunities of 
our interdependence. And to be effective in doing so, we must 
build a world with more partners and fewer adversaries. America 
cannot solve the most pressing problems on our own, and the 
world cannot solve them without America.
    The best way to advance America's interest in reducing 
global threats and seizing global opportunities is to design 
and implement global solutions. That isn't a philosophical 
point; this is our reality.
    The President-elect and I believe that foreign policy must 
be based on a marriage of principles and pragmatism, not rigid 
ideology; on facts and evidence, not emotion or prejudice. Our 
security, our vitality, and our ability to lead in today's 
world oblige us to recognize the overwhelming fact of our 
interdependence.
    I believe that American leadership has been wanting, but is 
still wanted. We must use what has been called ``smart power,'' 
the full range of tools at our disposal--diplomatic, economic, 
military, political, legal, and cultural--picking the right 
tool, or combination of tools, for each situation.
    With smart power, diplomacy will be the vanguard of our 
foreign policy. This is not a radical idea. The ancient Roman 
poet Terence declared that, ``In every endeavor, a seemly 
course for wise men is to try persuasion first.'' The same 
truth binds wise women, as well.
    I assure you that, if I am confirmed, the State Department 
will be firing on all cylinders to provide forward-thinking, 
sustained diplomacy in every part of the world, applying 
pressure wherever it may be needed, but also looking for 
opportunity, exerting leverage, cooperating with our military 
and other agencies of government, partnering with 
nongovernmental organizations, the private sector, and 
international organizations, using modern technologies for 
public outreach, empowering negotiators who can protect our 
interests while understanding those of our negotiating 
partners.
    Diplomacy is hard work; but, when we work hard, diplomacy 
can work, not just to defuse tensions, but to achieve results 
that advance our security, interests, and values.
    Secretary Gates, as the chairman said, has been 
particularly eloquent in articulating the importance of 
diplomacy. As he notes, it's not often that a Secretary of 
Defense makes the case for adding resources to the State 
Department and elevating the role of the diplomatic corps. 
Thankfully, Secretary Gates is more concerned about having a 
unified, agile, and effective U.S. strategy than in spending 
precious time and energy on petty turf wars. As he has stated, 
``Our civilian institutions of diplomacy and development have 
been chronically undermanned and underfunded for far too 
long.'' That is a statement that I can only heartily say 
``amen'' to. President-elect Obama has emphasized that the 
State Department must be fully empowered and funded to confront 
multidimensional challenges, from thwarting terrorism to 
spreading health and prosperity in places of human suffering, 
and I will speak in greater detail about that in a moment.
    We should also use the United Nations and other 
institutions whenever possible and appropriate. Both Democratic 
and Republican Presidents have understood that these 
institutions, when they work well, enhance our influence; and 
when they don't work well, as in the cases of Darfur and farce 
of Sudan's election to the former U.N. Commission on Human 
Rights, we should work with like-minded friends to make them 
more effective.
    We will lead with diplomacy, because that's the smart 
approach, but we also know that military force will sometimes 
be necessary, and we will rely on it to protect our people and 
our interests, when and where needed, as a last resort.
    All the while, we must remember that, to promote our 
interests around the world, America must be an exemplar of our 
values. Senator Isakson made the point to me the other day that 
our Nation must lead by example, rather than edict. Our history 
has shown that we are most effective when we see the harmony 
between our interests abroad and our values at home. Our first 
Secretary of State, Thomas Jefferson, subscribed to that view, 
reminding us across the centuries, ``The interests of a nation, 
when well understood, will be found to coincide with their 
moral duties.''
    Senator Lugar, I'm going to borrow your words here, too. As 
you said, ``The United States cannot feed every person, lift 
every person out of poverty, cure every disease, or stop every 
conflict, but our power and status have conferred upon us a 
tremendous responsibility to humanity.''
    Of course we must be realistic. Even under the best of 
circumstances, our Nation cannot solve every problem or meet 
every global need. We don't have unlimited time, treasure, or 
manpower, especially with our own economy faltering and our 
budget deficits growing. So, to fulfill our responsibility to 
our children, to protect and defend our Nation while honoring 
our values, we have to establish priorities.
    I'm not trying to mince words here. As my colleagues in the 
Senate know, establishing priorities means making tough 
choices. Because these choices are so important to the American 
people, we must be disciplined in evaluating them, weighing the 
costs and consequences of action or inaction, gauging the 
probability of success, and insisting on measurable results.
    Right after I was nominated, a friend told me, ``The world 
has so many problems, you've got your work cut out for you.'' 
Well, I agree, but I don't get up every morning thinking only 
about the threats and dangers we face. In spite of all the 
adversity and complexity, there are so many opportunities for 
America out there calling forth the optimism and can-do spirit 
that has marked our progress for more than two centuries. Too 
often, we see the ills that plague us more clearly than the 
possibilities in front of us, but it is the real possibility of 
progress, of that better life, free from fear and want and 
discord, that offers our most compelling message to the rest of 
the world.
    I've had the chance to lay out and submit my views on a 
broad array of issues in written responses to questions from 
the committee, so this statement will only outline some of the 
major challenges we face, and the major opportunities we see, 
as well.
    First, President-elect Obama is committed to responsibly 
ending the war in Iraq and employing a broad strategy in 
Afghanistan that reduces threats to our safety and enhances the 
prospects of stability and peace. Right now, our men and women 
in uniform, our diplomats, and our aid workers are risking 
their lives in these two countries. They have done everything 
we have asked of them and more. But, over time, our larger 
interests will be best served by safely and responsibly 
withdrawing our troops from Iraq, supporting a transition to 
full Iraqi responsibility for their sovereign nation, 
rebuilding our overtaxed military, and reaching out to other 
nations to help stabilize the region and employ a broader 
arsenal of tools to fight terrorism.
    We will use all the elements of our power--diplomacy, 
development, and defense--to work with those in Afghanistan and 
Pakistan who want to root out al-Qaeda, the Taliban, and other 
violent extremists who threaten them, as well as us, in what 
President-elect Obama has called the ``central front in the 
fight against terrorism.''
    As we focus on Iraq, Pakistan, and Afghanistan, we must 
also actively pursue a strategy of smart power in the Middle 
East that addresses the security needs of Israel and the 
legitimate political and economic aspirations of the 
Palestinians, that effectively challenges Iran to end its 
nuclear weapons program and its sponsorship of terror, and 
persuades both Iran and Syria to abandon their dangerous 
behavior and become constructive regional actors, and that also 
strengthens our relationship with Egypt, Jordan, Saudi Arabia, 
other Arab states, along with Turkey and our partners in the 
gulf, to involve them in securing a lasting peace in the 
region.
    As intractable as the Middle East problems may seem--and 
many Presidents, including my husband, have spent years trying 
to work out a resolution--we cannot give up on peace. The 
President-elect and I understand, and are deeply sympathetic 
to, Israel's desire to defend itself under the current 
conditions and to be free of shelling by Hamas rockets. 
However, we have also been reminded of the tragic humanitarian 
costs of conflict in the Middle East and pained by the 
suffering of Palestinian and Israeli civilians. This must only 
increase our determination to seek a just and lasting peace 
agreement that brings real security to Israel, normal and 
positive relations with its neighbors, independence, economic 
progress, and security to the Palestinians in their own state. 
We will exert every effort to support the work of Israelis and 
Palestinians who seek that result. It is critical, not only to 
the parties involved, but to undermining the forces of 
alienation and violent extremism around the world.
    For terrorism, we must have a comprehensive strategy, 
levering intelligence, diplomacy, and military assets to defeat 
al-Qaeda and other terrorist groups by rooting out their 
networks and drying up their support for violent and nihilistic 
extremism.
    The gravest threat that America faces is the danger that 
weapons of mass destruction will fall into the hands of 
terrorists. We must curb the spread and use of these weapons--
nuclear, biological, chemical, or cyber--and prevent the 
development and use of dangerous new weapons.
    Therefore, while defending against a threat of terrorism, 
we will also seize the parallel opportunity to get America back 
in the business of engaging other nations to reduce nuclear 
stockpiles. The Non-Proliferation Treaty is the cornerstone of 
the nonproliferation regime. The United States must exercise 
leadership needed to shore it up. So, we will seek agreements 
with Russia to secure further reductions in weapons under 
START. We will work with this committee and the Senate toward 
ratification of the Comprehensive Test Ban Treaty, and we will 
dedicate efforts to revive negotiations on a verifiable 
fissile-material cutoff treaty. At the same time, we will 
continue to work to prevent proliferation in North Korea and 
Iran, to secure loose nuclear weapons and materials, and to 
shut down the market for selling them, as Senator Lugar has 
pushed for so many years.
    These threats, however, cannot be addressed in isolation. 
Smart power requires reaching out to both friends and 
adversaries to bolster old alliances and to forge new ones. 
That means strengthening the alliances that have stood the test 
of time, especially with our NATO partners and our allies in 
Asia. Our alliance with Japan is a cornerstone of American 
policy in Asia, essential to maintaining peace and prosperity 
in the Asia-Pacific region and based on shared values and 
mutual interests. We also have crucial economic and security 
partnerships with South Korea, Australia, and other friends in 
ASEAN. We will build on our economic and political partnership 
with India, the world's most populous democracy and a nation 
with growing influence in the world.
    Our traditional relationships of confidence and trust with 
Europe will be deepened. Disagreements are inevitable, but, on 
most global issues, we have no more-trusted allies. The new 
administration will reach out across the Atlantic to leaders in 
France, Germany, the United Kingdom, and others, including, and 
especially, the new democracies.
    President-elect Obama and I seek a future of cooperative 
engagement with the Russian Government on matters of strategic 
importance while standing strongly for American values and 
international norms.
    China is critically important as an actor who will be 
changing the global landscape. We want a positive and 
cooperative relationship with China, one where we deepen and 
strengthen our ties on a number of issues and candidly address 
differences where they persist. But, this is not a one-way 
effort. Much of what we will do depends on the choices China 
makes about its future at home and abroad.
    With both Russia and China, we should work together on 
vital security and economic issues, like terrorism, 
proliferation, climate change, and reforming financial markets. 
The world is now, as Senator Dodd said, in the crosscurrents of 
the most severe global economic contraction since the Great 
Depression. The history of that crisis teaches us the 
consequences of diplomatic failures and uncoordinated reaction. 
We have already seen this crisis extend beyond the housing and 
banking sectors, and our solutions will have to be as wide in 
scope as the causes themselves, taking into account the 
complexities of the global economy, the geopolitics, and the 
continued political and economic repercussions from the damage 
already done.
    But, here again, as we work to repair the damage, we can 
find new ways of working together. For too long, we've merely 
talked about the need to engage emerging powers in global 
economic governance. The time to take action is upon us. The 
recent G20 meeting that President Bush hosted as a first step, 
but developing patterns of sustained engagement will take hard 
work and careful negotiation. We know that emerging markets, 
like China and India, Brazil, and South Africa, and Indonesia, 
are feeling the effects of the current crisis, and we all stand 
to benefit, in both the short and long term, if they are part 
of the solution and become partners in maintaining global 
economic stability.
    In our efforts to return to economic growth here in the 
United States, we have an especially critical need: to work 
more closely with Canada, our largest trading partner, and 
Mexico, our third largest. Canada and Mexico are also our 
biggest suppliers of imported energy. More broadly, we must 
build a deeper partnership with Mexico to address the shared 
dangers arising from drug trafficking and the challenges along 
our border, an effort begun this week with the meeting between 
President-elect Obama and President Calderon.
    Throughout our hemisphere, we have opportunities to enhance 
our relationships that will benefit all of us. We will return 
to a policy of vigorous involvement, partnership even, with 
Latin America, from the Caribbean to Central America to South 
America. We share common political, economic, and strategic 
interests with our friends to the south, as well as many of our 
citizens who share ancestral and cultural legacies. We're 
looking forward to working on many issues during the Summit of 
the Americas in April and taking up the President-elect's call 
for a new energy partnership around shared technology and new 
investments in renewable energy.
    And in Africa the foreign policy objectives of the Obama 
administration are rooted in security, political, economic, and 
humanitarian interests, including combating al-Qaeda's efforts 
to seek safe havens in failed states in the Horn of Africa, 
helping African nations conserve their natural resources and 
reaping fair benefits from them, stopping war in the Congo, 
ending autocracy in Zimbabwe and human devastation in Darfur. 
But, we also intend to support the African democracies, like 
South Africa and Ghana, which just had its second peaceful 
change of power in a democratic election. We must work hard 
with our African friends to reach the Millennium Development 
goals in health, education, and economic opportunity.
    Many significant problems we face will challenge us, not 
only a bilateral basis, but all nations. You, Mr. Chairman, 
were among the very first, in a growing chorus from both 
parties, to recognize that climate change is an unambiguous 
security threat. At the extreme, it threatens our very 
existence; but, well before that point it could well incite new 
wars of an old kind over basic resources, like food, water, and 
arable land.
    President-elect Obama has said America must be a leader in 
developing and implementing a global and coordinated response 
to climate change. We will participate in the upcoming U.N. 
Copenhagen Climate Conference and a global energy forum, and 
we'll pursue an energy policy that reduces our carbon emissions 
while reducing our dependence on foreign oil and gas, fighting 
climate change, and enhancing our economic and energy security.
    George Marshall noted that our gravest enemies are often 
not nations or doctrines, but hunger, poverty, desperation, and 
chaos. So, to create more friends and fewer enemies, we must 
find common ground and common purpose with other peoples and 
nations to overcome hatred, violence, lawlessness, and despair. 
The Obama administration recognizes that even when we cannot 
fully agree with some governments, we share a bond of humanity 
with their people. By investing in that common humanity, we 
advance our common security.
    Mr. Chairman, you were one of the first, again, to 
underscore the importance of our involvement in the global AIDS 
fight. Now, thanks to a variety of efforts, including President 
Bush's Emergency Plan for AIDS Relief, as well as the work of 
NGOs and foundations, the United States enjoys widespread 
support in public opinion polls in many African countries. Even 
among Muslim populations in Tanzania and Kenya, America is seen 
as a leader in the fight against AIDS, malaria, and TB. We have 
an opportunity to build on this success by partnering with NGOs 
to help expand health clinics in Africa so more people can have 
access to life-saving drugs, fewer mothers transmit HIV to 
their children, and fewer lives are lost. We can generate more 
goodwill through other kinds of social investments; again, 
partnering with international organizations, NGOs, to build 
schools and train teachers. The President-elect supports a 
global education fund to bolster secular education around the 
world.
    I want to emphasize the importance to us of this bottom-up 
approach. The President and I--the President-elect and I 
believe in this so strongly. Investing in our common humanity 
through social development is not marginal to our foreign 
policy, but essential to the realization of our goals. More 
than 2 billion people worldwide live on less than $2 a day, 
they're facing rising food prices and widespread hunger. We 
have to expand civil and political rights in countries that are 
plagued by poverty, hunger, and disease, but our pleas will 
fall on deaf ears unless democracy actually improves people's 
lives while weeding out the corruption that too often stands in 
the way of progress.
    Our foreign policy must reflect our deep commitment to help 
millions of oppressed people around the world, and of 
particular concern to me is the plight of women and girls, who 
comprise the majority of the world's unhealthy, unschooled, 
unfed, and unpaid. If half the world's population remains 
vulnerable to economic, political, legal, and social 
marginalization, our hope of advancing democracy and prosperity 
is in serious jeopardy. The United States must be an 
unequivocal and unwavering voice in support of women's rights 
in every country on every continent.
    As a personal aside, I want to mention that President-elect 
Obama's mother, Ann Dunham, was a pioneer in microfinance in 
Indonesia. In my own work on microfinance around the world, 
from Bangladesh to Chile to Vietnam to South Africa and many 
other countries, I've seen firsthand how small loans given to 
poor women to start businesses can raise standards of living 
and transform local economies. The President-elect's mother had 
planned to attend a microfinance forum at the Beijing Women's 
Conference in 1995 that I participated in. Unfortunately, she 
was very ill and couldn't travel, and, sadly, passed away a few 
months later. But, I think it's fair to say that her work in 
international development, the care and concern she showed for 
women and for poor people around the world, mattered greatly to 
her son, our President-elect. And I believe that it has 
certainly informed his views and his vision. We will be honored 
to carry on Ann Dunham's work in the years ahead.
    Mr. Chairman, I know we'll address many issues in the 
question-and-answer session, but I want to underscore a final 
point. Ensuring that our State Department is functioning at its 
best is absolutely essential to America's success. The 
President-elect and I believe strongly that we need to invest 
in our capacity to conduct vigorous American diplomacy, provide 
the kind of foreign assistance that I've mentioned, reach out 
to the world, and operate effectively alongside our military.
    Now, the entire State Department bureaucracy in Thomas 
Jefferson's day consisted of a chief clerk, three regular 
clerks, and a messenger, and his entire budget was $56,000 a 
year. But, over the past 219 years, the world has certainly 
changed. Now the Department consists of Foreign Service 
officers, the civil services, and our locally engaged staff, 
working not only at Foggy Bottom, but in offices across our 
country and in some 260 posts around the world. And USAID 
carries out its critical development missions in some of the 
most difficult places on our earth.
    These public servants are too often the unsung heroes, they 
are in the trenches, putting our policies and values to work in 
a complicated and dangerous world. Many risk their lives, and 
some have lost their lives, in service to our Nation. They need 
and deserve the resources, training, and support to succeed.
    I know this committee--and, I hope, the American public--
understand that Foreign Service officers and civil service 
professionals and development experts are doing invaluable 
work, and it is the work of the American people, whether 
helping American businesses make inroads in new markets, or 
being on the other end of the phone when someone gets in 
trouble beyond our shores, needs a passport, needs advice at an 
embassy, or doing the delicate work of diplomacy and 
development with foreign governments that leads to arms control 
and trade agreements, peace treaties and post-conflict 
reconstruction, standing up for greater human rights and 
empowerment, broader cultural understanding, and building 
alliances.
    State Department is a large, multidimensional organization, 
but not the placid, idle bureaucracy that some have suggested. 
It is an outpost for American values that protects our citizens 
and safeguards our democratic institutions in times both 
turbulent and tame. State Department employees offer a lifeline 
of hope and help, often the only lifeline, for people in 
foreign lands who are oppressed, silenced, and marginalized. We 
must not shortchange them or ourselves.
    One of my first priorities is to make sure that the State 
Department and USAID have the resources they need--and I will 
be back to make the case to the committee for full funding of 
the President's budget request--but I will work just as hard to 
make sure we manage those resources prudently, efficiently, and 
effectively.
    Now, like most Americans, when I was growing up I never had 
the chance to travel widely. Most of my early professional 
career was as a lawyer and an advocate for children and the 
poor who found themselves disadvantaged here at home. But, 
during the 8 years of my husband's Presidency, and now of 8 
years as the Senator from New York, I have been privileged to 
travel on behalf of our country, and I've had the opportunity 
to get to know many world leaders. As a member of the Senate 
Armed Services Committee, I've spent time with our military 
commanders, as well as our brave troops, I've immersed myself 
in a number of military issues, and I've spent many hours with 
American and non-American aid workers, business men and women, 
religious leaders, teachers, doctors, nurses, students, 
volunteers, all who have made it their mission to help other 
people across the world. And I've seen countless ordinary 
people in foreign capitals, small towns, and rural villages, 
who live in a world far removed from our experiences.
    In recent years, as other nations have risen to compete for 
military, economic, and political influence, some have argued 
that we have reached the end of the American moment in world 
history. Well, I disagree. Yes, the conventional paradigms have 
shifted, but America's success has never been solely a function 
of our power, it has always been rooted in, and inspired by, 
our values. With so many troubles here at home and around the 
world, millions of people are still trying to come to this 
country, legally and illegally. Why? Because we are guided by 
unchanging truths that all people are created equal, that each 
person has the right to life, liberty, and the pursuit of 
happiness. And in these truths, we will find, as we have for 
more than two centuries, the courage, the discipline, and the 
creativity to meet the challenges of this ever-changing world.
    I am humbled to be a public servant and honored by the 
responsibility placed on me, should I be confirmed, by our 
President-elect, who embodies the American dream, not only here 
at home, but far beyond our shores. No matter how daunting the 
challenges may be, I have a steadfast faith in this country and 
in our people, and I am proud to be an American at the dawning 
of this new American moment.
    Thank you, Mr. Chairman and members of this committee, for 
granting me your time and attention today. I know there's a lot 
more territory to cover, and I'd be delighted to answer 
questions.
    [The prepared statement of Senator Clinton follows:]

 Prepared Statement of Hon. Hillary Rodham Clinton, U.S. Senator From 
                New York, Nominee for Secretary of State

    Thank you, Senator Schumer, for your generous introduction, and 
even more for your support and our partnership over so many years. You 
are a valued and trusted colleague, a friend, and a tribute to the 
people of New York whom you have served with such distinction 
throughout your career.
    Mr. Chairman, I offer my congratulations as you take on this new 
role. You certainly have traveled quite a distance from that day in 
1971 when you testified here as a young Vietnam veteran. You have never 
faltered in your care and concern for our Nation, its foreign policy or 
its future, and America is in good hands with you leading this 
committee.
    Senator Lugar, I look forward to working with you on a wide range 
of issues, especially those of greatest concern to you, including the 
Nunn-Lugar initiative.
    And Senator Voinovich, I want to commend you for your service to 
the people of Ohio and ask for your help in the next 2 years on the 
management issues you champion.
    It is an honor and a privilege to be here this morning as 
President-elect Obama's nominee for Secretary of State. I am deeply 
grateful for the trust--and keenly aware of the responsibility--that 
the President-elect has placed in me to serve our country and our 
people at a time of such grave dangers, and great possibilities. If 
confirmed, I will accept the duties of the office with gratitude, 
humility, and firm determination to represent the United States as 
energetically and faithfully as I can.
    At the same time I must confess that sitting across the table from 
so many colleagues brings me sadness, too. I love the Senate. And if 
you confirm me for this new role, it will be hard to say good-bye to so 
many members, Republicans and Democrats, whom I have come to know, 
admire, and respect deeply, and to the institution where I have been so 
proud to serve on behalf of the people of New York for the past 8 
years.
    But I assure you that I will be in frequent consultation and 
conversation with the members of this committee, with the House Foreign 
Affairs Committee, the appropriations committees, and with Congress as 
a whole. And I look forward to working with my good friend, Vice 
President-elect Biden, who has been a valued colleague in the Senate 
and valued chairman of this committee.
    For me, consultation is not a catch-word. It is a commitment.
    The President-elect and I believe that we must return to the time-
honored principle of bipartisanship in our foreign policy--an approach 
that past Presidents of both parties, as well as members of this 
committee, have subscribed to and that has served our Nation well. I 
look forward to working with all of you to renew America's leadership 
through diplomacy that enhances our security, advances our interests, 
and reflects our values.
    Today, 9 years into a new century, Americans know that our Nation 
and our world face great perils: From ongoing wars in Iraq and 
Afghanistan, to the continuing threat posed by terrorist extremists, to 
the spread of weapons of mass destruction; from the dangers of climate 
change to pandemic disease; from financial meltdown to worldwide 
poverty.
    The 70 days since the Presidential election offer fresh evidence of 
the urgency of these challenges. New conflict in Gaza; terrorist 
attacks in Mumbai; mass killings and rapes in the Congo; cholera in 
Zimbabwe; reports of record high greenhouse gasses and rapidly melting 
glaciers; and even an ancient form of terror--piracy--asserting itself 
in modern form off the Horn of Africa.
    Always, and especially in the crucible of these global challenges, 
our overriding duty is to protect and advance America's security, 
interests, and values: First, we must keep our people, our Nation, and 
our allies secure. Second, we must promote economic growth and shared 
prosperity at home and abroad. Finally, we must strengthen America's 
position of global leadership--ensuring that we remain a positive force 
in the world, whether in working to preserve the health of our planet 
or expanding dignity and opportunity for people on the margins whose 
progress and prosperity will add to our own.
    Our world has undergone an extraordinary transformation in the last 
two decades. In 1989, a wall fell and old barriers began to crumble 
after 40 years of a cold war that had influenced every aspect of our 
foreign policy.
    By 1999, the rise of more democratic and open societies, the 
expanding reach of world markets, and the explosion of information 
technology had made ``globalization'' the word of the day. For most 
people, it had primarily an economic connotation, but in fact, we were 
already living in a profoundly interdependent world in which old rules 
and boundaries no longer held fast--one in which both the promise and 
the peril of the 21st century could not be contained by national 
borders or vast distances.
    Economic growth has lifted more people out of poverty faster than 
at any time in history, but economic crises can sweep across the globe 
even more quickly. A coalition of nations stopped ethnic cleansing in 
the Balkans, but the conflict in the Middle East continues to inflame 
tensions from Asia to Africa. Nonstate actors fight poverty, improve 
health, and expand education in the poorest parts of the world, while 
other nonstate actors traffic in drugs, children, and women and kill 
innocent civilians across the globe.
    Now, in 2009, the clear lesson of the last 20 years is that we must 
both combat the threats and seize the opportunities of our 
interdependence. And to be effective in doing so we must build a world 
with more partners and fewer adversaries.
    America cannot solve the most pressing problems on our own, and the 
world cannot solve them without America. The best way to advance 
America's interest in reducing global threats and seizing global 
opportunities is to design and implement global solutions. This isn't a 
philosophical point. This is our reality.
    The President-elect and I believe that foreign policy must be based 
on a marriage of principles and pragmatism, not rigid ideology. On 
facts and evidence, not emotion or prejudice. Our security, our 
vitality, and our ability to lead in today's world oblige us to 
recognize the overwhelming fact of our interdependence.
    I believe that American leadership has been wanting, but is still 
wanted. We must use what has been called ``smart power'': The full 
range of tools at our disposal--diplomatic, economic, military, 
political, legal, and cultural--picking the right tool, or combination 
of tools, for each situation.
    With smart power, diplomacy will be the vanguard of foreign policy. 
This is not a radical idea. The ancient Roman poet Terence, who was 
born a slave and rose to become one of the great voices of his time, 
declared that ``in every endeavor, the seemly course for wise men is to 
try persuasion first.'' The same truth binds wise women as well.
    The President-elect has made it clear that in the Obama 
administration there will be no doubt about the leading role of 
diplomacy. One need only look to North Korea, Iran, the Middle East, 
and the Balkans to appreciate the absolute necessity of tough-minded, 
intelligent diplomacy--and the failures that result when that kind of 
diplomatic effort is absent. And one need only consider the assortment 
of problems we must tackle in 2009--from fighting terrorism to climate 
change to global financial crises--to understand the importance of 
cooperative engagement.
    I assure you that, if I am confirmed, the State Department will be 
firing on all cylinders to provide forward-thinking, sustained 
diplomacy in every part of the world; applying pressure and exerting 
leverage; cooperating with our military partners and other agencies of 
government; partnering effectively with NGOs, the private sector, and 
international organizations; using modern technologies for public 
outreach; empowering negotiators who can protect our interests while 
understanding those of our negotiating partners. There will be 
thousands of separate interactions, all strategically linked and 
coordinated to defend American security and prosperity. Diplomacy is 
hard work; but when we work hard, diplomacy can work, and not just to 
defuse tensions, but to achieve results that advance our security, 
interests, and values.
    Secretary Gates has been particularly eloquent in articulating the 
importance of diplomacy in pursuit of our national security and foreign 
policy objectives. As he notes, it's not often that a Secretary of 
Defense makes the case for adding resources to the State Department and 
elevating the role of the diplomatic corps. Thankfully, Secretary Gates 
is more concerned about having a unified, agile, and effective U.S. 
strategy than in spending our precious time and energy on petty turf 
wars. As he has stated, ``our civilian institutions of diplomacy and 
development have been chronically undermanned and underfunded for far 
too long,'' both relative to military spending and to ``the 
responsibilities and challenges our Nation has around the world.'' And 
to that, I say, ``Amen!''
    President-elect Obama has emphasized that the State Department must 
be fully empowered and funded to confront multidimensional challenges--
from working with allies to thwart terrorism, to spreading health and 
prosperity in places of human suffering. I will speak in greater detail 
about that in a moment.
    We should also use the United Nations and other international 
institutions whenever appropriate and possible. Both Democratic and 
Republican Presidents have understood for decades that these 
institutions, when they work well, enhance our influence. And when they 
don't work well--as in the cases of Darfur and the farce of Sudan's 
election to the former U.N. Commission on Human Rights, for example--we 
should work with like-minded friends to make sure that these 
institutions reflect the values that motivated their creation in the 
first place.
    We will lead with diplomacy because it's the smart approach. But we 
also know that military force will sometimes be necessary, and we will 
rely on it to protect our people and our interests when and where 
needed, as a last resort.
    All the while, we must remember that to promote our interests 
around the world, America must be an exemplar of our values. Senator 
Isakson made the point to me the other day that our Nation must lead by 
example rather than edict. Our history has shown that we are most 
effective when we see the harmony between our interests abroad and our 
values at home. And I take great comfort in knowing that our first 
Secretary of State, Thomas Jefferson, also subscribed to that view, 
reminding us across the centuries: ``The interests of a nation, when 
well understood, will be found to coincide with their moral duties.''
    So while our democracy continues to inspire people around the 
world, we know that its influence is greatest when we live up to its 
teachings ourselves.
    Senator Lugar, I'm going to borrow your words here, because you 
have made this point so eloquently: You once said that ``the United 
States cannot feed every person, lift every person out of poverty, cure 
every disease, or stop every conflict. But our power and status have 
conferred upon us a tremendous responsibility to humanity.''
    Of course, we must be realistic about achieving our goals. Even 
under the best of circumstances, our Nation cannot solve every problem 
or meet every global need. We don't have unlimited time, treasure, or 
manpower. And we certainly don't face the best of circumstances today, 
with our economy faltering and our budget deficits growing.
    So to fulfill our responsibility to our children, to protect and 
defend our Nation while honoring our values, we have to establish 
priorities.
    Now, I'm not trying to mince words here. As my colleagues in the 
Senate know, ``establishing priorities'' means making tough choices. 
Because those choices are so important to the American people, we must 
be disciplined in evaluating them--weighing the costs and consequences 
of our action or inaction; gauging the probability of success; and 
insisting on measurable results.
    Right after I was nominated a friend told me: ``The world has so 
many problems. You've got your work cut out for you.'' Well, I agree 
that the problems are many and they are big. But I don't get up every 
morning thinking only about the threats and dangers we face. With every 
challenge comes an opportunity to find promise and possibility in the 
face of adversity and complexity. Today's world calls forth the 
optimism and can-do spirit that has marked our progress for more than 
two centuries.
    Too often we see the ills that plague us more clearly than the 
possibilities in front of us. We see threats that must be thwarted; 
wrongs that must be righted; conflicts that must be calmed. But not the 
partnerships that can be promoted; the rights that can be reinforced; 
the innovations that can be fostered; the people who can be empowered.
    After all, it is the real possibility of progress--of that better 
life, free from fear and want and discord--that offers our most 
compelling message to the rest of the world.
    I've had the chance to lay out and submit my views on a broad array 
of issues in written responses to questions from the committee, so in 
this statement I will outline some of the major challenges we face and 
some of the major opportunities we see.
    First, President-elect Obama is committed to responsibly ending the 
war in Iraq and employing a broad strategy in Afghanistan that reduces 
threats to our safety and enhances the prospect of stability and peace.
    Right now, our men and women in uniform, our diplomats, and our aid 
workers are risking their lives in those two countries. They have done 
everything we have asked of them and more. But, over time we have seen 
that our larger interests will be best served by safely and responsibly 
withdrawing our troops from Iraq, supporting a transition to full Iraqi 
responsibility for their sovereign nation, rebuilding our overtaxed 
military, and reaching out to other nations to help stabilize the 
region and to employ a broader arsenal of tools to fight terrorism.
    Equally important will be a comprehensive plan using all elements 
of our power--diplomacy, development, and defense--to work with those 
in Afghanistan and Pakistan who want to root out al-Qaeda, the Taliban, 
and other violent extremists who threaten them as well as us in what 
President-elect Obama has called the central front in the fight against 
terrorism. We need to deepen our engagement with these and other 
countries in the region and pursue policies that improve the lives of 
the Afghan and Pakistani people.
    As we focus on Iraq, Pakistan, and Afghanistan, we must also 
actively pursue a strategy of smart power in the Middle East that 
addresses the security needs of Israel and the legitimate political and 
economic aspirations of the Palestinians; that effectively challenges 
Iran to end its nuclear weapons program and sponsorship of terror, and 
persuades both Iran and Syria to abandon their dangerous behavior and 
become constructive regional actors; that strengthens our relationships 
with Egypt, Jordan, Saudi Arabia, other Arab states, with Turkey, and 
with our partners in the gulf to involve them in securing a lasting 
peace in the region.
    As intractable as the Middle East's problems may seem--and many 
Presidents, including my husband, have spent years trying to help work 
out a resolution--we cannot give up on peace. The President-elect and I 
understand and are deeply sympathetic to Israel's desire to defend 
itself under the current conditions, and to be free of shelling by 
Hamas rockets.
    However, we have also been reminded of the tragic humanitarian 
costs of conflict in the Middle East, and pained by the suffering of 
Palestinian and Israeli civilians. This must only increase our 
determination to seek a just and lasting peace agreement that brings 
real security to Israel; normal and positive relations with its 
neighbors; and independence, economic progress, and security to the 
Palestinians in their own state.
    We will exert every effort to support the work of Israelis and 
Palestinians who seek that result. It is critical not only to the 
parties involved but to our profound interests in undermining the 
forces of alienation and violent extremism across our world.
    Terrorism remains a serious threat and we must have a comprehensive 
strategy, leveraging intelligence, diplomacy, and military assets to 
defeat al-Qaeda and like-minded terrorists by rooting out their 
networks and drying up support for their violent and nihilistic 
extremism. The gravest threat that America faces is the danger that 
weapons of mass destruction will fall into the hands of terrorists. To 
ensure our future security, we must curb the spread and use of these 
weapons--whether nuclear, biological, chemical, or cyber--while we take 
the lead in working with others to reduce current nuclear stockpiles 
and prevent the development and use of dangerous new weaponry.
    Therefore, while defending against the threat of terrorism, we will 
also seize the parallel opportunity to get America back in the business 
of engaging other nations to reduce stockpiles of nuclear weapons. We 
will work with Russia to secure their agreement to extend essential 
monitoring and verification provisions of the START Treaty before it 
expires in December 2009, and we will work toward agreements for 
further reductions in nuclear weapons. We will also work with Russia to 
take U.S. and Russian missiles off hair-trigger alert, act with urgency 
to prevent proliferation in North Korea and Iran, secure loose nuclear 
weapons and materials, and shut down the market for selling them--as 
Senator Lugar has done for so many years.
    The Non-Proliferation Treaty is the cornerstone of the 
nonproliferation regime, and the United States must exercise the 
leadership needed to shore up the regime. So, we will work with this 
committee and the Senate toward ratification of the Comprehensive Test 
Ban Treaty and reviving negotiations on a verifiable Fissile Material 
Cutoff Treaty.
    Today's security threats cannot be addressed in isolation. Smart 
power requires reaching out to both friends and adversaries, to bolster 
old alliances and to forge new ones.
    That means strengthening the alliances that have stood the test of 
time--especially with our NATO partners and our allies in Asia. Our 
alliance with Japan is a cornerstone of American policy in Asia, 
essential to maintaining peace and prosperity in the Asia-Pacific 
region, and based on shared values and mutual interests. We also have 
crucial economic and security partnerships with South Korea, Australia, 
and other friends in ASEAN. We will build on our economic and political 
partnership with India, the world's most populous democracy and a 
nation with growing influence in the world.
    Our traditional relationships of confidence and trust with Europe 
will be deepened. Disagreements are inevitable, even among the closest 
friends, but on most global issues we have no more trusted allies. The 
new administration will have a chance to reach out across the Atlantic 
to leaders in France, Germany, the United Kingdom, and others across 
the continent, including the new democracies. When America and Europe 
work together, global objectives are well within our means.
    President-elect Obama and I seek a future of cooperative engagement 
with the Russian Government on matters of strategic importance, while 
standing up strongly for American values and international norms.
    China is a critically important actor in a changing global 
landscape. We want a positive and cooperative relationship with China, 
one where we deepen and strengthen our ties on a number of issues, and 
candidly address differences where they persist.
    But this not a one-way effort--much of what we will do depends on 
the choices China makes about its future at home and abroad.
    With both Russia and China, we should work together on vital 
security and economic issues like terrorism, proliferation, climate 
change, and reforming financial markets.
    The world is now in the cross currents of the most severe global 
economic contraction since the Great Depression. The history of that 
crisis teaches us the consequences of diplomatic failures and 
uncoordinated reactions. Yet history alone is an insufficient guide; 
the world has changed too much. We have already seen that this crisis 
extends beyond the housing and banking sectors, and our solutions will 
have to be as wide in scope as the causes themselves, taking into 
account the complexities of the global economy, the geopolitics 
involved, and the likelihood of continued political and economic 
repercussions from the damage already done.
    But here again, as we work to repair the damage, we can find new 
ways of working together. For too long, we have merely talked about the 
need to engage emerging powers in global economic governance; the time 
to take action is upon us. The recent G-20 meeting was a first step, 
but developing patterns of sustained engagement will take hard work and 
careful negotiation. We know that emerging markets like China, India, 
Brazil, South Africa, and Indonesia are feeling the effects of the 
current crisis. We all stand to benefit in both the short and long term 
if they are part of the solution, and become partners in maintaining 
global economic stability.
    In our efforts to return to economic growth here in the United 
States, we have an especially critical need to work more closely with 
Canada, our largest trading partner, and Mexico, our third largest. 
Canada and Mexico are also our biggest suppliers of imported energy. 
More broadly, we must build a deeper partnership with Mexico to address 
the shared danger arising from drug-trafficking and the challenges of 
our border; an effort begun this week with a meeting between President-
elect Obama and President Calderon.
    Throughout our hemisphere we have opportunities to enhance 
cooperation to meet common economic, security, and environmental 
objectives that affect us all. We will return to a policy of vigorous 
engagement throughout Latin America, seeking deeper understanding and 
broader engagement with nations from the Caribbean to Central to South 
America. Not only do we share common political, economic, and strategic 
interests with our friends to the south, our relationship is also 
enhanced by many shared ancestral and cultural legacies. We are looking 
forward to working on many issues during the Summit of the Americas in 
April and taking up the President-elect's call for a new energy 
partnership of the Americas built around shared technology and new 
investments in renewable energy.
    In Africa, the foreign policy objectives of the Obama 
administration are rooted in security, political, economic, and 
humanitarian interests, including: Combating
al-Qaeda's efforts to seek safe havens in failed states in the Horn of 
Africa; helping African nations to conserve their natural resources and 
reap fair benefits from them; stopping war in Congo; ending autocracy 
in Zimbabwe and human devastation in Darfur; supporting African 
democracies like South Africa and Ghana--which just had its second 
change of power in democratic elections; and working aggressively to 
reach the Millennium Development Goals in health, education, and 
economic opportunity.
    Many significant problems we face challenge not just the United 
States, but all nations and peoples. You, Mr. Chairman, were among the 
first, in a growing chorus from both parties, to recognize that climate 
change is an unambiguous security threat. At the extreme it threatens 
our very existence, but well before that point, it could very well 
incite new wars of an old kind--over basic resources like food, water, 
and arable land. The world is in need of an urgent, coordinated 
response to climate change and, as President-elect Obama has said, 
America must be a leader in developing and implementing it. We can lead 
abroad through participation in international efforts like the upcoming 
U.N. Copenhagen Climate Conference and a Global Energy Forum. We can 
lead at home by pursuing an energy policy that reduces our carbon 
emissions while reducing our dependence on foreign oil and gas--which 
will benefit the fight against climate change and enhance our economy 
and security.
    The great statesman and general, George Marshall, noted that our 
gravest enemies are often not nations or doctrines, but ``hunger, 
poverty, desperation, and chaos.'' To create more friends and fewer 
enemies, we can't just win wars. We must find common ground and common 
purpose with other peoples and nations so that together we can overcome 
hatred, violence, lawlessness, and despair.
    The Obama administration recognizes that, even when we cannot fully 
agree with some governments, we share a bond of humanity with their 
people. By investing in that common humanity we advance our common 
security because we pave the way for a more peaceful, prosperous world.
    Mr. Chairman, you were one of the first to underscore the 
importance of our involvement in the global AIDS fight. And you have 
worked very hard on this issue for many years. Now, thanks to a variety 
of efforts--including President Bush's Emergency Plan for AIDS Relief 
as well as the work of NGOs and foundations--the United States enjoys 
widespread support in public opinion polls in many African countries. 
This is true even among Muslim populations in Tanzania and Kenya, where 
America is seen as a leader in the fight against AIDS, malaria, and TB.
    We have an opportunity to build on this success by partnering with 
NGOs to help expand the infrastructure of health clinics in Africa so 
that more people can have access to life-saving drugs, fewer mothers 
transmit HIV to their children, and fewer lives are lost.
    And we can generate even more goodwill through other kinds of 
social investment, by working effectively with international 
organizations and NGO partners to build schools and train teachers, and 
by ensuring that children are free from hunger and exploitation so that 
they can attend those schools and pursue their dreams for the future. 
This is why the President-elect supports a Global Education Fund to 
bolster secular education around the world.
    I want to take a moment to emphasize the importance of a ``bottom-
up'' approach to ensuring that America remains a positive force in the 
world. The President-elect and I believe in this strongly. Investing in 
our common humanity through social development is not marginal to our 
foreign policy but integral to accomplishing our goals.
    Today more than 2 billion people worldwide live on less than $2 a 
day. They are facing rising food prices and widespread hunger. Calls 
for expanding civil and political rights in countries plagued by mass 
hunger and disease will fall on deaf ears unless democracy actually 
delivers material benefits that improve people's lives while weeding 
out the corruption that too often stands in the way of progress.
    Our foreign policy must reflect our deep commitment to the cause of 
making human rights a reality for millions of oppressed people around 
the world. Of particular concern to me is the plight of women and 
girls, who comprise the majority of the world's unhealthy, unschooled, 
unfed, and unpaid. If half of the world's population remains vulnerable 
to economic, political, legal, and social marginalization, our hope of 
advancing democracy and prosperity will remain in serious jeopardy. We 
still have a long way to go and the United States must remain an 
unambiguous and unequivocal voice in support of women's rights in every 
country, every region, on every continent.
    As a personal aside, I want to mention that President-elect Obama's 
mother, Ann Dunham, was a pioneer in microfinance in Indonesia. In my 
own work on microfinance around the world--from Bangladesh to Chile to 
Vietnam to South Africa and many other countries--I've seen firsthand 
how small loans given to poor women to start small businesses can raise 
standards of living and transform local economies. President-elect 
Obama's mother had planned to attend a microfinance forum at the 
Beijing women's conference in 1995 that I participated in. 
Unfortunately, she was very ill and couldn't travel and sadly passed 
away a few months later. But I think it's fair to say that her work in 
international development, the care and concern she showed for women 
and for poor people around the world, mattered greatly to her son, and 
certainly has informed his views and his vision. We will be honored to 
carry on Ann Dunham's work in the months and years ahead.
    I've discussed a few of our top priorities and I know we'll address 
many more in the question-and-answer session. But I suspect that even 
this brief overview offers a glimpse of the daunting, and crucial, 
challenges we face, as well as the opportunities before us. President-
elect Obama and I pledge to work closely with this committee and the 
Congress to forge a bipartisan, integrated, results-oriented 
sustainable foreign policy that will restore American leadership to 
confront these challenges, serve our interests, and advance our values.
    Ensuring that our State Department is functioning at its best will 
be absolutely essential to America's success. This is a top priority of 
mine, of my colleagues' on the national security team, and of the 
President-elect's. He believes strongly that we need to invest in our 
civilian capacity to conduct vigorous American diplomacy, provide the 
kind of foreign assistance I've mentioned, reach out to the world, and 
operate effectively alongside our military.
    I realize that the entire State Department bureaucracy in Thomas 
Jefferson's day consisted of a chief clerk, three regular clerks, and a 
messenger--and his entire budget was $56,000 a year.
    But over the past 219 years the world, and the times, have 
certainly changed. Now the Department consists of Foreign Service 
officers, the civil service, and locally engaged staff working at Foggy 
Bottom, in offices across our country, and at some 260 posts around the 
world. And today, USAID carries out a critical development mission that 
is essential to representing our values across the globe.
    These public servants are too often unsung heroes. They are in the 
trenches putting our policies and values to work in an increasingly 
complicated and dangerous world. Many risk their lives, and some lose 
their lives, in service to our Nation. And they need and deserve the 
resources, training, and support to succeed.
    I know this committee, and I hope the American public, understand 
that right now Foreign Service officers, civil service professionals, 
and development experts are doing work essential to our Nation's 
strength--whether helping American businesses make inroads in new 
markets; being on the other end of the phone at a United States embassy 
when an American citizen needs help beyond our shores; doing the 
delicate work of diplomacy and development with foreign governments 
that leads to arms control and trade agreements, peace treaties and 
post-conflict reconstruction, greater human rights and empowerment, 
broader cultural understanding and stronger alliances.
    The State Department is a large, multidimensional organization. But 
it is not a placid or idle bureaucracy, as some would like to paint it. 
It is an outpost for American values that protects our citizens and 
safeguards our democratic institutions in times both turbulent and 
tame. State Department employees also offer a lifeline of hope and 
help--often the only lifeline--for people in foreign lands who are 
oppressed, silenced, and marginalized.
    Whether they are an economic officer in a large embassy, or an aid 
worker in the field, or a clerk in a distant consulate, or a country 
officer working late in Washington, they do their work so that we may 
all live in peace and security. We must not shortchange them, or 
ourselves, by denying them the resources they need.
    One of my first priorities is to make sure that the State 
Department and USAID have the resources they need, and I will be back 
to make the case to Congress for full funding of the President's budget 
request. At the same time, I will work just as hard to make sure that 
we manage those resources prudently so that we fulfill our mission 
efficiently and effectively.
    In concluding, I hope you will indulge me one final observation. 
Like most Americans, I never had the chance to travel widely outside 
our country as a child or young adult. Most of my early professional 
career was as a lawyer and advocate for children and who found 
themselves on society's margins here at home. But during the 8 years of 
my husband's Presidency, and then in my 8 years as a Senator, I have 
been privileged to travel on behalf of the United States to more than 
80 countries.
    I've had the opportunity to get to know many world leaders. As a 
member of the Senate Armed Services Committee I've spent time with our 
military commanders, as well as our brave troops serving in Iraq and 
Afghanistan, and I have immersed myself in an array of military issues. 
I've spent many hours with American and non-American aid workers, 
business men and women, religious leaders, teachers, doctors, nurses, 
students, volunteers and others who have made it their mission to help 
people across the world. I have also learned invaluable lessons from 
countless ordinary citizens in foreign capitals, small towns, and rural 
villages whose lives offered a glimpse into a world far removed from 
what many of us experience on a daily basis here in America.
    In recent years, as other nations have risen to compete for 
military, economic, and political influence, some have argued that we 
have reached the end of the ``American moment'' in world history. I 
disagree. Yes, the conventional paradigms have shifted. But America's 
success has never been solely a function of our power; it has always 
been inspired by our values.
    With so many troubles here at home and across the world, millions 
of people are still trying to come to our country--legally and 
illegally. Why? Because we are guided by unchanging truths: That all 
people are created equal; that each person has a right to life, 
liberty, and the pursuit of happiness. And in these truths we will 
find, as we have for more than two centuries, the courage, the 
discipline, and the creativity to meet the challenges of this ever-
changing world.
    I am humbled to be a public servant, and honored by the 
responsibility placed on me by our President-elect, who embodies the 
American dream not only here at home but far beyond our shores.
    No matter how daunting our challenges may be, I have a steadfast 
faith in our country and our people, and I am proud to be an American 
at the dawning of this new American moment.
    Thank you, Mr. Chairman and members of the committee, for granting 
me your time and attention today. I know there is a lot more territory 
to cover and I'd be delighted to answer your questions.

    The Chairman. Well, thank you very much, Senator, for a 
very comprehensive and thoughtful statement. And I can tell 
you, from certainly this Senator's perspective, it's wonderful 
to hear so many of these issues set out as priorities for the 
new administration, and we're excited about the prospect of 
working with you in order to implement the policies in greater 
detail that will support the agenda that you've set out.
    I'd just say to all my colleagues--and I think we all know 
this--that this committee and the Congress in its role in 
foreign policy has been at its strongest when we've been 
bipartisan. And I think the old adage about politics ending at 
the water's edge with respect to diplomacy and our national 
security interests is something that would serve us well as a 
guidepost as we think about the enormity of the choices that 
we're going to face in the days ahead.
    We will begin, now, a 10-minute question round. And in 
deference to Senator Corker, who has the same obligations as 
Senator Dodd, since we let Senator Dodd go, I'm going to let 
him go after Senator Lugar. Is that amenable to you? And then 
we'll go through the--is that all right?
    So, we'll start the clock running on a 10-minute series of 
questions.
    And I think, Senator, that in your opening, you wonderfully 
covered a broad array of the challenges. And the task, 
obviously, before all of us is really now to try to hone in a 
little bit and see how these are really going to play out with 
specific regions and specific countries and challenges.
    Obviously, one of the most pressing issues we face--and it 
was underscored in the New York Times on Sunday--is a question 
of Iran's nuclear program and the entire relationship with 
Iran, which was, needless to say, a subject of discussion 
throughout the campaign. The time when Iran is going to be 
capable of producing enough weapons-grade uranium to build a 
bomb, if they choose to, is very fast approaching. The clock is 
ticking. And yet, Iran continues to defy the U.N. resolutions, 
enriching more uranium to reactor-grade levels, installing and 
operating more and more centrifuges, failing to address the 
concerns of inspectors, and so forth. And recent efforts to get 
tough, as you know, failed with respect to the U.N. Security 
Council.
    So, I would ask you--during the campaign, President-elect 
Obama said that he would employ, ``big carrots and big sticks'' 
to deal with Iran's nuclear program. We do know that there's a 
significant package of incentives already on the table from the 
``P5-plus-1,'' and the prospect of increased Security Council 
sanctions may be questionable, at best. So, could you share 
with us the thinking, at this stage--I know it's early--but, 
can you share with us what additional carrots the 
administration might have in mind? Why do you believe those 
might be enough to change Iran's calculations? Are tougher 
sanctions achievable? And how are you and the administration 
viewing this, at this point?
    Senator Clinton. Well, thank you, Mr. Chairman. And 
obviously the incoming administration views, with great 
concern, the role that Iran is playing in the world, its 
sponsorship of terrorism, its continuing interference with the 
functioning of other governments, and its pursuit of nuclear 
weapons. There is an ongoing policy review that the Obama 
administration has undertaken. But, I think, as the President-
elect said just this past weekend, our goal will be to do 
everything we can pursue, through diplomacy, through the use of 
sanctions, through creating better coalitions with countries 
that we believe also have a big stake in preventing Iran from 
becoming a nuclear-weapon power, to try to prevent this from 
occurring.
    We are not taking any option off the table at all, but we 
will pursue a new, perhaps different, approach that will become 
a cornerstone of what the Obama administration believes is an 
attitude toward engagement that might bear fruit. We have no 
illusions, Mr. Chairman, that, even with a new administration 
looking to try to engage Iran in a way that might influence its 
behavior, that we can predict the results. But, the President-
elect is committed to that course, and we will pursue it.
    The Chairman. Do you believe that tougher U.N. sanctions 
are available from which to choose? And second, are they 
achievable?
    Senator Clinton. You know, it's kind of like the 
experimenter's bias, in a way. We won't know what we're capable 
of achieving until we're actually there working on it. We have 
a commitment to engaging with international organizations in a 
very intense and ongoing way. We are going to be working with 
our friends and our adversaries in the United Nations. We're 
going to be making the case to members of the Security Council, 
who have been either dubious or unwilling to cooperate up until 
now, that a nuclear-armed Iran is in no one's interests under 
any circumstances.
    So, Mr. Chairman, it's hard to predict how successful we 
will be, but I promise you our very best efforts in doing all 
that we can to try to achieve greater international support for 
sanctions and actions that could actually influence the 
behavior of the Iranian Government, the Supreme Leader, and the 
Religious Council, and the Revolutionary Guard and the Quds 
Force; because, as you know so well, all these are players. And 
so, our task will be to try to figure out the appropriate and 
effective pressure that will perhaps lead to us dissuading Iran 
from going forward.
    The Chairman. Well, I happen to agree with you that it is, 
in fact, legitimately impossible to be able to determine 
exactly what options are available until you begin to get into 
a conversation and begin to see what the play is. But, as a 
matter of fundamental American policy, let me ask you a 
question. Is it the policy of the incoming administration, as a 
bottom line of our security interests and our policy, that it 
is unacceptable that Iran has a weapon, under any 
circumstances, and that we will take any steps necessary to 
prevent that? Or is there--is it simply ``not desirable''? I 
think, as you said ``It's in no one's interest,'' which is less 
than an affirmation of a prohibition.
    Senator Clinton. Well, Mr. President--the President-elect--
Mr. Chairman----
    The Chairman. I'll take that.
    Senator Clinton. Yes, it was a Freudian slip. The 
President-elect----
    The Chairman. We're both subject to those, I want you to 
know.
    Senator Clinton. Yes. Indeed. [Laughter.]
    On this subject, especially.
    The President-elect has said, repeatedly, it is 
unacceptable. It is going to be United States policy to pursue 
diplomacy, with all of its multitudinous tools, to do 
everything we can to prevent Iran from becoming a nuclear-
weapons state. As I also said, no option is off the table. But, 
the President-elect has been very clear that it is 
unacceptable; and that is our premise, and that is what we are 
going to be basing our actions on.
    The Chairman. The Bush administration sent Under Secretary 
Burns to the last round of those talks, essentially as an 
observer. Do you plan to send a U.S. representative to engage 
directly in those kinds of discussions almost immediately?
    Senator Clinton. Well, Mr. Chairman, we are looking at a 
range of possibilities. One very important aspect of the 
decisions we make is that we engage in consultation with our 
friends in the region and beyond. We don't want anything I say 
today, or anything the President-elect says, to take our 
friends and allies by surprise. So, we cannot tell you with 
specificity exactly the steps we will take, but I think it's 
fair to say that the President-elect, as recently as this 
weekend, has said that we're going to be trying new approaches, 
because what we've tried has not worked; they are closer to 
nuclear weapons capacity today than they were. So, we're going 
to be looking broadly, but in consultation. And I want to 
underscore that, because it's very important that those who 
have to live in the region, many of whom are our allies--Israel 
and others who have a legitimate set of concerns about Iran's 
growing power and its use of that power--should know that the 
Obama administration will be consulting broadly and deeply so 
that, when we move, we will move in concert, insofar as 
possible.
    The Chairman. Do you plan, personally, to engage in 
personal diplomacy with Iranian officials at high level in the 
near term?
    Senator Clinton. Well, again, Mr. Chairman, I want to wait 
to determine the exact contours of how we proceed until we're 
actually in office and have a chance to consult with others, 
because it is very clear to me that we have not as full a brief 
as we need on the feelings of many of the important players. We 
have carefully hued to the President-elect's position: there's 
one President at a time. We have not spoken with foreign 
leaders, we have not, in many instances, taken their calls, 
because we want to be very respectful of the ongoing work of 
the Bush administration. As soon as we are in a position to do 
so, we will be consulting and we will be setting forth a series 
of actions, and we will be consulting and informing this 
committee.
    The Chairman. Well, I know you've been very careful about 
that, and I think it's been appropriate and, I think, a wise 
course, and I look forward to you being able to get deeply 
engaged.
    Last question, just quickly. Last year, six colleagues and 
I, including Senator Levin, wrote to Secretary Rice, urging her 
to establish an intersection in Tehran. It just seems 
counterproductive and almost incomprehensible that we're not on 
the ground in some of these places. We don't have an ambassador 
in Syria, for instance. We should. So, I would ask you if you 
have made a decision, and will there be--will you proceed 
forward to create an intersection in Tehran and immediately put 
an ambassador back into Syria?
    Senator Clinton. Again, Mr. Chairman, these are matters 
that are part of our policy review, and we will turn to them 
with, you know, great diligence and attention as soon as we are 
able to.
    The Chairman. Well, I hope the question establishes some 
sense of priority.
    Senator Clinton. I think I got your drift, Mr. Chairman.
    The Chairman. Senator Lugar.
    Senator Lugar. Mr. Chairman, could you recognize Senator 
Corker----
    The Chairman. Yes, absolutely.
    Senator Lugar [continuing]. And then Senator Feingold and--
    The Chairman. You want to do that?
    Senator Lugar. Yes.
    The Chairman. Thank you very much. I'd be delighted to----
    Senator Lugar. We can expedite his work.
    The Chairman [continuing]. Do that. Thank you so much.
    Senator Corker.
    Senator Corker. Thank you, Senator Lugar, I appreciate 
that. And, Chairman Kerry, I'm glad you're going to be leading 
us here. I think you're the right person to be doing it at this 
time, and I thank you for your leadership.
    Madam Secretary-designate, we welcome you. We're always 
glad to see when one of our own does well, has a real job. And 
I certainly welcome your daughter.
    Along the comments of--and I think you have tremendous 
opportunities. You laid out, in your opening comments, sort of 
a travelogue of opportunities, and I know that many of the 
opportunities that exist, you didn't mention. You mentioned 
those, certainly, in Q&A back to us. So, the opportunities that 
you have as Secretary of State are just huge, and I think you 
will succeed in that role; I really do.
    I want to piggyback, and not dwell, on the comments that 
Senator Lugar made early on regarding the Clinton Foundation. 
And I'm just a junior Senator from Tennessee, but, you know, it 
seems to me that everything has seasons.
    And this is your season. And I look at the opportunities 
that you have to influence the world and our place in the 
world. I look at the resources that our government can bring to 
that, under your leadership. And then, I look at the 
Foundation. And regardless of who's running it and how great it 
is, it's a speck in relation to the huge magnitude of efforts 
that you can put forth on behalf of our government. And so, 
without dwelling on the details, I would encourage the steps 
that Senator Lugar requested to be taken. There's just no need 
to sully or dampen, or anything, the tremendous opportunities 
that you have. And I do hope that, sometime over the next 2 
weeks, you'll educate us all as to how that's going to be done. 
But, the potential is so vast in the role that you have, and so 
small in the other role, it just seems to me there's no reason 
whatsoever to have continual press comments and other kinds of 
things that might take away from, I think, what might be 
extraordinary efforts on your part. So, thank you so much for 
your service.
    You know, I noticed, as I've traveled the world in my short 
tenure here, the State Department, as you mentioned toward the 
end of your comments, is vast. We have people in tough parts of 
the world that are carrying out tough duties. It's my sense 
that--when Colin Powell was Secretary, that he really built the 
Department. He understood, being a military person, what it 
meant to have a culture and for people to have the tools and 
training and those kinds of things necessary to really exceed 
in their jobs--or to excel in their jobs. I think that's been a 
little bit lesser the case recently, and--and I'm not in any 
way criticizing. It seems to me a Secretary of State really has 
two major responsibilities. One is to be our chief dealmaker. 
And that's how you get recorded in history. And I know that 
there'll be many things that you'll be recorded in that way. 
But, then there's the whole issue of running the Department. My 
sense is, that's not, probably, your basic strength. That 
you're probably going to see to the other responsibilities. And 
I wonder if you might educate us as to how you're going to 
ensure that the Department really does have the support, the 
tools, the culture, the morale necessary to be successful while 
we're working on the more major accomplishments.
    Senator Clinton. Well, Senator Corker, this is, to me, one 
of the most important questions, because we can talk about all 
of the good work we'd like to do, and how grateful we are to 
those people who are out there doing it, but if we don't 
enhance our diplomatic and development efforts, and move toward 
more equilibrium, as Secretary Gates even has said, we will not 
be as successful as we need to be in promoting our foreign 
policy.
    So, to that end, in consultation with the President-elect 
and the Vice-President-elect, as well as the leaders of this 
committee, I decided to fill a position that had not been 
filled, although it had been created, 10 years ago, and that 
was the deputy for resources and management. And I concluded 
that that was important, because what happens in every 
government agency, but certainly in the State Department, is, 
you get consumed by the crisis of the moment. You have the best 
intentions to deal with the management challenges, the resource 
shortages, but the Secretary's time and the, you know, top 
diplomats' time are spent, you know, on Gaza or on Iran or on 
Russia and the Ukraine pipeline issue. So, it seemed to me 
that, in order to really fulfill my responsibility to you and 
the American people, we needed to have someone whose total job 
focus was to manage the Department, along with the career 
professionals, to work to manage USAID to be more effective, 
and to represent the interests of the Department, as well as 
the Presidential budget here on the Hill when it came to these 
resource matters.
    I feel very fortunate that you will be seeing before you 
for confirmation two extraordinary deputies. The principal 
deputy filling the role that has been there, historically, will 
be Jim Steinberg, a very accomplished foreign policy expert. 
He's leaving the deanship of the LBJ School, at the University 
of Texas, to take on this responsibility. And filling the 
second deputy position for resources and management will be 
Jack Lew, a former director of the Office of Management and 
Budget, someone with deep experience here on Capitol Hill, who 
is diving into work already. Because I want you, as well as me, 
to have someone who is accountable and the point-person.
    You know, the argument kind of stops when you say, ``Well, 
what about more training for our Foreign Service officers? What 
about, you know, more funding for all of the responsibilities, 
from reconstruction and stabilization efforts, the Office on 
Trafficking, and so much else? How do we do that? How do we do 
more with less?''--we've got to have somebody who will take 
charge of all those issues. And I really believe, Senator, that 
this will be a significant step on the way toward putting the 
State Department on a sounder financial and management footing.
    Senator Corker. We have a maze of aid efforts that are 
underway. Every Senator that travels and sees some need 
authorizes another aid program. I wonder if you would consider, 
during the first 6 months you're there, rationalizing that for 
us and reporting back as to some of those things that need to 
be done away with. Again, it's--all are in good intentions, but 
they seem to water each other down and not have the focus that 
they might otherwise have. I'm wondering if you might commit to 
doing that during some short period of time after you're there.
    Senator Clinton. Well, in fact, Senator, that's going to be 
one of the responsibilities that will be given to this second 
deputy, under my direction, to take a look at our existing 
authorities, to determine what works, what doesn't work, to try 
to eliminate redundancies, to fill gaps; because, you know, we 
do have some of those, as well, obviously.
    You know, it matters greatly to me, as it does to the 
President-elect, these development efforts, these humanitarian 
commitments by the United States Government, are often the way 
we are perceived. And frequently, to our advantage, if they are 
done correctly.
    But, I think it's fair to say that USAID--our premiere aid 
agency--has been decimated. You know, it has half the staff it 
used to have, it's turned into more of a contracting agency 
than an operational agency with the ability to deliver.
    Yet, at the same time, whether I'm talking to Secretary 
Gates, or I'm talking to people in the nongovernmental 
organizational world, very often they will say the same thing. 
Well, they've turned to USAID to determine how to implement 
these programs. So, we're going to take a hard look at all of 
our aid and development efforts.
    Additionally, the Congress has given the State Department a 
very important responsibility with reconstruction and 
stabilization. If we're going to move authorities and resources 
back from the Defense Department to the State Department we 
have to be able to function effectively and demonstrate our 
efficiency.
    We're at a great disadvantage--I'll give you just a quick 
example. There's a program that I learned about, of course, on 
my Senate Armed Services Committee work, called CERP--the 
Commander's Emergency Response Program. I remember the first 
time I went to Iraq, in 2003, and I met young captains and 
majors and lieutenant colonels who were literally handed 
thousands of dollars of cash, and told, ``Go get that school 
opened, go get that road built. Go fix that, you know, sewer 
problem.'' And they were doing an incredible job with great 
flexibility, and very little accountability.
    I came back a believer in the CERP program, and advocated 
for it to continue, but when I contrast that with a development 
officer, or a State Department expert, who knows the culture, 
knows the language, unlike, you know, this very well-meaning 
and well-trained warrior, and that person can't get $500 to 
fulfill a development mission that is in service of American 
security and our national interests, there's a big disconnect.
    So, Secretary Gates understands it, so we're going to try 
to better organize and rationalize what we do, and build 
confidence with you, and the rest of Congress, that we can take 
on these responsibilities.
    The Chairman. Thanks.
    Thank you very much, Senator Corker.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, and of course, 
my warm congratulations to you on your new position. I look 
forward to working closely with you, and this committee, and 
the incoming Obama administration to reverse much of the 
foreign policies of the last 8 years, and to restore America's 
leadership abroad, and security at home, and I just ask that my 
full statement be placed in the record.
    The Chairman. Without objection.
    [The prepared statement of Senator Feingold follows:]

    Prepared Statement of Hon. Russell Feingold, U.S. Senator From 
                               Wisconsin

    Thank you, Mr. Chairman--and congratulations on your new position. 
I look forward to working closely with you, this committee, and the 
incoming Obama administration to reverse the disastrous foreign 
policies of the last 8 years and restore America's leadership abroad 
and security at home. I am very pleased that Senator Hillary Rodham 
Clinton has been nominated to be Secretary of State. She is an 
excellent choice for our most senior diplomat, has a demonstrated 
record of thinking creatively about the challenges our country faces, 
and has already indicated a willingness to consult with Congress that 
is refreshing and very welcome.
    Mr. Chairman, the negative impact of the Bush administration's 
foreign policies reverberates loudly and will continue to do so long 
after January 20. One of the challenges the new administration will 
face is dealing with that negative impact while refocusing attention on 
our top national security priority--going after
al-Qaeda and its affiliates. Our deficit is astronomical, anti-
Americanism around the world has reached an all-time high, and we still 
have not developed many of the capabilities we need to gather 
intelligence, pursue strategic objectives, and build sustainable 
partnerships abroad in the 21st century.
    I am optimistic that, with President-elect Obama's victory and the 
nomination of Senator Clinton, we will finally have the smart, focused 
foreign policies we need. With Senator Clinton at the helm of the State 
Department, I expect we will see thoughtful decisionmaking that 
reflects careful consideration of diverse opinions and of the 
consequences of our actions. I expect she will stand strong in the face 
of difficult challenges as she supports our embassies in-country and 
reasserts the primacy of her agency to lead our foreign policy--whether 
here in Washington or in the remote desert regions of Africa. I look 
forward to working with Senator Clinton and her team to ensure we 
properly allocate our resources and choose the appropriate tools to 
fight al-Qaeda globally.
    I will continue to advocate for a more comprehensive and effective 
approach to counterterrorism that supports efforts to strengthen the 
rule of law and maintain respect for human rights. I am confident there 
will be many partners in this administration with whom I can work to 
achieve those objectives, and that together we can undo the many 
missteps of the current administration and set a wiser course for our 
foreign policy and our Nation's security.

    Senator Feingold. I am very pleased that Senator Hillary 
Rodham Clinton has been nominated to be Secretary of State. 
She's an excellent choice for our most senior diplomat, has a 
demonstrated record of thinking creatively about the challenges 
our country faces, and I want to say that she's already shown, 
not only the indication, but in fact, has shown a willingness 
on a regular basis to consult with Congress, that is refreshing 
and very welcome as she sets up the operation she's going to 
have as Secretary of State. I'm very, very pleased with that 
process.
    And I'd just note before I get into my questions that some 
of my colleagues have asked about the Clinton Foundation, I 
have some questions on that topic, Mr. Chairman, that I will 
simply submit for the record.
    But, what I'd like to do is to start off with what I think 
we agree on, and that is that our top national security 
priority is the global fight against al-Qaeda and its 
affiliates. I was pleased with your reference in your opening 
statement to efforts of al-Qaeda in places like Africa.
    How we allocate our resources, the tools used in this 
struggle, is key to winning this fight. And without a more 
global and comprehensive approach, we will be unable to make 
our country or the world a safer place.
    Now, the current administration's decision to focus so many 
of our resources on Iraq at the expense of other areas has, and 
I think, been a tragic mistake in this regard. So, I would ask 
you--and I know you mentioned this issue first--to please share 
your vision of how you will follow up on President-elect 
Obama's pledge to redeploy the bulk of our troops from Iraq in 
16 months. What steps do you expect the State Department will 
take to ensure that this transition occurs as safely and 
smoothly as possible?
    Senator Clinton. Well, Senator, thank you very much. And, 
you know, this is a primary priority, as you know, of the 
incoming administration. The President-elect, Secretary Gates, 
and others are working assiduously to try to be able to begin 
the process of withdrawal safely and responsibly, as soon as 
possible.
    It is being done within the context of the Status of Forces 
Agreement, which is now clearly set forth the path that both 
the Iraqi Government and the United States Government intend to 
follow. There is some differences in timing, but the important 
aspect of the so-called SOFA, is that United States Government 
under President Obama, will be withdrawing troops, and the 
Iraqi Government not only accepts that, but wishes to 
facilitate it.
    So, we look to begin moving our combat brigades out of 
cities and towns and villages, hopefully by June, and then 
proceed with the withdrawal, and in some instances, 
redeployment of some of those troops to Afghanistan.
    Now the military details of this are obviously not within 
the province of the State Department. But there is a companion 
document that was signed by the United States Government, and 
the Government of Iraq, which was an agreement of friendship 
and cooperation. And in it are listed a number of areas that we 
intend to be very active in pursuing--on rule of law, on 
education, and health care, technical assistance for the energy 
industry and the like.
    It is my intention that we will--very quickly, in 
consultation with the Iraqi Government, and other agencies 
within our own government--put together the teams and 
activities that we will be offering that will support the 
withdrawal of our troops, and also fulfill the agreement that 
we have with the Government of Iraq.
    The details are, you know, still to be worked out, as you 
know, our current Ambassador will be, you know, leaving after a 
very distinguished and courageous tour in Iraq, for personal 
and health reasons, as I'm told. But he deserves a great deal 
of gratitude for the leadership that he's provided on the 
civilian side. And we will look to move that nomination as 
quickly as possible, once we can make it, so that we have an 
ambassador on the ground, and we have the assets deployed so 
that we are able to fulfill our part of the agreement, as set 
forth.
    Senator Feingold. Thank you, Senator.
    Let me turn to another topic that we covered. You've been 
an outspoken advocate of United States action to stop genocide 
in Darfur and to protect the fragile peace between the north 
and south, in Sudan.
    Now President-elect Obama, Vice-President-elect Biden, and 
Dr. Susan Rice also have strong records of support for United 
States action to stop the ongoing violence in Sudan.
    Senator, I believe it's crucial that the new administration 
signal a commitment from day one to this effort. There's been a 
lot of talk of bold actions that the United States could take, 
such as expanding sanctions, imposing a no-fly zone over Sudan, 
bombing Sudanese aircrafts, air fields, and perhaps even the 
regime's military and intelligence assets.
    Would you give me your sense at this point of how viable 
these options are, what steps the new administration will take 
to demonstrate a new and bold and comprehensive approach to 
Sudan?
    Senator Clinton. Senator, again this is an area of great 
concern to me, as it is to the President-elect. We are putting 
together the options that we think are available, and workable. 
It is done in conjunction--as you would assume--with the 
Department of Defense. There is a great need for us to sound 
the alarm, again, about Darfur.
    It is a terrible humanitarian crisis, compounded by a 
corrupt and very cruel regime in Khartoum. And it's important 
that the world know that we intend to address this in the most 
effective way possible, once we have completed our review, and 
that we intend to bring along as many people as we can to 
fulfill the mission of the United Nations/African Union force, 
which is not yet up to speed and fully deployed, as a very 
first measure--that's a preexisting policy we agree with. We 
are going to work to try to effectuate it.
    And then, as you rightly point out, the President-elect, 
the Vice-President-elect, I and others have spoken about other 
options--
no-fly zones, other sanctions and sanctuaries. Looking to 
deploy the United Nations/African Union force to try to protect 
the refugees, but also to repel the militia.
    So, there is a lot that is under consideration, and I know 
of your interest in this, along with other colleagues, and we 
will keep you advised, as we move forward.
    Senator Feingold. Thank you very much.
    Obviously you, and the President-elect, recognize the 
importance of our efforts in Afghanistan. And given the serious 
national security concerns in that part of the world, we have 
to address the growing instability there.
    But keeping in mind the lessons to be learned from Iraq, we 
need to address Afghanistan comprehensively. Which I know you 
realize includes looking more broadly at Pakistan, and in India 
and Iran and the larger region. And we need to think clearly, 
rather than simply assuming that more troops is somehow 
sufficient to turn the tide.
    Now, you and I discussed the fact that there is a 
significant military review underway. But will there also be a 
policy review, to ensure we define the full scope of our 
mission in Afghanistan, and explain to the American people how 
sending more American troops actually fits into a comprehensive 
regional strategy?
    Senator Clinton. There will certainly be such a policy 
review, it is the highest priority of the President-elect. He 
has put forth what he calls the ``more for more'' strategy 
that, if there are to be more troops from the United States, 
there also needs to be more support for that mission from NATO, 
there needs to be more work done by the Government of 
Afghanistan and the people.
    And I would add that the ``more for more'' strategy is not 
just on the military side, it's on the civilian and development 
side, as well.
    We have to look at Afghanistan and Pakistan together, 
particularly the border region. As you were telling me when we 
met, you personally have traveled along that border. You have 
seen with your own eyes, the elements of resistance and 
extremism that have taken root there.
    And it is imperative that we work with our friends, in both 
Pakistan and Afghanistan, because this is not only about 
denying
al-Qaeda and other extremist groups' safe haven. This is about 
persuading those two countries that their security and their 
future is also at risk. And I am encouraged that the 
democratically elected Government of Pakistan seems to be much 
more aware of how this is their fight, not just ours.
    The Government of Afghanistan, as you know, the Vice-
President-elect, was just in both countries, is going to be 
presented with alternatives from the Obama administration that 
we think are not only in the interest of our overall mission, 
but in their interests, as well.
    So, this will be a collaboration, and the other countries 
you mentioned are also players, to some extent, that have to be 
brought in.
    So, I anticipate, Senator, having a civilian review, and a 
civilian presence that will be the counterpart of the military 
review, and the military presence.
    Senator Feingold. Thank you, Senator.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold.
    Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Senator Clinton, when the Albanians informed the United 
States in the summer of 2004 that they saw some suspicious 
drums above Tirana, and some of us went over there and found 
nerve gas and MANPAD missiles and sheds and what have you--and 
we're grateful to the Albanians seeking that assistance--this 
was the first opportunity for the Nunn-Lugar Act to go outside 
of Russia and the former states that comprised the former 
Soviet Union.
    I mention this because it created quite a problem 
bureaucratically. I had to get Secretary Powell's signature on 
a piece of paper and take another piece to the President 
himself to eradicate the situation.
    But when Senator Obama first came to the committee, we 
traveled to Russia and the Ukraine, saw additional MANPAD 
missiles, and in fact a whole acreage of weapons that were very 
dangerous, although not weapons of mass destruction. And we 
secured Senate assistance in passing the Proliferation Security 
Initiative and other bills.
    I bring all of this to your attention because, despite all 
of this legislative effort, there has been no translation of 
this into increased financial or leadership commitment in the 
State Department.
    Admittedly, there are budget constraints and problems of 
organization of the Department, but nevertheless, all of this 
became almost individual diplomacy, rather than a concerted 
effort by our country. And the problem now is that we have 
found that there are dangerous pathogens and disease 
repositories in other countries in need of WMD proliferation 
prevention assistance.
    Can you describe, even in these early days of your study of 
this, what sort of an effort--under your leadership--the State 
Department may be able to offer to begin to do those things 
which are clearly diplomatic. That is, to open up conversations 
with other countries, to work with the Defense Department, of 
course, the Department of Energy, others who have interests in 
this, but in which thus far the State Department has been 
either reluctant, or an almost nonexistent, partner.
    Senator Clinton. Well, Senator Lugar, I don't think there 
is a more important issue that confronts the incoming 
administration. And your leadership and inspiration, with 
respect to arms control, and especially nonproliferation--the 
efforts to contain and destroy loose nukes and other material, 
and now moving into the pathogen area which is particularly 
dangerous--is a great example, to me, of what we should be 
doing.
    It won't surprise you to know that in my transition review 
of the Department, it became clear that the arms control and 
nonproliferation functions had been significantly degraded. 
There was a difference of opinion within this current 
administration as to whether such an effort is worthwhile, 
whether it pays off, whether it's, you know, just spinning 
wheels. You know, I heard someone in the administration 
previously say, ``Well, you know, we don't need these 
agreements, because good people don't need them, and bad people 
won't follow them.''
    So the infrastructure for being able to back you up when 
you went to Albania was severely undermined. We intend to build 
it even more robustly. I am seeking arms control and 
nonproliferation experts to come back into the Department. This 
is one of the passionate concerns of the President-elect who, I 
think, under your tutelage, understands very much the threats 
that we face.
    So, I believe, Senator, that you will find a very willing 
and active partner in these efforts. I remember when I met with 
you, looking at the pictures that you have displayed in your 
conference rooms of all of the various trips that you've made, 
looking for this material, seeing it finally destroyed. And you 
know better than I how much more work lies ahead, and 
unfortunately, the bad guys are always at it, they're always 
going to be testing us.
    So, to that end, we will have a very strong commitment to 
the START treaty negotiations. We want to get out of the box 
early, we want Russia to know we are serious. I take to heart 
what the chairman said about trying to reduce our numbers even 
lower.
    This incoming President--like all Presidents--has been 
committed to the end of nuclear weapons, as long as we can be 
assured that we have adequate deterrence, and that we are 
protected going forward. So, we're going to enter it with that 
frame of mind, which is quite a change.
    In the nonproliferation area, I want to do everything I 
can, working with you, working with former Senator Nunn, to see 
what authorities we need, how we can better beef them up, how 
we can better fund them. Use this occasion, even, to invite 
some of the technical experts, and others who have left 
government over the last 8 years to reenlist, because it is 
true that you could make the case that bad actors won't follow 
agreements--you can look at North Korea, you can look at Iran.
    But I think those should be the exception, and not the 
rule. There should be a rules-based framework for arms control, 
and nonproliferation. That if the United States, once again, 
leads and constructs that architecture, we will be in a 
stronger position to isolate the bad actors.
    So, I hope, Senator, that you will take my remarks as the 
invitation they're meant to be--for collaboration, not just 
consultation--as we rebuild this function, staff it and fund it 
appropriately.
    Senator Lugar. Well, this is very good news. I had a visit 
with Foreign Minister Lavrov of Russia and Mr. Kyrienko and 
RusAtom in mid-December, and I know they will welcome your 
words today. There have certainly been some doubts on the 
Russian side as to where we were. And the time is wasting. And 
so your leadership will be very much appreciated.
    Let me pursue a second line of questioning. At the Riga 
NATO summit in 2006, I gave a speech suggesting that Article V 
of NATO was violated just as severely when someone cut off 
natural gas and thus plunged a country either into the cold in 
the middle of the winter, where people would die, and industry 
would flounder, as when tanks and aircraft and what have you 
come across the border.
    Behind the scenes, Foreign Ministers said, ``Of course 
you're right, but we don't talk about this publicly. You know, 
we try to deal behind the barn as best we can with an 
intractable situation.'' Now we are still in the process of 
coming out of another crisis of this variety. The United States 
has fostered the Nabucco pipeline as a prospect of helping 
either our NATO partners or our EU partners, if Europeans 
prefer to deal with the EU in this problem.
    But the fact is, Europeans have not dealt with it very 
positively, the prospects for some grid underneath Europe, in 
which natural gas or other power might be spread, has been very 
halting because of nationalistic boundaries. And, on occasion, 
you have a feeling we are more worried about the Europeans' 
energy problems than some of them are.
    I ask you this, because this is a major diplomatic problem, 
for our working with the NATO allies, with the EU, with the 
energy community, and in general. But I also come to ask if you 
agree that if we do not solve this problem, at some point, our 
NATO allies are going to be rendered--if not impotent--at least 
in a position in which the NATO alliance is weakened severely. 
Perhaps the EU could be affected likewise, with the new members 
especially feeling acute pain and watching Georgia, and feeling 
a real problem, in terms of their physical existence. Would you 
make a comment on this proposition?
    Senator Clinton. Well, Senator Lugar, I think once again, 
you're demonstrating your far-sighted, realistic understanding 
of security threats, because I agree with you. I think we have 
learned the hard way that the OPEC cartel is not just a 
commercial enterprise, but a security, geopolitical strategic 
effort that we have had to contend with, now, for 36 years.
    As you know, Russia is attempting to create a gas 
equivalent of OPEC, that would give it--in addition to the 
bilateral powers it has--a much greater, multilateral, 
international reach on gas.
    So this whole question of energy security, I think, has 
enormous implications for our country, for Europe, but indeed 
for the entire world. I'm also aware that you authored a 
provision in the last energy bill, to have a coordinator on 
these energy security issues in the State Department--I intend 
to fulfill that.
    Senator Lugar. Great.
    Senator Clinton. We've had individual envoys on specific 
pipeline issues, but we haven't brought it all together in a 
way that, I think, reflects the elevated seriousness of the 
challenges that are being posed. Specifically, with respect to 
Russia, and its interactions with Ukraine, Georgia, other 
European countries, its recent purchase of the Serbian gas 
utility--I hope we can make progress with our friends in NATO, 
and the EU, to understand that we do need a broader framework 
in which we can talk about energy security issues. It may or 
may not be Article V, but I think it certainly is a significant 
security challenge that we ignore at our peril.
    So, I will look, again, for advice and consultation ideas 
you might have. We will be going to Europe in the due course, 
on Foreign Ministers meetings, on the NATO anniversary 
meeting--this should be on the agenda. And I hope that we can 
find willing partners to make it so.
    Senator Lugar. Thank you very much.
    The Chairman. Thanks very much, Senator Lugar.
    Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman.
    Senator Clinton, I'm so excited to see you here today. As 
you know, I was very much in favor of your saying yes to this 
opportunity.
    You're a dedicated public servant, and I think by 
nominating you, President-elect Obama has sent a message that 
world peace and stability trumps politics and ego. And, I think 
by accepting this position, Senator Clinton, that you are 
sending the same message, because you are working with your 
toughest rival, and you have set your ego aside for world 
peace, world stability, and the good of the country. I mean 
that sincerely, you know I do.
    I wanted to tick off a few of the issues that I care 
about--I'm going to do it very quickly because there's so many. 
Just to make my voice heard on those, and then ask you a 
question on a topic you raised, and we discussed before--the 
status of women in the world. In particular, violence against 
women in the world. Nicholas Kristof has written a series of 
articles on this, and I've spoken with our great new chairman, 
and I think his concern certainly lies in this direction, along 
with yours.
    So, let me just say you face unbelievable challenges--you 
and the President-elect. Six years later, we still have 140,000 
troops in Iraq. Seven years later, after the brutal attack of 
9/11, we're fighting a resurgent Taliban in Afghanistan, and 
al-Qaeda poses a great threat to us on that safe haven border 
of the Afghan/Pakistan border.
    The outrageous terrorist attack in Mumbai significantly 
heightened tensions between India and Pakistan, and the 
outbreak of violence in Gaza reminds us that Israel continues 
to face grave threats to its very existence, from never-ending 
rocket attacks. Our leadership is sorely needed there to 
protect the innocents--not just in the short term, but in the 
long term, where we hope to see a very good solution for all 
sides.
    In Iran, we face defiance--in North Korea, the same. And 
due to our own inaction, we continue to be dependent on oil and 
gas, whose revenues line the pockets of hostile regimes, and 
this dependence has slowed our fight against global warming. 
And I'm so proud that you mentioned global warming in your 
talk, and that Senator Kerry, our chairman, is going to be so 
dedicated to helping you lead the charge in terms of a 
solution, internationally. As chairman of the Environment 
Committee, I will be by his side in that international treaty 
issue. HIV/AIDS, tuberculosis, Africa, Asia, Latin America also 
need our attention.
    So that's the list. And now I want to get to my questions. 
I have a few pictures to share with all of us, and they're 
brutal pictures, and I'm not showing them for shock value. I 
want to show them because I don't think we can look away from 
the plight of women in the world.
    And, as I said, Nicholas Kristof confronts these issues in 
a series of compelling articles. In one, he tells us about the 
recent acid attack against young girls in Afghanistan who were 
going to school with their teachers. We have a photo of one of 
the victims to show you on that. I'm just going to do these 
very quickly.
    He profiles another story about a Pakistani woman who was 
viciously burned by her husband with acid, because she dared to 
divorce him. This is what we're talking about. This is a second 
picture of Ms. Azar.
    Thousands of women have suffered similar attacks throughout 
Asia--no prosecutions against perpetrators are carried out, 
Senator.
    Kristof tells us the story of a Vietnamese girl named Sina 
Vann, who was kidnapped at age 13, and sold into sex slavery in 
Cambodia. When she refused to seek customers, she was tortured 
brutally with electric shocks, and locked in a coffin full of 
insects. And Kristof illustrates an act of horrific brutality 
in a piece called, ``If This Isn't Slavery, What Is?'' in which 
a young Cambodian girl had her eye gouged out by her brothel 
owner after taking time off to recover from a forced abortion. 
This is a picture of that very beautiful young woman.
    So, I'm introducing some legislation. One is a companion to 
a bill introduced by Representative Carolyn Maloney, another 
one is the Afghan Women Empowerment Act, which many on this 
committee have worked with us on. And that's just the 
beginning. No woman or girl should ever have to live in fear or 
face persecution for being born female.
    And, Senator, I know how deeply you feel about this, and so 
I wanted you to take a little more time, to talk about your 
commitment to this particular issue, and obviously I would be 
so pleased if you would commit to help us work on a legislation 
to fight this immorality.
    Senator Clinton. Well, Senator, you have been such a 
leader, and I have been honored to be your colleague and your 
partner in a number of these efforts that have been undertaken 
on behalf of women around the world. And I want to pledge to 
you that, as Secretary of State I view these issues as central 
to our foreign policy, not as adjunct, or auxiliary or as any 
way lesser than all of the other issues that we have to 
confront.
    I, too, have followed the stories that are exemplified by 
the pictures that you held up. I mean, it is heartbreaking 
beyond words that, you know, young girls are attacked on their 
way to school by Taliban sympathizers and members who do not 
want young women to be educated. It's not complicated. They 
want to maintain an attitude that keeps women, as I said in my 
testimony, unhealthy, unfed, uneducated, and this is something 
that results all too often in violence against these young 
women, both within their families, and from the outside.
    This is not culture, this is not custom--this is criminal. 
And it will be my hope to persuade more governments--as I have 
attempted to do since I spoke at Beijing on these issues, you 
know, 13 and some years ago--that we cannot have a free, 
prosperous, peaceful, progressive world if women are treated in 
a such a discriminatory and violent way.
    I have also read, closely, Nick Kristof's articles over the 
last many months, but in particular, the last weeks on the 
young women that he has both rescued from prostitution, and 
met, who have been enslaved and abused, tortured in every way--
physically, emotionally, morally--and I take very seriously the 
function of the State Department to lead our government through 
the Office on Human Trafficking, to do all that we can to end 
this modern form of slavery. We have sex slavery, we have wage 
slavery, and it is primarily a slavery of girls and women.
    So, I look also forward, Senator, to reviewing your 
legislation, and working with you as a continuing partnership 
on behalf of these issues we care so much about.
    And finally, the work that the women of the Senate did in 
connection with First Lady Laura Bush on behalf of the women of 
Afghanistan has been extremely important. That program was 
started in the State Department, it was mid-wifed by a group 
that I helped to start back in the Clinton administration, 
called Vital Voices. Mrs. Bush has been outspoken on behalf of 
the plight of Afghan women, on behalf of Aung San-Suu Kyi in 
Burma, and other women facing oppression around the world. And 
I'm very pleased that that project will be spun off to 
Georgetown, where it will continue under Mrs. Bush's 
sponsorship.
    So, we're going to have a very active Women's Office, a 
very active Office on Trafficking. We're going to be speaking 
out consistently and strongly against discrimination and 
oppression of women, and slavery, in particular. Because I 
think that is in keeping--not only with American values, as we 
all recognize, but American national security interests, as 
well.
    Senator Boxer. Well, I couldn't have asked for a better 
answer.
    I wanted to note, Mr. Chairman, that even the most 
conservative historians have said that if women in the world 
were allowed to live up to their potential, it would bring the 
whole world forward. A lot of the problems we face really come 
from this mindset that half of the population doesn't matter, 
and can be abused and ignored, or hurt and can't contribute.
    So, I think it's a key matter. So, I'll stop there, and 
just say how much I appreciate your comments, not only on this 
subject, but everything you've spoken about. It shows your 
breadth of understanding, and I feel the same way as my 
chairman. I think we have a team that's just extraordinary, and 
I'm proud--I hope to play a small role in that team, thank you.
    Senator Clinton. Thank you.
    The Chairman. Senator Boxer, thank you. Thanks for that 
important line of inquiry.
    And let me just say, Senator Boxer has talked to me, 
personally, about how the committee might focus on this, and 
I'm determined that the committee will. We obviously have--with 
Lisa Murkowski, and Jean Shaheen who will be joining the 
committee--an important nucleus, but I think that all of the 
other members of the committee share a concern and passion 
about this.
    So, we will find a way to appropriately work with the 
Secretary and see if we can't augment our international efforts 
on this.
    Let me just say as I introduce Senator Voinovich, speaking 
for the members of the committee, myself, I know we are 
saddened by your decision. We're going to work the hell out of 
you over the course of the next 2 years and get the most we 
can. We're delighted that you are a member of this committee 
and we appreciate enormously the many contributions that you 
make. So, prepare for--you're not going to cruise these next 2 
years.
    Senator Voinovich.
    Senator Voinovich. One of the reasons I'm not running is 
that I wanted to devote my full time to----
    The Chairman. There you go.
    Senator Voinovich [continuing]. These historic problems 
that we have. And how we handle them over the next 2 years will 
have a great impact on the future of our country and the world.
    First of all, I want to thank you for the time we spent on 
the telephone, and also for your receiving a very lengthy 
letter from me. And for the record, I'd like to just give the 
categories--management of the State Department, visa waiver, 
fighting global anti-Semitism, Israel, United Nations 
management, Security Council, anti-Israel bias, enforcement of 
1701, which we're both familiar with, stability and security in 
Europe, United States-Serbia relationships, Kosovo, NATO 
expansion, Russia, Canada, and United States relations.
    The thing I'd like to spend some time on is management, and 
I think Senator Corker did a pretty good job of outlining his 
concern about management of the Department. But I think from a 
big picture point of view, we have--if we can all work together 
on a bipartisan basis--an absolutely wonderful opportunity to 
really change the image of the United States of America. And we 
all know that our public diplomacy is at a low ebb, I think 
Secretary Rice has tried to do a good job in the last couple of 
years in terms of multilateralism, but you know, once the water 
goes over the dam, it's hard to bring it back up.
    And I think the Obama policy--smart power--I was in Europe 
this last month, and they're all excited about our new 
President. And I think, we all ought to be excited about the 
new national security team.
    Jim Jones, I had him wax about what he thinks we should do 
a couple of years ago in Brussels at the German Marshall Fund 
meeting that we had. And I said, ``Why can't we get this guy 
into this administration? He's got the right idea.'' And then 
you've got Gates who has the right idea; you have the idea. And 
so this smart power is something that we really need to focus 
on.
    I would be interested in your reaction to the 
recommendations of Joe Nye and Dick Armitage in terms of smart 
power.
    The other issue, of course, is when you get into the 
management of the Department, I think your getting Jack Lew in 
there, and Steinberg doing the policy, and the fact that you 
recognized that you're going to be putting out a lot of fires, 
and somebody's going to have to be working on this stuff on a 
day-to-day basis, is important.
    But I think your recognition also of priorities--
prioritizing your time, where you're going to spend your time, 
who's going to do that, and the management here, is extremely 
important, and I sent to you--and I don't know whether you read 
it or not, but the American Academy of Public Diplomacy has 
come out with a foreign affairs budget for the future. And for 
the record it finds that the Secretary lacks the tools, people, 
competencies, authorities, programs and funding to meet U.S. 
foreign policy demands effectively, and talks about hiring 
another 4,000 people from 2010 to 2014.
    Again, I'd be interested either hearing from you about if 
you've read it, or what you think about it. I haven't met 
personally, yet, with Jack Lew, but I definitely intend to do 
it.
    And I want the chairman to know that, whether I'm on this 
committee or not, I'm going to stay on this management thing, 
as a ranking member of the oversight of government management 
and the Federal workforce, and on appropriations, and on 
foreign policy--this is a big deal, and I think it really needs 
to get done. So, what are your thoughts on that?
    Senator Clinton. Well, first, Senator I thank you for your 
emphasis on workforce issues, management issues, better 
utilization of resource issues--that's been a hallmark of your 
service. First in Ohio, and now, of course, in the Senate. So, 
I welcome your involvement and your ideas as we go forward.
    I want to say a word about your reference to smart power, 
because clearly that is what the Obama administration and I 
will try to do. It is a recognition that it shouldn't be an 
either/or debate. Either we use military force, and all of the 
strength and power that we have, or we use diplomacy and 
development. We want to marry those, because we think that will 
give us a more effective foreign policy for our country.
    And, you know, General Jones is a perfect example. You know 
that he was asked by President Bush and Secretary Rice to work 
in the Middle East, and starting in December 2007, that's 
exactly what he did--working with the Palestinian authority and 
the Israeli Defense Force to build up security in the West 
Bank. And I think the results were very promising, with 
sustained bottoms' up effort, day in and day out, working to 
bridge gaps of understanding and trust. There was a turnover of 
security from the Israelis to the Palestinians, which is 
still--as of this moment--holding. And that is the work that 
General Jones, and General Dayton, and others that he was 
involved with, have been done, and we're going to continue that 
kind of approach.
    So, smart power is the combined tools that we have.
    Senator Voinovich. One of the things that I'm concerned 
about is the turf--and you've got Susan Rice going to the 
United Nations, she's going to become a part of the Cabinet, 
and I hope that there's a lot of discussion given about who's 
responsible for what, and a recognition that there will be 
times when you'll all be stepping on each others' toes, but 
that you're doing it for the best interest of the team. I think 
that that's very, very important. The worst thing that we can 
have would be--something come out, say that we've got a 
conflict there.
    I'd like to switch to another issue that I'm very 
interested in, and that is--and you haven't really mentioned 
it--is the issue of energy independence, and its impact on our 
foreign policy.
    And, as you know, for years we were on the Environment and 
Public Works Committee, and I talked about harmonizing the 
environment, and our energy, our economy and national security. 
And on this trip to Europe, I was frightened when I found out 
the influence that Russia is having in terms of natural gas, 
including Great Britain.
    And I thought to myself, this threat of being cut off is 
going to have an influence on their decisionmaking, and it's 
extremely important that we not be, you know, in the hands of 
somebody else in terms of our energy.
    And I'm wondering--have you thought about that aspect of 
it? And climate change is very much a part of this.
    Senator Clinton. Right.
    Senator Voinovich. But it seems to me that we ought to 
really raise the issue of energy independence in terms of our 
national security, and also being able to make the right 
decisions in the world when some of our allies may not be able 
to because they're frightened that somebody's going to shut off 
their gas.
    Senator Clinton. Well, Senator, the President-elect and I 
could not agree more with your point of view. It's one of the 
reasons why the President-elect has talked about an energy 
partnership for Latin America--looking to find ways, through 
technology and other activities, we can work together to become 
more energy independent in this hemisphere. And of course, we 
have problems in our own hemisphere with some of the providers 
of energy, like Hugo Chavez, and you know, President Morales--
we have problems even in this hemisphere, with countries 
feeling, you know, somewhat worried about what will happen with 
their energy supplies.
    As you and Senator Lugar have pointed out, that becomes 
even more acute in Europe. So, I think this deserves a lot of 
attention--it is part of the climate change agenda, but it also 
deserves separate attention. And to that end, I will follow the 
recommendation of the legislation that Senator Lugar passed, 
which says we should have someone coordinating energy security 
issues in the State Department, to work with the Europeans, to 
work with others to try to come up with ways that we can both 
promote energy independence, so they're not so vulnerable, but 
also try to help equip them with ways of dealing with their 
current vulnerability, particularly to Russia.
    Because I see this as a big security challenge, and, you 
know, I know of your longstanding interest in Serbia, and you 
know, with the purchase of the gas company in Serbia by 
Gazprom, there is some concern on the part of the Serbians. 
Well, what's going to happen to their gas supply? Are they 
going to be kind of a pawn in whatever the larger Russian 
ambitions are about energy?
    So, this is a very timely issue, and it should go hand in 
hand with our climate change work.
    Senator Voinovich. Well, I hope that because the cost of 
gasoline has gone down that we're all going to just sit back 
like we did in 1973 and just say, ``Everything's going to be 
fine,'' because it's not going to be fine. And I would really 
hope that you and your team would give a great deal of 
consideration to how do we become energy independent--meaning, 
I'd like to say, find more----
    Senator Clinton. Right.
    Senator Voinovich [continuing]. Use less. And then the 
international dimension of this that then--in terms of public 
diplomacy, to get the other folks in the world that are 
emitting greenhouse gases to come together in a unique way to 
say, ``We're going to do this as a team,'' rather than us 
coming up with the technology and then forcing it down their 
throat.
    Senator Clinton. Well, I think that the chairman, who's had 
a longstanding interest in this, knows that as we move toward 
Copenhagen and attempt to craft a climate change agreement, all 
of the major nations must be part of it. You know, China, 
India, Russia and others, they have to be part of whatever 
agreement we put forth. And I think--as I say, this can be both 
included in, but also independently given attention to by 
emphasizing energy security, which I intend to do.
    Senator Voinovich. Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Nelson.
    Senator Nelson. Senator Clinton, I have just a couple of 
questions. But I want to say at the outset that this Senator 
thinks that your husband's Clinton Global Initiative is an 
extremely positive thing to have in a relationship with the 
future Secretary of State.
    The fact that that Global Initiative has done such good 
things all over the world--the dispensing of antiretroviral 
drugs, the working on poverty and hunger, the promotion of 
development in the Third World--I think is a significant 
accomplishment. That work can only lend additional credibility 
to your coming to the table as the foreign policy 
representative of the United States Government. I want that on 
the record.
    Now, I want to pick up on something that Senator Boxer 
said. I had the privilege in our subcommittee on this committee 
of chairing the hearings about rapes of American contractor 
women in Iraq and Afghanistan. And what we found, in dramatic 
testimony from very courageous women that came forth and 
testified to the committee, was that there was always an 
attempt among State Department contractor personnel--and that, 
of course, was the jurisdictional hook, through our Foreign 
Relations Committee, but the same applied to contractor 
personnel in the Department of Defense--always the attempt to 
sweep it under the rug, not have it conveyed to the United 
States attorneys for the proper prosecution.
    When we got this out in the open, we have tried to 
encourage the cooperation and collaboration between those three 
Departments--Justice, Defense, and State. I bring it out for 
your consideration.
    Now, let me just raise just a couple of questions.
    Because of the beneficence of this committee in allowing me 
to travel, I have seen a good part of the Third World, of this 
planet, where there is such poverty and disease. But we come 
right back to the Western Hemisphere, and the poorest nation in 
this hemisphere is Haiti. Please keep your eye on Haiti.
    Senator Clinton, you've already been briefed on this, but 
one of the things that you're going to face is, there is an 
American that is missing in Iran. Because he is a Floridian, 
and because he has left behind a wife and seven children, I 
have gone to the Iranian Ambassador at the United Nations, who 
will see me even though his government will not allow him to 
talk to our U.N. Ambassador. He operates under the fiction that 
he will see me because I'm a representative of the people of 
the State of Florida.
    But the door has been closed at every turn. What I have 
said to him, and I speak through the lens of this committee 
hearing, that out of human compassion, this is a great 
opportunity for the country of Iran to crack the door because 
we think he is being held by the Government of Iran in a secret 
prison in Iran. And if we want to have some renewed relations, 
this is a good first opportunity.
    Then I would just ask you--we've basically had a lack of a 
vigorous policy toward Latin America. And what a great 
opportunity for the Obama administration. In the memory of 
President Kennedy's vigorous Latin America policy, the Alliance 
for Progress. Do you have any thoughts on that?
    Senator Clinton. Well, Senator Nelson, you've covered a 
number of important issues. And let me start with your question 
about Latin America. I have a lot of thoughts about that, and I 
think you're right--it is a tremendous opportunity, and I look 
forward--on behalf of the President-elect--and working with 
Members of Congress who have a particular concern and interest 
in Latin America to making it abundantly clear that the Obama 
administration is seeking partnerships and friendships across 
Latin America.
    We're looking forward, with great anticipation, to the 
Summit of the Americas, that will be held in April. We want to, 
you know, not only respond to the issues that are in the 
headlines, as the President-elect did yesterday with President 
Calderon--issues of security, issues of criminality, and 
narcotrafficking and the like, but we want to seize the 
opportunities in Latin America, which is why the energy 
partnership that the President-elect has suggested has so much 
potential.
    The countries of Latin America are really our closest 
allies. That, if you look at trade, if you look at familial 
relationships, you can see all of these connections. And I 
think that we're going to put a new face on American diplomacy, 
as we reach out to Latin America.
    That is particularly a mission of mine, and I share your 
concern about Haiti. It is, as you say, one of the poorest 
nations in the world--the poorest in our hemisphere. I hope 
that we can have a comprehensive approach that could alleviate 
the suffering of the people of Haiti. And I look forward to 
working with you on that.
    With respect to the Floridian who is in prison, it would be 
an extraordinary opportunity for the Government of Iran to make 
such a gesture. To permit contact, to release him, to make it 
clear that there is a new attitude in Iran, as we believe there 
will be with the Obama administration toward engagement, 
carefully constructed, and with very clear outcomes attempted.
    Senator Nelson. His name is Bob Levinson.
    Senator Clinton. That's right.
    And, you know, Senator, on contractors--this is going to be 
a big issue for this committee. We have seen the abuses by 
contractors, but even when they are not headline-grabbing 
abuses, there has been a steady transfer of authority and 
resources from government employees, and a chain of 
accountability to contractors. And we have reaped the very 
difficult consequences of that. We know, obviously, of the 
security contractors, and some of the difficulties that they 
have presented, but it's been contractors across the board. 
We've used so many of them--particularly in Iraq, but not 
exclusively.
    And I think we have to take a hard look at whether we want 
the U.S. Government to turn into a contracting agency, or 
whether we're going to be smart about using our resources, 
because in most instances, contracting out a job costs more 
than keeping it in-house, and building up expertise and 
experience, and imposing accountability.
    So, I look forward to working with you and your 
subcommittee to determine what we can do about contractors, but 
I would just end on this cautionary note: The chairman asked me 
about the role of the State Department in Iraq. We're going to 
try to fulfill any of the pledges that we've made in the 
agreement of friendship and cooperation--our civilian employees 
need to be protected. As we withdraw our troops, we have to be 
absolutely assured that they will be protected by the Iraqis, 
or we have to use contracts, or we have to wonder whether we 
can send them out to the countryside, if there is still the 
threat of violence.
    So, this has direct effects on how we're going to perform 
our diplomatic responsibilities inside Iraq and other 
countries.
    The Chairman. Thank you, Senator Nelson.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And welcome to you, Senator Clinton. Thank you for your 
leadership, for your willingness to step forward and assume 
this very, very important position for our country, for the 
nation. I truly appreciate all that you are poised to do, and 
what you have done in the past.
    We had an opportunity in my office last week to discuss an 
issue that is, I think, vitally important to this country. And 
that is our role as an Arctic nation. And I know oftentimes, my 
colleagues don't view the United States as an Arctic nation, 
but we are, by virtue of Alaska, and we have opportunities, 
when it comes to a leadership role, in collaboration on 
research, on environmental issues, on issues as they relate to 
commerce.
    And we're seeing more of those issues present themselves, 
as we see a world up there that is more and more free of sea 
ice--the loss of summer sea ice from climate change is having a 
truly dramatic effect on the Arctic. And the Bush 
administration saw this unfolding, we've been working with them 
for about the past 18 months, to advance a new Arctic policy. 
Our Arctic policy is about 15 years stale. That was just 
released on Friday, I don't know if you've had an opportunity 
to fully review it.
    But I'd like your comment here this morning on the evolving 
role of the Arctic, on the role that we can play, as an Arctic 
nation, in dealing with our neighbors. We discussed the issue 
of Russia, and oftentimes we've got some very difficult 
relationships with them, but the opportunity on issues as they 
relate to research and an evolving world up north, how that 
might play out.
    And if you could just speak to that issue this morning. I 
have missed most of your comments this morning and I apologize 
for that. I have been in two other confirmation hearings. But, 
I'm pretty certain that you haven't fielded, yet, a question on 
the Arctic.
    Senator Clinton. And, Senator, it's very timely that one 
has been raised, because as I have said to you before, and even 
when you and your husband hosted Senator McCain's CODEL when we 
were in Alaska, and saw for ourselves some of the changes that 
are going on, in the Arctic, both on land and in the sea--you 
have been a leader on this issue, and I hope your time has 
come, Senator. Because I believe that the issues of the Arctic 
are one of those long-term matters that will dramatically 
affect our commercial, our environmental, our energy futures, 
that we have got to start attending to now.
    So, to that end, I agree with you completely, that the 
issues that are posed by the recent Bush administration report 
that did come out just a few days ago, the work of the Arctic 
Council that has been an attempt to try to summon the best 
thinking of the government and outside experts, will find a 
very receptive ear in the State Department.
    I think President-elect Obama and I see that this is one of 
those areas that offers a chance for cooperation that might 
lead not only to positive actions with respect to the Arctic, 
but deepen our partnerships with Russia and others across the 
board.
    So, to that end, we will be working to try to sort through 
the recommendations and the ideas in the recent report, to see 
how we fit that into already existing frameworks, and consider 
what additional actions and positions might be necessary, but I 
agree with you completely. You know, maybe because the change 
has been relatively rapid, with the melting of the sea ice--
people haven't kept up with what is going on now in the Arctic. 
And when I was in your office, and you were telling me about 
how cruise ships now are going to Point Barrow, I was shocked.
    Senator Murkowski. So were the people of Point Barrow.
    Senator Clinton. So were the people of Point Barrow. I 
mean, look at the map--it's the northernmost place in the 
United States, and it's not a place that one would have 
thought, previously, was on the tour for cruise ships. We know 
that there is going to be a necessity to map out our 
Continental Shelf. We know that there will be disputes over 
energy resources, and minerals, and other natural resources in 
the Arctic.
    To go along with that, I know that hand in hand with 
concerns about the Arctic is, you know, the Oceans Convention, 
the Law of the Sea, which would clarify a lot of the problems 
that you're going to face in Alaska, if we don't have a 
national Arctic policy that also includes what our 
international position is on the oceans.
    Senator Murkowski. Will ratification of the Law of the Sea 
Treaty be a priority for you?
    Senator Clinton. Yes; it will be. And it will be because it 
is long overdue, Senator. The Law of the Seas Treaty is 
supported by the Joint Chiefs of Staff's environmental, energy, 
and business interests. I have spoken with some of our naval 
leaders, and they consider themselves to be somewhat 
disadvantaged by our not having become a party to the Law of 
the Seas.
    Our industrial interests--particularly with seabed mining--
just shut up. There's nothing that they can do, because there's 
no protocol that they can feel comfortable that gives them the 
opportunity to pursue commercial interests.
    So, for all of those reasons--and I mention it in 
conjunction with the Arctic because I think they go hand in 
hand--we've got to figure out where our boundaries are, you 
know, people start drilling in areas that are now ice-free most 
of the year, and we don't know where they can and can't drill, 
or whether we can--we're going to be disadvantaged.
    So, I think that you will have a very receptive audience in 
our State Department and in our administration.
    Senator Murkowski. Well, I'm very pleased, very encouraged 
to hear that, and truly look forward to the opportunity to be 
working with you to advance these very important issues. And as 
we look to some of the basics that we're lacking up in the 
Arctic, whether it's the capacity for search and rescue, you 
know what we need to be prepared for in this ever-evolving 
world without borders, it's quite a concept to think.
    One more question, another that Alaskans look to with great 
interest, because of our proximity to North Korea. As we look 
to the hot spots of the world, we certainly appreciate all of 
the other threats that you will be dealing with as Secretary of 
State, but you kind of get most nervous about those that are 
more proximate to you, and North Korea is certainly to us.
    In that vein, what do you see the future of the six-party 
talks under your tenure? How do you anticipate that you'll be 
able to--whether it's jump-start the process, or--how do you 
see that moving forward?
    Senator Clinton. Senator, I've had several lengthy 
conversations with Secretary Rice, who has brought me up to 
date on the status of the six-party talks, it is a framework 
that the President-elect and I believe has merit, but it also 
provides an opportunity, as Secretary Rice has testified before 
this committee, for bilateral contact, as well, between North 
Korea and the United States.
    Again, this is under review, we're looking at all of the 
record of the negotiation up to this date. Our goal is to end 
the North Korean nuclear programs--both the plutonium 
reprocessing program, and the highly enriched uranium program, 
which there is reason to believe exists, although never quite 
verified.
    And it is our strong belief that the six-party talks, 
particularly the role that China is currently playing, along 
with our close allies, South Korea and Japan, is a vehicle for 
us to exert pressure on North Korea in a way that is more 
likely to alter their behavior.
    Again, I have no illusions about that. I think it takes 
tough, reality-based diplomacy to determine what is doable. 
We've got to end North Korea as a proliferator, there is 
certainly reason to believe that North Korea has been involved 
with Syrian efforts, we know that it was involved with Libyan 
efforts. So, it's not only preventing the threat from North 
Korea, which is of particular interest to Hawaii, Alaska, and 
the west coast of the United States--but it is their role as a 
proliferator.
    So, we will embark on a very progressive effort to try to 
determine the best way forward to achieve our objectives with 
them.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    And thank you for your, again, willingness and your great 
capacity in the ice effort. Appreciate it.
    The Chairman. Thank you, Senator Murkowski. Let me just say 
to you, and others interested, that we are already--I've talked 
to Senator Lugar about this, and I've talked to Senator Clinton 
about it--we are now laying the groundwork for, and expect to 
try to take up the Law of the Sea Treaty, so that will be one 
of the priorities of the committee, and the key here is just 
timing, how we proceed.
    Senator Cardin.
    Senator Cardin. Well, first, Senator Kerry, let me tell you 
how proud all of us are to serve on this committee, 
particularly with you as our chairman. We're looking forward to 
this time, and while you know the challenges are great, we 
thank you for stepping forward as chairman of the committee.
    And to Senator Clinton, thank you. Thank you for being 
willing to do this and to your entire family. I know it was a 
difficult decision. I know how much you love being a Senator 
from New York and I just thank you for stepping forward. The 
issues are so difficult in this country and there couldn't be a 
better person to represent our Nation, and we thank you for 
doing that.
    We had a chance to talk about several issues when you were 
in my office over the weekend. Your opening statement and your 
responses to questions have covered much of the area. I 
particularly want to just underscore the challenge you're going 
to have in the Middle East between the Israelis and the 
Palestinians, and I think you have covered that in your 
statement and in your responses.
    I want to deal first, with another void that you've created 
in the U.S. Senate because of your selection as Secretary of 
State. And obviously there's going to be a void for the people 
of New York as you leave that Senate seat, but also the 
Helsinki Commission, which you serve as an active member. 
You've been a very valuable member of the Commission and I will 
have the honor of chairing the Commission during these next 2 
years. And you know, it was established as the United States 
arm to the Organization for Security and Cooperation in Europe, 
created in 1976 with President Ford as a way to engage Europe 
on security issues, on economic issues, and on human rights.
    It's perhaps best known for its work in the former Soviet 
Union. When it spoke up against the human rights violations, it 
led to changes within the Soviet Union. In recent years, it's 
been very helpful on creating a strategy in Europe to deal with 
anti-Semitism, and other forms of discrimination.
    The Helsinki Commission is very actively involved on the 
human trafficking issues, and we've had discussions here today 
about necessity to monitor, not only the activities from those 
countries where the women--and they're usually women and 
children--come from, but also the receiving countries, and to 
deal with the problems. We now have an annual report from the 
State Department to see how well countries are doing on 
trafficking and a lot of that work came out of the Helsinki 
Commission. The list goes on and on and on.
    My point is that I think the OSCE, and United States 
involvement through the Helsinki Commission can be a valuable 
tool in your game plan on dealing with the foreign policy 
objectives of the United States, and whether it is engaging 
Russia--Russia, as you know, is an active member of OSCE--
dealing with global climate change or dealing with refugee 
issues. And I would just urge you to challenge us as to how the 
OSCE can be more effective in dealing with your game plan for 
this country's foreign policy.
    Senator Clinton. Well, Senator Cardin, it's been an honor 
to serve on the Helsinki Commission, and I know you have, not 
only a longstanding interest, but involvement going back to 
your days in the House, with respect to OSCE, and the Helsinki 
Accords.
    And when you and I were talking, we briefly discussed how 
history sometimes plays out. Because at the time of the 
Helsinki Accords, then-President Ford was urged by both the 
right and the left not to go and negotiate those, that they 
would not be a good idea, and he--very courageously--said that 
he was going to go forward, because any opportunity to 
negotiate, to try to set up a framework for human rights, was 
in America's interest.
    And we now can look back and see how President Ford's 
vision, which led to the Helsinki Accords, which obviously the 
former Soviet Union was a party to, actually contributed to the 
eventual breakup of the Soviet Union, because it gave 
legitimacy and voice to people who were dissidents and had 
human rights complaints.
    So, I think this work must continue. I look forward to 
figuring out ways that we can work together. And I also would 
appreciate any advice you would have about how the framework of 
OSCE and the Helsinki Accords could be, perhaps, modernized, 
and transported into the 21st century with some of the problems 
that we see around the world today. Because the problems are 
certainly different, but human nature isn't. And how we take 
advantage of diplomacy and agreements and setting goals on 
human rights will be a priority, and doing that in service of 
outcomes like what we saw with the Helsinki Accords, is what 
I'm interested in.
    Senator Cardin. And we will. That's one of the highest 
priorities for us, to evaluate how we can modernize the 
Helsinki Commission and the OSCE process. We are fortunate to 
have representatives from the executive branch that serve on 
the Commission with us, so we will do this in conjunction with 
your own views as to how you think we can best carry out the 
objectives of this country.
    Let me mention one or two issues that are relevant to the 
human rights issues, but also relevant to the broader issues: 
the refugee problem, particularly as it relates to Iraq. We 
hear a lot about how we're going to ultimately resolve the 
circumstances in Iraq, but when you have 5 million displaced 
individuals, many of whom are in other countries, it makes it 
extremely challenging to see a lasting solution in that region. 
Several Senators have sent a letter to President-elect Obama, 
urging the creation of a White House office on refugee issues, 
just so we can get the type of visibility we need on refugees.
    Clearly, this is a high area of concern within foreign 
policy in the State Department, and I would welcome your 
involvement as to how we come to grips with the refugee crisis 
in that region.
    Senator Clinton. Well, Senator, as you know there is an 
office in the State Department, Population, Migration, and 
Refugees, it's our intention to staff that with effective and 
creative professionals, because we agree that the refugee 
problem is growing worse in many places around the world.
    You referenced Iraq--one of the challenges of the Iraqi 
Government and in so far as we are involved, our Government, in 
you know, sort of balancing how we're going to support the 
stability of the Iraqi Government and help them deal with the 
repatriation and return--both externally and internally--of 
Iraqis is a big challenge to the Iraqi Government that we're 
conscious of.
    But we have refugee populations, some of decades-long 
standing, some of a few days standing, in so many places--I 
will do my very best to elevate this issue, to give you the 
kind of expertise within the State Department that will give 
you comfort that we're going to make this a high priority, and 
to come up with solutions to some of our longstanding refugee 
challenges.
    This is a very complex issue, because everywhere we look in 
the world, conflict, famine, disease, the economy--we have 
refugees. And so our hope is that we can get a more 
comprehensive strategy to deal with refugees, come to the 
Congress to get the funding for refugees, a problem which is 
compounded by the point that Senator Lugar made at the 
beginning of the hearing, about the food crisis.
    So, I would welcome working with you and those who are 
concerned as you are, to come up with an effective strategy for 
the United States to deploy, with respect to refugees.
    Senator Cardin. Well, thank you very much for that answer.
    Many of us have been asking you questions on energy. Energy 
is a huge international issue and the State Department is going 
to have to play a critical role. We talked about the global 
climate change issues and we've talked about some of the 
conduct of other countries trying to stop energy from flowing 
between different countries.
    I want to talk about one other issue. We have a lot of 
mineral-rich countries, in which citizens are very poor. We 
think that many of those revenues are going against U.S. 
security interests, funding activities that are against our 
country's interests. There is an effort made for transparency 
in extraction, so that we set up the model system for how a 
nation should handle its mineral wealth, used for the benefit 
of the people of their own country.
    The United States is participating in that discussion. I 
think we could be more aggressive in trying to move forward. 
We've talked about foreign assistance. Many of these countries 
that have mineral wealth are receiving foreign aid from the 
United States and we don't know where their mineral wealth is 
going. So, I just want to bring that to your attention, and I 
think this is an area that we can make much further 
advancements in trying to help deal with the poverty around the 
world.
    Senator Clinton. Very creative suggestion, Senator, and we 
should look at the models of countries that have handled their 
mineral wealth to the advantage of their people. Botswana comes 
to mind--they've been very good stewards of their diamonds, and 
have invested in roads and schools and infrastructure in 
Botswana. So, we should be looking for best practices, and see 
if there is a way to create a regulatory framework that would 
give both protection and incentives to mineral-rich countries, 
so that they would be able to stand up for their rights, and 
then use the revenues in a very positive way to enhance the 
well-being of their people.
    Senator Cardin. Thank you very much.
    Senator Clinton. Thank you.
    Senator Cardin. I look forward to working with you.
    Senator Clinton. Thank you.
    The Chairman. Thanks a lot, Senator Cardin.
    And let me just say that given the time, here, we're going 
to have two more rounds--two more questioners--before we do the 
mandatory break at quarter of.
    And just for the knowledge of the press and others--and 
many of them are already aware of this--we have a very 
extensive questioning process that takes place, prior even to 
our convening here, called Questions For the Record. And the 
committee has already submitted--just through the Chair, over 
138 questions, and there were additional questions by other 
Senators, all of which have been answered by Senator Clinton, 
and we're very appreciative for the in-depth answers. We know 
it's an enormous take, and a lot of people have, you know, 
ground away on it. But we're very, very appreciative.
    What it does do is facilitate the hearings considerably, 
and help us to sort of narrow the areas of inquiry that we need 
to do here, now.
    With that said, let me turn now to Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman, Senator Lugar.
    And, Mr. Chairman, I would like to submit for the record, a 
longer list of questions that I will not have time to ask 
today.
    The Chairman. Fine. But we are going to try to proceed 
forward, so we'll try to get those answered in the next 24 
hours for you, Senator.
    Senator DeMint. Thank you very much.
    The Chairman. Because we do have a business meeting 
scheduled for Thursday.
    Senator DeMint. Thank you.
    Senator Clinton, congratulations on your nomination. I 
appreciate your call, it's amazing what a little communication 
can do, so I feel a lot better about you already.
    I am optimistic and hopeful about your role as Secretary of 
State, and despite the news accounts that say that I'm the one 
that's going to ask you the hard questions about potential 
conflicts of interest, I have no questions about your 
integrity.
    I would support Senator Corker and others who support your 
nomination, in appealing to you to do whatever is necessary to 
silence any critics before you take office. Enough said, as far 
as I'm concerned.
    The State Department, over several administrations, has a 
mixed reputation, at best. And in private, talking to military 
leaders, business people, international adoption agencies, 
independent aid workers, even foreign officials, I often hear 
that the State Department is more of an obstacle than a help, 
or mixed reviews, again, at best.
    We even have foreign governments calling our office, and 
coming in and meet with us to want to bypass the State 
Department to develop better relations with our country. And 
I'm sure other members have experienced the same thing. So, the 
challenge is tremendous.
    You mentioned in your opening statement the many challenges 
all around the world--economic and human rights, and there's so 
much to do that it's mind-boggling. And with our economy, and 
our debt, and the domestic needs that we have and incredible 
levels of spending that we're experiencing now, it's very 
difficult to see an expanded role for America around the 
world--certainly one that has to be prioritized.
    And I would join with Senator Isakson, who paraphrased, but 
we need to be that city on the hill, I'm not sure that we can 
afford to build cities on the hill all around the country, 
although I hope we can play a role.
    With so much to do, I just wanted to ask you to comment 
about other ways that we might accomplish our goals. I've 
seen--as I've traveled and talked to people from around the 
world--that very often business, trade, commerce is our best 
ambassador. And even in difficult political times, when Germany 
and France were squabbling with the United States, I have 
Michelin headquarters and BMW headquarters in my district--
business goes on and everybody gets along just fine, despite 
the political wrangling.
    And we also see private charities, aid workers, 
missionaries doing so much good. How do you see the role of the 
State Department in facilitating the good private sector things 
that are there, without trying to replace them and maybe 
without trying to manage them?
    Senator Clinton. Well, Senator, I appreciate very much your 
posing this question because I think it's a real opportunity 
for us if we can figure out how best to better coordinate and 
facilitate the private sector, and the not-for-profit and 
religious community of the United States on behalf of 
humanitarian and commercial efforts.
    I think that the State Department has been, you know, 
reviewed in a mixed way for a number of years. In part, it's 
because the work of the State Department both in diplomacy and 
development, is not as well understood, and sometimes appears 
to be frustrating. I mean, trying to argue over where a comma 
goes, or what the appropriate language would be, and how to 
actually get to that treaty--it does raise, in the eyes of the 
American people--questions about, well, what is it we do?
    And I think we have a bigger job, which I will assume, of 
trying to explain to the American people why our national 
security depends on defense, diplomacy, and development.
    Now, defense is primarily a government mission, as we know. 
And thank goodness for these young men and women and their 
commanders who wear the uniform of our country.
    Diplomacy is primarily a government mission, but there are 
lots of ways that nongovernment actors, like corporations, like 
religious organizations, like charities and foundations, are 
actually building relationships with foreign governments and 
foreign people, all the time. Which, if done in the right way, 
are really value-added to who we are as a nation, and what we 
can achieve.
    You know, right now in Rwanda, a number of foundations, a 
number of churches, a number of private sector actors are all 
working to try to build that country back up.
    So, I would hope that when we look at the State Department, 
we think of the role of foreign policy, diplomacy, and 
development as involving not just those who are the Foreign 
Service officers and the civil service professionals and the 
development experts, but really it's all hands on deck. We have 
a lot of work to, in my view, kind of repair damage, and get 
out there, and present America as we know we are. But I don't 
think in this complex and dangerous world, there is any 
substitute for the role of the State Department and USAID 
professionals.
    So, it will be my undertaking to make this Department as 
efficient as possible, so that you know you're getting your 
money's worth. To streamline it, as much as possible. I mean, I 
will be frustrated--as you will be--if all we do is pile up 
paper. I want strategies, I want specific ideas, I want more 
partnerships.
    That's how I see the role of the State Department in the 
21st century, that's how I hope that USAID will be revitalized, 
to perform that role, as well. But the disparity of resources 
is such that when you've got more than 10 times the resources 
going to the Defense Department, than you have going to the 
State Department and foreign aid, the Defense Department has 
been, in effect, recreating mini State Departments.
    You know, they're out doing development assistance, and 
rule of law and other things. Why? Because as I said earlier, 
they have a presumption of being able to move much more 
quickly, the money we give them is, in many respects, more 
flexible.
    So, I think we have to see, how do we get what we want, and 
what we're paying for, out of our State Department and USAID. 
And I want to work closely with you and others on this 
committee. I want new ideas, I want best practices. But I don't 
think there's any substitute for having seasoned, experienced 
professionals and experts, sort of leading our efforts on 
diplomacy and development. And working, where possible, in 
partnership and coordination with the private sector, and the 
not-for-profit sector.
    Senator DeMint. Thank you.
    I can see I'm not going to get to too many of my questions, 
but just a couple of concerns, and on a last question.
    Just as you're concerned about the disadvantaged difficulty 
of women and children around the world, much the same can be 
said for religious persecution. Even in countries like Iraq, 
that we're doing so much sacrifice to free, Iraqi Christians 
can't come home. I would hope that you would be sensitive to 
that.
    And also, you've spoken about Israel, and I think there's 
widespread agreement of our support there, but it appears to be 
naive and illogical to continue diplomacy and calls for peace 
with governments that are publicly opposed to the existence of 
Israel. How we reconcile that is very difficult.
    One last concern, I think, one difficulty that you will 
have is balancing protecting our sovereignty as a nation with 
international cooperation. I've seen some of our agreements 
with the United Nations, the United States is going to bear the 
brunt of the expense, and often the execution of what the U.N. 
promises. They don't back up their own resolutions, as in Iraq, 
or now in Iran, North Korea--we submit, and we comply and 
yield, in many ways, our decisionmaking to organizations like 
the United Nations, but then we're left holding the bag with 
what they don't do.
    And maybe in just the minute or so that I have left, how 
can we do a better job of being cooperative, at the same time, 
protecting our sovereignty?
    Senator Clinton. Well, I think the absolute bottom line for 
any agreement or undertaking by the U.S. Government is that it 
has to be, in our view, in the best interest of the United 
States. That it furthers our national security, advances our 
interests, and both protects and reflects our values. That's 
how I see my responsibility.
    I think there are ways that we can cooperate more than we 
have, without--in any way--impinging upon our sovereignty, our 
identity or our security interests or values. But I will remain 
very conscious of that, Senator.
    Because two issues that you mentioned--religious 
persecution--you know, that is anathema to Americans. I mean, 
we believe in the freedom to worship. And there is an office in 
the State Department that is committed to religious freedom, 
but I believe that that is an area that we want to talk more 
about, that we want to raise, because of the significance.
    You point out, rightly, that, you know, we've given a lot 
of aid, and we've given a lot of blood on behalf of certain 
countries that persecute--not just Christians--but people of 
other religious beliefs, even interfaith beliefs within the 
same denomination, or a particular view of religion.
    I think on Israel, you cannot negotiate with Hamas until it 
renounces violence, recognizes Israel, and agrees to abide by 
past agreements. That is just, for me, an absolute. That is the 
U.S. Government's position; that is the President-elect's 
position.
    And finally, on the questions--we will turn those around in 
the next 24 hours, Senator. I know that the chairman and 
Senator Lugar submitted very thoughtful, extensive questions, 
and we responded to those--more than 300 of them. We will take 
whatever other questions for the record, any member has, and 
turn those around within 24 hours, because I want you to have 
as comprehensive a record as possible, for you to consider my 
nomination.
    Senator DeMint. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Let me just shock your troops by telling you 
that, unfortunately, we have to--in order to move forward--
close the record by 12 noon tomorrow.
    Senator Clinton. OK.
    The Chairman. So, we'll get the Starbucks out tonight. Look 
at those smiles over there.
    Senator Clinton. Don't look too closely, because they 
haven't had a lot of sleep, they're not looking too alert 
today.
    The Chairman. What we're going to do is, Senator Menendez 
will close out the morning questioning, and then we'll come 
back, Senator Isakson, you'll lead off as close to 2 o'clock as 
possible. It's slightly dependent on someone else's schedule, 
but we'll figure that out.
    We'll go through the rest of the questioning, and then 
we'll have another round. We'll probably shorten the second 
round, but I think Senator Clinton and I have discussed this, 
we are both prepared to stay here as late as necessary to try 
to get through it.
    There are other areas of inquiry that I know a lot of us 
have, and there are some important subjects that we haven't yet 
touched on, so we need to expedite that, if we can.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    I want to start off by saying, Senator Clinton, I 
appreciate the significant voluntary steps that go above and 
beyond the requirements of the law and ethics regulations that 
you have been willing to put forth. I think that they are 
exemplary, and should answer a lot of people's concerns. And, 
as I say, they are above and beyond the law and the ethics 
requirements, and I appreciate that.
    Particularly, I appreciate that even pledges and proposed 
contributions to the Clinton Foundation will be eligible for 
review by the Deputy Legal Advisor and designated agency ethics 
official at the State Department. That, again, is above and 
beyond. And I think that that's the type and tone of tenor to 
set and I want to salute you for doing that.
    You and I have had the conversation to talk about something 
I care about a great deal, which is foreign assistance. We've 
held and I have had the privilege in the last Congress, to 
chair the Subcommittee on Foreign Assistance, and we've held a 
series of hearings on it.
    You know, it's interesting to note that nearly a half a 
century ago, President Kennedy sent a letter to the Congress, 
in which he said some things that if we were to hear today 
would largely be the same.
    He said, ``The economic collapse of those free, but less 
developed nations, which now stand poised between sustained 
growth and economic chaos would be disastrous to our national 
security, harmful to our comparative prosperity, and offensive 
to our conscience.'' He said, ``No objective supporter of 
foreign aid can be satisfied with the existing program, 
actually a multiplicity of programs. Bureaucratically 
fragmented, awkward, slow, administration is diffused over a 
haphazard and irrational structure, covering at least four 
departments, and several other agencies.''
    And he went to talk about the morale of those employees 
trying to pursue that. That was nearly a half a century ago, 
and in some respects, I could say that that is a large degree 
of what we face today.
    So, as one of the most powerful tools of soft diplomacy, 
I'd like to hear--you know, some of us are concerned. I've 
heard about the designation of Mr. Lew as the Deputy Secretary 
of State for Resources and Management; that he will be the 
advocate. That's a broad title, a lot of resources, and a lot 
of management.
    The question is, How do we ensure that we elevate foreign 
assistance? How do we ensure that we appoint a high-profile 
manager to lead that agency? A strong, independent voice for 
foreign assistance, building up the staff at AID, making sure 
that a lot of what's gone to the Defense Department by--simply 
by the lack of having the appropriate structure and effort at 
State, comes back to State where it really should be done, in 
cooperation with the Defense Department. Give me a sense of 
confidence that, under your leadership, this is something that 
we're going to see pursued vigorously.
    Senator Clinton. Well, you have my commitment that it will 
be pursued vigorously. It is an area that I care deeply about, 
it is where much of my, you know, early public voluntary 
efforts were directed, and I am hopeful, Senator, that we're 
going to put in place a system that will, No. 1, rationalize 
what we have there now. And not only within the State 
Department and USAID, but as you know, there are pockets of 
foreign aid programs across the government that are technically 
under the coordination of the Secretary, but are not really 
working together as they should.
    And when we look at USAID, we've got to get a handle on the 
contracting out of functions, and personnel. It leaves us 
without the capacity to respond to the many needs that we know 
are there.
    When we look at what's called ``the G function'' in the 
State Department, that's where you see Population, Migration, 
and Refugees. And, you know, having served very happily in this 
body, I know how, how it seems that if an issue of such 
importance as refugees is not getting attention, then let's put 
a coordinator in the White House, and maybe that will get 
people's attention.
    But, of course, what we ought to be doing is making the 
existing State Department programs work effectively. We have 
PEPFAR, which has been very successful, and is a great tribute 
to the Bush administration. But it is within the State 
Department, but not within USAID, but it utilizes many of the 
development and health experts in USAID--both on the government 
payroll and on contracts--to actually do the work.
    We have the Millennium Challenge Corporation, which is a 
very creative, and innovative approach to foreign aid, which is 
an independent entity, which again looks to USAID for advice 
and expertise. So, we've got to get our arms around what you 
could think of as traditional foreign aid--health, education, 
economic empowerment, and the like--plus what is now becoming 
increasingly important, that's the reconstruction, stability, 
conflict resolution, peacekeeping challenges that we face.
    And, Senator, I am determined that we're going to present 
to you a plan and a system that will try to maximize 
coordination, minimize redundancy, and make the case for the 
increased resources that are so desperately needed if we intend 
to meet the missions that we've been given.
    And that is why I think Jack Lew, who will fill the Deputy 
position on Budget and Resources, is the point of 
accountability, because so much of what we're going to have to 
straighten out and fix, are resource decisions.
    And we've got to make the case--I think Secretary Gates is 
open to the case--I know the President-elect is very committed, 
he wants a--actually an increase in foreign aid, because he 
believes so strongly in its efficacy as part of our foreign 
policy. They're committed to transferring assets and functions 
back to the State Department, but we have to prove that we're 
ready to take them on. That we're going to handle them, that we 
can instill confidence in you and Senator Cardin and others 
about these core functions, and you know, answer Senator 
DeMint's concerns about, you know, are we really doing what we 
need to do, here.
    So, that is my pledge to you, and I'm going to work as hard 
as I know how to make it happen.
    Senator Menendez. We look forward to working with you on 
that. Let me just touch on specific areas, and then I hope not 
to give you any questions at the end of the day so you can move 
through the process--written questions.
    But, in 100 days, the new administration will inherit the 
Summit of the Americas. And it will be either the President-
elect's imprint, or it will be that which existed before.
    We have challenge in Latin America, and our challenge is 
our lack of engagement in a way that makes a difference.
    We need to care less about what Chavez does, and more about 
what we do at the end of the day. And so I hope that we can 
work with you, and I also hope the administration will focus 
very quickly on what that summit is going to look like. And I 
hope that we have an America's Initiative soon, obviously not 
by the summit, but at least talking about the outlines of what 
that will be.
    The hemisphere is incredibly important to us, it is in 
turmoil and challenge in many parts of it, and I hope that that 
is something that we will look at very quickly.
    I know you supported the legislation we had that came to 
the committee in a bipartisan, unanimous on creating a Social 
and Economic Development Fund for the Americas. We call it to 
your attention.
    Two last areas of the world. There are many, but--I hope 
that the support you gave while you were a Senator to the 
question of the Armenian genocide, that the President-elect has 
himself supported. The recognition of that. And if we are to 
say, never again, part of that is ultimately the recognition of 
what has happened, so that we can move forward.
    And I hope that you will be an advocate of having us get 
off of where we have been, and move forward to a recognition of 
that part of history that is universally recognized, and we can 
move forward in that respect.
    And I also hope in the part of the world that's very 
important to me, the question of the reunification of Cyprus, 
that we have honest brokers at the State Department at the end 
of the day. One that recognizes that if Greek and Turkish 
Cypriots could work with each other, they would seek a bizonal, 
bicommunal federation that could move forward and reunify the 
island and end the incredible militarization of that island--
the most militarized part of the world, per capita.
    So, I hope that you will look at those issues. I know the 
positions you've taken as a Senator, and I applaud them. I hope 
that they won't change drastically as you move to the Secretary 
of State.
    Senator Clinton. Senator, we will be looking very closely 
at those, and other challenging issues, with the eye of moving 
forward and being effective and responding to these very 
legitimate concerns.
    Senator Menendez. I look forward to supporting your 
nomination.
    The Chairman. Thank you, Senator Menendez.
    Thank you, Senator Clinton, for a good morning of 
testimony. You displayed one of the assets necessary for the 
job, you sat there for 3 hours and 15 minutes. And we look 
forward to the afternoon session--and I should say that to 
everybody here, it's been a remarkably attentive and quiet 
audience. So we appreciate that very much.
    So we will recess until no sooner than 2 o'clock, and we 
will try to make it as absolutely close to two as possible. We 
stand in recess.
    [Whereupon, at 12:47 p.m., the committee recessed to 
reconvene at 2 p.m.]

                           Afternoon Session

    The committee met, pursuant to notice, at 2:19 p.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    The Chairman. The hearing will come back into order and I 
apologize to everybody, particularly to our colleagues who were 
on time, Senator Isakson, I'm sorry about that.
    We had the President-elect meeting with us at our caucus on 
the minor topic of the monster of TARP and also the stimulus. 
So I'm sure you can all understand it was spirited and 
important and that's why we are late and I apologize for that.
    I said that we would pick up. We're going to complete the 
first round of 10-minute questions and I think for the second 
round we'll probably go with 7 minutes and see how we proceed, 
but Senator Isakson, you're up next and we appreciate your 
patience.
    Senator Isakson. Thank you very much, Mr. Chairman, and 
Chelsea; Chelsea, you should know that your mother and I had a 
conversation in my office. She's very proud of you and very 
proud of the support you give to her and I got to show her all 
my grandchildren, so she'll have plans for you in the future, I 
guarantee you. [Laughter.]
    Senator Clinton, it's a pleasure. I want to commend you. 
This is not really a question, just a statement, but I have the 
highest regard for Senator Lugar. I think the remarks, 
prehearing questions he sent to you with regard to the Clinton 
Foundation were very important, and I think his insights are 
very important because in your answers to those questions on a 
couple of occasions, you made the statement, ``The goal was to 
protect against even the appearance of a conflict of interest 
between his work,'' meaning the Foundation's, ``and the duties 
of the Secretary of State,'' and we all know that in this world 
of politics, perception becomes a reality. So appearance is 
everything, and I commend Senator Lugar's recommendations to 
you.
    Also, twice in your opening remarks, which were extensive 
and really appreciated because you really covered some very 
important topics, you refer to what I call the three Ds: 
diplomacy, development, and defense, and two different 
occasions, once vis-a-vis
al-Qaeda and then another just based on overall policy, I 
believe that the better your diplomacy the better your ability 
to defense yourself and a strong military is a great foundation 
for good diplomacy and then if you add the development, which I 
think is soft power or smart power, you have a great trilogy.
    Do you agree with that?
    Senator Clinton. Senator Isakson, I couldn't say it any 
better. I certainly do agree.
    In order to protect and defend the United States of 
America, to advance our interests and to further our values, we 
have to have all three of those elements of our power working 
in concert, but clearly, as I said, as you pointed out, in my 
opening statement, a strong military is essential for the 
ultimate protection of our country and our interests.
    It is my hope that through more vigorous and effective 
diplomacy we would be able to resolve both problems that we 
have with individual countries and the transnational problems, 
like proliferation, that threaten us.
    So I think that the State Department has a very big 
responsibility to improve its capacity with respect to both 
diplomacy and development because without those two elements of 
our power projection and our policy being as effective as they 
can be, we're not going to have the agile comprehensive foreign 
policy we should look forward to.
    Senator Isakson. In the Presidential debate, I watched both 
sides, ours and yours, and there was a significant debate over 
foreign policy and over the issue of precondition.
    I really appreciated your responses throughout and I think 
you added a great deal of strength to that debate and now that 
we're looking at suggestions of talking to Hamas or maybe 
Hezbollah or maybe Iran, preconditions are absolutely 
essential, I think, to good strong diplomacy.
    I hope you still feel that way.
    Senator Clinton. Well, I certainly do, as does the 
President-elect. I think that his commitment to vigorous and 
effective diplomacy is in context of his understanding that 
there are different ways for us to engage.
    When it comes to nonstate actors, like Hamas, as I said at 
the very end of the morning session, there are conditions. 
Hamas must renounce violence, they must recognize Israel, and 
they must agree to abide by all previous agreements. There are 
conditions that are usually part of the preliminary discussion 
that would lead to any kind of negotiation.
    The President-elect believes that he has the right to claim 
the opportunity to speak with anybody at any time, if it's in 
furtherance of our country's national interests and security, 
but he fully appreciates the preliminary work that has to be 
done in order to tee up any such discussion.
    So I think we're in vigorous agreement, Senator, that we 
want to be smart about how we engage in diplomacy. We want to 
make sure that when the President of the United States or the 
Secretary of State is engaged in any diplomatic effort that all 
of the necessary preliminary work, including conditions, if 
appropriate, have been met before doing so.
    Senator Isakson. You quoted George Marshall at the end of 
your remarks in saying that ``sometimes our enemies are not the 
nations or doctrines but they're in fact hunger, poverty, 
desperation and chaos.''
    I'm the ranking member on the Africa Subcommittee, and if 
you talk about desperation, chaos, hunger and poverty, 
certainly you can talk about the continent of Africa and in 
particular North Africa and the Horn of Africa where al-Qaeda 
is attempting to do what it did in Afghanistan effectively a 
decade and a half ago.
    And you talked about smart power. I think AFRICOM was a 
smart move on behalf of our country and although a lot of 
people don't realize what AFRICOM is doing, they are military 
personnel doing a lot of soft power. They're drilling wells. 
They're building bridges. They're doing the things--I hate to 
say this, but Hamas and Hezbollah figured it out. They got 
political strength by giving people housing and clothing. A lot 
of times that use of soft power can win over people's attitudes 
toward you.
    So I hope, as the couple years go by--the next 4 years go 
by--we can work together on the continent of Africa and on 
those issues because I think it's the next place we are 
vulnerable if we aren't proactive in dealing with the 
governments, the people, the poverty, and obviously also 
continuing the Bush PETFAR Program which has been so 
successful, that and the malaria eradication.
    Senator Clinton. Well, Senator, I appreciated, when I spoke 
with you, your commitment to Africa and your making it a 
priority of the service you've performed here on the committee 
and I look forward to working with you.
    It is a serious concern that we could see safe havens 
created again, the chaos that flows from failed states, like 
Somalia at this moment, the aftermath of autocratic regimes 
that have so mistreated their people, like Zimbabwe, the 
anarchy and terrible violence in Eastern Congo.
    I mean, those are breeding grounds not only for the worst 
abuses of human beings, from mass murders to rapes to 
indifference toward disease and other terrible calamities, but 
they are invitations to terrorists to find refuge amidst the 
chaos and anyone who thinks that our interest in Africa is only 
humanitarian, I think, misses the strategic import of the 
comments you have made and I do look forward to working with 
you.
    Senator Isakson. My last question. If you ask the average 
Georgian what's the one thing they have the most consternation 
about, it's how much money we spend in foreign aid and although 
as a percentage of the budget it's a small number, a lot of the 
stories that get published raise questions about it.
    Talking about preconditions for a second, I am one that 
feels like foreign aid invested, especially with preconditions 
for results, is beneficial to the United States of America and 
I shared with you the issue on women's education in Muslim 
countries and Africa who, prior to 2001, we weren't really 
aware that we had money going to NGOs, then going to education, 
that was only teaching Muslim men, not Muslim women, and we put 
a precondition post-9/11 and built schools for women in Egypt 
and Ethiopia and other places and the payback has been a 
renaissance in those countries at least in raising the 
educational level of all.
    I'd appreciate your comments on the extent to which 
preconditions can be used in foreign aid, not preconditions to 
agree with us but preconditions to see that the result brings 
about a benefit like in this case the education of women.
    Senator Clinton. Well, I think that has been an important 
contribution to the foreign aid debate by this administration, 
most manifest with the Millennium Challenge Corporation.
    I think we're still finding our way, trying to figure out 
the best practices to use to encourage governments to act in 
certain ways, conditioning our aid, but I really believe this 
holds tremendous promise, and again it's an area that I would 
like to work with this committee on because there's a lot of 
expertise here.
    When you look at foreign aid, we want to be able to justify 
the investment to the American people and we want to get 
measurable results. Those are two goals that really go hand in 
hand and so I believe strongly that as we try to shore up 
foreign aid, as we try to make the case for more development 
assistance, as we try to, you know, get back some of the 
authority and the resources that have drifted to the Defense 
Department, that we have to be ready to make that case and I 
think the, you know, conditional aid approach in certain 
countries and situations is one we have to look at more 
closely.
    Senator Isakson. Well, I appreciate your willingness to 
serve and wish you the best of luck in your tenure.
    Thank you.
    Senator Clinton. Thank you.
    The Chairman. Thank you very much, Senator Isakson.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much, and I 
want to commend you on the new leadership position that you 
take and we're grateful for your service.
    Senator Clinton, thank you very much for committing 
yourself to do a difficult job at a difficult time in our 
Nation's history and for the time you're spending with us 
today. You're getting close to the end here. When you get down 
to this end of the table, we're kind of rounding the corner, 
and I want to stay within my time limits because my friend here 
needs his time; Jim Webb.
    I wanted to read you a statement that I think you're 
familiar with but I think it bears some emphasis today in light 
of what you said in your statement and in light of a lot of our 
concerns about the way foreign policy has been conducted--
especially over the last 8 years.
    The person who made this statement first made reference to 
our institutions of diplomacy and development being undermanned 
and underfunded and then I'll pick up with the quotation, and 
it starts this way: ``When it comes to America's engagement 
with the rest of the world, it's important that the military is 
in a supporting role, supporting role to civilian agencies. Our 
diplomatic leaders must have the resources and political 
support needed to fully exercise their statutory 
responsibilities in leading American foreign policy. To truly 
harness the full strength of America requires having civilian 
institutions of diplomacy and development that are adequately 
staffed and properly funded.''
    The person who made that statement was Secretary Gates this 
past July, and I wanted, in light of the discussion here today 
and grateful for the time you spent in your statement on this, 
but also in light of what you and I have talked about in our 
meeting and in other conversations, tell us how you're going to 
work with Secretary Gates to make sure that we can give meaning 
and integrity to the observation he made in that July speech.
    Senator Clinton. Well, Senator Casey, it's a tremendous 
honor for me to be working with Secretary Gates. He has a very 
long history of service in our country and has worked with I 
don't know how many Presidents, six, maybe seven, but he has a 
broad comprehensive view about what works for America and what 
doesn't and he was in the, you know, real vanguard in the CIA 
and the National Security Council at the height of the cold 
war. So his experience is especially valuable and I know the 
President-elect believes that and, as you know, asked him to 
stay on.
    I've had several conversations with him already and what 
you read is exactly what he believes, that we are going to be 
stronger if we are better able to promote diplomacy and 
development, not just rely on our military power.
    There's a lot of work to be done between that belief, which 
he and I and the President-elect share, and actually realizing 
its promise. We have work to do at the State Department, you 
know. Part of the reason functions and resources have migrated 
is because there's just a presumption that the, you know, 
military can move much quicker and with greater effort, impose 
development or negotiate agreements, whatever it might be, than 
the State Department and it's going to be our job to prove 
that, you know, the State Department is not only substantively 
strong, which indeed it is, not only experienced in diplomacy 
and development, which indeed it is, but can in this 21st 
century move with dispatch, be results-oriented, create an 
atmosphere of collegiality and cooperation across the State 
Department and USAID and across the United States Government.
    So I am taking this very seriously. I'm working with 
Secretary Gates. He's very open to cooperative efforts, but we 
have to prove that we can shoulder this responsibility, like 
stabilization and reconstruction and the new Civilian Corps, 
like, you know, really outcomes-oriented development aid that 
can be done quickly without enormous bureaucracy.
    So we're going to take that challenge on because I don't 
think we have a choice. I think that our foreign policy has 
gotten way out of balance. Secretary Gates knows it. The 
President-elect certainly knows it. So it's going to be up to 
us to try to get back into more equilibrium which will be good 
for our government and for the image of our country around the 
world.
    Senator Casey. Well, we want to support you in meeting that 
objective, and I do want to commend you. We had a discussion 
the other day about the mechanics of running such a massive 
agency, and I know we don't have a lot of time today, but I 
wanted to commend you on appointing Jack Lew as Deputy 
Secretary of Management. I think it's important that when 
someone is assuming the responsibility as you are that you've 
spent the kind of time you have to put together a team that can 
help you run the Department.
    I wanted to move to one or two more issues before my time 
expires. One is on an issue that I've worked with Senator Lugar 
on, the ranking member, as well as other members of this 
committee have worked for years. Senator Biden worked hard on 
this as well as others and that's the challenge posed by 
nuclear terrorism.
    As great as the challenge and the threat is, we know from 
our history and from our research that it's a preventable 
catastrophe if we take the right steps not just here but around 
the world, and I just want to get your thoughts on the steps we 
need to take which will involve a number of departments of our 
Federal Government and State Department under your leadership 
will play a significant role in working with other countries to 
identify fissile material and to prevent it from getting in the 
hands of the wrong people.
    Senator Clinton. Well, Senator Casey, I know you expressed 
to me your deep concern about this and your desire to get very 
involved in helping us craft an effective approach to 
protecting our country and our allies, indeed humanity, from 
weapons of mass destruction in the hands of terrorists.
    The recent Commission on WMD chaired by former-Senators 
Graham and Tallent, was very sobering. Basically, they 
concluded that the evidence points to our seeing a terrorist 
attack using nuclear or biological material some time in the 
next 4 years.
    You add to that the growing threat of cyber terrorism which 
has the potential of disrupting the networks we rely on for all 
kinds of things, like traffic signals and electric grids and 
the like which would be incredibly disruptive and dangerous. I 
mean, this is the No. 1 threat we face. There's no doubt in my 
mind.
    So we're going to start calling it such. We're going to 
reorganize the Department to be better prepared to deal with 
nonproliferation arms control and these new threats. I look 
forward to working closely with this committee to get the best 
people we can into the State Department, to work with our 
partners across the United States Government, and to send out a 
message loudly and clearly that the United States wants to be a 
leader once again, to control arms, particularly with Russia, 
and that's what the START talks will be aimed at doing, and to 
be much more aggressive in going after nonproliferation.
    So this is our very highest priority because the 
consequences are so devastating.
    Senator Casey. One more question in the time I have. We 
spoke a little bit the other day about the challenge that 
Pakistan presents to all of us, to the American people, but 
also to the world and for a lot of reasons, we know, not only 
because of the threat in the border region between Pakistan and 
Afghanistan, the concern about the rivalry--and that's an 
understatement--with India, and the question of whether this 
government will really make it a priority to root out the 
extremist elements that are throughout different parts Pakistan 
and the region, and finally, the concern about the stability of 
their nuclear command and control.
    Coming into the office, and I realize you're just starting, 
but from the State Department's point of view, how do you think 
we need to approach meeting or being focused on those various 
concerns that I just outlined?
    Senator Clinton. Well, as I stated in my opening remarks, 
Iraq, Afghanistan, Pakistan, the Middle East, remain in the 
forefront of the challenges that the new administration will 
face.
    Pakistan has a particular complexity because of its nuclear 
weapons capacity, but the democratically elected government has 
been saying a lot of the right things with respect to the 
threat posed by the extremists, terrorists, particularly along 
the border and in the Fatah region in Pakistan.
    So I'm hopeful that we will have a very active positive 
relationship with the new Pakistan Government. I know that 
there's a lot of work being done even by the outgoing 
administration to deepen ties between our country and various 
institutions in Pakistan, but this is a tough problem, Senator. 
I mean, this is a very complicated problem. It has many 
dimensions to it, as you pointed out, the relationship with 
India, the relationship with Afghanistan, the role that Iran 
and others are playing in that region.
    We have to approach this with the same level of attention 
and comprehensive understanding that our military is attempting 
to do as it ramps up our troop commitments in Afghanistan and 
works more closely with the Government of Pakistan to protect 
them from violent extremists as well as to root out al-Qaeda 
and other remnants of the terrorist networks so that they don't 
find safe haven in Pakistan to plan attacks against us or any 
other country.
    Senator Casey. Thank you very much.
    The Chairman. Thank you very much, Senator Casey.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman, and 
congratulations on your new chairmanship.
    The Chairman. Thank you very much.
    Senator Vitter. And thank you, Senator Clinton, for all of 
your public service, including being open to this very 
challenging position.
    Like a lot of folks, I have some concerns about these 
conflict issues, particularly with regard to the Clinton 
Foundation, and so I wanted to spend my first round exploring 
those concerns.
    Let me say a couple things. First, that I think a lot of 
folks legitimately share these concerns across the spectrum, 
from the New York Times to Senator Lugar, who submitted some 
questions about it to me. That perhaps defines the entire 
political spectrum, I'm not sure, and also they arise because 
of very extraordinary circumstances, your husband being a 
former President, his very unique work in terms of the 
Foundation and in terms of that work, and I applaud that, but 
they nevertheless arise because of that, and I think it really 
requires an extraordinary response.
    Obviously you all have put forward this Memorandum of 
Understanding to suggest that such a response and so I wanted 
to go into that and some of the details about it and some of my 
concerns and these posters just sort of briefly outline the 
situation before the MOU with the Foundation and all those 
abbreviations are the ones used in the MOU and then the 
situation after.
    One thing that sort of leaped out at me is with regard to 
the Clinton Global Initiative which in many ways is the most 
public and perhaps significant of these initiatives. Under the 
MOU, there's no disclosure of contributions, contributors going 
forward and that seems to be a big omission because again 
that's one of the most significant activities here, probably 
the most widely followed and recognized in terms of the annual 
conference, et cetera.
    Would you support and help produce an amended MOU that 
would bring the same disclosure to future contributions to the 
Clinton Global Initiative?
    Senator Clinton. Well, Senator, I appreciate your concern 
and your question and I recognize that these are unique 
circumstances, to say the least.
    I'm very proud to be the President-elect's nominee for 
Secretary of State and I am very proud of what my husband and 
the Clinton Foundation and the associated efforts he's 
undertaken have accomplished as well.
    It is not unique, however, for spouses of government 
officials to work and there are very well-established rules for 
what is expected when that occurs. In this particular case, the 
Office of Government Ethics and the Career Ethics officials at 
the State Department have looked at the rules and concluded 
there is not an inherent conflict of interest in any of my 
husband's work at all.
    However, the Foundation and the President-elect decided to 
go beyond what the law and the ethics rules call for to address 
even the appearance of conflict and that is why they signed a 
Memorandum of Understanding which outlines the voluntary steps 
that the Foundation is taking to address potential concerns 
that might come up down the road.
    The Memorandum of Understanding is, as you know, public and 
the President-elect and the Foundation and I have all worked to 
be very transparent. My team has stayed in close touch with the 
committee and we've addressed the committee's questions on 
these issues in a broad range of written answers which are part 
of the so-called QFRs--the Questions for the Record.
    But I want to speak for a minute, if I can, about the work 
that is done because I think it's important----
    Senator Vitter. Mr. Chairman, I have no objection listening 
to this, but I'd like it not to come out of my time because I'd 
like to pursue these questions.
    The Chairman. Well, I guess, I mean, it's fair to say that 
if you ask a question, you deserve an answer and the answer 
traditionally comes out of the time of the Senator.
    Senator Vitter. Well, I'm still waiting for the answer. I'd 
love an answer, but if there's an answer to my question----
    The Chairman. Well, I think you need to give the Senator an 
opportunity to give you the answer and if you need additional 
time----
    Senator Vitter. Well, let me repeat the question, which is, 
Would you support and help produce a new MOU that requires the 
same sort of disclosure for contributions for the Clinton 
Global Initiative?
    Under this, there's no disclosure moving forward for 
contributions of the Clinton Global Initiative. So it's a yes 
or no. Would you support expanding that disclosure? Admittedly, 
this is voluntary. It's not required by law, but it seems to be 
a big exception to the rule of the MOU in terms of disclosure.
    Senator Clinton. Well, I think that the MOU and the other 
undertakings that have been worked out between the President-
elect and the Transition and the Foundation and my husband have 
looked very broadly at all of the questions that you're raising 
and there are answers to many of these questions in the 
collection of answers that we have provided, and I will be 
happy to provide additional material and answers to you in 
response to that question.
    Senator Vitter. OK. Well, if you could consider that 
suggestion, I think that's a big gap in the MOU, that moving 
forward, the Clinton Global Initiative is separated from the 
Foundation and then there's no disclosure whatsoever about 
contributors to the Clinton Global Initiative.
    The other big gap, it seems to me, is that the disclosure 
in the MOU is for new contributors and so old contributors who 
regive or who even substantially increase their contributions, 
if it's to certain initiatives, aren't disclosed.
    Would you consider amending that so that all contributions, 
whether from new contributors or old contributors, would be 
disclosed?
    Senator Clinton. All contributors will be disclosed and all 
contributors to the Clinton Global Initiative are disclosed in 
public as of now anyway.
    Senator Vitter. OK. But that changes under the MOU.
    Senator Clinton. No.
    The Chairman. No. I think, if I could just interrupt, 
Senator, I think if you look at the MOU and you look at the 
subsequent questions that were answered by the Senator to the 
committee because we followed up on this issue, I believe that 
we asked the question, will all future contributions to the 
Foundation be disclosed, and----
    Senator Vitter. To the Foundation?
    The Chairman. That's the Foundation, but, in addition, it's 
my understanding that the--under the MOU, the CGI additionally, 
if there are contributions, they would be disclosed at the end 
of the year.
    Senator Clinton. That's right.
    Senator Vitter. OK. I'm very happy to hear that. That's not 
what's in the MOU. So if I could simply request before our vote 
a document or an amendment from the Transition and the 
Foundation that clarify that because under the MOU, moving 
forward, the Clinton Global Initiative is separated from the 
Foundation and then there's disclosure under the Foundation.
    Senator Clinton. Well, Senator, I believe that all the 
answers that are relevant to these inquiries are in the record. 
There is no intention to amend the MOU. It has been worked out 
between the Transition and the Foundation, but the Clinton 
Global Initiative is a pass-through.
    Now, the money of any donors to put on the Clinton Global 
Initiative are public and there is no ongoing, you know, 
Foundation is a yearly event, it's unlike the Foundation. So we 
will clarify, we will definitely clarify that for you.
    Senator Vitter. That would be great, if you can clarify it. 
Again, I don't want to beat a dead horse, but under the MOU, as 
it stands, there's no required disclosure going forward for 
Clinton Global Initiative contributions and there's no 
necessary required disclosure for new contributions of old 
contributors, just new contributors.
    There's also been the suggestion from a lot of folks to 
disclose the date and amount or at least amount within ranges 
of new contributions and to do that at least quarterly rather 
than annually. Would you be open to that?
    Senator Clinton. Well, again, you know, this is an 
agreement that has been worked out between all of the parties 
and the fact is that the concerns that were raised in the 
discussions between the Foundation and the President-elect's 
team were thoroughly discussed and they believe, and I agree, 
that the transparency and disclosure that is needed which, as 
you said yourself, it goes beyond any kind of legal or ethical 
consideration and not only that, there will be ongoing reviews 
by anything that is brought to the attention of the career 
professionals.
    But I just have to go back, Senator, and try to set the 
record straight. CGI is not in the Memorandum of Understanding 
because they already have a practice of disclosing all of their 
contributions. There is no need to require it. I will 
certainly, you know, state here that they're going to continue 
the practice which they've already done. No President has ever 
disclosed the contributions to his foundation.
    So when my husband agreed to disclose the contributions to 
his foundation, that was a very unprecedented event which he 
was happy to do, but the Clinton Global Initiative, which is 
separate from the Foundation, has always disclosed the 
contributions.
    Senator Vitter. Well, again, I'd love for that to be 
embodied in any agreement that's at issue, so I'll look forward 
to that.
    The Chairman. Well, Senator, can I just--this won't come 
out of your time, but let me make sure the record is clear 
here.
    As I understand it, I think Senator Lugar has raised a 
couple points and we're going to address them perhaps a little 
bit later, but I don't think this one, frankly, is on target 
for the following reason.
    On page 4, paragraph 2, it specifically says that ``CGI, 
President Clinton personally will not solicit funds. President 
Clinton will continue to send invitation letters to potential 
invitees; however, he will no longer send sponsorship letters 
which seek contributions. Apart from attendance fees, CGI will 
not accept contributions from foreign governments.'' So there 
is no solicitation and no acceptance of a foreign government.
    Senator Vitter. But, for instance, there could be foreign 
national contributions which, within the four corners of this 
agreement, are not disclosed, not necessarily disclosed.
    I mean, my question is in that same paragraph, why isn't 
there a disclosure?
    The Chairman. Well, I think the Senator has appropriately 
said that they'll answer that in the addendum.
    Senator Vitter. Well, I'd look forward to that as well as 
the old contributor issue because it just talks about new 
contributors.
    Again, let me back up and underscore the central concern, 
which is, I really do think this poses a lot of real and 
perceived conflict issues and you just need to look at some of 
the contributors from the past, particularly from the Middle 
East, to get a sense of what I'm talking about.
    For instance, the Alavi Foundation supports Iranian causes. 
Just this past December 19, they made a substantial 
contribution to the foundation and that same day, the president 
of the foundation was indicted for obstruction of justice 
related to terrorist financing, and 2 days earlier Treasury had 
named a partner of the foundation as a ``terrorist entity.'' 
Another partner of the foundation, Bank Melli, has long been 
thought to be a procurement front for the Iranian Nuclear 
Program. That's the sort of big issue/conflict issue that I 
think this poses which could obviously complicate your job and 
be an impediment to your effectiveness.
    Another similar example, Assam Fares, former Deputy Prime 
Minister of Lebanon. He's a big supporter of Hezbollah. It says 
it's not in any way a terrorist organization, doesn't target 
the United States. I'm sure the widows and family members of 
the victims of the 1983 Beirut bombing that killed 241 
Americans are comforted by that. Obviously they are terrorists. 
They do target the United States. This poses serious issues.
    So I look forward to following up and getting that 
clarification and also I think it would round out this 
agreement immeasurably to include the date and amount of 
contributions, to include pledges made, not simply have 
disclosures when a payment is made, and to at least do 
quarterly reports versus annual reports.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Vitter.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Senator Clinton, I've had the pleasure of having sat 
through this entire hearing today--I'm not sure you have found 
it very pleasurable--partly because I'm really interested in 
these issues and partly because I'm so far down the food chain 
that I had to wait until 3 o'clock this afternoon to ask my 
questions. But it's nice to have Senator Shaheen to my left, 
you know, and I'm very impressed by the range that you have 
shown here on a wide variety of issues that have been thrown at 
you.
    I've had the pleasure of working with you and discussing 
these issues over the past years, but I think you've done a 
marvelous job today.
    I guess the phrase of the week is ``smart power.'' You 
know, I've been doing this a long time, in and out of 
government. People come up with different phrases. I think the 
most important thing that you have said is in your opening 
statement, when you mentioned that the ``goal of this 
administration is going to be more partners and fewer 
adversaries and to do so in a realistic way that still protects 
the interests of the United States,'' and I think that is a 
major demarcation for our government as we relate to the rest 
of the world.
    You and I have had many conversations over the years. This 
is a time that the context of these conversations are going to 
be shaped into what I believe will be achievable policies. I 
would like to list very quickly for the record six or seven 
areas where I believe that these conversations will need to 
continue and in some cases there will probably be debates, but 
I think that it's important to outline these.
    The first is the nature of the residual force in Iraq or 
even whether there should be a residual force in Iraq and how 
that situation would assist us in increasing stability in the 
region.
    You mentioned the SOFA and the Strategic Framework 
Agreement as national policy. As you know, I had a great deal 
of heartburn over the way that those agreements were signed 
here. They were approved by the Iraqi Parliament. We in the 
Congress did not even have an opportunity to vote on whether 
this was the way to proceed forward. I don't anticipate that 
situation coming up again.
    The second is the need for a clearly articulated strategy 
with respect to Afghanistan and Pakistan, and we don't have a 
strategy unless we can articulate the endpoint. I look forward 
to working with you toward not only being able to define that 
but also being able to define some sort of an achievable 
endpoint to our presence in Afghanistan.
    The third is a reexamination of the way that we have 
proceeded with NATO expansion. I did a lot of work in NATO when 
I was Assistant Secretary of Defense and, quite frankly, this 
isn't the NATO that I was working with and I'm very concerned 
about the transition from essentially alliances into a number 
of protectorates in these newer countries and it's a situation 
that makes our country, I believe, very vulnerable.
    The fourth is a need for us to adjust our strategic 
relationship with China. There have been a lot of comments made 
today about China that were fairly benign, and it's my hope--in 
fact, I was meeting with the Chinese Ambassador a couple days 
ago.
    It's my hope that both of our countries can understand how 
vulnerable we are to each other right now after this economic 
downturn, but there are serious points of contention in our 
relationship that are going to have to be addressed over the 
next 4 to 8 years.
    The next is the need for us to reexamine the failure, quite 
frankly, of the past administration to engage not only 
potential adversaries but also hostile regimes with which we 
have some disagreement.
    You had, I think, a great exchange with the chairman with 
respect to Iran and I certainly would identify myself with the 
chairman's position on that, but also Burma, as you and I had 
discussed earlier. I think we made some real mistakes in terms 
of how we have approached the relationship with Burma and I 
hope we can start some new ground there.
    The next is an urgent need, in my view, for the United 
States to focus on reconnecting in East Asia and Southeast 
Asia, not simply with respect to the China and sometimes the 
China-Japan relationship, but I would hope that you would lead 
the charge in terms of a much-invigorated relationship with 
ASEAN and some of these other countries.
    The next is our need, and you addressed it, I think, in a 
very clear way in your statement to show clear leadership in 
the complex and difficult situations with respect to the 
Israeli and the Palestinian conundrum. There's no other word 
for it really at this point, but I think with the right kind of 
leadership that we can mitigate a lot of the tensions in that 
area and work toward a different situation.
    And the final one is, and I want to actually spend what 
little time I have here to get your thoughts on this because 
it's been talked about in many different ways here, the need 
for us to rebalance the tasks being performed by the Department 
of Defense and the Department of State as they relate to our 
involvement around the world.
    I would like to emphasize here that the implications for 
this are beyond the notion of turf wars. They're beyond this 
discussion of simply who can do it better. They really go to 
how our country is being perceived around the world. It's one 
of the most graphic things that I have been seeing over the 
past couple of years since I came to the Senate versus the time 
when I was in the Pentagon years ago where even when I was 
traveling as a journalist very heavily in Asia before 9/11 and 
that is, that we are increasingly being seen as a military 
guarantor and in many cases a desirable military guarantor in 
these other countries, as opposed to being an economic partner 
or a cultural partner or growing our interdependence with these 
countries with respect to educational programs and reciprocal 
trade and these sorts of things.
    I think it's vitally important that the State Department 
invigorate these policies, to put a civilian face on them, and 
to push these cultural, economic and issues of interdependence, 
and I would appreciate your thoughts on that.
    Senator Clinton. Well, Senator Webb, as always, you are not 
only eloquent but extremely useful in your quick summary of all 
these issues because every one that you mentioned is one that I 
think is going to be on our agenda.
    With respect to this rebalancing of the tasks being 
performed by State and Defense, you're absolutely right. I 
mean, it is a much larger issue than just intergovernmental 
relations and, you know, line items in a budget. It has to do 
with how we see ourselves and therefore how others see us and 
it is one of my hopes that during my time, if I am so fortunate 
as to be confirmed, that I am Secretary of State, we will begin 
to get that balance, you know, more in the direction of putting 
a civilian face on our power and sending the message that, you 
know, yes, we have this huge military that we spend nearly $600 
billion on, but we are much more than that. We are, you know, a 
country with all kinds of political, cultural, economic and 
other assets that we can offer the rest of the world.
    It is not going to be easy because you serve on the two 
committees, having served with you on Armed Services, where, on 
one committee you can get practically anything you want, and on 
the other committee you can't keep up with the demands that are 
being put on diplomacy and development. There are more members 
in military bands than there are Foreign Service officers 
serving overseas.
    So, I mean, when you think about that, it puts it into 
perspective. We have so underresourced our diplomacy and our 
development and it kind of becomes a self-fulfilling prophecy. 
You know, the less resourced we are when we're given a task, 
the harder it is to perform. So the military understandably 
says, well, come on, get out of the way, we'll take care of 
this, but, you know, you guys come along, you know the 
languages, you've got some expertise, be our advisers. So that 
just further enhances the military face.
    You know, with the new AFRICOM, which I support, we have to 
be very careful that it doesn't appear that our only real 
government engagement throughout Africa is our new military 
presence.
    So I could not agree more with you, Senator, and I look 
forward to getting your advice which I know will be unvarnished 
and candid and well-informed about how we're going to do this 
because that's one of the biggest items on my agenda.
    Senator Webb. Well, thank you. Our military does great 
things, and I think you and I both feel strongly about that. We 
just want to make sure that it does the right things, and when 
I look at the NATO situation right now, the United States 
increasingly is viewed as the military guarantor to these new 
protectorates, essentially in historical terms, that we brought 
into the fold while the older countries of NATO are 
reestablishing their traditional historic relationships with 
Central and Eastern Europe. And there's nothing wrong with 
that, but it is troublesome when we are simply viewed as the 
military side of it.
    I just came back, as you know, from an extensive trip in 
Southeast Asia. It's the same thing. If you're talking with the 
people in Singapore, if you're talking with people in Thailand, 
they're very happy that the United States is there as a 
military balance as they invigorate their relationships 
economically with countries like China, but it's not to our 
advantage that this occur and the best way to have sort of a 
catalyst to bring the United States back in a stronger way 
culturally and economically is through the State Department.
    So I wish you well and I'm at your disposal, and I think 
you're going to be a great Secretary of State.
    Thank you.
    Senator Clinton. Thank you, Senator.
    Senator Webb. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Webb.
    Senator Lugar. We're going to start the second round now 
for Senator Lugar, the first round for Senator Shaheen, and 
since the crowd is not clamoring for the second round, we may 
be able to make some good progress here.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Senator Clinton, in my statement this morning, I said the 
core of the problem that I perceive with regard to the Clinton 
Foundation is that it ``may be perceived as a means to gain 
favor with the Secretary of State,'' and I stated the 
``Foundation exists as a temptation to any foreign entity or 
government that believes it could curry favor through a 
donation. It sets up potential perception problems.''
    Now, the bottom line is that even well-intentioned foreign 
donations carry risk for United States foreign policy. The only 
certain way to eliminate this risk going forward is for the 
Clinton Foundation to forswear new foreign contributions when 
you become Secretary of State.
    Now, my purpose in stating it this candidly is simply that 
being Secretary of State and directing the foreign policy of 
our country involving all the countries in the world is an 
awesome responsibility which you perceive and have testified, 
as we all do.
    The Foundation is very important to you and to President 
Clinton and to many recipients who have benefited from this, 
but this was bound to be a dilemma from the moment that the 
President-elect asked you to become Secretary of State. You 
have been the First Lady. You are married to a former President 
of the United States. You've established a foundation that has 
already received gifts.
    There have been press accounts, fairly or unfairly, of 
people who have given gifts in other countries, and clearly the 
best solution to this would be during your tenure as Secretary 
of State for the Foundation, which still exists there and can 
receive gifts from everywhere else in the world, not to receive 
gifts from people abroad, even though that would deny it some 
revenues and the benefits that would come from those revenues.
    Now, having said that, I indicated that I support your 
nomination and plan to vote for your nomination in the Senate 
business meeting and any floor vote we have on this because 
your qualifications are remarkable and that is why reluctantly 
I dwell, however, on this problem that will still follow you.
    Now, the staffs have dealt with your people as well as with 
perhaps President Clinton, or at least officials of the 
Foundation, to try to think through the situations. So I've 
suggested as a backup to that four conditions that were in an 
attachment that was with the press release that I issued along 
with my statement this morning, and I indicated that the answer 
you have given as a part of the responses to questions 
satisfied item 4 of those qualifications.
    But at the same time, why, there remain the first three and 
essentially we've asked that you have the Clinton Foundation 
include information in its annual report that we have--let me--
if I can find the release now for a second.
    Specifically, all donations of $50,000 or more should be 
disclosed immediately upon receipt rather than waiting up to 12 
months to list the annual disclosure and; second, pledges from 
foreign entities to donate more than $50,000 in the future 
should be disclosed at the time the pledge is made and when the 
donation eventually occurs and; third, gifts of $50,000 or more 
from any foreign source, including individuals, should be 
submitted to the State Department-designated agency for the 
same ethics review that would be applied to donations from 
foreign governments.
    In essence, the most timely reporting of gifts of $50,000 
or more so that at least this is not something that waits for 
an annual review or in any way could be accused of being less 
transparent. If there's to be a dispute, somebody makes a gift, 
let's have an upfront argument about it presently as opposed to 
lingering and then somebody coming at you and saying clearly 
something was happening throughout the months, not disclosed, 
and you would respond, well, the agreement is an annual report, 
and so forth. That really is less satisfying than the first 
idea, no gifts, but, second, the most rapid response on the 
part of the Foundation whenever a gift comes in.
    So if we're going to have an argument, it happens right 
then, and, therefore, if it's not a good idea, that it's 
stopped and a compromise for the State Department, for foreign 
policy, for you, is prevented as rapidly as possible, within 
days, rather than in months or in years.
    So I ask you to comment on this because it appears to me 
that the press coverage of this hearing will be favorable to 
the remarkable responses you have made, very fluent testimony, 
obviously well prepared and touching the bases to the questions 
we had, but it's less likely to be satisfying with regard to 
the Clinton Foundation, and this is why I ask you to at least 
give some further comment, assurance, if not pledge, to be 
sensitive to this and to try to respond to the thoughts that 
I've expressed.
    Senator Clinton. Well, Senator Lugar, I know that you come 
at this issue in good faith, as I do, and I agree that these 
are matters that have to be handled with the greatest of care 
and transparency.
    I think it's important to give just a little context, if I 
can. You know, the purpose of the agreement was to avoid even 
the appearance of a conflict because all of the independent 
professionals who do this for our government said there was no 
conflict. So it's a kind of catch-as-catch-can problem.
    I mean, when it was all submitted to the Office of 
Government Ethics, they said there was no inherent conflict. My 
husband doesn't take a salary. He has no financial interests in 
any of this. I don't take a salary. I have no financial 
interests.
    So out of that abundance of caution and a desire to avoid 
even the appearance, the President-elect's Transition Team 
began working with the Foundation to try to craft an agreement 
that would avoid the appearance of a conflict but would also 
ensure that the Foundation can continue its work.
    You know, I'm very proud of the work that the Foundation 
did and when you look at why it received, for example, foreign 
government money, it's because early on there wasn't the 
support from our government until, frankly, the leadership of 
President Bush and Members of this Congress created PEPFAR and 
there was also a tremendous financial burden on poor states to 
try to afford the pharmaceuticals, the antiretrovirals.
    So my husband's Foundation worked with generic drug 
manufacturers to help improve their systems of manufacturing 
and get the costs down so that it would be affordable. So the 
governments of countries, like Canada, Norway, and Ireland, the 
U.N., said, well, this is the best deal ever. So this is all 
pass-through money. None of this goes to or stays in the 
Foundation.
    This is used for the purchasing contracts in order to buy 
the drugs to keep, you know, many people alive and particularly 
1.4 million people, including many children. So the work of the 
Foundation, the confidence that it has created with donors who 
know that it has an extremely low percentage that goes to any 
overhead, it has a very transparent way that it uses the money, 
were very persuasive to the Transition Team, that we had to 
work out something to keep the Foundation in business while I 
did what I needed to do to be as transparent as possible.
    So the kinds of concerns that were put forth were very 
carefully considered and, you know, I do believe that the 
agreement provides the kind of transparency. Under the 
Memorandum of Understanding, foreign government pledges will be 
submitted to the State Department for review. I don't know who 
will be giving money. That will not influence. It will not be 
in the atmosphere.
    When the disclosure occurs, obviously it will be after the 
fact, so it would be hard to make an argument that it 
influenced anybody because we didn't know about it. So I think 
that in the way that the President-elect's Transition Team saw 
it, the agreement that has been worked out is actually in the 
best interests of avoiding the appearance of conflict.
    Now, I hasten to say that my career in public service is 
hardly free of conflict, Senator. So I have no illusions about 
the fact that no matter what we do, there will be those who 
will raise conflicts, but I can absolutely guarantee you that I 
will keep a very close look on how this is being implemented. I 
will certainly do everything in my power to make sure that the 
good work of the Foundation continues without there being any 
untoward effects on me and my service and be very conscious of 
any questions that are raised, but I think that the way that 
this has been hammered out is probably as close as we can get 
to doing something that is so unprecedented, that there is no 
formula for it and we've tried to do the very best we could.
    Senator Lugar. Well, my time has concluded. Let me just say 
that the situation is unprecedented in which a First Lady and 
her distinguished husband and a foundation come together with a 
State Department hearing of this sort.
    I am hopeful that, as we go through the history of this, 
that people will not say, well, Senator Lugar and Senator Kerry 
and others were prescient. They saw the problems and we'll get 
full credit but that will not be helpful to our foreign policy, 
to you, to your husband, to the Foundation, and this is why I 
plea for you, plea to give even more consideration. It need not 
be a decision made today because I appreciate the negotiations 
have been sizable and you are a good negotiator, so is your 
husband, so are those who have worked for you. I admire that; 
it is a good thing for a State Department official and 
particularly the Secretary of State, but this seems to me to be 
so important at the outset, that this is why I've dwelled upon 
it, trying your patience and that of the committee, because I 
think it is very important, and I think you understand that.
    Senator Clinton. I do, and I respect you so much, Senator, 
and I can, you know, certainly guarantee to you that I will 
remain very sensitive to this and I will work with you and the 
chairman as we go forward.
    Senator Lugar. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Let me take a moment to welcome Senator Shaheen. This is 
her first official formal appearance with the committee. We 
just ratified the assignments at lunch today and so we're 
delighted to have you here. I'm personally delighted because 
you're a great friend and a good neighbor and we're really 
happy to have you as a member of this committee.
    Senator Shaheen. Thank you very much, Mr. Chairman. I am 
very honored to be able to serve on this prestigious committee 
with you and Senator Lugar and as I'm sure you know, I have 
been a big fan of your public service to the country for a very 
long time as well as your broad knowledge and expertise in this 
area and just as this country faces unprecedented economic 
challenges, we also face the most complicated foreign relations 
and national security challenges since the end of the cold war 
and I know that under your leadership and the leadership of 
Senator Lugar, that this committee will address these vital 
issues in a bipartisan way, and I'm delighted to be able to 
serve with you as we do that.
    Senator Clinton, congratulations on your terrific 
nomination. Your testimony this morning, I thought, reinforced 
the fact that you have a breadth of knowledge and experience to 
be an outstanding Secretary of State and I commend President-
elect Obama for choosing you. The two of you working in a 
partnership will truly have the opportunity to change the world 
and I have no doubt that you will do that.
    On a personal note, I have to say that I am disappointed 
that I won't be able to serve with you in the Senate but look 
forward to working with you as a member of this committee.
    I have two questions, since you have covered many of the 
issues that I would have asked. One is a broader question and 
the other is a little more parochial relative to New Hampshire.
    The first has to do with the international economy and I 
know that you and Senator Dodd discussed this a little bit 
earlier today, but over one-fifth of the manufacturing workers 
in my State of New Hampshire depend on exports for their jobs.
    I was interested to see recent reports that you would like 
to see the State Department take a more active role on 
questions of international economics and I thought that would 
certainly be a change from the Bush administration which has 
placed the international economic agenda primarily in the 
Department of Treasury.
    So I wondered if you could speak a little bit to the role 
that you see for the State Department in addressing these 
economic--international economic issues.
    Senator Clinton. Well, Senator Shaheen, welcome to the 
Senate and welcome to this committee. I think your joining this 
body will be an incredible addition and I look forward to 
working with you in this new capacity.
    I, too, regret that we won't serve together as Senators but 
I'm glad you're on this committee so that we can continue our 
friendship.
    I think that's a really timely question and it is one of 
the concerns that I have explored since being asked to take 
this position.
    How do we get our economic international agenda better 
integrated into the State Department? Obviously, Treasury has a 
huge role to play but so does the State Department and we're 
going to be responsible for the climate change negotiations. 
Well, you know, that has economic, environmental and energy-
related implications.
    The questions earlier from Senator Lugar about energy 
security, huge economic implications, and then the meltdown of 
the international economic regulatory system means that our 
foreign policy is impacted in so many ways in so many parts of 
the world.
    So there is a lot that we have to pay attention to and we 
have a National Security Council but we also have a National 
Economic Council and it will be part of the Obama 
administration's plans that the State Department will 
participate in both, not just one, that we will be very much 
involved in the crafting of international economic efforts. The 
G20, which will be coming up in April, hosted by Prime Minister 
Gordon Brown in London, we're going to be playing a role in 
helping to design the agenda for that.
    So on all of these issues, I think it is important to have 
a broader approach than just, you know, one agency because our 
economic standing affects everything we're doing. You know, 
dealing with Russia on START, some of that will be influenced 
by the economic situation that we're confronting, trying to 
deal with the modernization of the military in China. We've got 
to have a strategic relationship, as Senator Webb said, but we 
also have to make sure that they continue buying our debt.
    I mean, we have a lot of very complicated international 
economic issues that directly impact our foreign policy. So 
we're going to be working on those and I welcome any and all 
advice that you might have.
    Senator Shaheen. Thank you. The second question is related 
somewhat and it deals with trade.
    We have a company in New Hampshire, and forgive me for 
being parochial, called Goss International that makes large 
printing presses. They had Japan come in and dump imports into 
the market. They went to court and sued under our trade laws 
and got a judgment in U.S. District Court and Japan retaliated 
by passing a recovery provision or claw back that allowed the 
company that was doing the dumping to actually appropriate 
Goss's investments in Japan and the State Department really has 
done very little to address this issue despite the court 
judgment on behalf of the American company.
    So what role do you see the State Department playing as 
companies like Goss are dealing with this violation of U.S. 
trade laws?
    Senator Clinton. Well, I don't know anything about that 
specific case. We will look into that and educate ourselves 
about it, but more generally, I think this has to be part of 
our broader trade discussion.
    The President-elect is in favor of free and fair trade. He 
wants to figure out how trade becomes more of a win-win for our 
manufacturers, our businesses, you know, our citizens and 
that's going to be part of what we look at. What are the rules 
that we want to enforce in our country, and what do we expect 
through reciprocal relations with other countries?
    So I'm well familiar with the general nature of the problem 
because I faced much of this in New York over the last 8 years, 
but we're going to try to be more creative and substantive in 
addressing what we can do to create a more favorable positive 
atmosphere, so that if there are violations they can 
immediately be taken care of within the global trading 
framework and you don't face retaliation and you don't have to 
worry about unfair competition.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman, and 
congratulations, Senator Clinton. We've worked together on the 
Super Fund Committee you chaired and I was the ranking 
Republican and I always found you to be very prepared, very 
thorough, very thoughtful, and I'm sure you're going to bring 
all of those same things to the State Department.
    Senator Clinton. Thank you very much, Senator.
    Senator Barrasso. Senator Shaheen was apologizing for being 
parochial. I'll be a little parochial because the people of 
Wyoming, as I travel around, want to make sure that the foreign 
aid we spend, especially in light of the U.S. economy today, is 
being used so that people are really getting value for their 
money and that we are safeguarding U.S. taxpayer dollars.
    Could you talk a little bit about how to balance allocating 
foreign aid and making sure that American taxpayers are getting 
value for their money?
    Senator Clinton. Well, Senator, I appreciate very much your 
interest in these issues and I have enjoyed my relationship 
with you since you arrived in the Senate and look forward to 
working with you.
    I want to be able to go to Wyoming or go to New York or 
Massachusetts or Indiana or New Hampshire, anywhere in America, 
and explain why the relatively small but important amount of 
money we do spend on foreign aid is in the best interests of 
the American people, that it promotes our national security and 
advances our interests and reflects our values.
    To be able to do that, I have to make sure the State 
Department and I in particular tell the story about what we do 
and why. I mean, you and other members of this committee often 
travel and see the results of the work, but it's very difficult 
to convey that to the rest of our country and I will look for 
better ways through public diplomacy in telling our story 
overseas and better ways here at home through my own efforts to 
explain what we do to our fellow Americans.
    But I think it also has to be part of an overall review of 
how we conduct foreign aid, how we fund it, who's responsible 
for it, which is why I decided to have the second deputy, Jack 
Lew, that will be responsible for resources and management, 
because I want somebody to be able to come up and talk with you 
about very specific ideas we have about how to make foreign aid 
more effective.
    It's pretty divided and I think we have degraded the 
capacity of USAID over the last years to be our premier aid 
development organization and a lot of what's been drifting 
toward the Defense Department, as Senator Webb said, is foreign 
aid in a traditional way.
    When a young Army captain gets cash to go build a school 
that's foreign aid. That's not war-fighting. That's something 
that we always thought of as development assistance. So we've 
just got to do a better job of trying to explain and justify 
and rationalize and make efficient what we do, so that, you 
know, if I'm fortunate enough to come to Wyoming and I can go 
to some townhall or forum with you, you know, in a year or two, 
I'll be able to explain what we're doing, why we're doing it, 
and why it makes a difference to the people who are there.
    Senator Barrasso. Well, consider yourself invited.
    Senator Clinton. Thank you.
    Senator Barrasso. Another issue people in Wyoming will ask 
about when you come visit is management reform at the United 
Nations and the money that American taxpayers are spending 
there. Do you have some thoughts on that?
    Senator Clinton. Well, this is another priority of the 
President-elect and I know you'll be speaking with the 
Permanent Representative to the U.N.-designee in a day or two.
    The U.N. must reform. It has to be more transparent, more 
efficient, and we are going to press for those kinds of 
changes. At the same time, the United States has to be a good 
partner with the U.N. so that if we use the U.N., as we do, for 
peacekeeping or other actions that we believe are in the best 
interests of the United States as well as the United Nations, 
we're going to have to bear our burden.
    So this is really a two-track commitment. We've got to work 
with our partners at the United Nations as well as the 
permanent bureaucracy there to do everything we can to try to 
streamline the operations, modernize the systems, make them 
more transparent, and then we have to be sure we do our part so 
we don't lose credibility as we push that reform agenda.
    Senator Barrasso. Moving on to Iran, and I know you've 
addressed it earlier. In your article, ``Security and 
Opportunity for the Twenty-First Century'' you said, ``If Iran 
is in fact willing to end its nuclear program, renounce 
sponsorship of terrorism, support Middle East peace, and play a 
constructive role in stabilizing Iraq, the United States should 
be prepared to offer Iran a carefully calibrated package of 
incentives.''
    Do you have a clear path in your mind of how to get from 
where we are today, where Iran appears to be continuing toward 
the development of nuclear weapons, and continues to spew forth 
hatred of Israel, to get to a point where these things would 
apply?
    Senator Clinton. Well, Senator, there's a policy review 
that is being undertaken by the incoming administration. We are 
still being briefed by the outgoing administration. We don't 
yet have a full picture of all of the information that the 
current administration has within its control. So we will be 
working together across government lines through the National 
Security team to devise a new approach.
    The President-elect called for such a new approach just 
over the weekend in some interviews that he did and we are very 
open to, you know, looking to find a positive, effective way of 
engaging Iran.
    However, as I said to the chairman, a nuclear-armed Iran is 
not acceptable to the United States. It is our job to persuade 
other countries that it should not be acceptable to them 
either, to consult with our friends and allies in the gulf who 
have as much or more at stake than anyone and certainly with 
Israel that views a nuclear-armed Iran as a grave threat, so 
that as we move forward with any new approach or effort at 
engagement we are bringing our friends and allies along with 
us.
    We're not surprising anybody because Iran, with its litany 
of terrorist sponsorship and interference with other countries' 
internal affairs and certainly the role that it's played 
destructively from our view in Iraq and so much else, as you 
know, is a concern not just to the United States and Israel. 
It's a deep concern to many other nations and so we want as 
broad a base as possible as we try to devise a way forward.
    Senator Barrasso. Thank you. I would like to shift to 
discussing policy with Cuba.
    As you know right now, we have strict laws and regulations 
limiting economic transactions with Cuba, with relatives of 
folks who are here. Any thought on lifting restrictions on 
family visits and remittances to Cuba?
    Senator Clinton. Well, Senator, the President-elect is 
committed to lifting the family travel restrictions and the 
remittance restrictions. He believes, and I think it's a very 
wise insight, that Cuban Americans are the best ambassadors for 
democracy, freedom, and a free market economy, and as they are 
able to travel back to see their families that further makes 
the case as to the failures of the Castro regime, the 
repression, the political denial of freedom, the political 
prisoners, all of the very unfortunate actions that have been 
taken to hold the Cuban people back.
    You know, our policy is, first and foremost, about the 
freedom of the Cuban people and the bringing of democracy to 
the island of Cuba. We hope that the regime in Cuba, both Fidel 
and Raul Castro, will see this new administration as an 
opportunity to change some of their typical approaches, let 
those political prisoners out, be willing to, you know, open up 
the economy and lift some of the oppressive strictures on the 
people of Cuba, and I think they would see that there would be 
an opportunity that could be perhaps exploited, but that's in 
the future whether or not they decide to make those changes.
    Senator Barrasso. I appreciated some of the comments you 
made earlier about the Strategic Arms Reduction Treaty. I know 
you're working with Senator Lugar and others on the committee. 
You spoke strongly about verification and ongoing monitoring 
provisions to make sure that these policies continue.
    I wonder about differentials in terms of the negotiated 
outcome regarding what the United States concedes and what 
other countries give up in order for us to agree on signing 
these treaties.
    Could you talk a little bit about that and what standards 
we will hold other countries to? Could you also address, How do 
we make sure that one country's understanding of the terms and 
conditions of a treaty is the same as our understanding?
    Senator Clinton. Well, I think that's a very good point.
    You know, the history of arms control with first the Soviet 
Union and then Russia, I think it's fair to say and, of course, 
Senator Lugar is the expert on this, has been a history of 
success, by and large. Even in the midst of the cold war, there 
were negotiations that led to arms control agreements and 
certainly it is our hope that the United States can once again 
be a leader using the number of warheads and the threat of or 
making sure that we have no remnants of cold war command and 
control issues and the like.
    We are very serious about negotiating and are willing to go 
lower, so long as the Russians are as well, and that the 
deterrent that we have we always believe is adequate. We won't 
really know, Senator, until we get into these negotiations, but 
they're going to be on a fast track because the START 
Agreement, as you know, expires at the end of this year. So 
we've got to get serious and get involved and we will have a 
negotiator named so that we can start almost immediately.
    Senator Barrasso. Thank you, Senator Clinton. Thank you, 
Mr. Chairman. My time has expired.
    The Chairman. Thank you very much, Senator.
    I'll take a round now and then I see Senator Feingold is 
here. I don't know if there are any other folks who are going 
to look for a second round. If there aren't, then maybe I'll 
let Senator Feingold go and then we'll just stay focused and 
wrap up on a series of questions.
    Senator Feingold. Well, thanks so much, Mr. Chairman. Thank 
you for your patience, Senator Clinton. Just a couple other 
topics.
    You and I discussed Somalia and I've been long concerned 
about the deepening crisis there, particularly its implications 
for our national security.
    Just this last month, several senior officials, including 
CIA Director Hayden and Joint Chiefs Chairman Mullen said that 
al-Qaeda is extending its reach in Somalia and engaging 
extremists there to revitalize its operations.
    As I told you, I met with many leading figures in Somalia 
during a recent December trip to Djibouti. Those meetings 
reinforced my belief that, while Somalis are a moderate people, 
the situation is now far worse than it was 2 years ago and the 
current administration's approach to Somalia is at least partly 
to blame.
    What's your view on what's gone wrong with that and how we 
can fix it? Give me a little sense of what you think some of 
the key components are, understanding you haven't had a chance 
to get into all of this at this point.
    Senator Clinton. Senator, as you and I discussed, Somalia 
is strategically located. I think it was you who asked me if I 
knew how far Yemen was from Somalia. If it wasn't you, it was 
some smart person who asked me that.
    Senator Feingold. I didn't know. I had asked my staff and I 
was quite surprised to learn it was 20 miles.
    Senator Clinton. Twenty miles, and so the idea that Somalia 
is just a failed state somewhere over there where people are 
fighting with one another over heaven knows what is a construct 
that we adopt at our peril.
    I don't know the most effective way forward. I have no 
wisdom on this, Senator. I know you met in Djibouti over a 
period of a couple of days with a number of the actors. As you 
know, the Ethiopian troops are leaving. The African Union 
commitment is questionable as to whether they will or will not 
stay and what their mission description would be.
    The internal conflict within the groups in Somalia is just 
as intense as it's ever been, only now we have the added 
ingredient of al-Qaeda and terrorists who are looking to take 
advantage of the chaos and the failure of Somalia. There's a 
lot of history here and I think we have to be very thoughtful 
as we look at Somalia.
    This is obviously an issue that will have to be worked 
across the national security apparatus and I would welcome your 
advice. You probably have as much firsthand knowledge of the 
players and what they intend and who they are and what they're 
really looking for as anyone, you know, in this body and so 
we're going to seek your advice and counsel.
    I mean, as the chairman well remembers, at the beginning of 
the last Democratic administration there was a humanitarian 
mission in Somalia that was handed off and the beginning of 
this Democratic administration here we are once again with the 
remnants of a humanitarian mission and certainly the 
humanitarian crisis growing that is going to put this problem 
in the lap of the new President.
    Senator Feingold. Exactly.
    Senator Clinton. So I think that this is going to require 
an enormous amount of thought.
    Now, complicating it, as you well know, is the piracy 
issue.
    Senator Feingold. Right.
    Senator Clinton. There's been a number of consultations 
about piracy. The current thinking is that pirates will be 
intercepted and defended against as a kind of joint 
responsibility between the private shippers who have to do 
more, frankly, for their own--the security of their own 
vessels, but also various navies that are, you know, coming 
together, including China and India, who are willing to patrol 
the waters.
    There's also some talk about going ashore, this is a 
problem Thomas Jefferson dealt with, along the Barbary Coast, 
you know, just kind of going to prove that the more things 
change the more they stay the same. There's some who advocate 
going ashore on Somalia.
    We have to give a lot of thought to this and there's an 
enormous number of bad options that have to be sorted through. 
So I am not at all able to give you the new administration's 
policy because we're sorting it out ourselves.
    Senator Feingold. I can tell you're eager and very ready to 
take this on.
    Senator Clinton. Yes, indeed.
    Senator Feingold. I look forward to working with you. Let 
me switch to something completely different.
    There's widespread recognition of the need to build a more 
robust and effective Diplomatic Development Corps and as a part 
of that effort, of course, it makes sense to consider ways to 
address challenges faced by the Lesbian, Gay, Bisexual and 
Transgendered employees, particularly relating to domestic 
partner benefits and State Department policies that make it 
difficult for the partners of Foreign Service officers to 
travel and live in overseas posts.
    What would you do as Secretary of State to address these 
concerns? Will you support changes to existing personnel 
policies in order to ensure that LGBT staff at State and USAID 
receive equal benefits and support?
    Senator Clinton. Senator, this issue was brought to my 
attention during the transition. I've asked to have more 
briefing on it because I think that we should take a hard look 
at the existing policy.
    As I understand it, but don't hold me to it because I don't 
have the full briefing material, but my understanding is other 
nations have moved to extend that partnership benefit and we 
will come back to you to inform you of decisions we make going 
forward.
    Senator Feingold. Thank you, Senator. Thank you, Mr. 
Chairman.
    The Chairman. Thank you very much. Thanks, Senator.
    Well, we're sort of getting to that point now where I think 
we can address some loose ends and maybe even, you know, sort 
of have some fun and dig into things a little bit here in ways 
that we can't otherwise, but we promise not to prolong it and 
we'll try and remain focused on those things that are really 
salient here.
    Let me begin with Afghanistan, if I may. I am deeply 
concerned that at least thus far, our policy in Afghanistan has 
kind of been on automatic and I made a promise to myself a long 
time ago that I would not see all of our conflicts, ground 
operations in the context of Vietnam. I really try hard. I have 
an automatic check that says not everything is that.
    But I have to tell you in the several visits I have now 
made, escape it as I might, the parallels just really keep 
leaping out in so many different ways. We are struggling to 
fight with and for people of a different culture, different 
language, different custom, different history, different 
religion, if any, and all of those similarities exist.
    We don't live there. We don't live in the community, in a 
hamlet, in a small town--pocket--whatever you want to call it, 
and so we're not there often at night, they are, and the night 
often rules with insurgencies.
    The complications are profound in both Pakistan and 
Afghanistan and I went to both and to India immediately after 
Mumbai and was really struck by the extraordinary distance we 
have to travel in both places, Senator. That is the center of 
the war on--I've got to check myself. I hope this 
administration and all of us will begin to think differently in 
this terminology of war on terror and think in terms of the 
global counterinsurgency and the difference between 
counterinsurgency and counterterrorism and the challenges that 
we face in addressing both and understanding them both.
    One person made a very interesting comment to me while I 
was over there and said, ``You know, Pakistan is a government 
without a country and Afghanistan is a country without a 
government,'' and if you stop and think about sort of the real 
application and no insult meant to anybody, President Karzai is 
a friend, we've all met with him, we want his success, but 
there are inherent contradictions in the structure that we have 
been trying to impose in Afghanistan and more and more as I 
travel that part of the world, I served most recently as chair 
of the Subcommittee on Mideast, Southeast Asia, so I was 
frequently there, it kept leaping out at me in ways that over a 
number of years here I really, frankly, hadn't given enough 
consideration to, but recently reading a wonderful book which I 
commend to you by Rory Stewart, ``The Places In Between,'' and 
another book, ``The Forever War,'' and there are a whole host 
of them that really give you the flavor of this, if you really 
wanted--I mean, Gertrude Bell, ``The Desert Queen'' is a 
fascinating study of sort of the region and of tribalism and 
that's really what I want to point to.
    We have not--I think we honored tribalism when we dealt 
with the Northern Alliance and initially went in to 
Afghanistan. We really haven't adequately since and it strikes 
me that if we just put troops, plunk them down, another 20-
30,000 in Afghanistan, without a very limited view of what they 
can achieve and need to do, and the comprehensive view of other 
things we need to do to build the successful structures of 
governance, the police, the judiciary, which may be a pipe 
dream, the construction programs, the ability of Hamid Karzai's 
government, as well-intentioned as he may be and as much as we 
like him, the ability to even get out of Kabul and be able to 
do anything in the countryside, I think, Madam Secretary-
designate, we're on the wrong track and I think, unless we 
rethink this very, very carefully, we could raise the stakes, 
invest America's reputation in a greater way as well as our 
Treasury and wind up pursuing the policy that is, frankly, 
unpursuable, unachievable.
    So I'd like to sort of elicit your thoughts on this. I was 
in Peshawar a few weeks ago. I learned that, and some in 
Pakistan would disagree with this and I'll probably hear from 
some of my friends there, but many people believe that it would 
not be hard for the Taliban to move in there if that's the 
decision they decided to make.
    It was so dangerous that we were not able to move into 
downtown and other areas and we just saw last week 600 Taliban 
cross the border from Afghanistan and came in and directly 
attacked a frontier core military outpost.
    I think anybody who has really traveled on the ground, 
listened in the right ways and not just accepted the sort of 
briefing culture will suggest to you, respectfully, Madam 
Secretary, this really has to be rethought very, very 
carefully.
    Our original goal was to go in there and take on al-Qaeda. 
It was to capture or kill Osama bin Laden. It was not to adopt 
the 51 States of the United States. It was not to try to impose 
a form of government, no matter how much we believe in it and 
support it, but that is the mission, at least as it is being 
defined today.
    So I'd like to ask for your thoughts on this as you engage 
in what will obviously be a very hasty and important critical 
review and some judgments that we need to make about our 
policy.
    Senator Clinton. Well, Mr. Chairman, I think that your 
cautions are extremely well taken.
    There is, as you know, a review going on right now under 
the direction of General Petraeus through CENTCOM. As I 
understand it, he has approximately 300 people, some of them 
detailees from the State Department, who are criss-crossing 
Afghanistan trying to determine, as I understand it, what is 
and isn't feasible.
    We are in close communication with General Petraeus. We 
intend to, when it's appropriate, on January 20, to begin our 
own immediate review because I share your concern, as I know 
the President-elect does. You know, his approach toward 
Afghanistan, which has been more for more, you know, more 
troops would go in but there would have to be more from NATO 
and there'd have to be more from Afghanistan, you know, 
presupposes that we have a set of discreet goals that we are 
trying to achieve and that is in the process of being assessed 
and analyzed right now.
    As you're aware, President Bush had inside the White House 
General Lute who was largely responsible for coordinating 
policy with respect to both Iraq and Afghanistan.
    So the Bush administration has put a lot of assets to work 
on trying to determine what is the best way forward with 
Afghanistan and how do we effect the future of Pakistan, the 
decisions that they make, but I think that asking the hard 
questions and raising the red flags is exactly what this 
committee I know will do and should do.
    Sitting here today, when I think about my trips to 
Afghanistan, my flying over that terrain, my awareness of the 
history going back to Alexander The Great and certainly the 
Imperial British Military and Rudyard Kipling's memorable poems 
about Afghanistan, the Soviet Union which put in more troops 
than we're thinking about putting in, I mean, it calls for a 
large dose of humility about what it is we are trying to 
accomplish.
    Having said that, I think that we will keep you informed as 
we move forward and on the civilian side, I hope that we will 
have the opportunity for more indepth conversations. I mean, 
I've been both on both sides now of the table here and there is 
so much to discuss and there's so much expertise on this 
committee, people who have traveled widely, thought deeply, 
know a lot of the players, and I hope that, you know, if I'm 
confirmed, that I'll be able to have you and others literally 
sitting down and talking with the people that we're going to be 
tasking to come up with the civilian side of this strategy so 
that we go in with our eyes open, whatever it is we're trying 
to achieve.
    The Chairman. Well, I really appreciate that. I don't 
expect you to be able to lay out that strategy now.
    I would say that I think it's important perhaps for the 
administration, the incoming administration, to not just have 
the review process that's been put in place be the only 
standard for a baseline, and I think we need to make certain 
that there's a subsequent expectation with regard to that. I 
think it would be a mistake to just do that. I think you'd 
probably agree with that.
    Second, with respect to the current military operations, I 
spent a lot of time in a couple of briefings that we're not 
allowed to discuss in public here, but trying to really get at 
this question of the targeting with respect to the Pakistan, 
the Fatah, and our efforts to take out terrorists in that area.
    There has been a considerable blow-back and, I think, 
counterproductivity in the collateral damage that has been 
occurring there and I hope that you would also agree to really 
dig into that and take a look at whether or not all of that 
targeting is in fact as purported to be and as important as 
suggested because I think we're creating some terrorists and 
losing some ground in the effort to win hearts and minds, as 
they say.
    Senator Clinton. Yes, sir. We will.
    The Chairman. On the situation with Pakistan, they not only 
face the challenge of the insurgency in the country, they have 
a dire economic crisis, also, and in many ways the economic 
crisis may be just as challenging.
    After I went over with Senator Biden and Senator Hagel last 
year, we came back and proposed a tripling of the aid to $1.5 
billion a year over the course of a number of years, and I 
wonder, can you say today that the administration remains 
absolutely committed to that because we want to try to move 
that as rapidly as we can?
    Senator Clinton. Yes, the President-elect does support the 
legislation that you were part of and Vice President-elect 
Biden and I think Senator Lugar was, as well.
    The Chairman. Correct.
    Senator Clinton. And we want to try to begin to some extent 
to separate our military aid from our non-military aid.
    The tripling of the nonmilitary aid is intended to provide 
resources that will both support the Pakistani people but also 
give some tools to the democratically elected government to try 
to start producing results for the people of Pakistan.
    The military aid. We want to, you know, really look hard at 
seeing whether we can condition some of that on the commitment 
for the counterinsurgency/counterterrorism missions. So we 
certainly are inclined to support, when appropriate, the 
legislation that you are referring to.
    The Chairman. And this is going to take a very significant 
hands-on effort, as I think you know. We've been obviously 
reading about, hearing about the potential of special envoys, a 
series of them.
    Do you want to address that at all today?
    Senator Clinton. Well, no final decisions have been made. 
That is a tool that I think you'll see more use of. I believe 
that special envoys, particularly vis-a-vis military commands, 
have a lot to recommend in order to make sure that we've got 
the civilian presence well represented and in other areas that 
are hot spots that will demand so much time that we need to put 
someone well experienced and expert to work on it.
    So we are working through that and again this is an area 
that we will be coming back to you with.
    The Chairman. You know, I just noticed Senator Vitter is 
back. I don't want to--I've gone over my time a little bit 
because we were sort of in a wrap-up. Did you----
    [No response.]
    The Chairman. OK. Fine. I was stunned in India, Pakistan, 
and Afghanistan to learn that our principal diplomats in that 
region do not get together to compare notes.
    I was also shocked to learn that our Intel folks likewise 
don't do the same. That is just to me absolutely mind-boggling.
    Senator Clinton. Right, right. Well, Mr. Chairman, these 
are among the challenges that we intend to take on. Trying to 
create more of a regional perspective and a functional 
approach, instead of being caught in the boxes that people 
unfortunately too often feel imprisoned by, so that there are 
certain lines preventing you from actually communicating with 
your fellow American diplomat across that line or Intel or 
whatever.
    You know, I don't have the experience that you have over 
the years on this committee and even before, but in my travels, 
I did see the results of that kind of compartmentalization and 
we're going to try to break that down. We're going to try to 
use the bureaus more effectively.
    The Chairman. Wonderful.
    Senator Clinton. So that they can be encouraging that. I've 
been--you know, George Marshall, who made it clear he didn't 
ever want a memo longer than two pages, and others who have 
advised me to begin to break down the kind of paper culture 
that exists and try to get people more focused on action items 
and one of those is more communication back and forth among 
those who are American representatives in regions of interest 
and concern to us.
    The Chairman. Well, I'm delighted to hear you say that and 
I think that's exactly--doing it through the bureaus is 
precisely an easy way to do it and that way you'll know 
ultimately what is happening, I think.
    Senator Isakson raised a question about the Hamas political 
strategy and compared it to Africa and I just--I want to flag 
something for you because the history of the last years in the 
Middle East and what's going on in Gaza today and the divisions 
between Hamas and Fatah, the division in the West Bank, in my 
judgment, reflects again a stunning consequence of a lack of 
engagement and a lack of thinking about sort of common sense of 
how things work.
    I had the privilege of being in the West Bank the day, the 
morning after President Abbas was elected in 2005 and I met 
with him in Ramallah in that old headquarters and we spent some 
time together and he looked at me and he said, ``You know, 
Senator, I know exactly what you expect of me. I have to disarm 
Hamas. Now you tell me how I'm supposed to do that. I have no 
radios. I have no cars. I have no police and Hamas has the 
ability to walk up to a door and deliver $20,000 value to 
somebody who's blown up the widows or orphans of a family of a 
suicide bomber.'' They delivered the services and we for years 
have talked about the creation of a legitimate partner for 
peace and yet we've done almost nothing to fundamentally help 
them deliver that capacity.
    So my hope is--I mean, I don't--I fear--I mean, Israel has 
all the right in the world and we are totally supportive of the 
patience they've shown, the forbearance over 10,500 rockets, 
the fact that Hamas broke the cease-fire. We understand the 
need to deal with Hamas, but we also have to recognize the 
threat here that Hamas may in fact wind up being more powerful 
than Fatah as a consequence, and the question is, Has this 
further set back the ability to create that legitimate partner 
for peace?
    Would you comment perhaps on--you did a little bit in your 
opening, but I think it would be worthwhile getting a better 
sense of how you see the play there and the endgame, if you 
will, with respect to Hamas.
    Senator Clinton. Well, you know, we are at a point where 
the current administration is working very hard behind the 
scenes and in front of the scenes and we don't want to say or 
do anything that might interrupt or undermine what they are 
doing.
    I think your point, though, is incredibly important and 
that's why earlier I mentioned the work that General Jones had 
done in which he was part of a bottoms-up approach, working 
with Abbas, Fayed, and others in the West Bank, and there were 
results. That's what's so tragic, is that more effort earlier, 
more sustained, more targeted. It got to the point where the 
Israeli Defense Force was willing to turn over security to 
members of the Palestinian Force that had been under the 
training of this team that General Jones put together.
    The Chairman. General Dayton.
    Senator Clinton. Yes, General Dayton was on the ground. 
There's so much more we have to do and obviously we do support 
Israel's right to defend itself and we do understand and 
appreciate what it must be like to be subjected to rocket 
attacks and Hamas did break the cease-fire and they have no 
intention, at least so far as we can tell, of entering into 
another cease-fire at this moment and the rockets are still 
being launched.
    So I think that working toward a durable cease-fire is 
going to be an initial challenge, if it's not achieved by the 
time that the President-elect takes office, but that's not the 
answer. The answer is how do we begin to rebuild some sense of 
cooperation and, dare I say, even trust and confidence-building 
measures so we can get back to this work of the slow but steady 
building of the capacity of the Palestinian Authority?
    So I know that General Jones is very committed to that. I 
share that commitment and we intend to look into that as soon 
as we are able.
    The Chairman. Well, I know that's going to be a high 
priority. I know you've already been meeting on it and I don't 
think we need to belabor it here now, but we wish you well with 
that and obviously want to try to be as helpful as we can.
    Just two quick last issues. Again, are there any other 
questions?
    [No response.]
    The Chairman. No. Senator, one thing I do want to ask, if I 
may, and I don't want to belabor it, but it's coming at us 
enormously and that is the question of what we're really going 
to be able to do here with respect to global climate change.
    I was in the Pasdan meeting and I met with all of the 
delegations that I met with in Kyoto and Rio in various years 
and it is stunning to see the transformation in those meetings, 
particularly with the Chinese and with the Low Islands, the 
small islands representatives and with the Indonesians and 
others, with Brazilians with respect to forests and so forth.
    They are scared. They are serious, and what struck me is 
the degree to which everybody is waiting for us to take the 
lead. Now, I say that in one particular context. Recently, a 
group of our top scientists have run computer models and it 
shows that we are well ahead in terms of the effects of global 
climate change of all of the IPC studies today.
    Every single study shows that today our rate of increase of 
emissions is way beyond what is supportable. In the last 10 
years, we are increasing emissions, not decreasing them, four 
times as fast as we were in the 1990s. More chilling is the 
computer modeling they did against the current plans of every 
single country that is planning to do anything and it's not 
that big a group.
    The European Community has a 2020 date of reductions. The 
Chinese have a reduction of intensity, not a specific reduction 
of emissions. The other countries individually have either set 
a loose 2020 goal. Some, like us, have set a 2050 goal, but 80 
percent reduction under the Obama plan but not yet implemented, 
not yet real.
    They took all of these current projections and ran the 
computer models against what is currently happening in the 
science and in every single case it showed that we are not just 
marginally above a catastrophic tipping-point level, we are 
hugely, significantly above it.
    Scientists have now revised the levels of supportable 
greenhouse gas emissions from 550 parts per million to 450 to 
now 350. This had emissions at over 600. This had a temperature 
increase of in the range of 3 to 5-6 degrees if we do business 
as usual over the next few years.
    The results, and I'm not going to go through them all now, 
but the results are on every single level of sea ice, species, 
forest migration, drought, storms, disease, refugees, I mean 
you start adding it up, the consequences in terms of national 
security, human condition on this planet, are simply 
catastrophic. They're devastating.
    So our challenge is going to be even greater than it was 5 
months ago, Senator, or 2 months ago. The perception that we 
can kind of creep at this and perhaps do something this year, 
notwithstanding our economy, is foolhardy and so I hope, I just 
flag it for you, I know that the President-elect has said he's 
going to focus on it, but I'm not sure that everybody in the 
coming administration is completely aware of what a big lift 
this is going to be and how imperative it is that we make 
Copenhagen a success and I simply want to ask your undivided 
focus and leadership on this issue because it is that critical.
    Senator Clinton. Well, Mr. Chairman, you will have it 
because I share your deep concern. You are eloquent in 
describing it and you've been a leader in trying to sound the 
alarm on it for many years.
    As I said, we will have a climate change envoy negotiator 
because we want to elevate it and we want to have one person 
who will lead our international efforts, but I agree completely 
that our credibility leading internationally will depend in 
large measure on what we're able to accomplish here at home, 
and as we heard the President-elect earlier at lunch, he will 
be putting forth a stimulus package that will have some energy, 
renewable energy provisions. So I think that's a good start and 
we have a lot of work to do.
    The Chairman. Senator Menendez, did you have any additional 
questions? You did.
    Senator Menendez. Thank you, Mr. Chairman.
    I was listening to some of the previous questions and I 
just want to make sure, since I made a statement earlier today, 
that I'm right, and if I'm not, I'm happy to be corrected for 
the record.
    It is my understanding that participants and contributors 
to the Clinton Global Initiative have been publicly disclosed 
since its inception and that that will continue to be 
disclosed. Is that a factual statement or am I wrong?
    Senator Clinton. That is correct, Senator.
    Senator Menendez. And those contributors have been listed 
at all times, from press releases to event materials to a whole 
host of other ways in which the public has clearly been 
informed, is that correct?
    Senator Clinton. That is correct.
    Senator Menendez. Now, it's my understanding, too, when I 
looked at this, which is why I didn't dwell upon it in my first 
round of questioning, that the determination has been made that 
there is no conflict of interest, but notwithstanding that, 
that you and President Clinton have been willing to go above 
and beyond in voluntary actions, as relates to both law and 
ethics, to make sure that there is no question. Is that a 
statement of fact?
    Senator Clinton. That is also correct.
    Senator Menendez. Well, Mr. Chairman, what I would hate to 
see is some who would put in doubt what I think it is an 
incredibly important opportunity here and that is to have two 
extraordinary public servants be able to meet the challenges 
our country has in this world.
    The Clinton Initiative has made a difference for people, 
millions of people in this world--1.4 million people, Mr. 
Chairman, now are living a safer life and living lives longer 
and having their lives saved as a result of the HIV/AIDS 
efforts that that Initiative created.
    The cost of medicine to treat children with HIV/AIDS has 
dropped by 89 percent over the last 2 years. Forty of the 
world's largest cities are working with the Clinton Initiative 
to eliminate and reduce greenhouse gas emissions, something 
that the chairman is such a powerful advocate of. Nearly 3,000 
schools are promoting healthier educational environments.
    I would hate for what Nelson Mandela has said is a ``global 
movement where every word spoken, where every partnership 
discovered, where every promise made can have a direct impact 
on the lives of millions of people across our planet for 
generations to come,'' something President-elect, Barack Obama, 
has said is that ``these initiatives help create a model for 
individual responsibility and collective action to the Clinton 
Global Initiative, bringing people together to take on tough 
global challenges.'' In 4 years, you have made concrete 
commitments that have affected over 200 million people in 150 
countries.
    I would hate for that incredible record and opportunity not 
just of what was done in the past moving forward to be 
blemished by some simply for purposes that are far less 
substantive and, in my view, a lot more political, but I think 
it's incredibly important.
    I know that there are legitimate questions and I think that 
those questions have been very well answered, but I can't sit 
in my office watching what is going on and feel with myself 
knowing what this Initiative has done for millions of people in 
this country on things that I critically care about and so many 
members of this committee have and let it go at that.
    So I appreciate your willingness to go above and beyond 
what is both the law and the ethics. I am sure you will 
continue to do so. I have expectations as one member of this 
committee that you will do so and I certainly hope that 
President Clinton's works, while obviously conditioned by the 
agreements that you have all set out, can still be able to move 
forward in a way that those people will be able throughout the 
world to know that America is great because it is good and one 
of its goodnesses is in fact what we do through initiatives of 
President Clinton, like President Carter, and others, as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Menendez.
    Let me just say, I wasn't planning to comment on it, but in 
light of your comment, I'd just close out pointing out, Senator 
Lugar and I and all of us who've looked at this could not have 
more respect for CGI, the Clinton Global Initiative and what it 
does, has accomplished, and I couldn't agree with you more with 
respect to the distinction between that and the questions asked 
it by the Senator from Wyoming.
    That initiative, I think we adequately set forward here, is 
not at issue because there will not be fundraising, there will 
be no foreign donors, and it really doesn't properly fit under 
the questions asked by Senator Lugar.
    In fairness to Senator Lugar and to the thinking of the 
committee, and I think Senator Clinton understands this full 
well, and I'm confident from her answers that she's articulated 
a sensitivity to this which is going to have to be judged by 
the practice and we're going to have to go forward and see, but 
there is a legitimate question and I think, Senator, you'd 
agree that it's hard to distinguish between a donation 
currently made and an acknowledged publicly and a donation to 
be made in the future, a commitment made to but not 
acknowledged publicly and so the effort here is not to cast any 
aspersion on anybody or to suggest any lack of integrity or 
anything like that.
    It is simply to deal with the complicated legal concept of 
an appearance of a conflict of interest. If you are traveling 
to some country and you meet with the foreign leadership and a 
week later or 2 weeks later or 3 weeks later the President 
travels there and solicits a donation and they pledge to give 
at some point in the future but nobody knows, is there an 
appearance of a conflict? Could there be an appearance of a 
conflict?
    That is what I think Senator Lugar is trying to get at. He 
has determined that it is simpler simply to adopt one of the 
options that he's articulated. For reasons you obviously feel 
are important and we understand it, you feel otherwise. You 
have gone beyond the law. You have done things to set up a 
process and really we're going to have to make the process work 
and we're confident that you have put yourself on the line 
today to make that happen. So that's really where we are.
    Senator Menendez. Mr. Chairman, if I may just very briefly, 
my concerns, since you couched them in the context of Senator 
Lugar's questions, is not so much with Senator Lugar. I think 
he did it, as he always does, in a very balanced way. My 
concern is other questions that were raised by other members 
here.
    The Chairman. That's what I was referring to.
    Senator Menendez. Oh, OK.
    The Chairman. Oh, no, no, no. I'm referring to that, but 
I'm simply, as Chair, I want to share in the perceptions, as I 
have from the beginning, that those are things that we make 
judgments about and we honor that and we respect that.
    So let me say that I think this has been a very positive 
and constructive hearing. I think you have acquitted yourself 
with great distinction today. I think people are impressed by 
the versatility and the breadth that you have shown, both in 
the preparation as well as in your own knowledge.
    We really do anticipate trying to move this as rapidly as 
we can and much more importantly, Senator Clinton, we really--
you know, this is an unbelievably important moment for our 
country, for the world, that's waiting for this leadership.
    President-elect Obama, you, the administration, all of us 
are staring at a magnificent opportunity to be able to make 
America what we believe it can be and should be and to bring it 
back in a sense in terms of these global efforts and we are 
excited about the prospect of working with you to make that 
happen.
    So thank you for your time today and good luck to you. We 
look forward to working with you in the days ahead.
    Senator Clinton. Thank you very much, Mr. Chairman. Thank 
you, Senator Lugar.
    The Chairman. Thank you. We stand adjourned.
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Responses of Senator Hillary Rodham Clinton to Additional Questions 
                        Submitted for the Record

         Responses to Questions Submitted by Senator John Kerry

                       role of secretary of state
    Question 1. The new administration will take over at a time of 
extraordinary challenges and opportunities for the country. What do you 
see as the most significant challenges facing the United States, 
immediately and over the longer term? What do you view as the most 
urgent international priorities for the new administration? What do you 
see as the most significant opportunities? What role will the Secretary 
of State play in formulating and advancing U.S. policy objectives? What 
would you seek to accomplish during your first 100 days and your first 
year as Secretary of State?

    Answer. I appreciate these vitally important questions, and I have 
given them a great deal of thought. I have worked to address them in 
the testimony that I will submit to the committee under a separate 
cover. If you believe that submission does not address these issues 
sufficiently, I would be happy to follow up.
                              afghanistan
    Question 2. What is your assessment of the security situation in 
Afghanistan? Has the Taliban gained or lost ground over the past year? 
Has our strategy to date been effective? How can we strengthen our 
efforts?

    Answer. The security situation in Afghanistan is deteriorating and 
the Taliban is gaining ground. President-elect Obama has proposed a new 
strategy for Afghanistan with several elements: First, end the war in 
Iraq responsibly and send additional troops to help complete the 
mission in Afghanistan. Second, provide a major increase in nonmilitary 
aid to Afghanistan. Afghanistan needs a government more able to take 
care of its people's needs--something the President-elect has 
communicated directly to President Karzai. We should help--and we 
should demand accountability. Third, take on the drug trade, which is 
funding al-Qaeda and the Taliban, including the development of 
alternative livelihoods for poppy farmers. Afghanistan has turned into 
a narcostate. Fourth, develop a coherent Pakistan policy. First, that 
means conditioning U.S. military aid on their efforts to close down 
training camps, evict foreign fighters, and prevent the Taliban from 
using Pakistan as a sanctuary. Second, it means tripling nonmilitary 
aid to Pakistan, with a focus on the border regions, and improving the 
lives of the Pakistani people, so that over the long term we are 
reducing the pull of the extremists.

    Question 3. Last February, Defense Secretary Gates acknowledged 
that some NATO members tend to group the wars in Iraq and Afghanistan 
together, and do not share our views on the necessity of European 
participation in ISAF. How does the administration plan to make a case 
for renewed and reinvigorated commitments to Afghanistan, including at 
NATO's 60th anniversary summit scheduled for this April?

    Answer. President-elect Obama and I believe that Afghanistan and 
the Pakistani border are the central front in the war on terror and we 
will make the case to our allies that we must not let Afghanistan 
return to a safe haven for al-Qaeda and the Taliban. The Obama 
administration will seek greater contributions from our NATO allies in 
Afghanistan. We will ask our NATO allies to eliminate national 
restrictions on NATO forces. The NATO force is short-staffed and some 
countries contributing forces are imposing restrictions on where their 
troops can operate, tying the hands of commanders on the ground. The 
Obama administration will work with European allies to end these 
burdensome restrictions and strengthen NATO as a fighting force.

    Question 4. Should we be prepared to participate in negotiations 
with reconcilable elements of the Taliban that are willing to renounce 
al-Qaeda and join the political process?

    Answer. The President-elect and I believe that it is worth 
exploring whether we can create opportunities for progress in 
Afghanistan as we did in Iraq--as does General Petraeus. In Iraq, we 
engaged with tribal leaders and regional leaders, which helped lead to 
the Sunni Awakening that changed the dynamic in Iraq fundamentally. We 
should certainly explore whether similar opportunities exist for 
engagement and collaboration with tribal and regional leaders in 
Afghanistan, including leaders who at one time or another may have been 
affiliated with, or joined forces with, the Taliban. Afghanistan and 
Iraq are very different countries, though. We cannot expect to simply 
export the Awakening strategy used with the tribes of al-Anbar to 
Afghanistan. Any effort to separate moderate Afghans from radical 
elements will have to begin--and be deeply rooted in--the efforts of 
Afghans themselves.

    Question 5. How effective have U.S. development efforts been in 
Afghanistan? Do we need to increase United States economic assistance? 
To what extent are internationally funded projects helping or hindering 
the ability of the Afghan Government to realize an expanded role in 
Afghanistan's development?

    Answer. In December 2001, the Bonn Agreement between Afghans and 
donors established an interim government, and donors were identified as 
lead nations to accomplish specific objectives. Subsequent conferences 
in Tokyo in 2002 and Berlin in 2004 saw donors pledge $4.5 billion and 
$8.2 billion, respectively. Due to uneven commitment among the donors, 
the 2006 London Conference discarded the lead-nation approach and 
adopted the Afghanistan Compact, a contract between the international 
community and the Afghan Government to support a comprehensive approach 
to development. Donors pledged a total of $10.4 billion.
    Since fiscal year 2001, the international community has pledged 
approximately $60 billion in assistance to Afghanistan. The U.S. 
Government has provided approximately $32.7 billion, or 57 percent, of 
the international total.
    We need to improve our development efforts in Afghanistan. The 
President-elect has proposed a policy of ``more for more''--more troops 
and assistance from the U.S. as we seek more from NATO allies, and more 
from an Afghan Government that needs to focus on improving the lives of 
its people. We will request additional nonmilitary aid each year--above 
and beyond what is given now. That money will be focused on initiatives 
dealing with education, infrastructure, human services, and alternative 
livelihoods for poppy farmers and will be accompanied by tougher 
anticorruption measures. We will make sure investments are made--not 
just in Kabul--but out in Afghanistan's provinces. We will tie aid to 
better performance by the Afghan national government, including 
anticorruption initiatives and efforts to extend the rule of law across 
the country.

    Question 6. Versions of the Afghan Freedom Support Act passed the 
House in the 110th Congress, but did not pass the Senate. Do you 
support its passage?

    Answer. The President-elect and I support the goal of providing 
additional assistance to Afghanistan and if the legislation is 
reintroduced in the 111th Congress, we look forward to reviewing the 
legislative language and consulting on it with Congress.

    Question 7. What are your expectations for the scheduled 
Presidential and provincial elections in Afghanistan in 2009? What can 
the United States do to help ensure those elections are free and fair?

    Answer. The incoming administration hopes that the upcoming 
elections go forth smoothly. The U.S. can assist the Afghan military 
and security forces in efforts to prevent violence or disrupt the 
elections.

    Question 8. How do you assess the effectiveness of President Hamid 
Karzai's government? What more should the United States do to try to 
curb the widespread corruption in the Afghan Government?

    Answer. Despite achievements such as the expansion of educational 
opportunities, increased access to health care and improved subnational 
governance, government effectiveness remains low. The Afghan Government 
is plagued by limited capacity and widespread corruption. Efforts to 
improve the effectiveness of the Government of Afghanistan, 
particularly at the subnational level, are a key element of Afghan and 
international efforts to stabilize the country. We need to ensure that 
investments are made not just in Kabul but in all of Afghanistan's 
provinces. We will tie aid to better performance by the Afghan national 
government, including anticorruption initiatives and efforts to extend 
the rule of law across the country. A new strategy in Afghanistan will 
enable us to take the initiative back from the Taliban.

    Question 9. The Afghan National Police (ANP) are still widely 
acknowledged to be plagued by problems that hinder Afghanistan's 
capacity to improve security and development. What is your 
understanding of the current goal for the ANP's end-strength? Do you 
believe that is sufficient? What needs to be done to improve their 
effectiveness, and how can we strengthen efforts to train and equip 
them?

    Answer. The President-elect has said that we must focus more 
attention and resources on training Afghan Security Forces, including 
more incentives for Americans who carry out this mission.
    The end-strength for the Afghan National Police is 82,000, and as 
of December 2008, there were fewer than 76,000 personnel. While it may 
be necessary eventually to raise the ceiling to provide wider law 
enforcement coverage, the immediate goal remains to staff fully the 
police to the level of 82,000 with vetted, qualified, trained, and 
equipped personnel. Once that benchmark has been reached and the 
quality of the police has improved, the Government of Afghanistan and 
the international community will be better able to assess whether to 
increase the ceiling.
    The development and professionalism of the Afghan police have 
lagged behind the army's. Many police operate in extremely dangerous 
environments on the front line of the war against the Taliban, 
conducting missions that are not traditional policing. The Afghan 
National Police has suffered a casualty rate three times that of the 
Afghan National Army. There is no single or easy answer on how to 
improve police effectiveness. Certainly, greater success in the core 
military effort will help create a more permissive environment and 
increase their chances for continued successful development. The Afghan 
National Police are key players in the counterinsurgency equation and 
their development and effectiveness are critically important to 
Afghanistan's future.
    As for specific programs, the Focused District Development and In 
District Reform have shown positive results. These already in-place 
programs provide training and mentoring by international police 
advisers and U.S. military personnel in the police units' home 
districts. Given competing missions, however, we alone cannot meet the 
needs of the police. We must find increased roles for the European 
Police Mission to Afghanistan, which recently announced it would 
increase its staff to 400, and our NATO allies, especially, to act as 
police mentors.
    These initiatives have improved Afghan National Police 
effectiveness and professionalism and I am hopeful that we have a 
dedicated partner in Minister of Interior Atmar.

    Question 10. How do you assess U.S. and Afghan counternarcotics 
efforts to date? What can be done to improve these efforts?

    Answer. The United States, Afghanistan, and other allies have made 
limited progress in reducing opium cultivation, but overall the 
counternarcotics strategy cannot be called a success by any measure. In 
2008, the CIA Crime and Narcotics Center estimated that Afghanistan 
cultivated approximately 116,365 hectares of opium poppy, down from 
140,600 hectares in 2007. This quantity is believed to be enough to 
produce over 1,100 tons of heroin, far exceeding the world demand of 
approximately 400 tons per year. The glut of narcotics has fueled 
increasing addiction rates in Afghanistan, Pakistan, and Iran, and it 
serves to fund the insurgency in Afghanistan. The narcotics trade 
thrives in the anarchic conditions created by insurgents and warlords. 
In return for a portion of the profits, either paid in cash by drug lab 
operators and smugglers or paid in opium by farmers, the warlords 
provide protection for the labs, trucks, and drug markets. Exact 
figures for the black market economy are difficult to obtain, but the 
U.N. estimates that over $100 million will flow from the narcotics 
trade to warlords, drug lords, and insurgents during 2008.

    Question 11. It will be difficult for U.S.-led efforts to stabilize 
Afghanistan to succeed without the full commitment and support of 
Pakistan's Government and security services, but such a high level of 
cooperation may not be attainable as long as Pakistan's relations with 
India reflect a significant element of tension and mistrust. What new 
steps could the United States take to forward regionwide efforts at 
conflict resolution, and which countries would that involve? Would you 
favor the appointment of a special U.S. envoy to South Asia?

    Answer. As the President-elect and I have stated, Afghanistan and 
the Pakistani border are the central front in the war on terror. We 
cannot succeed in Afghanistan without a new and comprehensive strategy 
to deal with al-Qaeda and Taliban militants across the border, and a 
Pakistan policy that conditions assistance to the government while 
increasing direct support for the Pakistani people. Addressing the 
border means implementing a sensible policy toward Pakistan. First, 
that means conditioning U.S. military aid on their efforts to close 
down training camps, evict foreign fighters, and preventing the Taliban 
and al-Qaeda from using Pakistan as a sanctuary. Second, it means 
tripling nonmilitary aid to Pakistan, with a focus on the border 
regions, and improving the lives of the Pakistani people, so that over 
the long term we are reducing the pull of the extremists. The 
President-elect and I have consistently supported bilateral dialogue 
between India and Pakistan that seeks to resolve their longstanding 
differences.
    The United States should encourage India and Pakistan to work 
toward a peaceful settlement of their differences. No final decisions 
have been made on special envoys for South Asia.
                                pakistan
    Question 12. There has been considerable discussion in the United 
States and other Western governments about the ability of Pakistan's 
new civilian government to crack down on extremism. How would you 
characterize the efforts of the Zardari government to crack down on 
extremists? Do you believe that Pakistan's intelligence services have 
severed ties with extremists in the aftermath of this November's 
attacks in Mumbai? To what extent do you believe that Pakistan's 
security concerns vis-a-vis India color their government's policies 
toward militancy in the tribal areas near Afghanistan?

    Answer. President Zardari needs the support of the military to 
improve relations with neighboring Pakistan and India--to include 
addressing historical military ties to extremist groups--and the 
military has sought politicians' support in defending military 
operations in the tribal areas.

    Question 13. It is a delicate balancing act between voicing our 
concerns about the Pakistan Government's counterterrorism strategy, 
while recognizing the many other challenges it faces and working to 
ensure this democratically elected government has every chance to 
succeed. What is our strategy for balancing these interests? How do 
ongoing Predator strikes in the tribal areas figure into this equation? 
Are current U.S. policies aimed at improving security and development 
in Pakistan's Federally Administered Tribal Areas succeeding? How would 
you strengthen our efforts to combat the grave terrorist threat from 
the FATA?

    Answer. We need a stronger and sustained partnership between 
Afghanistan, Pakistan, and NATO to secure the border, take out 
terrorist camps, and crack down on cross-border insurgents. We cannot 
tolerate a safe haven for al-Qaeda terrorists who threaten the American 
people. Pakistan and the international community must commit to a more 
comprehensive approach along the border--one that involves robust 
economic investment and development, good governance and government 
accountability, and enhanced security and law enforcement capacity. If 
Pakistan is willing to go after high-level terrorist targets like Osama 
bin Laden, we must give Pakistan all of the support it needs. The 
United States must also provide more assistance to benefit the 
Pakistani people directly, so that our nations forge a deeper and more 
sustainable partnership.

    Question 14. In September, the Enhanced Partnership with Pakistan 
Act of 2008 was reported out of the Senate Foreign Relations Committee 
by a unanimous vote. The bill calls for building a long-term 
relationship with Pakistan, in part by tripling nonmilitary U.S. 
assistance to $1.5 billion per year. It also would condition certain 
further military assistance and arms transfers to Pakistan on annual 
certifications by the Secretary of State related to Pakistan's 
performance in combating terrorism and strengthening democratic 
institutions. Do you favor such an approach to dealing with Pakistan? 
What can be done to assist Pakistan in dealing with its present 
economic crisis?

    Answer. The President-elect, the Vice-President-elect and I 
supported the Enhanced Partnership with Pakistan Act of 2008 as 
Senators. But this is not a blank check. We should condition some 
military aid on ensuring that Pakistan is taking on the extremists. 
Should the 111th Congress choose to reintroduce a new version of the 
legislation, we look forward to working with this committee and the 
Congress on legislation to help build a long-term relationship with 
Pakistan that combats extremism and supports Pakistan's people and 
democratically elected government.

    Question 15. The congressionally appointed Commission on the 
Prevention of Weapons of Mass Destruction Proliferation and Terrorism 
recently issued a report in which Pakistan was singled out as a 
potential source of a terrorist attack on the United States involving 
weapons of mass destruction. What is your assessment of the safety and 
security of Pakistan's nuclear weapons materials and technologies? Do 
you feel confident that the A.Q. Khan proliferation case is closed, as 
Pakistani officials claim?

    Answer. As Chairman of the Joint Chiefs of Staff Admiral Mullen has 
indicated, we ``don't see any indication right now that security of 
those weapons is in jeopardy, but clearly we are very watchful as we 
should be.'' Pakistan's security forces are professional and highly 
motivated. They understand the importance of nuclear security and we 
understand that they have taken significant steps to enhance it. But 
given the political situation in Pakistan, this is clearly something 
that we must closely monitor as is the commitment of Pakistan to 
nonproliferation efforts. I have not yet been briefed on the A.Q. Khan 
issue that you raise.
                                 india
    Question 16. Supporters of the civil nuclear cooperation agreement 
with India saw the potential to leverage this deal into broader 
cooperation with India. How might the United States make best use of 
its strategic partnership with India to address global and regional 
problems of shared concern, such as international terrorism, poverty, 
and environmental degradation? Is United States-India counterterrorism 
cooperation an urgent and potentially fruitful priority, as many 
suggest?

    Answer. India is our friend and our relations with it are 
deepening. As the world's oldest democracy, we have much in common with 
the world's largest democracy. While the civil nuclear agreement is 
important to both countries, our relationship is and must be bigger 
than one deal. If confirmed, as Secretary of State, I will work to 
fulfill the commitment of the President-elect to establish a true 
strategic partnership with India, increasing our military cooperation, 
trade, and support for democracies around the world. As our 
relationship deepens, the United States and India can work together to 
address global and regional problems of shared concern including 
counterterrorism, poverty, and environmental degradation.

    Question 17. Advocates of the civil nuclear cooperation agreement 
with India frequently argued that it would bring New Delhi into the 
``mainstream'' of the international nuclear nonproliferation regime. 
Does the new administration intend to strengthen nonproliferation 
cooperation with the Indian Government, including by encouraging India 
to sign the Comprehensive Test Ban Treaty? Are there other 
nonproliferation initiatives in South Asia that you might have in mind?

    Answer. The U.S. and India should look ahead to working together to 
meet global proliferation challenges. Although exempting India from 
existing nonproliferation rules carries some risks, we can minimize 
those risks by intensifying our cooperation on nonproliferation 
efforts. The Obama administration will seek ratification of the 
Comprehensive Test Ban Treaty and encourage India to become a party as 
well.

    Question 18. To what extent do you perceive the disputed territory 
of Jammu and Kashmir to be a central cause of regionwide insecurity? 
Taking into account Indian sensitivities, would you favor a more active 
U.S. Government role in helping find solutions to this issue?

    Answer. President-elect Obama and I are very concerned about rising 
tensions in Kashmir: The situation is dangerous for India, for 
Pakistan, for the people of Kashmir, and the peace and stability of the 
world. We must encourage all parties to work toward peaceful 
settlement. The U.S. role in this administration is the same as in 
previous ones: Facilitate settlement, but do not mediate. India and 
Pakistan must work harder to establish greater economic and social 
cooperation in Kashmir. Kashmiris themselves should be the linchpin. 
Kashmir tensions must not divert Pakistan from focus on fighting 
terrorism and rising insurgency along Afghan border.
                                  iraq
    Question 19. Most experts agree that while the level of violence in 
Iraq has declined dramatically in the last 18-24 months, the political 
situation remains far more tenuous. Please provide the committee with 
information on the status of the following reconciliation issues: 
Negotiations over Iraq's petrochemical laws, the implementation of the 
amnesty and de-Baathification laws, U.N. efforts to resolve the status 
of Kirkuk and other disputed territories, and the integration of the 
Sons of Iraq into the Iraqi Security Forces.

    Answer. The President-elect has made it clear that Iraq must do 
more to reconcile its political differences. National hydrocarbons 
legislation continues to languish for numerous reasons, one of which 
remains the differences between Baghdad and the Kurdistan Regional 
Government (KRG) over the development and management of oil and gas 
resources. Prior to enactment of national oil laws, the United States 
has discouraged companies from signing oil contracts with the KRG 
without Iraqi central government approval.
    The Amnesty Law provides for the release of detainees who did not 
commit violent crimes. Review committees have granted approximately 
20,000 detainees amnesty, but only 6,000-7,000 have been released. Iraq 
has enacted, but not implemented, legislation on de-Baathification 
reform. Disagreement between Sunni and Shia continues on whether this 
legislation adequately addresses de-Baathification reform.
    The United States supports the role the United Nations Assistance 
Mission for Iraq (UNAMI) is playing in the process to resolve Disputed 
Internal Boundaries, including Kirkuk. UNAMI is expected to release its 
proposals in February.
    The Sons of Iraq (SOI) program remains an important element of 
security efforts in Iraq. Successfully transitioning the SOI into the 
Iraqi Security Forces (ISF) and other employment remains critically 
important to sustaining recent security gains. In late summer 2008, the 
GOI agreed to transition 20 percent of the approximately 95,000 active 
SOI into the ISF and to facilitate alternative employment for the 
remainder. Prior to this, approximately 20,000 SOI had already 
transitioned into the ISF, other ministries, or other nonsecurity 
education, training, and jobs programs. Of the 95,000, the GOI has 
transitioned over 3,000 into the Iraqi police and over 1,600 into 
private employment.

    Question 20. As the United States changes our mission in Iraq to 
bring our troops home in meaningful numbers and allow for the 
redeployment of additional combat brigades to Afghanistan, renewed 
diplomatic efforts will be crucial to ensuring this transition occurs 
with the least disruption to stability in Iraq as possible. What 
diplomatic initiatives are you considering to help ensure a peaceful 
transition? Do you support the creation of a Standing Conference that 
includes all of Iraq's neighbors?

    Answer. The Obama administration will pursue a diplomatic 
initiative with all of Iraq's neighbors--including Iran and Syria--and 
the U.N. to secure Iraq's borders, isolate al-Qaeda, address Iraqi 
refugee flows, and support national reconciliation within Iraq. It is 
in the interest of Iraq's neighbors and the international community to 
have a stable Iraq that does not become a battleground for sectarian 
tensions and animosities. And we will communicate that. More broadly, 
we have a range of diplomatic tools at our disposal that we can deploy 
to persuade and press Iraq's neighbors to play a constructive role. We 
have let these tools languish in recent years, but they have served us 
well in advancing our interests in other difficult conflicts. They can 
serve us well in Iraq.

    Question 21. Since 2003, it is well known that American efforts in 
Iraq have been hampered by coordination gaps between civilian and 
military efforts, though these gaps have been significantly reduced 
under the leadership of Secretary Bob Gates, Ambassador Ryan Crocker, 
and Generals David Petraeus and Ray Odierno. Please describe the steps 
you and Secretary Gates will take to ensure that the efforts of the 
State and Defense Departments will be as closely integrated as 
possible.

    Answer. The President-elect has repeatedly asserted that we must 
more effectively integrate our military and civilian tools of national 
power in order to have a successful and sustainable national security 
strategy. If confirmed as Secretary of State, I am committed to 
coordinating efforts closely with the Department of Defense in Iraq and 
elsewhere and to instill that culture of cooperation in the Department. 
Secretary Gates and I worked well together during my service on the 
Senate Armed Services Committee and I am confident that we can work 
together to ensure that we continue to close coordination gaps between 
the Department of State and the Department of Defense. In order to 
facilitate that coordination, we must strengthen our civilian capacity 
to operate alongside our military.

    Question 22. Article 24 of the recently approved United States-
Iraqi Status of Force Agreement (SOFA) stipulates that all U.S. combat 
forces shall withdraw from Iraqi cities and towns by June 30, 2009, and 
that all U.S. forces shall withdraw from Iraq by December 31, 2011. 
There are about 30 Provincial Reconstruction Teams (PRTs) and Embedded 
Provincial Reconstruction Teams (ePRTs) in Iraq. How will the removal 
of U.S. combat troops from Iraqi towns and cities later this year 
affect the location and functionality of these PRTs and ePRTs, as well 
as the ability of the U.S. military to provide for their security? How 
viable is the PRT model after December 2011, or even June 30, 2009? By 
what other means can our diplomats engage in provincial and regional 
issues in Iraq?

    Answer. The civilians who are serving in Iraq are making great 
sacrifices for the country and often serve in harm's way. The 
President-elect and I are very mindful of the challenges that will come 
with a drawdown of U.S. troops, and the President-elect has 
consistently said that protection for our civilians in Iraq will 
continue to be a mission for a residual force after a drawdown of our 
combat brigades. But there are no easy solutions to the security issues 
you are describing. Right now, much of the rebuilding is taking place 
under a security umbrella provided by the brave young men and women of 
our Armed Forces. Their departure from critical areas in Iraq will 
certainly change the security calculus. How we deal with this 
challenge--both generally and specifically with respect to PRTs--has 
been and will continue to be the subject of discussions among the 
national security team and with the President-elect.
    The incoming administration will proceed with the following overall 
strategy and core principles, which we will bring to this set of 
security challenges. First, as we all know, Iraq is a sovereign 
country, and the steps we take on security matters moving forward will 
have to be taken in consultation with the Iraqis. We will certainly do 
our best to press the Iraqi Government to combat sectarianism in their 
security forces--and we will tie future training and equipping 
resources to progress on this front. Improved Iraqi security forces 
cannot fully replace U.S. forces in protecting reconstruction 
personnel, but they can certainly help, if the Iraqis step up. And our 
residual force will play a continued force protection role. Second, we 
will take additional steps to help the Iraqi Government consolidate the 
security gains that have been made in the past 2 years--gains that have 
facilitated more intensive and effective rebuilding and aid efforts. 
That will include an intensive diplomatic and political strategy, 
including an effort to forge a comprehensive compact with Iraq's 
neighbors. Third, we will pay particular attention to the humanitarian 
crisis in Iraq, which risks destabilizing parts of the country, 
including an aggressive effort to assist displaced Iraqis. But these 
are serious challenges, and much of this turns on the capacity and 
willingness of the Iraqis themselves.

    Question 23. Article 12 of the SOFA gives Iraq primary jurisdiction 
over U.S. contractors. However, Article 5 of the SOFA defines U.S. 
contractors as persons who ``are citizens of the United States or a 
third country and who are in Iraq to supply goods, services, and 
security in Iraq to or on behalf of the United States Forces.'' Are 
State Department contractors covered by the United States-Iraqi SOFA? 
What impact do you expect the SOFA to have on your Department's use of 
private security contractors?

    Answer. I have forwarded your question to the SOFA negotiators so 
as to be certain that we have the exact right answer.

    Question 24. As a result of the war in Iraq, at least 4 million 
Iraqis have been displaced from their homes as refugees in neighboring 
countries or internally displaced persons (IDPs) within Iraq. 
President-elect Obama has committed to provide $2 billion in 
humanitarian assistance for these refugees and IDPs. Please provide the 
committee information on how the State Department will support Iraqi 
refugees and IDPs under your leadership.

    Answer. America has both a moral obligation and a responsibility 
for security that demands we confront Iraq's humanitarian crisis--there 
may be more than 5 million Iraqis who are refugees or are displaced 
inside their own country. The new administration will seek to form an 
international working group to address this crisis. We will also make 
it a top priority to secure greater regional contributions to 
humanitarian relief, refugee care and integration, and economic 
assistance, and we will make this an important subject on the agenda 
for regional diplomacy with all of Iraq's neighbors. Further, we will 
also fill all of the pledged slots for admission of Iraqi refugees to 
the United States, and we will be open to accept additional Iraqis, who 
took risks to support American efforts in Iraq.

    Question 25. During the three post-Saddam elections, the U.S. 
military was instrumental in providing both security and logistical 
support. What is your assessment of the Iraqi election commissions' 
related capacity at the national and provincial levels? What role will 
the U.S. military play in providing security and logistical support for 
the provincial elections scheduled for the end of January?

    Answer. Unlike prior elections in post-Saddam Iraq, logistics and 
security for the January 31 Provincial Council elections will be Iraqi-
planned, managed, and led. Iraq's Independent High Electoral Commission 
(IHEC), with significant technical support from the United Nations 
Assistance Mission to Iraq (UNAMI), manages elections planning and 
logistics. This includes voter, candidate, and coalition registration; 
ballot design and printing; election center and polling place staffing; 
observer certification; and voter education.
    The IHEC is on schedule to carry out elections on January 31. The 
IHEC's ability to meet its announced February 23 deadline for 
certifying elections results will depend in part on the number of 
elections-related complaints that it must review. The seat allocation 
formula that IHEC has devised, with UNAMI assistance, is complex. 
Ballots are also complicated, with nearly 2,500 candidates appearing on 
the Baghdad Governorate ballot for the 57 council seats there. 
According to State Department reporting from Iraq, despite these 
challenges, the mechanics for a credible election appear to be moving 
ahead reasonably well.
    Iraqi Security Forces (ISF) will provide the lead for all security 
measures required for elections, and the U.S. military will provide 
``outer ring'' and emergency support as needed, as well as any 
necessary support to the ISF for the transportation and security of 
voting materials. The elections High Security Committee, comprising 
senior security officials from the Iraqi Ministries of Interior and 
Defense, the office of the Iraqi National Security Advisor, and the 
U.S. military, has been planning for and advising the IHEC Board of 
Commissioners on security measures.

    Question 26. The Embassy of the United States in Baghdad is, by a 
considerable margin, the largest in the world. About how many 
Americans--diplomats and nondiplomats--are currently working in the New 
Embassy Compound (NEC)? How many diplomats of ambassadorial rank are 
currently assigned there? Are these staffing levels appropriate, given 
the declining military presence in Iraq and the plethora of foreign 
policy challenges facing the United States in the region and beyond?

    Answer. There are approximately 12,500 U.S. diplomats, staff, 
contractors, and grant implementers from State and other civilian 
agencies serving under Chief of Mission authority in Iraq. 
Approximately 1,300 of these individuals are direct-hire USG employees.
    One U.S. Ambassador, Ryan Crocker, is accredited in Iraq. Some of 
the senior mission staff have formerly held ambassadorial appointments 
at other posts. One member of the mission on temporary duty until May 
is accredited as Ambassador to Bahrain.
    If confirmed as Secretary of State, I will work with the President-
elect and other administration officials to determine what the 
appropriate staffing levels should be to pursue the President-elect's 
policies and priorities.
                                  iran
    Question 27. There is deep concern among the United States and its 
key allies about Iran's nuclear program. Some have argued that Iran 
will soon have, if it does not already, the capability to enrich enough 
uranium to create a nuclear weapon. The Bush administration's approach 
has not worked to date. What would the new administration do 
differently? What role do you envision for yourself in this process? 
Under what circumstances would it be appropriate for you or President-
elect Obama to engage in related talks?

    Answer. The new administration will present the Iranian regime with 
a clear choice: Abandon your nuclear weapons program and support for 
terror and threats to Israel and there will be meaningful incentives--
refuse, and we will ratchet up the pressure with stronger unilateral 
sanctions; stronger multilateral sanctions in the Security Council; and 
sustained action outside the U.N. to isolate the Iranian regime. A 
nuclear-armed Iran is unacceptable, and all elements of American power 
are on the table to prevent Iran from obtaining a nuclear weapon--that 
must begin with the power of aggressive and direct American diplomacy.
    The Obama administration will support tough, aggressive, and direct 
diplomacy, without preconditions, with our adversaries. Note that there 
is a distinction between preparations and preconditions. For possible 
negotiations with Iran, there must be careful preparation--including 
low-level talks, coordination with allies, the establishment of an 
agenda, and an evaluation of the potential for progress. The President-
elect has said that he is willing to engage in diplomacy with any 
leader, at a time and place of his choosing, if he believes that it can 
advance America's interests.

    Question 28. The U.S. should support and participate in ongoing 
efforts with our European allies and assemble an international 
coalition that will exert a collective will on Iran so that it is in 
their own interest to verifiably abandon their nuclear weapons efforts. 
We will carefully prepare for any negotiations--open up lines of 
communication, build an agenda, coordinate closely with our allies, and 
evaluate the potential for progress.

  <bullet> Does the administration intend to push for a new round of 
        P5+1 negotiations with Iran over its nuclear program early on? 
        What factors will inform the timing of these negotiations? When 
        these talks occur, how would you seek to structure them to 
        ensure Iran does not use them to stall for time as it continues 
        its uranium enrichment activities? Would you seek to expand 
        negotiations to include other issues of mutual interest, 
        including Iraq and Afghanistan?

    Answer. We will not sit down with Iran just for the sake of 
talking. But we are willing to lead tough and principled diplomacy with 
the appropriate Iranian leader at a time and place of our choosing--if, 
and only if--it can advance the interests of the United States. No 
decisions have been made regarding the timing, configuration, and scope 
of any discussions with Iran, but we will certainly coordinate closely 
with our allies as we move forward.
    Through aggressive diplomacy, we can create new opportunities for 
progress. Even if diplomacy is unsuccessful, we will be better able to 
rally the world to our side, strengthen multilateral sanctions, and to 
convince the Iranian people that their own government is the author of 
its isolation.

    Question 29. In 2007, the U.S. and Iranian Ambassadors to Iraq met 
for three rounds of talks; they have not met since. Would you be 
supportive of continuing these talks? If so, should the dialogue focus 
on Iraq security issues, or be expanded to include other topics, as 
well?

    Answer. As noted above, the incoming administration will support 
tough negotiations with Iran and will be evaluating the best forums and 
interlocutors for that engagement. We have also supported direct 
engagement with Iran as a part of a diplomatic initiative involving all 
of Iraq's neighbors.
    No decision has yet been made on the continuation of the specific 
talks that you identify.

    Question 30. Earlier this year, I and six of my colleagues wrote to 
President Bush, to encourage the establishment of a U.S. interests 
section in Iran. In November, Secretary Rice announced that although 
President Bush had made a decision ``in principle'' last summer to open 
an interests section, the decision would be left to the incoming 
administration. Have you made a decision regarding whether to open a 
U.S. interests section in Tehran?

    Answer. The decision regarding whether to open a U.S. interests 
section in Tehran is under review and no decision has been made yet.
                   israeli-palestinian peace process
    Question 31. The November 2007 Annapolis peace conference did not 
meet its stated goal of concluding a two-state solution to the Israeli-
Palestinian conflict by the end of 2008. How do you assess the 
prospects for the Israeli-Palestinian peace process in light of recent, 
ongoing, and future events? Do you think hopes for quick progress on 
the peace process have been dashed, as some suggest, by the recent 
crisis in Gaza? What has been achieved by the Annapolis process and how 
do you see your role in pushing those efforts forward? Does the April 
2003 Road Map remain the operative mechanism for a two-state outcome?

    Answer. President-elect Obama has pledged to work actively from the 
beginning of his administration to help Israel and the Palestinians 
achieve peace and security through a two-state solution, because this 
is in both parties' interests and because it is the United States 
interests. Throughout 2008, he urged Israel and the Palestinian 
Authority to make as much progress as possible in their negotiations 
that arose out of the Annapolis conference, so that a functioning 
process could be continued in 2009. And indeed, the parties report that 
progress has been made in these talks, which they hope to build upon. 
Our commitment is to help them build on that progress and achieve their 
goal of two states living side by side in peace and security. That 
commitment remains, even in the face of very difficult and challenging 
events, such as the recent events in Gaza and southern Israel. The 
roadmap, with the mutual obligations it places on the parties, remains 
one of the important bases for working toward a two-state solution.

    Question 32. By most accounts, the American-funded training efforts 
of Palestinian security forces have borne some fruit, particularly in 
Jenin and Hebron. Roughly 1,000 Palestinian National Security Force 
(NSF) and Presidential Guard (PG) members have been trained and several 
hundred more are currently undergoing training in Jordan. How do you 
assess the performance of the units that have received American-
supported training? What additional resources are required to continue 
making progress?

    Answer. The Palestinian National Security Force and Presidential 
Guard members who have been trained in Jordan under the auspices of the 
United States Security Coordinator have performed well in early tests 
in Jenin and Hebron. This is an important element of strengthening 
Palestinian capabilities to enable the Palestinian Authority to meet 
its commitments to combat terrorism and maintain law and order, which 
are crucial to ensuring security for Israelis and improving daily life 
for Palestinians. The Congress has provided approximately $161 million 
in funding for this successful program in fiscal years 2008 and 2009. 
If confirmed, I will be consulting with GEN Keith Dayton and others to 
determine appropriate funding levels for this program to continue to 
achieve positive results.

    Question 33. In 2008, there have been a number of high-profile 
missions in support of the Annapolis Peace Process: GEN Jim Jones, GEN 
Paul Selva, and GEN Keith Dayton have served respectively as special 
envoys for Middle East security, roadmap monitoring, and Palestinian 
security coordination, with separate reporting channels to the 
administration. Additionally, former British Prime Minister Tony Blair 
serves as the Quartet's special envoy. Is the current architecture in 
support of the Annapolis process appropriately coordinated, or would it 
make more sense to streamline the various security missions under a 
single full-time high-level envoy?

    Answer. General Jones, General Selva, and General Dayton have each 
played important and constructive roles in advancing U.S. efforts to 
promote peace between Israel and the Palestinians. Former Prime 
Minister Blair has also made an excellent contribution as the Quartet's 
special envoy, promoting economic development and institution-building 
in the Palestinian areas. No decisions have been made about the 
personnel structure we will use to implement our Middle East peace 
efforts, but each of the important functions carried forward by the 
generals and Prime Minister Blair will need to be continued in whatever 
structure we ultimately decide upon.
                         arab peace initiative
    Question 34. Many believe that real progress on the peace process 
will require greater participation and the support of Arab countries in 
the region, many of which attended the Annapolis conference. What role 
do you envision for the Arab states in Israeli-Palestinian diplomacy 
going forward? Do you believe that the Arab Peace Initiative can 
provide a framework for future negotiations?

    Answer. I believe the Arab states have an important role to play in 
advancing efforts to achieve peace between Israelis and Palestinians. 
Their chief means to do so are providing political and economic support 
to the Palestinian Authority, and taking steps toward normalization 
with Israel. The Arab Peace Initiative contains some constructive 
elements which could be important bases for negotiations and for 
proactive steps to give the initiative a more operational character. I 
look forward to discussing these opportunities with Israeli, 
Palestinian, and Arab leaders and encouraging progress in these 
efforts.
                                 syria
    Question 35. Until September, Israel and Syria were talking 
indirectly through Turkish mediation. Many observers believe that the 
talks proceeded as far as they could without direct American 
engagement. Do you believe that a U.S. role in facilitating Israeli-
Syrian negotiations could move those talks forward? Do you support 
direct U.S. engagement if that would facilitate further progress? What 
is the likelihood that the parties will reach an agreement?

    Answer. The United States and Syria have profound differences on 
important issues, and the President-elect and I believe that engaging 
directly with Syria increases the possibility of making progress on 
changing Syrian behavior. In these talks, we should insist on our core 
demands: Cooperation in stabilizing Iraq; ending support for terrorist 
groups; stopping the flow of weapons to Hezbollah, and respect for 
Lebanon's sovereignty and independence.
    The President-elect believes that we must never force Israel to the 
negotiating table with Syria, but neither should we ever block 
negotiations when Israel's leaders decide that they may serve Israeli 
interests. We should engage directly to help Israel and Syria succeed 
in their peace efforts, which both parties have indicated could help 
advance the talks. The prospects of success in these talks are unknown, 
but we are committed to making every effort to help them succeed.

    Question 36. The last U.S. Ambassador to Syria was recalled for 
``urgent consultations'' in the aftermath of the February 2005 
assassination of former Lebanese Prime Minister Rafiq Hariri. Since 
that time, the United States has not had an ambassador to Syria. Do you 
support sending an American ambassador to Damascus?

    Answer. The President-elect and I believe strongly that direct U.S. 
engagement with Syria will advance United States interests. At this 
time, no decisions have been made regarding returning a U.S. ambassador 
to Damascus.

    Question 37. Although the U.S. Embassy in Damascus remains open, 
American diplomats have been heavily restricted since February 2005 in 
their ability to interact with Syrian Government officials, except on a 
narrow range of issues, such as Iraqi refugees. Do you support allowing 
U.S. diplomats more latitude in engaging with Syrian officials unless/
until an ambassador is appointed?

    Answer. We believe that direct U.S. engagement with Syria will 
advance United States interests. I plan to consult with our Chief of 
Mission in Damascus to determine how best to carry out this principle 
in the context of the Embassy's current structure.

    Question 38. The Secretary General of the United Nations, Ban Ki-
moon, announced recently that the Special Tribunal for Lebanon, 
established by the United Nations to try suspects in the assassinations 
of former Lebanese Prime Minister Rafiq Hariri and other Lebanese 
politicians, would begin operations on March 1, 2009. How soon do you 
expect indictments to be issued and trials to begin? There has been 
speculation among some observers that Syria hopes to leverage peace 
negotiations with Israel to earn a reprieve from prosecutions of top 
Syrian officials by the tribunal. What steps have been and should be 
taken to ensure the tribunal is insulated from political interference?

    Answer. The United States should continue to support efforts to 
uncover the truth about the assassinations, and to insulate these 
efforts from political interference. I am encouraged to see that the 
Tribunal will officially begin operations on March 1, but as the head 
prosecutor recently stated, it is unclear when the Tribunal will bring 
indictments. The Security Council established various safeguards to 
ensure an objective and expeditious judicial process. First, it 
includes provisions on enhanced powers, so the Tribunal may take 
independent measures to prevent unreasonable delays. Second, it 
mandated a transparent appointment process of international officials, 
including the judges and prosecutor. Third, it includes provisions on 
the rights of victims to present their views. The Security Council 
explicitly requested that the Tribunal be based on ``the highest 
international standards of criminal justice,'' and I will work with our 
international allies to ensure this pledge is fulfilled.
                         global climate change
    Question 39. At the climate change negotiations last year in Bali, 
and again this year in Poznan, one of the greatest points of 
disagreement between industrialized and developing countries was the 
format and structure of funding mechanisms to support mitigation, 
adaptation, and technology transfer. What do you believe are the most 
useful entities and structures for directing funds to build capacity in 
developing countries to reduce their emissions and manage the impacts 
of climate change?

    Answer. President-elect Obama spoke throughout the campaign about 
the need to develop partnerships and capacity in developing countries 
as a part of a global effort to combat climate change. He believes that 
technology transfer, adaptation assistance, and support for mitigation 
in developing countries are key components of a global climate change 
deal. His administration will pursue mechanisms to achieve these goals 
that are effective, transparent, and provide accountability.

    Question 40. In 1997, the debate over the Byrd-Hagel resolution 
clarified the sense of the Senate that any global climate change treaty 
must secure the participation of both developed and developing 
countries. That sentiment has not changed, and it will guide our debate 
as we approach the Copenhagen climate change negotiations next year. Is 
it the position of the Obama administration that any global deal on 
climate change must secure some type of measurable, reportable, and 
verifiable actions from China, India, and the other rapidly 
industrializing countries?

    Answer. President-elect Obama believes that climate change is a 
global problem that requires a global solution. The Bali Action Plan 
2007 states that the post-Kyoto agreement should include measurable, 
reportable, and verifiable actions by developing countries. The Obama 
administration will pursue such commitments during upcoming 
negotiations.

    Question 41. A number of prominent national security officials and 
organizations have highlighted the security implications of climate 
change, culminating in a November report from the National Intelligence 
Council emphasizing that climate change will intensity food and water 
scarcity, serving as a threat multiplier around the globe. For its 
part, the U.N. has estimated that there may be as many as 50 million 
``climate refugees'' by 2010. How will the Obama administration 
integrate climate change into its national security planning and 
response operations?

    Answer. President-elect Obama agrees that global climate change is 
likely to impact U.S. national security. He has warned that competition 
over resources could lead to conflict and population movements, and has 
called our dependence on foreign oil and gas a national security 
crisis. He plans to fulfill existing legal requirements to integrate 
such considerations into national security planning, and will work with 
Congress to identify and define additional measures as appropriate.
                               terrorism
    Question 42. In July 2008, Secretary of Defense Robert Gates stated 
that ``military efforts to capture or kill terrorists are likely to be 
subordinate to measures to promote local participation in government 
and economic programs to spur development, as well as efforts to 
understand and address the grievances that often lie at the heart of 
insurgencies.'' Many have called for a new approach to terrorism that 
would reconceptualize the ``war on terror'' as a ``global 
counterinsurgency'' that places military action in its proper context 
alongside our moral authority, diplomatic persuasion and development 
assistance. What are your views as to how we can craft a more effective 
worldwide strategy that takes our military operations to capture and 
kill terrorists and folds them into a larger ``information war'' 
designed to win hearts and minds and prevent possible terrorists from 
ever being recruited?

    Answer. I agree with Secretary Gates' assessment. President-elect 
Obama has made it clear that we need a comprehensive strategy to fight 
terrorism that balances and integrates military force, diplomacy, 
intelligence, law enforcement, financial action, economic might, and 
moral suasion. He has also stressed that our capacity must be driven by 
this strategy, saying that while the finest military in the world is 
adapting to the challenges of the 21st century, it cannot counter 
insurgent and terrorist threats without civilian counterparts who can 
carry out economic and political reconstruction missions--sometimes in 
dangerous places. He promised to strengthen these civilian capacities, 
recruiting our best and brightest to take on this challenge by 
increasing both the numbers and capabilities of our diplomats, 
development experts, and other civilians who can work alongside our 
military. This new construct will integrate all aspects of American 
might.
    If confirmed by the Senate, I will also work with the President in 
launching a program of public diplomacy that is a coordinated effort 
across his administration. And as others learn about America's ways 
through their conversations with Americans, American citizens will 
listen and learn about people of other cultures and countries.

    Question 43. President-elect Obama has called nuclear terrorism 
``the gravest danger we face.'' The State Department, along with 
several other agencies, has a critical role to play to address this 
threat. In your view, has the United States done enough in its 
diplomatic relations with other countries to demonstrate the priority 
it attaches to nuclear security and the prevention of nuclear 
terrorism? What additional steps would you take to convey a sense of 
urgency and convince political leaders around the world that the threat 
of nuclear terrorism is real and that immediate steps are needed by 
every government to reduce this danger?

    Answer. Terrorist use of weapons of mass destruction, especially 
nuclear weapons, is indeed the gravest security threat we face today. 
The most effective way of preventing nuclear terrorism is to secure 
weapons-usable nuclear materials at their source so that they are not 
vulnerable to theft or seizure by terrorist groups. The Obama 
administration plans to secure all nuclear weapons and materials at 
vulnerable sites worldwide within 4 years. It will also work to phase 
out the use of highly enriched uranium in the civil nuclear sector, 
strengthen international intelligence and police cooperation to prevent 
WMD terrorism, and help build the capacity of governments around the 
world to prevent the theft or diversion of nuclear materials.

    Question 44. During the campaign, President-elect Obama said he 
would appoint a White House coordinator for nuclear security, 
specifically a deputy national security adviser to be in charge of 
coordinating all U.S. programs aimed at reducing the risk of nuclear 
terrorism and weapons proliferation. What are your views on such an 
appointment? Should that position be Senate-confirmed as required by an 
existing statute? Should it cover all weapons of mass destruction or 
only nuclear terrorism?

    Answer. The Obama administration will follow through on the 
President-elect's campaign pledge to appoint a White House Coordinator 
to address the threat of nuclear terrorism and the proliferation of 
weapons of mass destruction. Among the Coordinator's responsibilities 
will be to exercise budgetary oversight over all U.S. programs related 
to nuclear security and biosecurity.
                  nuclear weapons and the start treaty
    Question 45. As you know, the START Treaty is due to expire on 
December 5, 2009. This treaty has served as a vital mechanism of 
stability and transparency in post-cold-war relations between the 
United States and Russia. The 2002 Strategic Offensive Reductions 
Treaty, or Moscow Treaty, has no separate verification measures, and 
limits deployed U.S. and Russian strategic nuclear warheads to a range 
of 1,700-2,200 for only a single day, December 31, 2012. The Bush 
administration has reportedly shared with Russia a START proposal that 
would, like the Moscow Treaty, limit operationally deployed strategic 
warheads, and would maintain some of the START Treaty's verification 
mechanisms. Do you plan to seek a legally binding replacement for the 
START Treaty that will enter into force by December 5, 2009?

    Answer. The Obama administration will seek deep, verifiable 
reductions in all U.S. and Russian nuclear weapons--whether deployed or 
nondeployed, strategic or nonstrategic. As a first step, we will seek a 
legally binding agreement to replace the current START Treaty which, as 
you point out, expires in December 2009.

    Question 46. If a replacement cannot be ratified and brought into 
force by that time, what options will you consider? Should the United 
States, Russia, and the other States Parties to the START Treaty (e.g., 
Belarus, Kazakhstan, and Ukraine) extend the treaty for 5 years, as 
permitted under Article XVII of the treaty, while negotiations for a 
substitute treaty continue?

    Answer. If an agreement cannot be reached, a mutually acceptable 
means should be found to give the negotiators more time, without 
allowing key measures, including essential monitoring and verification 
provisions, to lapse. Ending the cold war practice of keeping nuclear 
weapons ready for launch on a moment's notice should also be a 
priority, if it can be done in a mutual and credible manner.

    Question 47. In your view, how important is it for a follow-on to 
the START Treaty to lead to further reductions in the numbers of 
deployed and reserve U.S. and Russian warheads? Should those reductions 
go below Moscow Treaty numbers? Should negotiations on a substantial 
follow-on to the START Treaty be delayed until the legally required 
Nuclear Posture Review is completed?

    Answer. The Obama administration plans to set a new direction in 
nuclear weapons policy, one that reflects the changed security 
conditions of the 21st century and that shows the world that the U.S. 
takes seriously its existing commitment under the nonproliferation 
treaty to pursue nuclear disarmament. Such a new direction should be 
fully explored and elaborated in the upcoming Nuclear Posture Review 
(NPR) that is mandated by statute. While some of the key elements of 
the revised approach may not take shape until the NPR is completed, 
negotiations on the next step in the arms reduction process--replacing 
the current START Treaty--can begin even while the posture review is 
underway.
                 comprehensive nuclear test-ban treaty
    Question 48. Both you and the President-elect have expressed your 
intention to work with the Senate to win its advice and consent to U.S. 
ratification of the Comprehensive Nuclear Test-Ban Treaty (CTBT). In 
preparing for such an effort, what are the most important lessons that 
you take from the Senate's 1999 rejection of a resolution of 
ratification on the Treaty? How do you plan to address the substantive 
concerns that were raised in that debate?

    Answer. The President-elect and I are both strongly committed to 
Senate approval of the CTBT and to launching a diplomatic effort to 
bring on board other states whose ratifications are required for the 
treaty to enter into force. A lesson learned from 1999 is that we need 
to ensure that the administration work intensively with Senators so 
they are fully briefed on key technical issues on which their CTBT 
votes will depend, especially the issues of how well the treaty can be 
verified and how well the reliability of the U.S. nuclear stockpile can 
be maintained without nuclear testing. Substantial progress has been 
made in the last decade in our ability to verify a CTBT and ensure 
stockpile reliability. It will be crucial to make sure that the Senate 
receives the best scientific evidence available on these two issues as 
well as on other questions relevant to the merits of the CTBT.

    Question 49. For the last several years, the State Department has 
requested insufficient funding to pay all of our voluntary 
contributions to the Preparatory Commission for the Comprehensive Test-
Ban Treaty Organization (Preparatory Commission). While congressional 
actions have restored some of the funding, this shortfall has impaired 
construction of the International Monitoring System and has jeopardized 
U.S. voting rights at the Preparatory Commission. What are your views 
with regard to allowing sufficient and timely funding to make effective 
contributions to the Preparatory Commission?

    Answer. The Obama administration will fully support the CTBT's 
International Monitoring System, which gives the United States better 
capability to detect and identify very low-yield nuclear tests than we 
would have on our own. We will also support the work of the 
Comprehensive Test-Ban Treaty Organization's Preparatory Commission and 
will want to ensure that it is adequately funded. On specific questions 
regarding the timing and level of U.S. funding, the new administration 
will want to review the situation and consult with Congress on how to 
proceed.
                     fissile material cutoff treaty
    Question 50. The Commission on the Prevention of Weapons of Mass 
Destruction and Terrorism recommends that the United States should work 
``to build international support for the negotiation of a treaty 
halting the production of fissile materials for military purposes.'' 
The Conference on Disarmament for several years has been unable to 
achieve a consensus to allow negotiations to proceed. What importance 
do you attach to finding a way for negotiations on a Fissile Material 
Cutoff Treaty to proceed? What are the roadblocks to progress, as you 
see them, and how might we address them?

    Answer. The President-elect made it clear during the campaign that 
he supports the negotiation of a treaty banning the production of 
fissile material for use in nuclear weapons. Such a treaty could help 
avoid destabilizing arms races in regions such as South Asia and, by 
limiting the amount of fissile material worldwide, could facilitate the 
task of securing such weapons-usable materials against theft or seizure 
by terrorist groups. It would also demonstrate the willingness of the 
NPT nuclear weapon states to fulfill their obligation under NPT Article 
VI to pursue nuclear disarmament. However, for over a decade, the 
Conference on Disarmament has been unable to achieve a consensus to 
allow negotiations to proceed--in part because of the difficulty of 
reaching agreement on a work program but, more fundamentally, because 
some key states wish to continue producing fissile materials for 
nuclear weapons or at least keep open the option for such production in 
the future. The Obama administration will work to build the necessary 
support to get negotiations underway. One step it will take is to 
return to the policy of previous Republican and Democratic 
administrations and end the current policy of declaring that a fissile 
material cutoff treaty should not contain international verification 
provisions.
          nuclear nonproliferation/2010 npt review conference
    Question 51. The Commission on the Prevention of Weapons of Mass 
Destruction and Terrorism recently recommended that the United States 
``should work internationally toward strengthening the nonproliferation 
regime, reaffirming the vision of a world free of nuclear weapons.'' 
The 2010 Review Conference of the Nuclear Non-Proliferation Treaty 
(NPT), which is scheduled for April and May 2010, provides one 
opportunity to pursue that goal. The 2000 Review Conference reached a 
consensus that 13 practical steps should be taken in order to 
demonstrate progress on the arms control and disarmament obligations 
set out in Article VI of the NPT. The 2005 Review Conference ended 
without reaching substantive consensus on next steps. What importance 
do you attach to the 2010 Review Conference, and what steps will you 
take in order to avoid the outcome of the 2005 Review Conference?

    Answer. The President-elect said during the campaign that he 
supports the goal of working toward a world without nuclear weapons. 
The Obama administration will place great importance on strengthening 
the NPT and the nonproliferation regime in general. It will encourage 
all states to support more rigorous IAEA verification measures, tighter 
restrictions on transfers of sensitive technologies, and stronger means 
of enforcing compliance.

    Question 52. Though some of the conditions surrounding many of the 
13 practical steps agreed to at the 2000 Review Conference have changed 
in the intervening years, do you see value in pursuing a comparable set 
of actions at the 2010 Review Conference?

    Answer. The 2010 NPT Review Conference will provide an opportunity 
to reach agreement on such steps. But gaining the necessary support 
among NPT parties will require the United States and the other nuclear 
powers to demonstrate that they take seriously their obligations to 
pursue nuclear disarmament. While the conditions surrounding agreement 
on the so-called ``thirteen steps'' at the 2000 NPT Review Conference 
have changed, support for a similar package of measures at the 2010 
conference could help build the wide support needed to bolster the NPT 
regime.
                                  iaea
    Question 53. The Commission on the Prevention of Weapons of Mass 
Destruction and Terrorism recently concluded that the International 
Atomic Energy Agency (IAEA) ``is constrained in serving as the world's 
nuclear watchdog because its staff is aging and its budget has 
increased little over the past decade.'' The Commission called on the 
United States to ``lead an international effort to update and improve 
IAEA capabilities.'' What steps do you envision taking to address the 
resource constraints facing the IAEA?

    Answer. Especially if the world's reliance on nuclear power 
increases substantially in coming decades, a huge burden will be placed 
on the IAEA to ensure that civil nuclear facilities and activities are 
not diverted to military uses and that nuclear facilities and materials 
are secure against theft or seizure by terrorist groups. The IAEA is 
understaffed and underresourced for the current and growing 
responsibilities placed on it by the international community. That is 
why the President-elect has called for doubling the IAEA's budget over 
the next 4 years. We also favor strengthening the Agency's verification 
capabilities by promoting universal adherence to the Additional 
Protocol and by expanding the Agency's verification authorities beyond 
those contained in the Additional Protocol to provide more effective 
means of detecting clandestine facilities and activities.
                           nuclear fuel bank
    Question 54. The Commission on the Prevention of Weapons of Mass 
Destruction and Terrorism has recommended that the United States should 
lead the international effort to create a bank that would guarantee 
countries a supply of nuclear reactor fuel. The United States has 
already transferred $50 million to the IAEA to support the creation of 
a fuel bank, and the European Union recently agreed to contribute up to 
=25 million to support the effort. But the IAEA Board of Governors has 
not agreed on the mechanisms and rules under which the fuel bank will 
actually operate. What importance do you attach to actually expending 
the funds pledged and bringing the fuel bank into reality? Should there 
be a parallel effort to assure countries of affordable spent fuel 
services?

    Answer. President-elect Obama and I strongly supported legislation 
providing $50 million to the IAEA for the creation of an international 
nuclear fuel bank. We believe the United States should work with other 
countries and the IAEA to put in place new mechanisms, including an 
international fuel bank that would allow countries to benefit from the 
peaceful uses of nuclear energy without increasing the risks of nuclear 
proliferation. An international fuel bank could reassure countries 
embarking on or expanding nuclear power programs that, as long as they 
comply with their nonproliferation obligations, they could reliably 
purchase reactor fuel in the event that their existing fuel supplies 
were cut off. This would reduce any incentives a country genuinely 
interested in nuclear energy might have for going to the trouble and 
expense of building its own enrichment or reprocessing facilities. 
Assuring countries of reliable spent fuel services (e.g., long-term 
storage) would serve the same goal of reducing incentives for acquiring 
indigenous fuel-cycle facilities.
       organization of the state department for arms control and 
                            nonproliferation
    Question 55. The Bureaus of the State Department that report to the 
Under Secretary of State for Arms Control and International Security 
have undergone numerous organizational and personnel changes in the 
last decade. Do you envision taking any major steps early in your 
tenure as Secretary to further alter the organization of the Bureaus 
reporting to this Under Secretary? What steps will you take to ensure 
that, in particular, the Political-Military Affairs Bureau and the 
Verification, Compliance, and Implementation Bureau have the people and 
the resources they need to carry out their important missions?

    Answer. Because President-elect Obama and I place such high 
importance on arms control, nonproliferation, and other political-
military issues, I am giving special attention to the three Bureaus of 
the State Department that report to the Under Secretary for Arms 
Control and International Security. It is essential that those Bureaus 
be well organized and well staffed with first-rate professionals, both 
from the Civil Service and Foreign Service. I am currently reviewing 
the situation and am determined to take whatever steps may be necessary 
to ensure that those bureaus are fully capable of doing the crucial 
work we will be expecting of them in coming years. I will keep Congress 
fully apprised of my plans in this area.
                 u.n. convention on the law of the sea
    Question 56. In 1994, the U.N. Convention on the Law of the Sea 
(the Convention) was submitted to the U.S. Senate for accession and 
ratification. While the Foreign Relations Committee has favorably 
reported this treaty in prior years, the full Senate has not yet taken 
it up. Secretary of State Condoleezza Rice wrote to this committee that 
the State Department supported ``early Senate action'' on the 
Convention. At the time, the administration's Treaty Priority List 
expressed an ``urgent need'' for Senate approval of the Convention. 
More recently, President Obama stated in September 2008 that he will 
``work actively to ensure that the U.S. ratifies the Law of the Sea 
Convention.'' If confirmed, do you intend to make ratification of the 
Convention your top treaty priority at State?

    Answer. The President-elect and I both supported ratification of 
the Law of the Sea Convention as Senators and, as the question notes, 
he has publicly committed to working actively to ensure that the U.S. 
ratifies the Convention.
    The Convention remains an important piece of unfinished treaty 
business. If confirmed, its ratification will be one of my top treaty 
priorities at State, and the new administration will work with the 
Senate to secure approval.

    Question 57. If the Foreign Relations Committee were to report out 
the Convention in the 111th Congress, how would the administration plan 
to work with the Senate to help bring the Convention and Implementing 
Agreement to a successful floor vote?

    Answer. As in the case of any treaty that the President supports, 
the administration would work closely with this committee and the 
Senate leadership on devising and implementing a strategy for 
successful approval of the treaty by the full Senate.

    Question 58. Admiral Mike Mullen, the Chairman of the Joint Chiefs 
of Staff, and Admiral Gary Roughead, the Chief of Naval Operations, 
support approval of the Convention. Admiral Roughead stated to the 
Senate Armed Services Committee that ``accession to the Law of the Sea 
Convention is in our national security interests.'' Do you agree with 
him, and if so, why? What effect, if any, would accession have on the 
U.S. military's ability to conduct ongoing or future operations? Would 
accession in any way restrict efforts to prevent the shipment of 
weapons of mass destruction or any other nonproliferation programs, 
such as the Proliferation Security Initiative?

    Answer. The incoming administration agrees with the Chief of Naval 
Operations, and the other members of the Joint Chiefs of Staff, all of 
whom endorsed the Convention during the 110th Congress. Joining the 
Convention will advance the interests of the U.S. military. As the 
world's leading maritime power, the United States benefits more than 
any other nation from the navigation provisions of the Convention. 
Those provisions, which establish international consensus on the extent 
of jurisdiction that States may exercise off their coasts, preserve and 
elaborate the rights of the U.S. military to use the world's oceans to 
meet national security requirements.
    Joining the Convention will enhance, not restrict, our ability to 
interdict shipment of weapons of mass destruction on the ocean. The 
Convention's navigation provisions derive from the 1958 law of the sea 
conventions, to which the United States is a party, and also reflect 
customary international law accepted by the United States. As such, the 
Convention will not affect applicable maritime law or policy regarding 
interdiction of weapons of mass destruction, their means of delivery, 
and related materials.
    Like the 1958 conventions, the LOS Convention recognizes numerous 
legal bases for taking enforcement action against vessels and aircraft 
suspected of engaging in proliferation of weapons of mass destruction, 
including exclusive port and coastal State jurisdiction in internal 
waters and national airspace; coastal State jurisdiction in the 
territorial sea and contiguous zone; exclusive flag State jurisdiction 
over vessels on the high seas (which the flag State may, either by 
general agreement in advance or approval in response to a specific 
request, waive in favor of other States); and universal jurisdiction 
over stateless vessels,
    Nor will the Convention undermine the Proliferation Security 
Initiative (PSI). PSI requires participating countries to act 
consistent with national legal authorities and ``relevant international 
law and frameworks,'' which includes the law reflected in the Law of 
the Sea Convention. Finally, nothing in the Convention impairs the 
inherent right of individual or collective self-defense (a point which 
is reaffirmed in the Resolution of Advice and Consent proposed by the 
committee in the 110th Congress).
                        national security reform
    Question 59. Last November, a prominent group of experts and 
practitioners from the congressionally mandated Project on National 
Security Reform (PNSR) released a report that called for significant 
improvements in how the U.S. coordinates and implements national 
security strategy and programs. Do you agree that fundamental reform of 
our national security system, structures, and processes is needed so 
that this country can anticipate, prepare for, and respond to the kinds 
of complex and diffuse threats we face in the 21st century? What types 
of reform are required?

[NO RESPONSE RECEIVED ON THIS QUESTION]


    Question 60. National security missions increasingly require inputs 
from multiple departments to be successful. The PNSR report has 
concluded that existing interagency mechanisms are insufficient to 
achieve unity of purpose, effort, and command. Instead, PNSR has 
recommended that we provide interagency mechanisms backed by specific 
legal authorities related to the U.S. Government's capabilities to 
accomplish particular missions. Would you support such efforts? Would 
you be willing to cede authority over some of the assets and resources 
of your Department so that an interagency team can accomplish its 
mission?

    Answer. The President-elect has made it clear that the United 
States must enhance our ability to use, balance, and integrate all 
elements of national power--
military, diplomatic, intelligence, law enforcement, economic, and 
moral--to achieve our national security goals. He has called for the 
process of preparing the National Security Strategy (required by the 
Goldwater-Nichols Act of 1986)to determine the appropriate interagency 
infrastructure to maximize the use of all elements of our national 
power. This exhaustive review will include an examination of force 
sizing, intelligence agencies, and weapons systems, as well as the 
development of long-term plans to deal with emerging threats like 
cyberterrorism. We are aware of the effort of the Project on National 
Security Reform report and we look forward to consulting with Congress 
on the appropriate structure for our national security agencies.
      foreign aid reform and rewriting the foreign assistance act
    Question 61. Many are calling for substantial reform of U.S. 
foreign assistance programs, which have been criticized as fragmented 
and uncoordinated, failing to match resource allocations with strategic 
objectives, inefficient, and lacking capacity to ensure appropriate 
accountability, oversight, and implementation. To what degree are you 
in support of such reform efforts? What would you identify as the 
highest priority areas in need of reform?

    Answer. The President-elect is committed to a strengthened and 
enhanced role for foreign assistance and development in our foreign 
policy, as am I. It is both right and smart for the United States to 
renew its leadership as a nation that seeks to promote opportunity and 
security around the world. To that end, the President-elect has 
committed to doubling U.S. foreign assistance over his first term, and 
I look forward to working closely with the Congress to fulfill this 
goal. The President-elect has said that the current economic crisis 
could slow increases in foreign assistance.
    Our foreign assistance infrastructure must be able to meet the 
challenges we face today while anticipating those in the months and 
years ahead. We should look at areas which can be better coordinated 
and streamlined, and would look forward to engaging the committee on 
ideas for reform. The President-elect has stressed the need for clearer 
leadership and coordination in Washington, and continued efforts to 
prevent abuses and corruption among recipient countries. Similarly, we 
should look at those areas which have proved effective and build on 
those successes, while determining if poorly performing initiatives are 
able to be improved.

    Question 62. Many argue that to increase effectiveness, it is 
important to establish a strengthened and independent development 
agency separate from direct control and budgetary oversight of the 
State Department--a ``USAID 2.0.'' Some would even elevate this 
development agency to a Cabinet-level department. To what extent would 
you support these proposals? Do you believe U.S. foreign assistance 
would be better served operating in an independent capacity? Is it 
worth revisiting the existing USAID operational model in favor of 
something significantly different?

    Answer. USAID, like almost every Federal agency, can be improved. 
President-elect Obama shares the concerns that many members of this 
committee have expressed about the ability of USAID and the other 
government aid agencies to provide help effectively and in a manner 
where foreign nations can sustain the progress that the United States 
helps to bring about. While there have been lifesaving and life-
changing acts brought about by USAID, supporters and critics alike 
believe that the agency can do a better job at fulfilling its mission.
    The President-elect's commitment to a strengthened and enhanced 
role for development in our foreign policy means a reinvigorated USAID, 
playing a central role in the formulation and implementation of 
critical development strategies. We have to make sure that we rebuild 
USAID so that is more nimble in the face of change, less reliant on 
contractors doing work that ought to be carried out by our own 
government professionals, and uses tax dollars responsibly. We are 
still in the process of thinking through the precise organizational 
design--and I look forward to the advice of the committee and the 
Congress as we consider our approach. In moving forward with this 
process, the goal of the President-elect--and my goal--is to enhance 
USAID's capacity and standing to carry out its vital missions.

    Question 63. Others contend that U.S. foreign assistance should be 
closely linked to U.S. foreign policy priorities and should be 
integrated into the State Department's operations to ensure close 
coordination. To what degree should the State Department exert policy 
oversight and control over U.S. foreign assistance programs? How would 
you ensure that development programs retained their distinctiveness and 
were not relegated to second priority status?

    Answer. Efforts to modernize U.S. development and foreign 
assistance programs will require a substantial investment of time and 
effort. But the President-elect believes that these efforts can pay 
significant returns in global stability, security, and prosperity. In 
addition, this modernization will increase accountability, 
transparency, and innovation. During the campaign, President-elect 
Obama pledged to take a look at ways to improve the distribution of 
U.S. foreign assistance, including the possibility of consolidating key 
foreign assistance programs in an elevated and empowered USAID. I can 
assure this committee that, if confirmed as Secretary of State, I will 
look to you for ideas and input. I also look forward to working closely 
with Secretary Gates, General Jones, and other members of the new 
administration on this challenge.
    As for the possible relegation of development programs to a second-
priority status, let me be clear: The Obama administration is committed 
to a robust foreign assistance program.

    Question 64. What can Congress do to support foreign assistance 
reform efforts? Many have called for the Congress to rewrite the 
Foreign Assistance Act of 1961. Do you think this step is warranted? If 
so, what priority areas would you identify in need of legislative 
reform?

    Answer. Congress--and particularly this committee--will play an 
indispensable role in providing advice and guidance about the future of 
U.S. foreign assistance programs. As Secretary, I look forward to 
consulting with the committee about foreign assistance priorities, and 
the implementation of those priorities. No decision has been made about 
the need for legislative reform.

    Question 65. There are at least 26 agencies variously responsible 
for different elements of foreign aid. How would you suggest reducing 
fragmentation and strengthening coordination? Should USAID's mandate be 
broadened to encompass all U.S. development programs (including those 
currently housed in other departments and agencies), as well as all 
humanitarian and post-conflict reconstruction and stabilization 
programs? Should the Millennium Challenge Corporation (MCC) and the 
President's Emergency Plan for HIV/AIDS Relief be placed under the 
umbrella of a strengthened U.S. development agency?

    Answer. The President-elect has committed to coordinate and 
consolidate programs currently housed in more than 20 executive 
agencies so as to enhance effectiveness and accountability. He and I 
are also committed to a restructured, empowered, and streamlined USAID. 
If confirmed, I look forward to working closely with the Congress as we 
review the best way to maximize the impact of these essential programs. 
The administration will review what programs can be consolidated to 
elevate the importance of development in our overall foreign policy, 
and improving budget planning, coordination, and execution.

    Question 66. President-elect Obama has articulated a far-reaching 
and detailed platform to elevate and strengthen U.S. diplomacy and 
development assistance as critical tools for foreign policy and 
national security. His commitments include: Doubling foreign assistance 
to $50 billion by 2012, investing at least $2 billion in a global 
education fund, increasing funding to combat HIV/AIDS, TB, and malaria 
to $50 billion over 5 years and ending all deaths from malaria by 2015. 
Do you believe that U.S. foreign assistance is underresourced? What 
priority areas require more resources? How do you intend to advocate 
for these commitments in the current budgetary environment?

    Answer. President-elect Obama said during the campaign that he 
would double foreign assistance to $50 billion during his first term in 
office. After the onset of the economic crisis, he said it could take 
slightly longer to phase in this increase by the end of his first term 
due to the budgetary restrictions created by the need to confront the 
economic crisis. We will ensure that these new resources are invested 
wisely with strong accountability measures and directed toward 
strategic goals.
    President-elect Obama identified key priorities for any development 
program in his administration, including: Fighting extreme global 
poverty; achieving the Millennium Development Goals; fighting 
corruption; eliminating the global education deficit; enhancing U.S. 
leadership in the effort to combat HIV/AIDS, malaria, and tuberculosis 
and improving global health infrastructure; providing sustainable debt 
relief to developing countries; expanding prosperity through training, 
partnerships, and expanded opportunities for small and medium 
enterprise; supporting developing countries in adapting to the 
challenges of a changing climate; reforming the IMF and World Bank; and 
supporting effective, accountable, democratic institutions and 
governments. If confirmed as Secretary of State, I look forward to 
working with this committee and your colleagues in the House of 
Representatives Committee on Foreign Affairs to achieve these 
priorities.

    Question 67. The MCC has been one of President Bush's signature 
development programs. It has been both praised as encompassing 
innovative and creative ideas, as well as criticized for being too slow 
to disburse funds once a compact has been signed, not demonstrating 
results on the ground quickly enough, and being inadequately 
coordinated with other U.S. foreign assistance programs. What reforms 
would you advocate to strengthen the MCC?

    Answer. President-elect Obama supports the MCC, and the principle 
of greater accountability in our foreign assistance programs. It 
represents a worthy new approach to poverty reduction and combating 
corruption. However, there are challenges within the MCC. Pace of 
implementation is certainly one challenge, as is the danger of a lack 
of coordination with overall U.S. foreign assistance. The Obama 
administration looks forward to working to build on the promise of the 
MCC as we move forward with modernizing U.S. foreign assistance 
programs.
                             budget issues
    Question 68. The U.S. National Security Strategies for 2002 and 
2006 divide our national security apparatus into three components: 
Defense, diplomacy, and development. However, the International Affairs 
Budget represents less than 7 percent of our Nation's national security 
budget. In July 2008, Secretary Gates stated: ``Our diplomatic leaders 
. . . must have the resources and political support needed to fully 
exercise their statutory responsibilities in leading America's foreign 
policy.'' What efforts do you plan to undertake to secure greater 
funding of the International Affairs Budget?

    Answer. America's national security interests require a vigorous 
and well-funded State Department. I am concerned that the Department's 
funding is insufficient to the task.
    Both President-elect Obama and I believe that our diplomacy needs 
to be more robust. In keeping with that goal, he has called for a 25-
percent increase in Foreign Service staffing, opening more consulates, 
and a doubling of our foreign assistance levels during his first term 
in office. We clearly also need to invest urgently in the Department's 
technological and other infrastructure platform, so that our diplomacy 
can be both efficient and effective.
    The Obama administration plans to put forward a robust FY 2010 
budget request. I look forward to working closely with you and your 
colleagues to ensure that the Department is funded to achieve its goals 
on behalf of the American people.

    Question 69. State has recently been short positions in Iraq, 
Afghanistan, areas of emerging importance, and in new language and 
functional requirements, among other areas. What is the nature and 
scope of existing shortfalls in these and other high-priority areas for 
your Department?

    Answer. All of us should be proud of what the men and women of our 
Foreign Service do each day to advance America's interests abroad. They 
and their families also deserve our gratitude for stepping up to the 
demands of war-zone service in Iraq and Afghanistan.
    The Department's personnel system has been strained by staffing 
needs in Iraq and Afghanistan, however, leaving positions at many other 
important posts unfilled. We also need increased personnel to support a 
stronger diplomatic presence in countries of emerging importance to 
America's security and economic interests, and to tackle stabilization 
and humanitarian needs around the world. A training float is also 
essential if our diplomats are to learn the critical language and 
project management skills needed for success.
    The 25-percent increase in Foreign Service staffing that President-
elect Obama has called for would do much to address these needs. That 
request is very much in line with the Department's own internal 
analysis, and with recommendations made by outside observers.
    I look forward to working closely with the Congress in order to 
obtain the funding needed to realize this personnel increase as a high 
priority.
                   role of military in foreign policy
    Question 70. Secretary of Defense Robert Gates has said that ``the 
United States military has become more involved in a range of 
activities that in the past were perceived to be the exclusive province 
of civilian agencies and organizations . . . This has led to concern 
among many organizations . . . about what's seen as a creeping 
`militarization' of some aspects of America's foreign policy. This is 
not an entirely unreasonable sentiment.'' Are you concerned about this 
supposed trend toward the militarization of our foreign policy?

    Answer. Improving the State Department's civilian capacity to 
respond to international crises will be a top priority for the Obama 
administration--and the Department. We need to better integrate the 
military, the State Department, and other civilian agencies in 
stabilization and aid efforts. If confirmed, I look forward to working 
with Defense Secretary Gates and other members of the national security 
team to strike the right balance.

    Question 71. The Defense Department has been surprisingly vocal 
about calling for more civilian resources and capacity. Secretary 
Gates: ``It has become clear that America's civilian institutions of 
diplomacy and development have been chronically undermanned and 
underfunded for far too long--relative to what we spend on the 
military, and more important, relative to the responsibilities and 
challenges our nation has around the world.'' What do you think it will 
take to bring civilian institutions up to the task? What reforms, 
investments, and changes need to occur so civilians can be effective 
counterparts to the military? What is preventing these reforms from 
taking place currently? If the leaders of the State and Defense 
Departments are in such close agreement about the need for more 
resources for civilian national security agencies, do you see any 
possibility of reducing DOD's share of the budget to make resources 
available? Or do we need to simply accept that America's national 
security requires much larger State Department and USAID budgets, along 
with large military budgets?

    Answer. The President-elect has said that we cannot counter 
insurgent and terrorist threats without civilian counterparts who can 
carry out economic and political reconstruction missions--sometimes in 
dangerous places. He has pledged to strengthen these civilian 
capacities, recruiting our best and brightest to take on this 
challenge, and to increase both the numbers and capabilities of our 
diplomats, development experts, and other civilians who can work 
alongside our military.
    I agree with Secretary Gates that ``America's civilian institutions 
of diplomacy and development have been chronically undermanned and 
underfunded for far too long.'' In order to equip the State Department 
with the tools that it needs to address today's challenges, we will 
need to invest additional resources in the Department. President-elect 
Obama has also called for better integration of Federal agencies and 
the military in stabilization and aid efforts. Specifically, he has 
called for the creation of Mobile Development Teams (MDTs) that bring 
together personnel from the military, the Pentagon, the State 
Department, and USAID, fully integrating U.S. Government efforts in 
counterterror, state-building, and post-conflict operations. He has 
also called for the establishment of an expeditionary capability within 
non-Pentagon agencies (State Department, U.S. Agency for International 
Development, Homeland Security, Justice, Treasury, Agriculture, and 
Health and Human Services, etc.) to deploy personnel where they are 
needed. These civilians will be integrated with, and sometimes operate 
independently from, our military expeditionary capabilities.

    Question 72. The dominant mode of cooperation among the State 
Department, USAID, and the U.S. military on development operations in 
Iraq and Afghanistan has been the PRT model. Do you view this model as 
successful, and will you recommend continuing to use PRTs in other 
places as the need arises?

    Answer. The President-elect believes that we need to learn from the 
use of PRTs in Iraq and Afghanistan to build upon their successes while 
addressing any shortcomings.
    The PRTs across Iraq and Afghanistan confront different conditions 
and challenges, and consequently differ in structure, focus, and 
results. As new situations arise, the Obama administration will 
carefully consider what tools will best accomplish our goals including 
the future use of PRTs. If confirmed, I look forward to working with 
the national security team in reviewing the PRT model, considering its 
applications elsewhere, and consulting with this committee and the 
Congress as we make decisions.
                    stabilization and reconstruction
    Question 73. A key lesson from Afghanistan and Iraq is that 
stabilization and reconstruction efforts are as important as war-
fighting in achieving our national security priorities. The U.S. 
Government lacks capacity and coherence in its efforts to assist 
stabilization and reconstruction in countries transitioning from war to 
peace. There is currently no entity within the U.S. Government that has 
the mandate and means to lead stabilization and reconstruction efforts. 
International cooperation, essential to success, is ad hoc and poorly 
managed. What steps should we take to address these deficiencies?

[NO RESPONSE RECEIVED FOR THIS QUESTION]


    Question 74. What do you believe is the appropriate role for the 
Office of Stabilization and Reconstruction (S/CRS)? Is it best served 
working out of the State Department? Or would it improve operational 
effectiveness if S/CRS and the Civilian Response Corps were relocated 
into USAID and consolidated with several other USAID offices? Will the 
administration be requesting additional funding for the Office in the 
upcoming supplemental or in the FY 2010 budget?

    Answer. As the committee knows, the Office of Stabilization and 
Reconstruction was created several years ago, and its functions were 
codified last year by legislation sponsored by Senator Lugar and Vice-
President-elect Biden. Their legislation is consistent with the 
President-elect's goal to build civilian capacity that can be deployed 
on short notice to help stabilize countries in urgent need. 
Stabilization and reconstruction is a mission that is of growing 
importance to our national security, and it is also important that the 
State Department have the resources and authorities to carry out this 
function effectively. An effective stabilization and reconstruction 
function within State will both reduce the burden on our Armed Forces 
and lead to better coordination among our civilian agencies and with 
the Pentagon to act effectively to stabilize and rebuild societies at 
risk of, or emerging from, conflict. I believe that the Office of the 
Coordinator for Reconstruction and Stabilization at the State 
Department has made a lot of progress despite a number of challenges it 
faced in implementing its mandate. If confirmed, I look forward to 
enhancing its capacity and to working closely with the committee to 
ensure the State Department has the means and the organization to carry 
out these important duties effectively.
                      state department operations
    Question 75. A recent study by the American Academy of Diplomacy 
calls for a rapid increase in resources, training, and personnel for 
the State Department and related civilian agencies. It proposes adding 
4,735 new hires at an annual cost of $2 billion, as a minimum needed 
increase. It also calls for expanding public diplomacy programs at a 
cost of $445 million by 2014. Do you support these proposals? Would you 
go further? What do you see as the priorities for increasing America's 
civilian capacity to more effectively execute U.S. foreign policy?

    Answer. Current Foreign Service staffing clearly is insufficient to 
America's diplomatic needs in today's challenging world. The Academy's 
staffing recommendation is broadly in line with President-elect Obama's 
call for a 25-percent Foreign Service staffing increase. If confirmed, 
obtaining the funds needed to realize this staffing increase will be 
one of my highest management goals.
    The Academy is, of course, correct in calling for a more effective 
public diplomacy effort to improve America's image and advance critical 
policy goals. We also need to do more to train our personnel for new 
demands, including those associated with reconstruction and 
stabilization missions.
    I look forward to working with Congress to ensure that the 
Department of State is staffed and equipped to meet the many challenges 
that America faces abroad.

    Question 76. Do we need to rethink the current personnel system, 
including the Foreign Service system, which forms the backbone of the 
State Department and USAID? As the HELP Commission Report on Foreign 
Assistance Reform pointed out, the current human resource management 
practice is still based on the expectation that individuals will remain 
with a single government agency until retirement. Does such a system 
make sense given present-day workforce realities? Does it hinder 
creativity, innovation, and flexibility?

    Answer. This is an issue facing the Federal Government as a whole. 
I am sure that the President-elect's nominee to head the Office of 
Personnel Management will be looking closely at this matter.
    For my part, I certainly want the Department to do everything 
possible to keep the talented men and women it works so hard to 
attract. If confirmed, we will evaluate how the Department's personnel 
policies stack up against those of America's best private sector 
companies and work to see that our training, assignment, and promotion 
policies are geared toward ensuring that our workforce is as creative, 
innovative, and flexible as it needs to be in today's challenging 
world.
    Finally, minorities remain underrepresented at the Department. As 
Secretary, I will ask the Director General and the Office of Civil 
Rights to work vigorously to ensure that our diplomatic corps reflects 
the diversity of American society.
                       foreign service pay reform
    Question 77. Under existing law, Foreign Service (FS) personnel 
stationed in the United States receive a salary adjustment that is 
based on comparable private sector salaries in their locality (e.g., 
Washington, DC). Although armed services personnel receive a similar 
comparability adjustment while stationed overseas, FS personnel do not, 
despite typically serving two-thirds of their careers abroad. Some have 
argued that the resulting pay disparity in 2008 effectively amounted to 
a 20.89-percent pay cut for FS members serving overseas. In 2009, that 
disparity is expected to grow to 23.10 percent. Do you intend to make 
correction of the FS pay disparity a top management priority at State? 
If so, how?

    Answer. Rectifying this pay disparity will indeed be a high 
priority for me.
    At heart, this is an issue of fairness. As you have noted, Foreign 
Service officers are required to spend significant portions of their 
careers abroad. The loss of salary income they incur is grossly unfair, 
all the more so given that they are compensated less than colleagues at 
other agencies with whom they work side by side in service to our 
country. We cannot expect to retain the best talent in these 
conditions.
    I know that this issue has been put before the Congress in previous 
years. I hope that we can work together to redress this matter on a 
priority basis.
                                georgia
    Question 78. How has the United States recalibrated its policy 
toward Russia in the aftermath of the country's disproportionate 
military response in Georgia? Now that we have had a few months to 
digest recent developments in Georgia, how do the salient facts of the 
Russian-Georgian conflict inform your view of our policy toward Russia 
and Georgia?

    Answer. Whatever sequence of events precipitated conflict within 
Georgia's borders in August 2008, the Russian military response was 
disproportionate and illegal, a fact recognized widely within the 
international community. Russia's decision to recognize Abkhazia and 
South Ossetia as independent states was also disturbing. The United 
States must work closely with our allies and friends throughout the 
world to ensure that the Russian Government's decision to undermine 
Georgia sovereignty does not gain international legitimacy.
    As we have begun to go through a multiyear $1 billion assistance 
package assembled by the Bush administration and approved by Congress 
last fall, the United States and our allies must help to rebuild 
Georgia. Collapse of Georgia's economy or democracy would embolden 
those inside Russia who support the use of military force to achieve 
Russian goals and would weaken democratic forces throughout the region. 
The Georgian Government's recent pledges to strengthen democratic 
institutions are a positive sign, a demonstration of the learning and 
recalibration that can occur in democracies.
    The United States can support Georgian territorial integrity, 
economic recovery, and democratic development and also work with Russia 
on issues of common strategic interest. The United States and Russia 
have many mutual interests, including countering nuclear proliferation, 
reducing our nuclear arsenals, expanding trade and investment 
opportunities, and fighting al-Qaeda and the Taliban. Russia's recent 
choices--not our decisions--threaten this future and remind us that 
peace and security in Europe cannot be taken for granted. At the same 
time, I look forward to working with my Russian counterparts on those 
issues of common interest even when we disagree about other issues.

    Question 79. Do you believe that Russian leaders view democratic 
government in Georgia or any other country within what President 
Medvedev has called Russia's ``sphere of influence'' as a threat? How 
should the West respond?

    Answer. The United States and our allies must remain unequivocal in 
rejecting the principle of spheres of interests and affirming the 
sovereignty and territorial integrity of the countries in Russia's 
neighborhood. Helping these countries strengthen their sovereignty will 
include not only diplomatic and economic support but also developing a 
strategy for reducing their dependence on Russian energy exports. In 
parallel, we also must seek a more constructive relationship with 
Russia, as improved relations between the West and Russia might help to 
demonstrate to the Russian leadership that their long-term interests 
are best served by becoming a stakeholder in the international 
community and not served as well by using coercive instruments to 
assert Russian power abroad.

    Question 80. The United States has made a significant investment in 
the future of Georgia as an independent, democratic nation. What 
dividends are we seeing? How would you assess the status of Georgia's 
democracy? What are the country's most pressing challenges? Are you 
satisfied with the safeguards that have been put in place to assure 
U.S. assistance to Georgia is spent appropriately? In your view, has 
the United States coordinated effectively with other donor countries to 
assure that assistance is used wisely?

    Answer. Over the long haul, there is no question that American 
assistance to Georgia has yielded dividends regarding both Georgia's 
democracy and independence. In the last few years, however, independent 
evaluators such as Freedom House have recorded a decline in Georgian 
democratic practices. Obviously, Georgia's territorial integrity also 
has been weakened by the war last August.
    The response to these setbacks should not be retreat but a better, 
smarter policy. The American aid package approved last year, coupled 
with the pledges of assistance made at the donors' conference last 
October, will help to begin rebuilding Georgia's infrastructure, which 
in turn will serve as an economic stimulus package to help jump-start 
the Georgian economy.
    Transparency regarding the spending of these resources is 
essential. Because democratic institutions facilitate oversight and 
accountability, deepening Georgian democratic practices must be a 
critical objective of our assistance. It is encouraging that Georgian 
President Mikheil Saakashvili and many other senior Georgian officials 
have expressed a similar recommitment to strengthening Georgian 
democratic institutions.

    Question 81. Georgia has expressed an interest in negotiating a 
free trade agreement (FTA) with the United States. Would you support an 
FTA with Georgia?

    Answer. The United States has an interest in expanding export 
opportunities for American companies and securing the benefits of 
increased imports for the American consumer. The United States and our 
allies also have an interest in integrating Georgia into the Western 
community of democratic states, and trade can facilitate this process. 
I look forward to working together with Congress to create the proper 
legal framework for expanding trade between the United States and 
Georgia.
                                 russia
    Question 82. Which areas of our relationship with Russia offer the 
best prospects for cooperation going forward? Are there points of 
convergent interest where we can work to improve relations? What 
incentives could we offer Russia to act more responsibly at home, in 
its neighborhood and on issues of common concern like arms control, 
counterterrorism, and Iran? What leverage do we have to change Russian 
behavior if incentives do not work?

    Answer. President-elect Obama seeks a future of cooperative 
engagement with the Russian Government on matters of strategic 
importance, while standing up strongly for American values and 
international norms. That is my view as well. Some of Russia's recent 
actions have been reprehensible and they have disrupted its relations 
with the West. As we confront those actions, we must not shy away from 
pushing for more democracy, transparency, and accountability. Still, 
there can be no return to the cold war. Russia is not the old Soviet 
Union, and this is not the 20th century. The new administration will 
work with Russia on areas of common strategic interest like 
counterterrorism and counterproliferation, while pressuring Russia when 
it interferes with its neighbors and abuses power at home--for example, 
on Georgia, where the President-elect condemned Russia's escalation of 
the conflict and clear invasion of Georgia's territory and illegal 
recognition of Abkhazia and South Ossetia as independent states. Real 
pressure on Russia will not come from rhetoric alone--it will come from 
a unified transatlantic alliance, and forging that unity will be one of 
my top priorities. If Russia refuses to abide by international norms, 
its standing in the international community will diminish.
    The Obama administration will seek deep, verifiable reductions in 
all U.S. and Russian nuclear weapons--whether deployed or nondeployed, 
strategic, or nonstrategic. As a first step, we will seek a legally 
binding agreement to replace the current START Treaty which expires in 
December 2009. It is important that we not allow essential monitoring 
and verification provisions, which give us a better understanding of 
Russian strategic capabilities than we would have without them, to 
lapse. The administration will also work with Russia in a mutual and 
verifiable manner to increase warning and decision time prior to launch 
of nuclear weapons.

    Question 83. For the last several years, the Russians have proven 
adept at dividing traditional allies within the Euro-Atlantic 
community. What steps would you take to develop a joint strategy for 
managing relations with Russia in cooperation with our European allies? 
Going forward, what are the prospects for forging a common approach to 
Russia given the arrival of a new administration?

    Answer. America's national security interests require improved ties 
with our European allies and stronger Euro-Atlantic institutions. 
Russia's actions in Georgia last August highlight how important it is 
to work closely and effectively with our European allies to develop a 
unified approach to Russia, pursue energy security, and stand up for 
the rights of sovereign nations in Europe and Eurasia. The President-
elect has made it clear that a strong trans-Atlantic alliance is 
critical to our ability to encourage Russia to abide by international 
norms.

    Question 84. A number of observers have commented with increasing 
alarm on Russia's backsliding on democracy and human rights. How would 
you address this trend?

    Answer. Democratic backsliding in Russia is real and disturbing. 
Yet, Russia's political system is not monolithic and pockets of 
pluralism, critical thinking, and independent actions exist in Russia 
today. Without any illusions about short-term fixes, our administration 
must do what we can to support these democratic elements.
    President-elect Obama has made clear that we will not turn a blind 
eye to violations of human rights and democratic practices in the false 
belief that doing so will help us to secure Russian cooperation on 
other issues. At the same time, berating Russian leaders about 
democracy abuses also has not worked. Our administration must rise 
above ineffectual bluster and empty threats on the one hand and 
business as usual on the other. We can cooperate with our Russian 
counterparts without pretending to be personal friends and without 
checking our values at the door.
    To support democracy, transparent government, and the rule of law 
in Russia and the region, our administration will strongly support 
funding for the Freedom Support Act (FSA) programs and ensure robust 
funding for the National Endowment for Democracy.
                       eastern europe and eurasia
    Question 85. During the last several years, Russia utilized control 
over scarce energy resources--and an associated financial windfall--to 
pursue foreign policy goals that were often at odds with those of the 
United States. The recent reduction in global oil and gas prices along 
with increasing instability in Russia's own economy might now erode 
Russia's ability to apply pressure on neighboring countries that seek 
independence from Moscow. Given these changing dynamics, what 
principles should guide U.S. policy in Eastern Europe and Eurasia? In 
particular, how can we work with our allies to decrease their 
dependence on Russia's energy supplies? How can we ensure that the 
region will be more hospitable to the development of independent, 
democratic governments?

    Answer. United States-Russia relations have been becoming 
increasingly strained over the last several years. Russia's 
antidemocratic drift, threats, and pressure against some of its 
neighbors, gas cutoffs to Ukraine and others, and especially the 
invasion and dismemberment of Georgia last summer have made it 
impossible for the United States to pursue business-as-usual with 
Moscow. That said, there has not been, and will not be, a return to the 
cold war. The President-elect and I both seek to engage the Russian 
Government on matters of strategic importance, while also standing up 
strongly for American values and international norms.
    If confirmed, I will seek to engage Russia directly on a wide range 
of issues of potential cooperation, including strategic arms control, 
nuclear nonproliferation, terrorism, the environment, Afghanistan, and 
economic relations. I will make clear that we will not accept ``spheres 
of influence'' in Europe, but also that our two countries have many 
common interests that the Obama administration stands ready to pursue 
with our counterparts in Moscow.

    Question 86. How do you assess the impact of the Russian military 
action against Georgia on neighboring countries? Do you believe it has 
caused them to revaluate their strategic calculus?

    Answer. Yes. Our NATO allies want to make sure that our Article 5 
commitments to them are robust and we should signal that they are 
through contingency planning. Other non-NATO countries in the region 
with close ties to the West also have expressed new worries about their 
security. Developing a comprehensive new strategy for the entire 
region, which fosters stable peaceful relations between states and 
respect for sovereignty of all states in the region, is a central 
strategic challenge for our administration and our partners in Europe.

    Question 87. At last year's summit in Bucharest, Romania, NATO did 
not issue Membership Action Plans for Ukraine and Georgia, but it did 
agree to a communique which establishes a firm commitment to eventual 
membership. At this December's NATO ministerial, the U.S. agreed not to 
put the MAP issue on the summit's agenda. Is NATO's door still open to 
Ukraine and Georgia, and if so, what does the likely road ahead look 
like for Ukraine's and Georgia's candidacies?

    Answer. While there are different views among allies on the best 
way to promote eventual NATO membership for Georgia and Ukraine, it is 
essential that we work closely with our allies to develop a common 
approach on alliance enlargement. The NATO-Ukraine Commission and the 
NATO-Georgia Commission (established last summer) are other avenues 
available for deepening relations between the alliance and Georgia and 
Ukraine. NATO's door must remain open to European democracies that meet 
membership criteria and can contribute to our common security. How and 
when new countries might join must be determined together with all our 
allies in the alliance.
                                ukraine
    Question 88. Ukraine is a country of tremendous strategic and 
political importance, but it has struggled to develop a stable, 
functional government since the Orange Revolution brought democracy to 
the nation 4 years ago. If confirmed, what steps will you take to help 
Ukraine fully realize its democratic potential?

    Answer. President-elect Obama and I understand the importance of 
helping to consolidate democracy in Ukraine. The failure of democracy 
in Ukraine would deliver a blow to the democratic forces throughout the 
entire region, including inside Russia.
    We will need to work with our partners in Ukraine to develop an 
anticrisis strategy, including a solution to the current standoff 
between Ukraine and Russia regarding gas prices. Today, an even more 
dramatic economic meltdown is the greatest threat to Ukrainian 
democracy.
    In the long run, a Ukraine firmly imbedded in Europe's 
institutional architecture will have the greatest chance at stability 
and prosperity. Our administration will encourage our European Union 
partners to strengthen their links with Ukraine, including creating a 
membership perspective.
                        transatlantic relations
    Question 89. The United States alliance with the democracies of 
Europe ranks among our country's most valuable strategic assets. 
However, during the last 8 years, relations with our European allies 
have frequently been strained and occasionally dysfunctional. What are 
your expectations for the Euro-Atlantic alliance going forward? If 
confirmed, what concrete steps would you take to revitalize the United 
States partnership with the members of NATO and the European Union? 
What should our allies expect from the new administration--and what 
should we expect from them?

    Answer. The U.S. alliance with the democracies of Europe is a 
valuable strategic asset. Indeed, of the many global challenges we will 
face in the coming 4 years--from the financial crisis to global 
warming, Iran, Iraq, Afghanistan, terrorism and nonproliferation--there 
is not a single one on which we are not stronger when we benefit from 
the cooperation of our European allies. The President-elect has pledged 
to reestablish America's strong partnership with our European allies 
and I intend to support him in that critical task. As the President-
elect has said, we will ``treat allies with respect, repair America's 
damaged moral authority, and recreate a mutually beneficial partnership 
with our European friends.'' At the same time, ``we will ask more of 
our European friends. A more responsible and cooperative America will 
look to Europe to uphold its own responsibilities on issues such as 
Afghanistan, Iran, terrorism, Africa, and the environment.''

    Question 90. There are numerous mechanisms available to the United 
States when engaging the countries of Europe--NATO, the European Union, 
the Organization for Security and Organization for Security and 
Cooperation in Europe, and our bilateral relationships are four of the 
most prominent. If confirmed, which of these mechanisms do you plan to 
rely on most heavily? Would you propose firmer guidelines designating 
specific forums for the discussion of specific issues or prefer to rely 
upon a more ad hoe approach?

    Answer. NATO, the EU, the OSCE, and our bilateral relationships in 
Europe all serve U.S. interests in different ways. I do not believe we 
should favor any one mechanism over the others but rather consider all 
of them potential tools in helping achieve our goals of peace, 
prosperity, and stability not just in Europe but around the world. 
There are, of course, differences among these forums--NATO includes a 
collective defense commitment while the EU has a much greater economic 
role, for example--but in a world in which defense, security, and 
prosperity are closely linked all of these institutions must form part 
of a coherent overall strategy.

    Question 91. In your view, is it time for NATO to adopt a new 
strategic concept? If so, when and how should the process of 
formulating that concept occur? What should we expect when that process 
is over?

    Answer. If confirmed, I will work with the President, the Secretary 
of Defense, and the rest of our national security team to explore the 
potential need for a new NATO Strategic Concept. NATO last updated its 
Strategic Concept in 1999, before threats like terrorism, energy 
insecurity, cyber attacks, and climate change were as apparent as they 
are today, and before NATO was engaged in global missions such as 
Afghanistan. A new Strategic Concept would provide an opportunity for 
NATO allies, among other things, to reiterate their commitment to 
Article 5; reconsider and address new and emerging threats to allied 
security; clarify NATO's relationship to the United Nations and other 
multilateral bodies; clarify the NATO-EU relationship; and address the 
issue of global partnerships and missions. The April 2009 NATO summit 
will provide a useful forum for discussing this issue with our key 
alliance partners and forging a consensus on whether to draft a new 
Strategic Concept and, if so, on the timetable for doing so.
                           bosnia-herzegovina
    Question 92. The United States made significant investments to help 
bring peace to Bosnia-Herzegovina in the 1990s, but the situation in 
the country has received too little high-level attention in the 
intervening 8 years. Bosnia-Herzegovina is currently facing a serious 
political crisis that threatens much of what the country has achieved 
since the signing of the Dayton Accords. What plans do you have to 
address this crisis?

    Answer. More than a decade after the United States led the effort 
to bring peace to Bosnia-Herzegovina, the situation in that country is 
still not satisfactory. We should be proud of the fact that, along with 
our NATO allies, we stopped a devastating civil war and gave the 
citizens of Bosnia-Herzegovina the opportunity to build a stable peace 
and functioning institutions, but much progress remains to be made. 
With the parties to the Dayton agreement at odds over a range of 
issues, and with the international community uncertain about how to 
move forward, the situation requires urgent attention. If confirmed, I 
will ensure that Bosnia-Herzegovina receives the enhanced and sustained 
U.S. engagement its needs to overcome the divisions that prevent it 
from fulfilling its potential.
                                 china
    Question 93. China's growing economic strength and global power 
presents the U.S. Congress with an extremely complicated set of policy 
issues. On the one hand, many see China as an essential partner for the 
United States on global issues such as the international financial 
system, alternative energy sources, climate change, public health and 
many others. On the other, many argue that China's size, international 
engagement, and growing confidence mean it is increasingly able to 
compete with--or even to challenge--the United States more directly and 
more effectively in economic, political, and military terms. What is 
the administration's view of China's role in the world? Is China a 
threat to U.S. interests, is it a ``responsible stakeholder,'' or at 
times both? What does your assessment mean for the future of U.S. China 
policy, and how does it guide a U.S. strategy that can help shape 
China's choices?

    Answer. China is a critically important actor in a changing global 
landscape. We cannot put a simple label on a complex relationship. We 
want a positive and cooperative relationship with China, one where we 
deepen and strengthen our ties on a number of issues, and manage our 
differences where they persist. But this is not a one-way effort--much 
of what we do depends on the choices China makes. We can encourage them 
to become a full and responsible participant in the international 
community--to join the world in addressing common challenges like 
climate change and nuclear proliferation--and to make greater progress 
toward a more open and market-based society. But it is ultimately up to 
them. As we engage with China, we also have to maintain and enhance our 
strong relationships with our allies in the region--Japan, South Korea, 
Australia, and others--who will help us meet the opportunities and 
challenges we are facing in Asia. The global financial crisis has 
demonstrated once again the need to think about common challenges in a 
new way. There are a number of emerging powers that will be critical 
players in this new century. With American leadership and their 
responsible engagement, we can improve the common good and confront 
common threats. That is the approach that I will take into my job if I 
am fortunate enough to be confirmed.

    Question 94. During the Bush administration, the United States 
initiated several new high-level dialogues with China: The Senior 
Dialogue under the auspices of the State Department and the Strategic 
Economic Dialogue administered by the Treasury Department. How does the 
Obama administration intend to continue or expand these efforts?

    Answer. It is important to have high-level discussions to discuss 
economic issues with the Chinese Government. We are looking carefully 
at the question of how to develop this important engagement with China. 
We expect high-level engagement to continue in some form.

    Question 95. China has been the world's fastest growing economy in 
recent years and is now the largest holder of U.S. Treasury Securities. 
What role does the administration see for China in dealing with the 
current global financial and economic crisis?

    Answer. Our economic policy toward China has to be closely 
coordinated with our foreign policy. They cannot be pursued in 
isolation to one another. China is a critically important actor in a 
changing global landscape. We want a positive and cooperative 
relationship with China, one where we deepen and strengthen our ties on 
a number of issues, and manage our differences where they persist. But 
this is not a one-way effort--much of what we do depends on the choices 
China makes. The global financial crisis has demonstrated once again 
the need to think about common challenges in a new way.

    Question 96. Last year, China surpassed the United States as the 
world's largest emitter of carbon dioxide. While Prime Minister Hu 
Jintao has advanced and is implementing important clean energy 
policies, China continues to build one pulverized coal-fired power 
plant every week, and the country's primary energy demand is projected 
to double by 2030. This trend is unsustainable, in light of the urgent 
need to stabilize and reduce global greenhouse gas emissions. What 
steps will you personally--and the Obama administration more broadly--
take to improve United States-China collaboration on climate change and 
clean energy technologies?

    Answer. Climate change is one of the most pressing challenges 
facing the United States and the global community. The United States 
will take a leadership role in combating the threat of global climate 
change from the beginning of the new administration. The President-
elect has specifically pledged to set a goal of an 80-percent reduction 
in U.S. emissions and a 50-percent reduction in global emissions by 
2050--a policy goal I am committed to as well. In pursuit of that goal, 
we will ask the biggest carbon emitting nations to join a new Global 
Energy Forum to lay the foundation for the next generation of climate 
protocols.

    Question 97. Taiwan remains the most sensitive issue in United 
States-China relations. Does the Obama administration plan to hold 
another Taiwan Policy Review along the lines of that conducted in 1994 
by the Clinton administration?

    Answer. The administration's policy will be to help Taiwan and 
China resolve their differences peacefully while making clear that any 
unilateral change in the status quo is unacceptable. We will maintain 
our ``one China'' policy, our adherence to the three United States-PRC 
Joint Communiques concerning Taiwan, and observance of the Taiwan 
Relations Act, which lays out the legal basis for our relationship.

    Question 98. The Government of China and the Dalai Lama of Tibet 
disagree on the issue of greater autonomy for the Tibetan Autonomous 
Region, which has been a stumbling block in their ongoing dialogue. 
Meanwhile, many Tibetans have lost faith in the possibility of a 
negotiated compromise, while Chinese leaders have expressed a deep 
distrust of the Dalai Lama's intentions and foreign contacts. What 
options may be acceptable to both sides? What kinds of international 
pressure, if any, would be helpful in promoting a resolution?

    Answer. The Obama administration will speak out for the human 
rights and religious freedom of the people of Tibet. If Tibetans are to 
live in harmony with the rest of China's people, their religion and 
culture must be respected and protected. Tibet should enjoy genuine and 
meaningful autonomy. The Dalai Lama should be invited to visit China, 
as part of a process leading to his return. We will condemn the use of 
violence to put down peaceful protests, and call on the Chinese 
Government to respect the basic human rights of the people of Tibet, 
and to account for the whereabouts of detained Buddhist monks. We will 
also continue to press China on our concerns about human rights issues 
at every opportunity and at all levels, publicly and privately, both 
through our mission in China and in Washington.
                                 japan
    Question 99. Some analysts have suggested that the U.S. alliance 
with Japan, a linchpin of stability in Asia, has become overly focused 
on military issues controversial among the Japanese public. Do you 
think that the United States should continue to press Japan to step up 
its global engagement using its military resources, or instead 
concentrate on other shared interests like energy efficiency, climate 
change measures, and coordination on African development assistance? Is 
this an either/or choice?

    Answer. The United States-Japan alliance has been one of the great 
successes of the postwar era. Japan's achievements and global 
leadership in world affairs over the past 60 years are a great 
testament to the Japanese people. A strong and enduring United States-
Japan alliance, based on common interests and shared values, is the 
centerpiece for both American and Japanese policy in the Asia-Pacific 
region. Japan today plays a vital role in working alongside the United 
States to maintain regional security and stability, promote prosperity, 
and meet the new security challenges of the 21st century. As the 
world's two wealthiest democracies, the United States and Japan have 
shared interests that cut across a range of challenging issues: Nuclear 
proliferation, terrorism, financial instability, poverty, and climate 
change, to name but a few.
    As the United States-Japan alliance continues to evolve into a 
truly global alliance, it must also develop truly global and 
complementary capacities across a broad range of issues, capacities 
that will allow us together to address the range of pressing issues on 
the regional and global agenda. We must strive, for close cooperation, 
communication, and coordination, at every level. If confirmed as 
Secretary of State, I will look forward to building on our longstanding 
friendship to forge an even stronger alliance and partnership in the 
years ahead.
                         south korea/korus fta
    Question 100. President-elect Obama has stated that he cannot 
support the KORUS FTA as it currently stands. What specific changes to 
the agreement will the Obama administration be seeking? How can we work 
to ensure that the agreement does not affect South Korean perceptions 
of the United States and the United States-South Korean alliance?

    Answer. South Korea is an important friend and ally and if 
confirmed I look forward to building an even stronger bilateral 
relationship in the years to come. If confirmed, I look forward to 
working with the United States Trade Representative, the Treasury 
Secretary, the Secretary of Commerce, and others on the President-
elect's economic team on these issues. We will communicate forthrightly 
and fairly with South Korea, explaining that our concerns with the FTA 
are discrete and specific and have no bearing on the many collaborative 
dimensions of our alliance and friendship. We will also work to resolve 
these concerns to the satisfaction of both parties.
    President-elect Obama has opposed and continues to oppose the KORUS 
FTA that the Bush administration negotiated because although it 
included some useful improvements for U.S. service and technology 
industries in South Korea, U.S. negotiators did not do a good job of 
obtaining a deal that provided for fair treatment for American cars and 
trucks and other manufactured goods. There are also concerns over U.S. 
beef exports that we are told are close to resolution.
    Despite decades of bipartisan concern over the nontransparent 
practices used to block U.S. access to South Korea's market, this FTA 
failed to obtain a deal that provided genuine improvements in this 
area. Because the FTA gives South Korean auto exports essentially 
untrammeled access to the U.S. market, ratification of the agreement in 
its present form would mean the United States would lose its remaining 
leverage to counteract these nontariff barriers. The result will be a 
competitive handicap for one of our most important industries.
    If the South Koreans are willing to reengage negotiations on these 
vital provisions of the agreement, we will work with them to get to 
resolution.
                              north korea
    Question 101. What are your views on the recent State Department 
announcement that the United States and its partners would halt 
deliveries of heavy fuel oil to North Korea due to Pyongyang's refusal 
to agree, in writing, on a plan for verifying its nuclear program? 
Would the new administration be in a better position to take up the 
nuclear issue with North Korea if the formal verification plan was 
deferred into the future? Would you be prepared to travel to Pyongyang 
or to another capital to meet with North Korea's Foreign Minister or 
other appropriate official?

    Answer. The Obama administration will confirm the full extent of 
North Korea's past plutonium production and its uranium enrichment 
activities, and get answers to disturbing questions about its 
proliferation activities with other countries, including Syria. The 
North Koreans must live up to their commitments and fully and 
verifiably dismantle all of their nuclear weapons programs and 
proliferation activities. If they do not, there must be strong 
sanctions. We will only lift sanctions based on North Korean 
performance. If the North Koreans do not meet their obligations, we 
should move quickly to reimpose sanctions that have been waived, and 
consider new restrictions going forward. The objective must be clear: 
The complete and verifiable elimination of North Korea's nuclear 
weapons programs, which only expanded while we refused to talk. As we 
move forward, we must not cede our leverage in these negotiations 
unless it is clear that North Korea is living up to its obligations.
    As to the question about the HFO shipments, the President-elect has 
made clear his view that North Korea is not entitled to international 
support. He said that if North Korea did not live up to its obligations 
we may in fact reinstate some sanctions. We are going to take a hard 
look at where the Bush administration and our allies in East Asia ended 
up on the verification protocols, but we are very much open to 
maintaining the suspension of the HFO shipments.
    As to the questions of any potential travel and meetings, no 
decisions have been made. Like the President-elect, I would be willing 
to meet with any foreign leader at a time and place of my choosing if 
it can advance America's interests.

    Question 102. Would you support appointing a special ambassador to 
deal directly with the North Korean nuclear issue as the United States 
chief negotiator?

    Answer. No decisions have been made on whether to appoint a special 
ambassador to deal directly with the North Korean nuclear issue.

    Question 103. It is generally understood that the U.S. has a dearth 
of information about events inside North Korea. The State Department 
sent an official to Pyongyang this year to be located there 
permanently. Would you favor expanding that initiative into a proposal 
to North Korea to exchange interest sections (similar to the U.S. 
arrangement with Cuba)?

    Answer. No decisions have been made about whether to exchange 
interest sections with North Korea. The new administration will 
carefully consider its diplomatic options with North Korea.

    Question 104. Will the United States pursue the normalization of 
diplomatic relations with North Korea without some progress on human 
rights measures, including opening up the country's reported labor 
camps?

    Answer. We remain concerned about improving the lives of the North 
Korean people, including the lives of refugees. The United States is 
now the largest provider of food aid to the DPRK through the World Food 
Program and U.S. NGOs under a May 2008 agreement. This administration 
will continue to address North Korea's human rights abuses, including 
as part of any normalization process.
                                 burma
    Question 105. Well over a year has past since Burma's military 
junta violently dispersed peaceful demonstrators, including unarmed 
Buddhist monks and students, who were protesting the repressive 
policies and widespread human rights violations of the ruling State 
Peace and Development Council (SPDC). In the interim, conditions inside 
Burma have hardly improved. What do you see as the proper way forward 
for U.S. policy in Burma? Are existing sanctions working? What over 
levers are available to pressure Burma's leaders to pursue policies 
that respect human rights, permit the release of political prisoners 
like Aung San Suu Kyi and allow for national reconciliation and a 
return of democracy? Given that existing approaches have not produced 
tangible results, are you considering alternative strategies?

[NO RESPONSE RECEIVED FOR THIS QUESTION]


    Question 106. Burma's neighbors--China, India, and Thailand--and 
Russia could play an important role in convincing Burma's military 
junta to engage in dialogue with opposition leaders and ethnic 
minorities toward national reconciliation. Do you intend to raise this 
issue with these countries and encourage them to modify their current 
positions?

[NO RESPONSE RECEIVED FOR THIS QUESTION]


    Question 107. Burma's people have endured tremendous hardships over 
the years and continue to face dire humanitarian conditions in the 
aftermath of Cyclone Nargis. What steps do you propose taking to ease 
their suffering? Would you support the provision of funds for 
humanitarian purposes to groups that are not affiliated with the 
Burmese regime beyond existing emergency International Disaster 
Assistance resources?

    Answer. The continuing dire situation in Burma requires urgent 
attention. Burma's military junta is one of the most repressive regimes 
in the world. Its odious behavior not only is harmful to the long-
suffering Burmese people, but also threatens the stability of 
neighboring states, since Burma is a breeding ground for HIV/AIDS, 
narcotics, and human trafficking. The Obama administration will support 
U.S. trade and investment sanctions against Burma to demonstrate our 
strong, principled condemnation of the regime's oppressive rule and our 
solidarity with the Burmese people. The regime must release, 
unconditionally, all of the nation's political prisoners, including the 
symbol and leader of Burma's democracy movement, Aung San Suu Kyi.
    But our sanctions, if they are to be effective, must be smart, 
tough, and targeted. They must be crafted, as in the Lantos bill, to 
bring pressure to bear on the regime itself, and seek, as best as we 
can, to spare the people of Burma further suffering. So I strongly 
believe that we should more fully explore possible modalities for 
humanitarian assistance that will reach the suffering people of Burma 
and that do not empower the military junta.
    Also if confirmed, I look forward to working with the Senate to 
fill the important position of Special Envoy for Burma as soon as 
possible.
                                hiv/aids
    Question 108. One of President Bush's most notable achievements was 
the creation of the President's Emergency Plan for AIDS Relief which 
has made great strides in the fight against HIV/AIDS, particularly in 
helping to support treatment for over 2 million people. While the 
United States has created a new paradigm in demonstrating the 
capability to provide HIV/AIDS treatment on a wide scale in some of the 
poorest countries of the world, the spread of the disease continues to 
outpace treatment efforts. How can the United States assist partner 
countries in more effective HIV prevention efforts?

    Answer. The President-elect has applauded President Bush's efforts 
to combat HIV/AIDS, and pledged to continue and enhance PEPFAR. There 
are an estimated 33 million people across the planet infected with HIV/
AIDS. We must do more to fight the global HIV/AIDS pandemic, as well as 
malaria and tuberculosis. The President-elect is committed to fully 
implementing the President's Emergency Plan for AIDS Relief and to 
ensuring that best practices, not ideology, drive funding. He has 
committed to investing $50 billion over 5 years to strengthen the 
program and expand it to new regions of the world, including Southeast 
Asia, India, and parts of Europe. At the same time, the new 
administration will work to more effectively coordinate PEPFAR with 
programs to strengthen health care delivery and address other global 
health challenges. The new administration will also increase U.S. 
contributions to the Global Fund to ensure that global efforts to fight 
endemic disease continue to move ahead through multilateral 
institutions as well. As part of these efforts, the new administration 
will work with drug companies to reduce the costs of generic 
antiretroviral drugs. And it will work with developing nations to help 
them build the health infrastructure necessary to get sick people 
treated--more money for hospitals and medical equipment, and more 
training for nurses and doctors.
                            public diplomacy
    Question 109. What measures do you think are necessary to improve 
U.S. public diplomacy efforts and restore America's image in the world?

    Answer. The President-elect intends to launch a coordinated, 
multiagency program of public diplomacy. And I am committed to 
restoring the strength and vision of the State Department's public 
diplomacy mission. As the President-elect has noted, this is not a 
peripheral enterprise, disconnected from the rest of our foreign 
policy. It is an important component of our overall counterterrorism 
strategy, and it is a vital part of our effort to restore American 
leadership and reassert American values.
    With that in mind, the administration will pursue concrete 
objectives, including opening ``America Houses'' in cities across the 
Arab world, which will be modeled on the successful program the United 
States launched following World War II. We will launch a new 
``America's Voice Corps,'' to rapidly recruit and train fluent speakers 
of local languages and public diplomacy skills. We will offer 
alternatives to madrassas through the Global Education Fund. In our own 
hemisphere, we will pursue vigorous diplomacy to rebuild the ties with 
our friends and neighbors in the Americas.

    Question 110. Many are critical of the decision to fold the U.S. 
Information Agency into the State Department in 1999, observing that 
the long-term efforts of public diplomacy have been subordinated to the 
short-term rapid-reaction goals emphasized by public affairs. Several 
have proposed reestablishing a U.S. agency responsible for public 
diplomacy and strategic communications that would be separate from the 
State Department. What is your assessment of the relative strengths/
weaknesses of how we conduct public diplomacy? Are you open to 
considering some of the bolder proposals to restructure U.S. public 
diplomacy and outreach?

    Answer. If confirmed, I look forward to working to ensure that the 
State Department's mission of public diplomacy is matched by the 
personnel, resources, and organizational structure we need to carry out 
this critical mission. USIA was an effective, single purpose agency in 
many ways, but it is more practical at this time to improve the 
functioning of the public diplomacy in the Department than to recreate 
an independent entity. If confirmed, I look forward to a full 
assessment of public diplomacy at the State Department and will look to 
this committee and the Congress for its counsel as we consider how to 
make improvements.

    Question 111. The 2008 Pew Global Attitudes poll found that anti-
Americanism remains extremely strong in the Muslim world. Overwhelming 
majorities of every predominantly Muslim country surveyed except 
Lebanon, including Egypt, Turkey, Pakistan, Indonesia, and Jordan, had 
negative views of the United States. What can be done to stem the tide 
of anti-Americanism in the Middle East? What role do you see for the 
State Department in these efforts?

    Answer. The President-elect has made clear his determination to 
enhance our relations with the world's Muslims. As indicated above, no 
public diplomacy task is more important for the Obama administration 
than restoring the respect for America around the world, but more 
importantly, among the world's Muslim populations. In addition to the 
opening of America Houses, discussed above, the President-elect has 
pledged to give a speech at a major Islamic forum in the first 100 days 
of his administration. He will make clear, as will I, that we are not 
at war with Islam, that we will stand with those who are willing to 
stand up for their future, and that we need their effort to defeat 
those who proffer only hate and violence.
                          genocide prevention
    Question 112. The recently released report of the Genocide 
Prevention Task Force, cochaired by former Secretaries Albright and 
Cohen, concluded that preventing genocide must be a national priority. 
The task force concluded that the United States and the international 
community currently lack critical tools to identify the early warning 
signs of impending mass atrocities and respond to them to prevent the 
escalation of violence. ``Gaps remain . . . in the strategic 
understanding of the challenges that genocide and mass atrocities pose 
and in developing appropriate ways to anticipate and address civilian 
protection.'' What steps would you take to address potential acts of 
mass atrocity or genocide from occurring or to broaden the range of 
tools that could be brought to bear? How could these steps be applied 
to the current crises in the Democratic Republic of Congo or Darfur?

    Answer. The President-elect is committed to strengthening U.S. 
leadership and international efforts to prevent and respond to genocide 
and other humanitarian crises. He has welcomed this fine bipartisan 
report cochaired by two distinguished Americans, has pledged to review 
its recommendations carefully, and has met with Secretaries Albright 
and Cohen to discuss the contents of their report.
    The President-elect has said, and I agree, that we are diminished 
when genocide or ethnic cleaning is taking place and we stand idly by.
    I anticipate that the administration will review how the United 
States, working with our allies, partners, and international 
organizations, can build greater capacity and resolve to deter, 
prevent, and, when necessary, take action to stop mass atrocities. And 
I look forward to consulting with the committee and other Members of 
Congress as we consider how best to organize to address this challenge 
so that there is a process in place to anticipate and address any 
concerns as early as possible.
                                 darfur
    Question 113. The situation in Darfur today is far more complex 
than it was in 2004. Two rebel groups have splintered into over two 
dozen and these rebels frequently prey upon civilians and aid workers. 
What are the administration's goals in Darfur and what is its strategy 
to achieve them in light of this complexity?

    Answer. President-elect Obama and I have been very clear and 
forceful in our condemnation of the genocide in Sudan and in our 
commitment to far more robust actions to end the genocide and maximize 
protection for civilians. We have also made very clear our intent to 
pursue more effective diplomatic efforts to resolve the conflict that 
underlies the genocide. Today the most immediate and urgent means of 
providing protection as swiftly as possible to the civilians at risk is 
the rapid and full implementation of the United Nations-African Union 
peacekeeping force, which is half its authorized strength.

    Question 114. More than 4 years after then-Secretary of State 
Powell's declaration that genocide was taking place in Darfur, the 
death toll has climbed still higher, the camps for displaced persons 
have grown more crowded, and humanitarian access to help people in need 
has diminished in many areas. The United Nations has not made good on 
its pledge to send 26,000 peacekeepers to Darfur, and has not provided 
them with the helicopters, vehicles, and other tools to fulfill their 
mission. Why has this process been so slow to date? What more should 
the U.S. Government do to strengthen UNAMID so that it can effectively 
fulfill its mandate to protect civilians?

    Answer. First, we need to send a clear message to Khartoum that 
they must end obstruction of the U.N. force, including through endless 
bureaucratic hurdles and delays. We also need to address some of the 
U.N.'s own requirements that have inadvertently slowed UNAMID's 
deployment thus far. I expect that the questions of Sudan and Darfur 
will be subject to an early policy review. The administration will take 
the opportunity to look at all of the steps that it can take most 
effectively and urgently to maximize protection for civilians, and help 
to bring this conflict to an end.

    Question 115. One of the critical gaps that peacekeepers face is 
the lack of attack and utility helicopters that are desperately needed 
to cover vast stretches of roadless territory in Darfur. What would you 
do, if confirmed as Secretary of State, to help secure these badly 
needed helicopters?

    Answer. The administration will, as part of its review, actively 
pursue options to fill such critical gaps. The President-elect is 
committed to find ways to help move needed troops and equipment into 
place on an urgent basis.
                             southern sudan
    Question 116. The Comprehensive Peace Agreement (CPA) between North 
and South Sudan calls for elections in 2009 and a referendum in 2011 in 
which the South will vote on the question of remaining a unified 
country. What will your objectives be in regard to Southern Sudan and 
what potential pitfalls do you see in the implementation of the CPA?

    Answer. As a guarantor of the CPA, the United States has a special 
responsibility to ensure that implementation of this landmark agreement 
remains a priority even in the midst of the Darfur crisis. We will work 
bilaterally to increase support to the Government of Southern Sudan to 
bolster capacity and good governance, and multilaterally to assure 
appropriate donor coordination and ongoing political and financial 
support for CPA implementation.
    The Comprehensive Peace Agreement aims to give the Sudanese people 
greater voice in their political future, and this will remain a 
priority. National elections that were supposed to be held by July 2009 
will clearly be delayed, but the United States will work to ensure that 
the delay is not protracted, and that free, fair, safe elections are 
held before the year is out. Preparations for the 2011 referendum must 
remain on track as well to retain the confidence of the South.

    Question 117. In April 2008, then-Senator Obama said that ``the 
U.S. needs to work with the International Criminal Court (ICC) to ramp 
up the pace of indictments of those responsible for war crimes and 
crimes against humanity, while Khartoum must feel increased pressure to 
hand over those individuals already indicted by the Court.'' On July 
14, 2008, the ICC requested a warrant for the arrest of Sudanese 
President Omar Hassan al-Bashir for his role in the genocide in Darfur. 
Many observers expect the ICC to formally indict President Bashir on 
genocide and possibly other charges in early 2009. Does the 
administration intend to support the ICC's efforts to hold Bashir and 
others in Sudan accountable for genocide and other heinous crimes, and, 
if so, how?

    Answer. Yes. Without prejudging the outcome of the ICC prosecutor's 
recommendation to indict President Bashir, the President-elect 
believes, as do I, that we should support the ICC's investigations, 
including its pursuit of perpetrators of genocide in Darfur. The Bush 
administration has indicated publicly a willingness to cooperate with 
the ICC in the Darfur investigation. I commend them for this position, 
which we also support. We can provide assistance in the investigation; 
we can and should work with our allies in this effort. This is 
important because it would send a sign of seriousness about Darfur and 
our determination to end the killings and bring those responsible for 
war crimes to justice.
                      international criminal court
    Question 118. President-elect Obama has said that the United States 
should cooperate with the ICC on many activities, including Darfur. He 
has not, however, indicated that he will sign the Rome treaty and join 
the ICC. Questions linger over the scope of the ICC's activities and, 
in particular, whether U.S. servicemembers would have the necessary 
legal protections given their disproportionate burden in preserving 
international peace and security. What concerns, if any, need to be 
resolved before the administration would consider supporting 
ratification of the Rome statute? How will the administration work with 
our military commanders, Congress, and the ICC to address such 
concerns?

    Answer. Now that it is operational, we are learning more about how 
the ICC functions. Thus far, the ICC has operated with professionalism 
and fairness-pursuing perpetrators of truly serious crimes, like 
genocide in Darfur, and atrocities in the Congo and Uganda. The 
President-elect believes as do I that we should support the ICC's 
investigations, including its pursuit of perpetrators of genocide in 
Darfur. Along these lines, the Bush administration has indicated a 
willingness to cooperate with the ICC in the Darfur investigation, a 
position which the new administration will support.
    But at the same time, we must also keep in mind that the U.S. has 
more troops deployed overseas than any nation. As Commander in Chief, 
the President-elect will want to make sure they continue to have 
maximum protection. Therefore, we intend to consult thoroughly within 
the government, including the military, as well as nongovernmental 
experts, and examine the full track record of the ICC before reaching 
decisions on how to move forward. I also look forward to working 
closely with the members of the committee. Whether we work toward 
joining or not, we will end hostility toward the ICC, and look for 
opportunities to encourage effective ICC action in ways that promote 
U.S. interests by bringing war criminals to justice.
                                zimbabwe
    Question 119. The Mugabe government's brutality and mismanagement 
in Zimbabwe have ruined the country's economy, destroyed its health 
system, and deprived its citizens of basic rights and freedoms. Last 
March the people of Zimbabwe were brave enough to vote for change, but 
Mugabe continues his hold on power. A massive cholera epidemic is just 
the latest symptom of the government's failure to provide for its 
people. What tools can the United States bring to bear to promote 
democratic change in Zimbabwe?

    Answer. The people of Zimbabwe have suffered for far too long under 
a corrupt leadership that does not serve the needs of its people. The 
destruction of Zimbabwe's economy and repeated abuses of power have 
been a catastrophe for Zimbabweans, and threaten the stability of the 
region.
    The United States and the world must take steps to address this 
growing crisis.
    Widened U.S. sanctions are appropriate. It was the right policy to 
have supported a U.N. Security Council resolution calling for targeted 
sanctions and an arms embargo.
    As Zimbabwe's crisis continues and becomes even more destabilizing 
to the southern African region, South Africa, the African Union, and 
the SADC must play a stronger role in pressuring the Mugabe regime.
    It will require concerted and sustained diplomacy to try to get the 
international community to acknowledge the need to act to apply more 
pressure to the illegitimate government of Robert Mugabe, and to bring 
an end to the man-made humanitarian crisis that grips Zimbabwe today.
    The Zimbabwean people are suffering and the U.S. will push for more 
efforts, including having humanitarian NGOs resume activity in 
Zimbabwe.
    We will need to consider incentives for reform, and work closely 
with the EU and other international donors to create a very generous 
aid and recovery package for Zimbabwe once it has a legitimate 
government. We would make very clear the specific and practical steps 
that any Zimbabwean Government can take to qualify for this package.

    Question 120. Mugabe and his government are responsible for the 
deaths of untold numbers of people in Zimbabwe. Is this an appropriate 
matter for the International Criminal Court?

    Answer. This is a question that the new administration will review 
and consider carefully. If confirmed, I look forward to working with 
the national security team to determine how best to confront and 
address the extreme abuses in Zimbabwe.
    The suffering inflicted on the Zimbabwean people by the 
illegitimate government of Robert Mugabe is appalling. Ideally, the 
people of Zimbabwe will decide for themselves how best to address the 
issues of accountability and justice for crimes committed by Robert 
Mugabe and his inner circle in ZANU-PF.
    As discussed in other responses, I believe that as a general rule 
we should support the ICC's investigations, including its pursuit of 
perpetrators of genocide in Darfur. And we should work with our allies 
in shaping this court for years to come. Whether the ICC is the best 
vehicle to address the situation in Zimbabwe will be the subject of 
discussions within the new administration, and if confirmed I would 
also look forward to hearing the views of this committee.
                                somalia
    Question 121. Somalia today embodies the principles of failed 
statehood. The recent increase in the number, range, and impact of acts 
of piracy in the Gulf of Aden and beyond are only the latest 
consequence of the lack of government and rule of law in the country. 
As Secretary of State, what will govern your strategy toward Somalia 
and the Horn of Africa as a region? What steps can the United States 
and the international community take to promote prospects for 
democracy, stability, and security in the region?

    Answer. We need to take a very careful look at this set of 
questions. There are no simple solutions. First and foremost, we have a 
serious counterterrorism challenge in the context of Somalia. Second, 
we have a serious humanitarian concern and imperative. Third, we have 
an interest in trying to facilitate national reconciliation and long-
term stability in Somalia. In this context, the question is what tools 
and initiatives will best advance our efforts along all three of our 
objectives? If confirmed, I expect to consider this issue in the near 
future with the President-elect and my colleagues in the Cabinet. As a 
starting point, an important effort should be finding ways to increase 
support for and build the capacity of the African Union force.
                                africom
    Question 122. The creation of the new unified command for Africa, 
AFRICOM, may represent sound policy from the standpoint of efficiency 
and management. The new command also has the potential both to elevate 
and improve U.S. relations with many African countries, particularly in 
critical areas such as the training of peacekeepers and the 
professionalization of forces. However, the presentation and rollout of 
the new command raised diplomatic concerns. The creation of AFRICOM has 
also raised questions about the role of the Department of Defense in 
U.S. development efforts. What do you see as the role of AFRICOM in 
U.S. Africa policy and in development and humanitarian engagement?

    Answer. The President-elect supports the concept of AFRICOM, but 
has concerns about how it is being implemented. The new administration 
will review AFRICOM and consult with African nations. The original 
concept behind AFRICOM was that our engagement with Africa will be 
improved by streamlining our command structure so that there is a 
single unified command responsible for Africa, rather than three 
separate commands as has been the case. A well-conceived AFRICOM, 
playing the traditional role of a combatant command rather than 
supplanting the State Department's traditional role, can enhance U.S. 
Government efforts to foster peace and stability on the continent. The 
President-elect has cautioned that we must be very careful not to 
overmilitarize our relations with African nations. On the other hand, 
there is a role to play for AFRICOM in helping train and equip African 
rapid response forces for peacekeeping operations. AFRICOM can also 
contribute to an enhanced capability of African nations to patrol their 
own waters.
                    us. policy toward latin america
    Question 123. Many observers believe that the United States has not 
dedicated adequate attention and resources to Latin America, allowing 
other countries with hostile ideologies to fill the vacuum. Would you 
agree with this assessment? What is your agenda for the Americas? What 
are the most significant challenges confronting U.S. interests in the 
region?

    Answer. Too often, U.S. policy toward the Americas in recent years 
has been negligent to our friends, ineffective with our adversaries, 
and disinterested in the challenges that matter to peoples' lives 
throughout the region. The vacuum created by the lack of sustained U.S. 
engagement with the region has been filled, in part, by others--
including Hugo Chavez, who has tried to use this opportunity to advance 
outmoded and anti-American ideologies.
    As President-elect Obama has stated, administration policy toward 
the Americas will be guided by the simple principle that what is good 
for the people of the Americas is good for the United States. We will 
work in partnership with countries throughout the region to promote an 
agenda that helps advance democratic governance, opportunity, and 
security from the bottom up. It is time to focus on working to overcome 
the common challenges we face in the Western Hemisphere, including 
economic development, climate change, energy security, and the battle 
against transnational illicit networks. We must also provide support 
for democracy that includes strong legislatures, independent 
judiciaries, free press, vibrant civil society, honest police forces, 
religious freedom, and the rule of law.
    I look forward to working with members of this committee, as well 
as other Members of Congress to do exactly that and to help create the 
new partnership in the Americas described by President-elect Obama.
                                 brazil
    Question 124. In recent years, the U.S. and Brazil have worked more 
closely together on several important issues, including peacekeeping 
efforts in Haiti and promoting the use and production of biofuels. At 
the same time, Brazil has taken a leading role in trade and political 
forums, such as MERCOSUR, the Rio Group, and the newly established 
Union of South American Nations, which have at times been at odds with 
U.S. interests in the region. How would you assess the current state of 
bilateral cooperation between the United States and Brazil? What are 
possible areas where we might strengthen our relationship? What is your 
view of the United States-Brazil Energy Cooperation Pact?

    Answer. The current United States-Brazil relationship provides a 
foundation for a deeper, more comprehensive partnership between our two 
countries. We welcome the important leadership role Brazil has played 
in the United Nations stabilization force in Haiti. We look forward to 
ensuring that continued United States-Brazil energy cooperation is 
environmentally sustainable and spreads the benefits of alternative 
fuels. The expansion of renewable energy production throughout the 
Americas that promotes self-sufficiency and creates more markets for 
U.S. green energy manufacturers and producers is vitally important.
    There are a number of areas in which the United States and Brazil 
can work together. In partnership we can work to help advance 
democratic governance, opportunity, and security from the bottom up 
throughout the Americas. Brazil has an important voice on the global 
stage where we can work together on climate change, energy security, 
and the global financial crisis, among other important issues.
    The March 2007 Memorandum of Understanding to Advance Biofuels 
Cooperation and the work that has been done since then are an important 
feature of the United States-Brazil relationship. We look forward to 
ensuring that continued United States-Brazil energy cooperation is 
carried out in an environmentally sustainable manner and in a manner 
that spreads the benefits of alternative energy development throughout 
the region while expanding the market for U.S. green energy 
manufacturers and producers. It is also important that U.S. biofuel 
producers not be prejudiced by efforts to increase United States-Brazil 
cooperation. We must also ensure that all stakeholders, including those 
from the labor, environmental and business sectors, are adequately 
represented in the biofuels cooperation process.
                                colombia
    Question 125. An October 2008 report by the GAO concluded that, 
although Plan Colombia improved security conditions in Colombia, it has 
not significantly reduced the amount of illicit drugs entering the 
United States. What lessons can be drawn from Plan Colombia, not only 
to improve its effectiveness, but to improve other U.S. 
counternarcotics policies, including the Merida Initiative, in Latin 
America?

    Answer. The President-elect has supported the Andean Counter-Drug 
Program, and believes that it must be updated to meet evolving 
challenges.
    The security situation in Colombia has improved, but very 
significant quantities of illicit narcotics continue to flow from 
Colombia to the United States. I look forward to working with Congress 
and our friends and partners in Colombia to ensure that future 
investments help staunch the flow of illegal drugs and help consolidate 
security gains to contribute to a durable peace in Colombia. To do so, 
we must learn from the successes and failures of the past.
    We will fully support Colombia's fight against the FARC, and work 
with the government to end the reign of terror from right wing 
paramilitaries.
    As we continue our struggle against the scourge of illegal drugs in 
our society and throughout the Americas, we must ensure that we are 
doing what is necessary here at home to reduce demand, enforce our laws 
through effective policing, and disrupt the southbound flow of money 
and weapons that are an essential element of the transnational illicit 
networks that operate in Colombia and elsewhere in the Americas. It is 
important that we work together with countries throughout the region to 
find the best practices that work across the hemisphere and to tailor 
approaches to fit each country.

    Question 126. In light of the concerns previously expressed by 
President Obama and others, including members of this committee, 
related to violence against labor unions and other abuses in Colombia, 
what are your views on the United States-Colombia Free Trade Agreement? 
How can we work to minimize the impact that disagreements over trade 
have over other aspects of our bilateral relationship?

    Answer. It is important that we not lose sight of the many aspects 
of the important, dynamic, and complex bilateral relationship that the 
United States and Colombia have when we discuss the United States-
Colombia Trade Promotion Agreement. I look forward to working to 
maintain the across-the-board vibrancy of the relationship.
    With regard to the trade agreement, it is essential that trade 
spread the benefits of globalization. Without adequate labor 
protections, trade cannot do that. Although levels of violence have 
dropped, continued violence and impunity in Colombia directed at labor 
and other civic leaders makes labor protections impossible to guarantee 
in Colombia today.
    Colombia must improve its efforts. I look forward to working with 
members of this committee, as well as other Members of the Senate and 
House of Representatives to see what the United States can do to help 
contribute to an end to further violence and continued impunity 
directed against labor and other civic leaders in Colombia.
    The United States and Colombia have long enjoyed a close, mutually 
beneficial relationship. I am confident that through continued 
cooperation on the full array of bilateral issues, we can maintain and 
deepen that relationship. Active engagement with Colombia will be an 
important part of this administration's approach to hemispheric 
relations.
                                  cuba
    Question 127. As you know, Cuban Americans currently must obtain a 
U.S. Treasury Department license to visit family in Cuba. Even if 
issued such a license, they are permitted to visit immediate family in 
Cuba only once in a 3-year period. Similarly, Cuban Americans are 
allowed only to send up to $300 to their family in any
3-month period. Will the new administration ease these burdensome 
restrictions so that the Cuban people have to rely less on their 
repressive government for assistance, as President-elect Obama called 
for during the election? If so, what is the likely timing of this 
announcement? Are there other ways that we can send a message to the 
Cuban people that the United States intends to play a positive role in 
their future and support their democratic aspirations?

    Answer. There are many ways to that we can send a message to the 
Cuban people that the United States intends to play a positive role in 
their future. President-elect Obama believes that Cuban-Americans 
especially can be important ambassadors for change in Cuba. As such, he 
believes that it makes both moral and strategic sense to lift the 
restrictions on family visits and family cash remittances to Cuba. We 
do not currently have a timeline for the announcement of such a new 
policy, and the Obama-Biden administration will consult closely with 
Congress as we prepare the change.
    President-elect Obama also believes that it is not time to lift the 
embargo on Cuba, especially since it provides an important source of 
leverage for further change on the island.
                               venezuela
    Question 128. United States-Venezuelan relations have been marked 
by considerable friction under the rule of President Hugo Chavez. There 
are a number of areas of U.S. concern: Chavez's concerted efforts to 
export his brand of populism throughout the region; declining 
Venezuelan cooperation on counternarcotics and counterterrorism; 
Venezuela's relations with Cuba, Iran, and Russia; its recent military 
exercises and arms purchases; and the state of democracy in Venezuela. 
How do you view recent developments in Venezuela? What approach will 
you recommend to start to reverse some of these negative trends? Do you 
see any opportunities for direct engagement over these issues? Would 
you or President-elect Obama participate in any discussions that occur? 
Under what circumstances?

    Answer. For too long, we have ceded the playing field to Hugo 
Chavez--a democratically elected leader who does not govern 
democratically, and whose actions and vision for the region do not 
serve his citizens or people throughout Latin America. While we should 
be concerned about Chavez's actions and posture, we should not 
exaggerate the threat he poses. It's time for the United States to fill 
that void with strong and sustained U.S. leadership in the region, and 
tough and direct diplomacy with Venezuela and Bolivia. We should have a 
positive agenda for the hemisphere in response to the fear-mongering 
propagated by Chavez and Evo Morales. We believe that bilateral 
cooperation with Venezuela and Bolivia on a range of issues would be in 
the mutual interest of our respective countries--for example, 
counterterrorism, counternarcotics, energy, and commerce.
    The pursuit of tough, principled, direct diplomacy has been and 
must again be a hallmark of effective U.S. foreign policy. We should 
not take any tool off the table that may help promote our interests and 
values throughout the hemisphere. Direct, high-level diplomatic 
engagement with Venezuela, of course, also requires careful preparation 
and a partner willing to engage in meaningful dialogue. It remains to 
be seen whether there is any tangible sign that Venezuela actually 
wants an improved relationship with the United States.
    No decision has been taken with regard to the appropriate manner 
and level at which to engage with the Venezuelan Government.
                  democracy promotion and human rights
    Question 129. What role will democracy promotion and human rights 
have as part of the broader U.S. foreign policy agenda? What lessons do 
you take away from the Bush administration's efforts to promote 
democracy and human rights?

    Answer. The President-elect has pledged to be a strong advocate for 
democratic change around the world. And I wholeheartedly support this 
policy. Under his leadership, we will support new democracies and help 
them build sustainable democratic institutions. Democracy must mean 
more than elections--it must mean support for strong legislatures, 
independent judiciaries, free press, vibrant civil society, honest 
police forces, religious freedom, and the rule of law.
    We must not allow the war in Iraq to continue to give democracy 
promotion a bad name. Supporting democracy, economic development, and 
the rule of law is critical for U.S. interests around the world. 
Democracies are our best trading partners, our most valuable allies, 
and the nations with which we share our deepest values. But democracy 
must be nurtured with moderates on the inside by building democratic 
institutions; it cannot be imposed by force from the outside.

    Question 130. Although the Bush administration made the ``freedom 
agenda'' a centerpiece of its second term, by most objective measures 
these efforts have not been successful in the Middle East. The Middle 
East remains arguably the world's least democratized region; regimes 
like Iran and Syria have been emboldened; Hezbollah and Hamas have been 
empowered at the ballot boxes; and prominent democracy and human rights 
activists are jailed throughout the region, including in countries 
enjoying close relations with the United States. How can the United 
States best promote democratization and political reform in the Middle 
East? Which aspects of the United States recent democracy promotion 
policies in the region need to change and which aspects have been 
effective?

    Answer. There is no doubt that democracy has been slower to take 
root in the Middle East than it has in some other parts of the world. 
Promoting democratization and political reform in the Middle East will 
require skill, patience, and a clear commitment to our principles. It 
will involve engaging with leaders and with the region's people to find 
opportunities to advance reforms that can benefit both. We need to 
understand that these changes happen over time, not overnight, and that 
they are most successful when they are homegrown, and not perceived to 
be imposed from outside. Elections are important, but they are not 
sufficient, and often fail when they precede the establishment of 
institutions that bolster democratic society-strong legislatures, 
independent judiciaries, free press, vibrant civil society, honest 
police forces, religious freedom, and the rule of law. In addition to 
standing for democracy in the region, we must also stand for 
opportunity for the region's people--including greater access to 
education.
    Public diplomacy, assistance to reformers, and dialogue with 
leaderships will all be crucial elements of our approach, but as 
President-elect Obama has said, our greatest tool in advancing 
democracy is our own example. That is why closing the detention 
facility at Guantanamo Bay and following through on a commitment to end 
torture will not only strengthen our values at home, but will bolster 
our national interests overseas.

    Question 131. President Bush and Secretary Rice often met with 
foreign dissidents and victims of human rights abuses, apparently as a 
way to signal the importance of these issues to him and his 
administration. Do you intend to continue this practice?

    Answer. Yes. Throughout my career, I have met with and championed 
the causes of those who have fought for their own rights and the rights 
of their fellow citizens, and I will continue to do so, if confirmed, 
in my role as Secretary of State.
                        global financial crisis
    Question 132. What role can and should the State Department play in 
facilitating a recovery from the global financial crisis? What steps do 
you intend to take consistent with this role?

    Answer. The President-elect and I understand the connection between 
our economy and our strength in the world. We often hear about two 
debates--one on national security and one on the economy--but that is a 
false distinction. We must be strong at home to be strong abroad. It is 
close to an iron law of history that great nations owe their greatness 
to their economic strength--and that nations decline if they let their 
economy decline. Our economy supports our military power, it increases 
our diplomatic leverage, and it is a foundation of America's leadership 
in the world.
    As the new administration develops new policy approaches and 
implements new initiatives to deal with the financial crisis, I intend 
to collaborate with my colleagues at Treasury and the White House to 
enhance international cooperation in support of our efforts. State will 
deploy our embassies worldwide to update foreign governments on U.S. 
policy responses, to encourage appropriate policies in other countries, 
and to discourage counterproductive or protectionist reactions to the 
crisis. And we will seek to address the broader implications of the 
crisis for economic growth, development, and security around the world. 
It has become clear that this crisis, concentrated initially in the 
United States and Western Europe, is undermining both economic progress 
and stability in many developing and emerging economies, with adverse 
repercussions for U.S. economic and security interests.
                             global poverty
    Question 133. Today, more than 1 billion people live in slums 
around the word, with that number expected to grow to 2 billion within 
a couple decades. It is now estimated that for the first time in 
history more people live in urban areas than in rural areas. Yet, U.S. 
foreign assistance has almost zero capacity to deal with complex issues 
related to the concentration of poverty in slums. Furthermore, neither 
USAID nor the Department of State has an office devoted to addressing 
urban development issues, either from a programmatic or policy 
perspective. How do you intend to place greater emphasis on supporting 
those who live in extreme poverty and slums?

    Answer. America must renew its effort to bring security and 
development to the disconnected corners of our interconnected world. 
These efforts must strengthen the capacity of weak and failing states, 
while expanding education and opportunity for the world's people. As we 
seek to lead the world, the United States has a significant stake in 
ensuring that those who live in fear and want today, can live with 
dignity and opportunity tomorrow. That is why President-elect Obama and 
I have embraced the Millennium Development Goals to cut global poverty 
in half by 2015. He has also pledged to double our foreign assistance 
budget over time--a pledge that I agree with and will help him 
implement.
    The challenges posed by the rise of mega-cities, of the global 
youth bulge, of increasing resource scarcity, and of the growing gap 
between rich and poor are challenges we must face in order to uphold 
our common humanity and ensure our common security. The sharp rise in 
urban poverty--whether manifested in the growth of slums, an increase 
in youth violence, rampant unemployment, or gross shortfalls in health 
and education services--threatens the stability and well-being of 
literally billions of the world's people.
    The good news is that there are clear steps we can take. We have 
seen in India, for example, that by investing in organizations that can 
create employment opportunities for women and their communities, we can 
create jobs and foster dignity--even in slums. We also know that by 
helping to strengthen government institutions, build economic and trade 
linkages, and support the private sector--starting with small 
enterprises and building up--we can help to change the economic 
environment that generates urban poverty. And finally, we know that if 
we invest in agriculture, we can ease the global food crisis and help 
farmers to stay on their land.
                           global food crisis
    Question 134. The global food crisis is a triple threat--
humanitarian, economic, and strategic. It is pushing an additional 100 
million people into poverty, and high prices have caused unrest and 
riots in dozens of countries, including Egypt, Indonesia, the 
Philippines, and Haiti. This crisis can be explained by a convergence 
of factors--a dearth of investment and inattention to long-term 
agricultural development, high growth in demand, rising energy prices, 
overreliance on corn-based bio-fuels, restrictive trade policies, and 
climate change. What steps would you advocate as Secretary of State to 
address some of the root causes of the global food crisis?

    Answer. Although a long-simmering problem, the sharp increases in 
global food prices last year, combined with supply constraints in many 
parts of the world, created a severe humanitarian and economic crisis, 
particularly for countries least able to cope with these developments. 
A food crisis of this magnitude poses a threat to both prosperity and 
security in many developing countries. Millions of people are at risk 
of being pushed back into poverty, jeopardizing achievement of the 
Millennium Development Goals. Moreover, states that cannot feed their 
people are inherently fragile ones. The United States therefore has not 
only a moral responsibility but also a strong practical interest in 
doing its part to address a food crisis of this scope and severity.
    The underlying causes of the food crisis that erupted last year 
were both cyclical and structural. The more immediate causes included 
poor harvests in key grain-producing nations, sharply higher oil 
prices, and a surge in demand for meat in high-growth Asian countries. 
Longer term factors include inadequate investment in enhanced 
agricultural productivity, inappropriate trade and subsidy programs, 
and climate change.
    Similarly, responses to the crisis must include both short- and 
long-term measures. In the near term, the United States must work with 
its partners in the international community to address immediate 
humanitarian needs and make seeds and fertilizers available in 
critically affected nations. Key long-term steps include putting more 
focus on efforts to enhance agricultural productivity in the world's 
poorest nations, including agricultural research and development, and 
investment in improved seeds and irrigation methods.
    I also fully support and will work to implement President-elect 
Obama's pledge to launch an ``Add Value to Agriculture'' (AVTA) 
initiative, which aims to increase the incomes of subsistence farmers, 
decrease the pressure on shrinking arable lands, and minimize the 
vulnerability of commodity exports to global price shocks.
                                treaties
    Question 135. Does the administration intend to submit a Treaty 
Priority List during the 111th Congress? If so, when does the 
administration expect to submit the list?

    Answer. We are still considering whether and when to submit a 
Treaty Priority List.

    Question 136. In the late 1980s and early 1990s, the bipartisan 
Senate Arms Control Observer Group gave members of the Senate an 
opportunity to observe arms control negotiations and to better 
understand the treaties that would ultimately be submitted to the 
Senate for its advice and consent to ratification. As Secretary, what 
consultative measures, prior to submittal of a treaty for Senate advice 
and consent to ratification, do you envision taking to ensure that the 
Senate is fully prepared to understand and evaluate such treaty? Will 
you restore regular prior consultation with our committee on treaties 
and invite Senators to directly observe arms control negotiations?

    Answer. I will direct Department officials to closely consult with 
this committee on treaty negotiations. Members of the committee and the 
Senate must be kept well informed of the process of developing and 
negotiating arms control and nonproliferation agreements so that they 
have a better basis for evaluating such agreements when and if they are 
completed and brought before the Senate for review or approval. Various 
arrangements could be used to keep the Senate well informed, including 
a mechanism similar to the Senate Arms Control Observer Group. I and my 
Under Secretary for Arms Control and International Security will want 
to consult with members to figure out which approach or approaches 
would be practical and effective.
                                 ______
                                 
Memorandum of Understanding (MOU) Between the William J. Clinton 
Foundation and the Obama Presidential Transition Foundation dated 
December 12, 2008; Letter Agreements with James H. Thessin Executed by 
Senator Hillary Rodham Clinton (``Clinton Letter Agreement'') and David 
E. Kendall (``Kendall Letter Agreement'' dated January 5, 2009.

    Question 1. What compensation, if any, does President Clinton 
personally derive from the William J. Clinton Foundation 
(``Foundation'')?

    Answer. President Clinton receives no compensation from the Clinton 
Foundation, which is a 501(c)3 charitable foundation.

    Question 2. Are all of the contributions made to the Foundation 
used for purposes that fall within the Foundation's missions?

    Answer. Yes, contributions are used to further the Foundation's 
charitable mission, including management and administrative costs. The 
Foundation strives to keep its overhead costs low; for example in 2007, 
only 2.7 percent of the Foundation's expenses were used for management 
and administrative purposes.

    Question 3. Please explain the timing of the recent disclosure of 
contributions to the Foundation. Please confirm that this represents 
all contributions made to the Foundation to date.

    Answer. President Clinton and the Foundation are committed to 
ensuring that the Foundation's charitable work does not affect the work 
of the Secretary of State, should I be confirmed for that position. In 
that spirit, the Foundation sought its contributors' support in going 
above and beyond the requirements of the law and ethics rules by 
publishing their names. The Foundation published all contributions that 
were made prior to the date of publication.

    Question 4. Were you ever personally involved in soliciting 
contributions to the Foundation?

    Answer. While I have participated in events that celebrate the 
charitable Foundation and raise funds such as the President's 60th 
Birthday Celebration, which raised funds for initiatives that provide 
medicine to those living with HIV/AIDS, combat the threat of global 
climate change, and address the barriers to sustainable economic 
development in America, Africa, and Latin America, I have not 
personally solicited contributions for the Foundation.

    Question 5. What are the criteria the Foundation uses in making 
determinations as to the countries in which it will conduct its 
activities?

    Answer. The Clinton Foundation works with governments, 
nongovernmental organizations, and other partners on some of the 
world's most intractable problems--HIV/AIDS, climate change, 
sustainable economic development. Its work is based on the premise that 
these problems can be overcome through collaborative and systematic 
efforts, using business-oriented approaches. The Foundation seeks areas 
where its involvement can ``add value'' on projects that are scalable 
and sustainable. It works at the invitation of governments and in 
cooperation with them.

    Question 6. Will all future contributions to the Foundation be 
disclosed to the public? If so, when and how will these disclosures be 
made?

    Answer. As I understand from the MOU, should I be confirmed, the 
Foundation will publish annually the names of all contributors for that 
year.

    Question 7. Will all pledges for future contributions to the 
Foundation be publicly disclosed? If so, when and how? If not, please 
provide an explanation as to why such pledges for future contributions 
should not trigger the same disclosure process applied to current 
contributions.

    Answer. As I understand from the MOU, should I be confirmed, the 
Foundation will publish annually the names of all contributors for that 
year, but it will not publish mere promises to contribute as they are 
not realized unless and until they are paid.

    Question 8. Will pledges for future contributions to the Foundation 
be subject to the same review process as current contributions from 
foreign governments? If not, please provide an explanation as to why 
such pledges for future contributions would not raise the same issues, 
and should not trigger the same review process applied to current 
contributions under the MOU.

    Answer. Pledges from foreign governments are proposed contributions 
which under the MOU will be presented to the State Department for 
review.

    Question 9. What will formally trigger the review process 
contemplated under section 2 of the MOU?

    Answer. The Clinton Foundation will provide the State Department's 
designated agency ethics official with information about proposed 
contributions that are covered by the MOU.

    Question 10. Please describe the standard of review that will be 
applied by the State Department's designated agency ethics official to 
contributions from foreign governments pursuant to section 2 of the 
MOU. If concerns are raised in such a review, how will such concerns be 
conveyed to you and the Foundation?

    Answer. The State Department has determined that the appropriate 
standard when reviewing certain contributions to the Clinton HIV/AIDS 
Initiative, the Clinton Climate Initiative, the Clinton Giustra 
Sustainable Growth Initiative, and the Clinton Hunter Development 
Initiative of the William J. Clinton Foundation is the existing 
standard for impartiality in performing official duties, which is found 
in the section of the Standards of Ethical Conduct for Employees of the 
Executive Branch that encompasses the standards and procedures for 
consideration of appearances of conflicts of interest [5 CFR 2635.502].
    In the event the State Department or White House has concerns about 
a proposed business relationship, speech, or contribution, those 
concerns will be conveyed to me and to President Clinton's office for 
appropriate action.

    Question 11. Under what circumstances will the State Department 
refer matters to the White House Counsel's office pursuant to section 2 
of the MOU? How will any concerns be conveyed to you and the 
Foundation?

    Answer. The State Department has determined that the appropriate 
standard when reviewing certain contributions to the Clinton HIV/AIDS 
Initiative, the Clinton Climate Initiative, the Clinton Giustra 
Sustainable Growth Initiative, and the Clinton Hunter Development 
Initiative of the William J. Clinton Foundation is the existing 
standard for impartiality in performing official duties, which is found 
in the section of the Standards of Ethical Conduct for Employees of the 
Executive Branch that encompasses the standards and procedures for 
consideration of appearances of conflicts of interest [5 CFR 2635.502].
    The State Department's professional career ethics officials will 
determine when to consult the White House Counsel's office. In the 
event the State Department or White House has concerns about a proposed 
business relationship, speech, or contribution, those concerns will be 
conveyed to me and to President Clinton's office for appropriate 
action.

    Question 12. What do you anticipate could constitute the 
``appropriate action'' contemplated in section 2 of the MOU in response 
to these concerns? Would such ``appropriate action'' by you or the 
Foundation be voluntary or mandatory?

    Answer. Should I be confirmed, President Clinton and I are 
committed to ensuring that his work does not present a conflict of 
interest with the duties of Secretary of State. Appropriate action 
means that decisions will be made based on consideration of all the 
facts and guidance from the professional career ethics officials. In 
many, if not most cases, it is likely that the Foundation or President 
Clinton will not pursue an opportunity that presents a conflict. The 
State Department's professional career ethics officials, however, may 
recommend recusal, or taking other appropriate actions to mitigate any 
perceived conflict and I will be guided by such advice.

    Question 13. How would you respond to concerns that donations from 
individuals who may have ties to foreign governments or matters of 
possible relevance to your official duties could potentially raise 
similar questions as contributions from foreign governments?

    Answer. First, I think it is important to observe that the Office 
of Government Ethics (OGE) and the professional career ethics officials 
have advised that neither the law nor the ethics regulations require my 
husband or the Foundation to take the voluntary steps they have. The 
Foundation is a 501(c)3--neither my husband nor I has any financial 
interest. The Presidential Transition Team and the Foundation 
determined that further steps were not necessary.
    Ultimately, there is no conflict between the foreign policy of the 
United States and the efforts of the Clinton Foundation seeking to 
reduce human suffering and increase opportunity for people in need. 
That has been demonstrated quite clearly in President Clinton's and 
former President Bush's efforts to raise relief funds after Katrina and 
the Tsunami.
    The Clinton Foundation has helped save and extend the lives of more 
than a million people, many of them children. It is combating climate 
change and childhood obesity. It is bringing economic opportunity to 
struggling people in America and around the world. Governments acting 
alone are not equipped to solve all the world's problems, and as I have 
said for years, we need NGOs to bridge the gap between what government 
can do and what is needed to be done.
    The agreement that has been reached between the Clinton Foundation 
and the President-elect's transition team will allow the Foundation's 
charitable work to continue while providing for an unprecedented level 
of transparency and ethical review of its activities.

    Question 14. Please describe the differences, if any, between the 
review process under section 2 of the MOU for foreign government 
contributions and the review process contemplated for President 
Clinton's speech and consulting income under the Kendall Letter 
Agreement.

    Answer. The State Department's professional career ethics officials 
will review both foreign government contributions under section 2 of 
the MOU and speech and consulting incoming under the Kendall Letter 
Agreement. In many, if not most cases, it is likely that the Foundation 
or President Clinton will not pursue an opportunity that presents a 
conflict. The State Department's professional career ethics officials, 
however, may recommend recusal, or taking other appropriate actions to 
mitigate any perceived conflict. President Clinton and I will be guided 
by such advice.
                                 ______
                                 

  Responses to Supplemental Questions Submitted by Senator John Kerry

    Question. A September 1992 letter from Janet Mullins, then-
Assistant Secretary of State for Legislative Affairs, to the chairman 
of the Subcommittee on Europe and the Middle East expressed State 
Department policy on the definition of a political prisoner. In that 
letter and on many other occasions, the State Department has 
characterized a person to be a political prisoner if the person is 
prosecuted for political reasons and the charges are trumped up or the 
trial unfair.

  <bullet> Does the Department still apply this standard in determining 
        whether an individual should be considered a political 
        prisoner?

    Recent reports on human rights in Russia prepared by the Department 
and others consider the official treatment of politically active 
businessman Mikhail Khodorkovsky to constitute a politically motivated 
case of selective arrest and prosecution. To date, the Department has 
not labeled Khodorkovsky a political prisoner, although it applies this 
label to others subject to politically motivated arrests and 
prosecutions. As chairman of this committee, Vice-President-elect Joe 
Biden described Russian actions against Khodorkovsky as part of a 
pattern by which, in his words, ``[th]e Putin government has 
selectively and ruthlessly utilized its prosecutorial powers to silence 
incipient rivals and thereby intimidate other potential opponents,'' 
stating that ``[t]he imprisonment and legal proceedings against 
Khodorkovsky have violated virtually every canon of fairness and 
legality.''

  <bullet> Do you agree with Vice-President-elect Biden that the 
        treatment of Mr. Khodorkovsky may be politically motivated? 
        What steps will you take, as Secretary of State, to work for 
        the release of Russian political prisoners?

    Answer. The Department looks to a variety of factors in deciding 
whether to report that an individual may have been the subject of a 
politically motivated arrest and/or prosecution, such as whether the 
prosecution is based on the individual's political beliefs and whether 
the charges and trial are unfair. However, the Department does not 
routinely make determinations as to whether an individual is a 
political prisoner.
    As the recent report on human rights prepared by the Department 
indicated, some human rights groups consider the official treatment of 
politically active businessman Mikhail Khodorkovsky to constitute a 
politically motivated case of selective arrest and prosecution.
    There are many troubling aspects to the case. The original trial, 
the continued prosecutions, and the dismantlement of Yukos raise 
serious questions about the rule of law and due process in Russia. Some 
aspects of the way the case has been conducted do indeed appear to be 
politically motivated.
    This case reveals broader issues at stake for Russia, namely: 
respect for rule of law, sanctity of contracts, property rights, 
independence of the courts, and Russia's commitment to political 
development.
    The Obama administration will continue to raise concerns about the 
lack of due process in this and other cases that may be politically 
motivated.
                               education
    Question. In the 110th Congress, you introduced the Education for 
All Act, an important piece of legislation that seeks to invest up to 
$10 billion over 5 years as part of an international effort to enroll 
in school the 75 million children living in impoverished and conflict-
affected countries. During the campaign, President-elect Obama 
committed to erasing the global primary education gap by 2015 and 
capitalizing a ``Global Education Fund'' with at least $2 billion in 
funding toward the goal of universal access to education.

  <bullet> As Secretary of State, will international basic education 
        remain a priority for you? If so, please describe what policies 
        you will design and implement to support this goal, how you 
        envision Congress supporting your efforts, and how significant 
        investment in global education would benefit the recipients and 
        the United States?

    Answer. The United Nations developed the Millennium Development 
Goals (MDG) to help reduce the crippling burden of global poverty. One 
of those goals is to achieve universal primary education by the year 
2015. The United States joined other U.N. Member States in adopting the 
MDGs in 2000, and I applaud our government's commitment to reaching all 
of these goals, including universal primary education. I look forward 
to implementing President Obama's vision and ensuring that the United 
States remains a leader in efforts to help all girls and boys access 
quality basic education. We should coordinate our efforts with others, 
including the World Bank's Fast Track Initiative, in order to maximize 
our investment in global education.
    I know there are many ideas as to how the United States can best 
contribute to the global efforts to achieve universal basic education, 
and I look forward to working with the Congress and with education 
experts to develop a comprehensive strategy for education assistance.
    I believe that any strategy should include the following 
components:

--Adequate access to at-risk children: Our efforts to achieve universal 
    education must reach all children, particularly those who are most 
    likely to be out of school. We must ensure that children in 
    conflict areas or disaster sites have the opportunity to continue 
    their education. We must ensure that often-marginalized 
    populations, such as children with disabilities, and indigenous or 
    minority ethnic groups, have access to education. And it is 
    imperative that our global education efforts include increasing 
    enrollment of girls, who currently account for a majority of 
    children that lack access to education.
--Quality education: Our efforts to achieve universal basic education 
    cannot simply be measured by enrollment figures. Rather, we must 
    ensure that every child has access to a quality education, and is 
    in an environment that is conducive to learning. Specifically, we 
    must ensure that we have adequate resources, including a trained 
    teacher workforce and educational materials, and an environment 
    that is free from violence.
--Accountability: We must ensure that our increased investment comes 
    with a plan for coordination, so that we are complementing, not 
    duplicating, other efforts. It is also important to have a strong 
    management within our government to oversee these efforts, 
    facilitate cooperation among agencies and our other partners, and 
    ensure that we are making continued progress toward universal basic 
    education.
                                malaria
    Question. Fortunately, malaria is presently little known in the 
United States, but before the 1950s, some foreign ambassadors serving 
in the United States received hardship pay because of the risk of 
catching the disease while serving in Washington due to mosquito 
infestation in the Potomac. Through a concerted effort, the United 
States eradicated this concern. However, in 2009, nearly 1 million 
people, mostly children in Africa under 5 years old, are expected to 
die as a result of malaria. Senator Clinton, as a candidate for 
President, you introduced a bold plan to eliminate deaths in Africa 
from malaria. As a candidate, President-elect Obama shared this vision, 
and it might be practicable given the existence of low-tech 
interventions, including bed nets, treatments and environmentally 
sustainable spraying. Using such interventions, malarial deaths have 
been reduced by half in Ethiopia and two-thirds in Rwanda.
    Last year, as part of the PEPFAR reauthorization, Congress 
authorized up to $5 billion over the next 5 years to combat malaria. 
Can you give us your thoughts on this issue and what plans you have to 
wipe out this disease that affects many of the world's poorest people?

    Answer. I share your concern about the critical need to address 
malaria, which has 300 million cases globally and causes 900,000 deaths 
annually. Our programs are achieving the ambitious objective set in 
2005 of reducing malaria-related deaths in the 15 priority countries by 
50 percent by the end of 2010. I plan to build upon that success, 
especially the program's emphasis on strengthening local health systems 
to ensure that our successes are sustained. The Tom Lantos and Henry J. 
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Reauthorization Act of 2008 authorized funding of $5 
billion over 5 years. If these funds are appropriated, our malaria 
control and prevention programs will expand to benefit approximately 70 
percent of the vulnerable populations in sub-Saharan Africa. With full 
funding of the Hyde/Lantos Authorization, it will be possible to 
achieve dramatic reductions in the burden of malaria across Africa by 
2013.
                              agriculture
    Question. In 2000, the United States joined a worldwide commitment 
to halving poverty by 2015. Although we are about halfway to this goal, 
nearly 1.4 billion people continue to live on just over $1 per day and 
about 900 million people in developing countries currently go hungry. 
The past year has witnessed food crisis that in some instances resulted 
in political instability in countries such as Haiti, Senegal, Egypt, 
Pakistan, and the Philippines. Jacques Diouf, the Director General of 
the Food and Agriculture Organization, stated that ``[a]ll indications 
we have is that this is not a short-term effect.'' Many experts predict 
that the cost of food will remain high in the near future and possibly 
until 2013. Although the United States is a global leader in providing 
emergency food and disaster aid, such assistance, while critical, is 
not a sustainable solution to improving the lives of the millions of 
people who are vulnerable to food insecurity. To use an old adage, we 
need to teach people how to fish. The EU has committed about 1 billion 
euros in aid to help increase agricultural production in developing 
countries and to enable them to feed their populations. As Secretary of 
State, what commitment and role will you seek for the United States to 
strengthen our efforts on this important issue?

    Answer. President Obama has made clear that alleviating hunger 
worldwide is a top priority of his administration. As he said on the 
first day of his Presidency, ``to the people of poor nations, we pledge 
to work alongside you to make your farms flourish and let clean waters 
flow; to nourish starved bodies and feed hungry minds.'' The President 
and I intend to focus new attention on food security so that developing 
nations can invest in food production, affordability, accessibility, 
education and technology. We are committed to building a new 
partnership among donor states, developing nations, U.N. agencies, 
NGO's, the private sector and others to better coordinate policies to 
achieve the Millennium Development Goals agreed to in 2000. As 
Secretary of State I will use all of the means available to me to 
support President Obama's Add Value to Agriculture Initiative (AVTA).
    I believe there are three areas which require action. First, we 
must invest in agricultural research to improve potential crop 
production. Second, we must also invest in infrastructure related to 
agriculture in order to spread the benefits of new technology to all 
farmers, and improve the efficient delivery of food to markets. And 
third, we have to make markets themselves more efficient, both locally 
and globally.

    Question. Both Defense Secretary Robert Gates and National Security 
Advisor Jim Jones have publicly stated that in the interest of long-
term U.S. national security, policymakers should take a three-pronged 
approach to U.S. foreign policy that emphasizes defense, diplomacy, and 
development. While defense and diplomacy are prioritized, the 
development component of U.S. foreign policy is not only outdated, but 
is significantly undervalued, underfunded, and in several areas, it 
underperforms. In order to compliment the other two areas of focus, the 
U.S. development regime should be reformed and appropriately elevated 
in terms of its profile and resource allocation.

  <bullet> Do you agree that development should be elevated as a 
        foreign policy tool? What role do you think economic 
        development and poverty reduction in poor countries play in 
        enhancing U.S. national security?

    Nearly 1.4 billion people currently struggle to survive on about 
one dollar per day. There are estimated to be about 963 million hungry 
people worldwide, 907 million of whom live in developing countries. 
Some of these countries have become unstable and, consequently, over 
the last 10 years, have presented serious security implications for the 
United States. These countries include Sudan, Somalia, and Afghanistan, 
where terrorists groups such as al-Qaeda have threatened weak 
governments, set up training camps to recruit and train operative to 
attack the United States and our allies, and influenced many of their 
people to despise America.

  <bullet> Could you describe how you view the relationship between 
        poverty and U.S. national security and how you would address it 
        as Secretary of State?

    A poor international image makes it easier for enemies of America 
to spread negative propaganda and recruit supporters at both the 
individual and national level. Over the last 2 years, you and 
President-elect Obama have asserted that America's image worldwide is 
badly damaged and stated your intention to take bold and immediate 
steps to repair it.

  <bullet> Do you believe the promotion of development is a necessary 
        component of this effort? If so, what development efforts could 
        be enhanced to help repair our tarnished image and restore the 
        United States status as a moral leader in the global community?

    Answer. President Obama is committed to elevating the importance of 
development assistance to America's foreign policy and national 
security. As Secretary of State, I can assure you that the State 
Department and USAID will stand ready to more fully integrate 
development as one of three pillars of a new security strategy, with 
defense and diplomacy standing as the other two pillars. I believe that 
development is an equal partner, along with defense and diplomacy, in 
the furtherance of America's national security. To that end, President 
Obama and I have committed to increasing foreign assistance, although 
the economic downturn may affect the pace at which this is possible. 
President Obama has also called for modernization of U.S. development 
and foreign assistance programs. While this will require a significant 
investment of time and effort, we believe that these efforts can pay 
significant returns in global stability, security, and prosperity.
    Meeting the expressed goals of this Congress and the priorities 
that the President has established, including the achievement of the 
Millennium Development Goals, will require more resources. Defense 
Secretary Robert Gates believes that future success in foreign policy 
and the fight against terrorism will be ``less a matter of imposing 
one's will and more a function of shaping behavior--of friends, 
adversaries, and, most importantly, the people in between.'' He is 
absolutely right. Considering the importance of the work ahead, we 
cannot fail simply for a lack of will or resources. There are few other 
places in the budget where dollars invested literally means lives 
saved.
    Positive feelings toward the United States in sub-Sahara Africa in 
part reflect the work that is being done through PEPFAR, through the 
Malaria Initiative, through our economic growth programs, and through 
our basic education programs. These programs boast tangible results 
that make a difference in people's lives. As we look toward the future, 
it is essential that the role of USAID and our other foreign assistance 
programs are strengthened, adequately funded and coordinated in a way 
that makes clear that the United States understands and supports 
development assistance.

    Question. PEPFAR and the Millennium Challenge Account were two key 
initiatives passed during the last administration, with strong 
bipartisan support in Congress. They have succeeded in saving and 
improving the lives of millions of people, and took innovative 
approaches to helping reduce global poverty. President-elect Obama has 
committed to coordinate and consolidate PEPFAR, the Millennium 
Challenge Corporation (MCC) and other foreign assistance programs into 
a streamlined U.S. Agency for International Development (USAID) in 
order to reduce duplication of efforts and inefficiencies created by 
the fragmentation of U.S. foreign assistance.

  <bullet> As Secretary of State, will you make this an urgent task? 
        How can the best features of PEPFAR and MCC be preserved and 
        translated into a broader framework?

    In difficult economic times there is a strong yet dangerous 
temptation for government to cut funding to foreign assistance 
programs. There could also be the temptation to focus on reforming our 
aid regime at the expense of funding. However, even the best 
development strategy or agenda might fail to meet its objectives if it 
is not adequately funded to meet its mandate.

  <bullet> Do you agree that if we are to achieve our foreign policy 
        and national security goals, increased resources for 
        development is a corequirement, and not a substitute, for 
        comprehensive aid reform?

  <bullet> What do you think are the best elements of U.S. foreign 
        assistance and how do you plan to preserve them in any 
        restructuring of the U.S. foreign aid regime?

    Key elements of U.S foreign assistance reside within the 
jurisdiction of other government departments. These include 
multilateral debt relief, which is a critical issue in development that 
is negotiated by the Treasury Department, trade quotas by the Commerce 
Department, and infrastructure development that is often undertaken by 
the Defense Department. President-elect Obama has stated his intention 
to taking steps to consolidate and reform the U.S. aid regime.

  <bullet> As Secretary of State, would you seek greater administrative 
        control or coordinating authority for our development agency 
        over these areas?

    Answer. President Obama is committed to elevating development in 
U.S. foreign policy. The administration will review promptly whether 
fulfilling that objective will necessitate organizational changes. 
PEPFAR has experienced much success, and the MCC represents a worthy 
new approach to poverty reduction and combating corruption; we intend 
to quickly review how these programs can best be managed.
    I agree that if we are to achieve our foreign policy and national 
security goals, increased resources for development is essential. I 
hope the Congress will work with the new administration in increasing 
resources for development, and fully fund the President's budget 
request. These resources will be invested wisely with strong 
accountability measures and to ensure they are directed toward 
strategic goals.
    Our foreign assistance infrastructure must be able to meet the 
challenges we face today while anticipating those in the months and 
years ahead. We should look at areas which we can be better coordinated 
and streamlined, and look forward to engaging the committee and the 
Congress on these matters. I will ask my Deputy, Jack Lew, to conduct a 
review of the entire range of foreign assistance, how it is conducted, 
and how it is funded and managed. We will look at those areas which 
have proved effective and build on those successes, while determining 
if poorly performing initiatives are able to be improved.
    President Obama has committed to coordinate and consolidate 
programs currently housed in more than 20 executive agencies so as to 
enhance effectiveness and accountability. If confirmed, I look forward 
to working closely with the Congress as we review what programs can be 
consolidated and other new ways to elevate the importance of 
development and the full range of foreign assistance in our overall 
foreign policy, and improve budget planning, coordination, and 
execution, while seeking greater resources to be used with maximum 
flexibility. I look forward to consulting with the committee, and the 
Congress, on these issues as we move forward.

    Question. In 2000, the international community agreed to a set of 
goals that includes halving poverty by 2015, putting every child in 
school, tackling preventable diseases, and other critical development 
objectives. While significant progress has been made in several 
countries, the Africa region continues to lag behind on most 
indicators. President-elect Obama has stated that he would make the 
MDGs U.S. policy. As Secretary of State, how will you harmonize U.S. 
development assistance with the Millennium Development Goals? Will you 
seek to prioritize the African Continent, where there is the highest 
concentration of low income countries?

    Answer. President Obama and I have embraced the Millennium 
Development Goals (MDG) to cut global poverty in half by 2015. This 
administration is committed to elevating development in U.S. foreign 
policy and increasing foreign assistance. The totals have to grow. I 
also urge Congress to fully fund the President's budget request which 
will support the U.S. commitment to achieving the MDGs.
    Clearly, Africa has been and will remain a key priority for U.S. 
assistance. Africa is a region of extreme need and great promise. 
Africa offers rich development potential, along with huge challenges, 
including widespread poverty, illiteracy, hunger, disease, 
environmental degradation, conflict and poor governance. Our 
responsibility is to marshal the resources at our disposal and use them 
in partnership with Africans who must bear ultimate responsibility for 
solving the problems of Africa.

    Question. The United States has implemented some trade and economic 
growth programs, such as the African Growth and Opportunity Act (AGOA) 
and the Millennium Challenge Account, that have begun to create 
opportunities for poor countries to prioritize growth and take 
advantage of greater trading opportunities with the United States. 
However, trade and economic growth has not been integrated adequately 
into U.S. development policy. As Secretary of State, how do you plan to 
better integrate these policy objectives to ensure that we are creating 
poverty alleviation opportunities through trade and economic 
development?

    Answer. Sustainable economic growth in poor countries must be a 
core U.S. development policy objective. This is the force that empowers 
families to lift themselves out of poverty, take care of their own 
long-term needs, and maintain a productive and dignified standard of 
living. Sustained growth is also essential in generating the resources 
needed to support critical public services and regulatory oversight, 
including for public security, health, education, and infrastructure. 
Particularly in light of the financial crisis, I would like to see a 
more comprehensive and coherent strategy in which our many different 
assistance programs work together to establish the building blocks 
needed to sustain long-term, broad-based economic growth and poverty 
reduction.
    U.S. development policy must include more than just official 
development assistance. We must work with developing countries to make 
the most of all the public and private tools in the development 
financing toolbox, including trade and investment, the work of our many 
charitable foundations, and debt management.
    Trade and openness to the global economy play a crucial role in 
creating jobs and boosting economic growth in developing countries. Our 
experience with Millennium Challenge Corporation (MCC) compacts 
suggests that trade capacity-building is a high priority for developing 
countries. There is broad demand for expanded trade capacity-building 
beyond the small number of MCC compact countries. The recent food 
crisis demonstrates the importance of facilitating expanded ``south-
south'' trade.
    The African Growth and Opportunity Act's full impact is limited by 
numerous, long-term capacity constraints in Africa. Infrastructure, 
technology, and capital are needed, but to be effective they must be 
accompanied by policy and institutional reforms--in areas such as 
customs and state price controls--that provide incentives and empower 
African farmers and entrepreneurs to participate in trade that 
contributes to long-term, broad-based growth and poverty reduction.

    Question. During the Presidential campaign, President-elect Obama 
endorsed U.S. diplomatic initiatives to improve the security of 
satellites we depend upon for our economic and national security. One 
of the initiatives he specifically endorsed is an international code of 
conduct that, among other things, would bar destructive testing of 
antisatellite weapons and other methods in space that would use 
satellites for target practice. Do you support this step?

    Answer. As space becomes an increasingly congested, complex, and 
contested domain, the United States will take an active leadership role 
in identifying and implementing cooperative efforts with established 
and emerging members of the international spacefaring community to 
ensure the safety of the space assets of all nations.
    We also must play a leading role in advancing transparency and 
confidence-building measures (TCBMs) relating to space activities. Such 
TCBMs can help increase transparency regarding governmental space 
policies, strategies, and potentially hazardous activities--thus 
reducing uncertainty over intentions and decreasing the risk of 
misinterpretation or miscalculation. In this regard, the administration 
will continue to work closely with our friends and allies to develop 
voluntary TCBMs that all spacefaring nations can support and actively 
participate in for the benefit of all nations.
    Further, building upon recent progress at the United Nations on 
international guidelines for orbital debris mitigation, the United 
States will sustain its global leadership in spaceflight safety and in 
the formulation of practical guidelines to preserve the space 
environment for future generations.
    It is a part of longstanding U.S. space policy that the United 
States will maintain and strengthen the established principle of free 
access to, and use of, outer space by all nations in support of 
legitimate economic and security interests. In support of this 
principle in today's environment, it is important that the United 
States work closely with its allies to implement the diplomatic or 
military measures that may be necessary both to ensure the continued 
operation (and responsible use) of military, intelligence, civil, and 
commercial satellites and to respond appropriately if these satellites 
are targeted in a hostile manner.

    Question. In your prepared statement, you indicated your intent to 
pursue a verifiable Fissile Material Cut-off Treaty. The Bush 
administration, by contrast, has argued that a truly verifiable treaty 
is not technically feasible and would risk the loss of sensitive 
classified information.
    Do you believe that a verifiable treaty is, in fact, feasible 
without compromising sensitive U.S. national security information? Or 
do you think that, even though a verifiable treaty may not be feasible, 
the United States should be willing to begin negotiations on such a 
treaty and see how much verification can be agreed to without 
compromising sensitive national security information?

    Answer. The United States has strongly supported achieving a ban on 
the production of fissile material for use in nuclear weapons or other 
nuclear explosive devices. Such a ban would serve important 
nonproliferation goals and has commanded broad international support 
for many years. One way to accomplish this ban would be through the 
negotiation of a legally binding treaty. The United States supports the 
rapid start of negotiations on an FMCT, and such negotiations would 
certainly include discussions of verification.
     A well-crafted, robust verification regime should not have to put 
sensitive information at risk and the United States will not support an 
FMCT that compromises national security information. It is worth 
noting, however, that the United States has entered into arms control 
treaties, such as the Chemical Weapons Convention, containing robust 
verification provisions, without placing sensitive national security 
information at risk. Once my team is in place, they will review the 
U.S. position with a view to determining if and how verification can be 
incorporated in an FMCT without compromising sensitive information.

    Question. Congress and previous administrations have long urged 
China to respect the religious freedoms of Tibetan Buddhists and to 
grant Tibetans ``meaningful autonomy'' as part of a comprehensive 
resolution of the Tibetan issue. Last year, Congress awarded the Dalai 
Lama the Congressional Gold Medal in recognition of his courageous 
advocacy of genuine reconciliation through peaceful dialogue. 
Unfortunately, eight rounds of dialogue between China and 
representatives of the Dalai Lama have so far yielded little progress. 
Chinese religious and ethnic persecution of Tibetans persists. How can 
we help the Tibetans and Chinese achieve forward movement toward a just 
and lasting solution to this longstanding problem?
    The Tibetan Policy Act of 2002 established the position of Special 
Coordinator for Tibetan Issues in the State Department. It is currently 
posted at the Under Secretary Level (G). Do you intend to appoint a 
Special Coordinator at a high level, with adequate resources and 
access, to signal the Tibet issue's importance to the U.S. Government?
    Will you personally champion the cause of Tibetan human rights as 
part of your larger dialogue with Chinese leaders on human rights 
issues?

    Answer. I can assure you that I take Tibetan issues seriously and 
plan to appoint a well-qualified coordinator. I will ensure the 
coordinator has the resources to do the job.
    We are disappointed with China's human rights record and the lack 
of progress during eight rounds of talks between the Chinese Government 
and the Dalai Lama's representatives. We are also very concerned about 
the increased repression in Tibetan areas over the past year. We will 
raise our concerns about these issues at the highest levels with the 
Chinese Government and press for progress. The Special Coordinator for 
Tibetan issues will sustain our focus on promoting substantive 
dialogue, directed at achieving meaningful results, between the Dalai 
Lama and his representatives and the Chinese Government. We believe 
such talks provide the best hope for resolving longstanding tensions in 
Tibetan areas of China and for safeguarding the distinct ethnic, 
cultural, and religious identity of the Tibetan people.

    Question. On January 1, 2009, the Government of Azerbaijan abruptly 
terminated broadcasts of Radio Free Europe (RFE) on its domestic 
airwaves. This termination effectively ended broadcasts to 80-90 
percent of RFE Azeri service's listeners. The position of the Azeri 
government is that Russian and Iranian radio broadcasts were also 
terminated. Both of these countries share long borders with Azerbaijan, 
which regularly broadcast in Russian and Azeri. Needless to say RFE and 
the BBC do not enjoy similar geographic advantages. U.S. funds RFE in 
order to increase the plurality of information in relevant countries. 
What can and should the Secretary of State, who sits on the 
Broadcasting Board of Governors and has responsibility for RFE, do to 
ensure that listeners in Azerbaijan and other countries can continue to 
receive these broadcasts?

    Answer. Radio Liberty and Voice of America--alongside the BBC--are, 
indeed, a much-needed source of information for Azerbaijani citizens to 
participate in a pluralistic debate. We have been clear in our 
communications from Washington and the Embassy in Baku that removal of 
the broadcasts from domestic radio and television frequencies 
constituted a serious setback to freedom of speech in Azerbaijan. 
Without distribution on these popular domestic channels, VOA and RFE/
RL's substantial audiences in Azerbaijan will be lost. The U.S. 
Ambassador in Baku made it clear that continuing this course will 
fundamentally alter the relationship between our governments.
    Representatives of the Broadcasting Board of Governors and the 
Embassy have requested that talks begin in early February aimed at 
restoring VOA and RFE/RL access to the same frequencies they were 
licensed to use prior to January 1, 2009, where they can continue to 
inform public discourse as Azerbaijan moves forward with its democratic 
debate. We remain committed to working with the Government of 
Azerbaijan to ensure that these broadcasts can continue on the radio 
and television networks where they enjoyed a substantial audience. 
Unfettered access to information across international borders is 
fundamental, and the Department will be vigorous in defending this 
right wherever it is threatened.
                                 ______
                                 

      Responses to Questions Submitted by Senator Richard G. Lugar

                   foreign affairs management issues
    Question 1. President-elect Obama has nominated two Deputy 
Secretaries of State. What roles do you envision each playing in the 
work of the Department?

    Answer. The opportunities and challenges in front of all of us are 
both promising and daunting. The objectives that the President-elect 
has set forth are compelling, demanding, and necessary to meet our 
interests. To meet these goals, I am seeking to recruit strong, 
experienced professionals to join the Department. I am using every 
position available to maximize the possibility for success and to 
manage an unprecedented number of responsibilities for our Nation's 
security and prosperity.
    I intend to use both Deputy positions that are available in law--to 
manage the overall foreign policy agenda and to manage the operations 
and resources needed for success. Jim Steinberg, if confirmed, will be 
responsible for assisting me in the formulation and conduct of our 
foreign policy; Jack Lew, if confirmed, will be responsible for 
assisting me in the management of the operations and resources of the 
Department.
    I also will recommend to the President-elect under secretaries and 
assistant secretaries who are at the top of their fields, who think 
strategically and are strong diplomats and managers of talent. And, I 
will employ a time-honored tradition to make use of special envoys who 
will work in a focused fashion to address some of our most difficult 
challenges.

    Question 2. During the Presidential campaign you offered the 
following critique of the Bush administration's foreign policy 
management:

          One of my criticisms of the Bush administration is that they 
        have such a narrow circle of people advising the President. 
        Apparently there is only one diplomat the President will send 
        anywhere and that is Secretary Rice. So if Secretary Rice can't 
        get to the Middle East or get to Pakistan or get to Africa or 
        get anywhere, you don't get the feeling that the President is 
        engaged. I think that is a terrible failure. The President 
        needs to have a broad circle of advisers calling upon 
        distinguished Americans both in and out of government to serve 
        as Presidential envoys, something that I urged when I came back 
        from Pakistan and Afghanistan last January.

  <bullet> a. Does the Obama administration intend to use Presidential 
        or other special envoys to address particular foreign policy 
        issues in the manner described above?

    Answer. I agree that special envoys can play a useful role in 
addressing foreign policy issues that require intense attention. If 
confirmed, I will be consulting with the President-elect and other 
members of the national security team about where special envoys can be 
most effective. However, no final decisions have been made yet 
regarding the appointment of special envoys.

  <bullet> b. Will you commit to making such envoys available to 
        testify before the Foreign Relations Committee on issues 
        related to their duties?

    Answer. As Secretary, it will be a top priority for me to insure 
that the committee is closely consulted and informed about the 
Department's diplomatic efforts and the Department will make available 
the appropriate person to answer the committee's questions.

    Question 3. During the Presidential campaign, you stated: ``[W]hen 
I become President, Bill Clinton, my dear husband, will be one of the 
people who will be sent around the world as a roving ambassador to make 
it very clear to the rest of the world that we're back to a policy of 
reaching out and working and trying to make friends and allies and 
stopping the alienation of the rest of the world.''
    Do you expect President Clinton to serve as a roving ambassador on 
behalf of the Obama administration or the Department of State? If so, 
what will his specific role and mandate be?

    Answer. Any role that President Clinton plays with the incoming 
administration is for President-elect Obama to decide.
                resources for state department programs
At the end of the Bush administration, Secretary of Defense Gates 
advocated, strongly, for additional personnel and resources for the 
Department of State, lamenting that the total number of Foreign Service 
officers was less than the number of sailors on a single aircraft 
carrier group, and allegedly, less than the number of active military 
band members.

    Question 4. Do you believe the State Department currently has 
sufficient numbers of personnel, with appropriate training, skill sets, 
and resources to effectively perform the necessary work of advancing 
U.S. interests around the globe?

    Answer. Based on the briefings I have received so far, I do not 
believe the Department has an adequate number of personnel. The men and 
women of the Foreign Service and Civil Service also need additional 
training opportunities, as well as resources, to carry out the many 
responsibilities assigned to the Department. If confirmed, I intend to 
work closely with the President and the Congress to secure the 
necessary resources for the Department.

    Question 5. You have signed several letters during your Senate 
service advocating either that the Function 150 Account should receive 
a substantial increase or that the President's proposed 150 Account 
increase should not be reduced. One such delegation letter sent on 
April 20, 2004, to the Appropriations chairman and ranking member said 
``we urge you to allocate at least the President's request for the 
civilian foreign affairs agencies and their programs.'' Another 
delegation letter that you signed was sent on December 15, 2004, to 
President Bush. It called for ``a robust increase in the FY06 150 
International Affairs Budget as an essential investment in America's 
fight against terrorism and efforts to build global stability . . .'' 
On March 16, 2005, during the FY 2006 Budget Resolution debate, you 
voted along with most Senators to cut the 150 Account by $410 million 
and transfer the funding to Veterans Health Care.

  <bullet> a. As Secretary of State, would you actively advocate 
        against the use of the 150 Account as an offset for other 
        budgetary priorities, regardless of what those priorities are?

    Answer. If confirmed, I intend to work to increase the 150 Account, 
and I intend to work with the Congress to fully fund the President's 
budget requests.

  <bullet> b. What role will you play as an advocate for resources for 
        State Department programs in the Obama administration and what 
        do you see as the most pressing needs for the State Department 
        at this time?

    Answer. If confirmed, I intend to be a strong advocate for 
resources for the Department. I also hope the Senate will promptly 
consider the nomination of Jack Lew, who the President will nominate 
for the new post of Deputy Secretary for Management and Resources. As a 
former OMB Director, Jack is well equipped to assist me in ensuring 
that additional resources are used effectively and efficiently. Any 
organization is only as strong as its people, and as strong as the 
Foreign Service and Civil Service are, I believe that the most pressing 
need, in the near term, is for the Department to have additional 
Foreign and Civil Service officers to meet requirements.
                           foreign assistance
Foreign Assistance Resources
    Question 6. Do you believe that the current budget for the State 
Department's foreign assistance programs provides adequate resources 
for these programs? Do you intend to advocate for increased resources 
for the State Department's foreign assistance programs within the Obama 
administration?

    Answer. Throughout the campaign, President-elect Obama stated many 
times the importance of development assistance to America's foreign 
policy and national security. And he pledged to double foreign 
assistance. I hope that the Congress will work with the new 
administration in meeting this goal, and I can assure you that the 
State Department will stand ready to implement these programs and more 
fully integrate development as one of three pillars to a new security 
strategy, with defense and diplomacy standing as the other two pillars. 
To meet the expressed goals of this Congress and the priorities that 
the President-elect will establish, including the achievement of the 
Millennium Development Goals, will require more resources. Defense 
Secretary Robert Gates believes that future success in foreign policy 
and the fight against terrorism will be ``less a matter of imposing 
one's will and more a function of shaping behavior--of friends, 
adversaries, and, most importantly, the people in between.'' He's 
absolutely right. Considering the importance of the work ahead, we 
cannot fail simply for a lack of will or resources. There are few other 
places in the budget where dollars invested literally mean lives saved.

    Question 7. Given the expected constraints of a growing Federal 
budget deficit, a global financial crisis, continued commitments to 
conflict and crises overseas, what priorities will you establish in 
assistance areas to guide difficult tradeoff decisions as Secretary?

    Answer. Without question, funding will be a major challenge, not 
only for fiscal year 2010 but for the next several years. President-
elect Obama and this Congress will evaluate every spending priority 
based on what works and what doesn't, and what fits best with America's 
national security and economic interests. Among other things, we know 
that U.S. investments targeting preventable diseases like AIDS and 
malaria are affordable, effective, and proven. We know that taking on 
extreme poverty with sustainable, smart, innovative solutions is 
working. And this work increases our security here at home and our 
influence around the world. Working in partnership, Congress and the 
Obama administration will have to make smart, strategic budget choices 
that deal with our problems here at home while also continuing to 
support effective initiatives that save lives, strengthen our security, 
and restore America's position in the world.
Coordination with DOD Security Assistance Programs
There has been a recent migration of State Department authorities to 
the Department of Defense. Some are temporary measures such as the 
responsibility for training and equipping police forces in Iraq and 
Afghanistan. Others appear intended to become permanent, including 
section 1206 of the FY 2006 Defense Authorization Act that grants the 
Defense Department authority to train and equip foreign militaries, a 
function traditionally performed by State Department programs under 
longstanding authorities in the Foreign Assistance Act.

    Question 8. Do you believe the State Department should continue to 
have the lead role within the U.S. Government in implementing U.S. 
security assistance programs? If so, what specific steps do you plan to 
take as Secretary to address this issue?

    Answer. Yes. If confirmed, I plan to consult with Secretary Gates 
and other members of the President-elect's national security team to 
develop the optimum structure for security assistance programs. In this 
constrained budget environment, it is an imprudent use of taxpayer 
resources to duplicate assistance structures throughout the government.

    Question 9. Are there areas where you believe an expanded role for 
the Department of Defense in implementing security assistance programs 
is appropriate and useful?

    Answer. As stated above, if confirmed, I plan to consult with 
Secretary Gates and other members of the President-elect's national 
security team to develop the optimum structure for security assistance 
programs.

    Question 10. What steps do you intend to take as Secretary to 
ensure that adequate resources are allocated to security assistance 
programs implemented by the State Department?

    Answer. If confirmed, one of my priorities as Secretary will be to 
work with Congress to increase resources of the Department as well as 
to make better use of the resources the Department already has. As part 
of that process, I will be reviewing the current authorities and 
resources for security assistance and look forward to consulting with 
Congress on insuring that the appropriate level of resources is 
allocated for security assistance programs.
State Department Management of Foreign Assistance Programs
In a 2007 committee report entitled ``Embassies Grapple to Guide 
Foreign Aid,'' Foreign Relations Committee staff identified short-
comings of a Washington-centric foreign assistance strategy. The report 
also highlighted the value of the new Office of the Director of Foreign 
Assistance at the Deputy Secretary level in the State Department. Other 
recommendations included: That the assistance planning process should 
be more inclusive of ambassadors and mission directors and their teams 
in the field; continuing to make transparent the budget process within 
the executive and with Congress; further consolidation of budget 
planning and reporting capabilities.

    Question 11. Will you retain the position of Director of Foreign 
Assistance as a confirmable position at the Deputy Secretary of State 
level?

    Answer. If confirmed, I intend to closely review this question soon 
after taking office.

    Question 12. What if any changes will you institute with regard to 
the role and purpose of the position of Director of Foreign Assistance? 
How will you ensure that the positive consolidation of budget reporting 
that has taken place in this nascent foreign assistance reform process 
be sustained?

    Answer. I understand that the creation of this position has had, 
led to an improvement in the reporting of budget data to the Department 
management and the Congress. Under any circumstance, these improvements 
must be maintained.

    Question 13. Whereas less than 60 percent of total U.S. foreign 
assistance falls under the jurisdiction of the State Department and 
USAID, what steps would you recommend to develop a more comprehensive 
and whole-of-government approach to U.S. foreign assistance programs? 
Is there a role for the DFA to play in this effort?

    Answer. As I indicated, I have not made any decision on whether to 
retain the position of Director of Foreign Assistance. I do believe 
that close coordination between State and USAID is essential. The 
administration will also review whether other programs can be 
consolidated to improve budget planning, coordination, and execution.

    Question 14. Various studies have recommended that the new 
administration reorganize how foreign assistance is managed, including 
calls for elevating development to a Cabinet-level department. Other 
options include a strengthened aid agency or consolidating aid programs 
under the State Department.

  <bullet> a. What are your views on how to elevate development as a 
        component of U.S. foreign policy?
  <bullet> b. What organizational changes would you recommend?
  <bullet> c. Where do you believe the Millennium Challenge Corporation 
        fits into any new restructuring?

    Answer. During the campaign, the President-elect promised to 
elevate development in U.S. foreign policy. The administration will 
promptly review whether fulfilling that objective will necessitate 
organizational changes. The MCC has been innovative in foreign 
assistance and we intend to review how its programs can best be 
managed.
                           middle east issues
Israel/Gaza
    Question 15. With recent renewed violence in southern Israel and 
Gaza, and the expiration of the Egyptian-brokered cease-fire agreement, 
what should be the role of the United States in seeking to achieve an 
end to the violence, and the creation of a durable peace, not simply a 
return to a long stalemate? What role do you expect to play as 
Secretary on this issue?

    Answer. We are obviously very concerned about the serious situation 
in Gaza. President-elect Obama has spoken about his deep concern for 
the loss of civilian life in Gaza and Israel, and we all agree that it 
is very important that a durable cease-fire be achieved. That will 
require an end to Hamas rocket fire at Israeli civilians, an effective 
mechanism to prevent smuggling of weapons into Gaza, and an effective 
border regime. We will work hard with our international partners to 
make sure all these elements are achieved.
    The cease-fire should be accompanied by a serious effort to address 
the immediate humanitarian needs of the Palestinian people and a longer 
term reconstruction and development effort. The Bush administration is 
in the middle of sensitive diplomatic negotiations on behalf of the 
United States, so it is best that I not comment specifically on the 
negotiations underway.
    The administration plans to be actively engaged on diplomacy in the 
Middle East in pursuit of peace agreements to resolve conflicts. The 
administration is committed to helping Israel and the Palestinians 
achieve their goal of two states living side by side in peace and 
security, and will work toward this goal from the beginning of the 
administration.
Israeli-Palestinian Peace Process
    Question 16. To what extent will the Road Map for Middle East Peace 
remain a guiding document for Obama administration policy with respect 
to the Israeli-Palestinian Peace Process? What changes, if any, to the 
roadmap do you believe are necessary for it to be a viable framework 
for future peace efforts?

    Answer. The roadmap, with the mutual obligations it places on the 
parties, remains one of the important bases for working toward a two-
state solution. There are other important bases, including the 
negotiations that grew out of the 2007 Annapolis conference, and which 
the parties report have made progress. Our commitment is to help them 
build on that progress and achieve their goal of two states living side 
by side in peace and security.

    Question 17. Given President-elect Obama's repeated comments about 
making peace between Israel and the Palestinians a top priority issue 
early in his administration, what would you do specifically to build on 
the work done last year through the Annapolis process and where would 
the issue of Israeli-Palestinian peace fall among your priorities as 
Secretary of State? Do you expect to be personally involved in peace 
efforts or do you expect the primary work to fall to another Department 
official or a special envoy?

    Answer. If confirmed, there is no doubt that helping Israelis and 
Palestinians achieve peace and security through a two-state solution 
will be one of the priority issues to which I will devote time and 
attention. Success in this effort is in our national security 
interests, just as it is in the interests of Israelis and Palestinians. 
So I certainly intend to be personally involved in these efforts, 
together with other officials in the State Department. No decisions 
have been made about the personnel structure we will use to implement 
our Middle East peace efforts.

    Question 18. In view of comments you made in June 2008 that the 
United States will never ``impose a made-in-America solution'' to the 
Israeli-Palestinian conflict, what role do you think the United States 
should take in helping to bridge the gaps between the two parties on 
sensitive issues like Jerusalem, refugees and borders? If the two 
parties continue to be unable to reach a comprehensive agreement on the 
final status issues, would you be prepared to have the United States 
offer ``bridging proposals''?

    Answer. The specific role the administration would play in helping 
Israel and the Palestinians reach agreements, including on final status 
issues, would very much be determined as an outgrowth of consultations 
with the parties. We have not held these discussions, or any 
discussions with foreign governments, during the transition because of 
the principle that the United States has one President at a time.

    Question 19. I met this fall with Lieutenant General Dayton, who 
has made painstaking gains in the arena of Palestinian security sector 
reform.

  <bullet> a. What would you do as Secretary of State to continue these 
        efforts, as well as those of special envoy and now National 
        Security Advisor-designate, Jim Jones?
  <bullet> b. What specific actions would you take to continue U.S. 
        support for Palestinian efforts to end terror?
  <bullet> c. Do you believe progress can be made on the negotiating 
        track if Palestinian security forces are unable or unwilling to 
        sufficiently crack down on extremists?

    Answer. General Jones, General Selva, and General Dayton have each 
played important and constructive roles in advancing U.S. efforts to 
promote peace between Israel and the Palestinians. The Palestinian 
National Security Force and Presidential Guard members who have been 
trained in Jordan under the auspices of the United States Security 
Coordinator have performed well in early tests in Jenin and Hebron. 
This is an important element of strengthening Palestinian capabilities 
to enable the Palestinian Authority to meet its commitments to combat 
terrorism and maintain law and order, which are crucial to improving 
daily life of Palestinians and ensuring security for Israelis. The 
Congress has provided $143 million in funding for this successful 
program. I will be consulting with GEN Keith Dayton and with the 
Congress to determine appropriate funding levels for this program to 
continue to achieve positive results.

    Question 20. In June 2008, you noted a link between ``security and 
opportunity'' and how providing children with hope can ``help dry up 
the swamp of fear and pessimism that breeds terrorism.'' What would you 
to do to bolster support for Palestinian efforts to develop a 
sustainable economy--a key component of the Annapolis process--
including addressing key movement and access impediments and Israeli 
security concerns?

    Answer. There is no doubt that improving economic conditions and 
daily life for Palestinians are key elements of achieving success in 
Israeli-Palestinian peace efforts. This is, in fact, a point of 
consensus between Israelis and Palestinians, and they have reached a 
series of agreements over it.
    Some of these agreements have not been fully implemented, either on 
the side of improving the Palestinian economy and easing movement and 
access side, or on the side of dealing with Israel's security concerns. 
So the first task is likely to be to working with the parties to try to 
get these agreements implemented. From that basis, it will be easier to 
promote additional investment in the Palestinian economy.
Egypt
    Question 21. The United States-Egyptian relationship, despite 
strains, differences of view, and minicrises, has been one of the most 
profound and productive bilateral interactions our country has enjoyed 
over these years. Nevertheless, it is often criticized for lack of 
progress on human rights issues, political liberalization and 
democratization. Recognizing that Egypt has often chosen stability over 
change, what tools will you use to coax Egypt toward greater political 
transparency, pluralism, and freedoms?

    Answer. Egypt is an important ally, which retains an important 
leadership position in the Arab world, and a key to the security of the 
region. Bilateral cooperation between the United States and Egypt 
remains strong, and we recognize Egyptian attempts to mediate a cease-
fire between Hamas and Israel. At the same time, we will work to 
support greater political freedom in Egypt and throughout the Arab 
world, through a mature dialogue with the leadership, and direct 
engagement with the people. Our role is not to impose reform from the 
outside, but to help Egyptians at all levels develop and pursue a 
dialogue about the reforms that they seek for their society. And we 
will always stand up for our principles and speak out in support of 
human rights.
Lebanon
    Question 22. What do you see as the key U.S. strategic priorities 
in Lebanon and how to you propose to accomplish these goals?

    Answer. Key strategic priorities include Lebanese sovereignty and 
political stability, the disarmament of Hezbollah, and security on the 
Israeli-Syrian border. President-elect Obama is committed to the full 
implementation of U.N. Security Council Resolutions that reinforce 
Lebanon's sovereignty and end the smuggling of weapons to Hezbollah. We 
need to work with our partners on the Security Council to consider 
additional measures to strengthen enforcement tools and toughen 
penalties for violators. We are also committed to ensuring the 
international tribunal investigating the assassination of former Prime 
Minister Hariri is based on the highest standards of criminal justice 
and international law.

    Question 23. What can the United States do further to ensure the 
success of Lebanon's Qatar-brokered political compromise between the 
governing March 14 coalition and the Hezbollah-led opposition?

    Answer. Efforts to promote compromise among Lebanon's disparate 
political groups should be conducted with a view toward strengthening 
the institutions of the central government, including the courts and 
the Lebanese Armed Forces. Helping the Lebanese build an economic 
infrastructure that provides for a fair distribution of services, 
opportunities, and employment is also important. And we need to stand 
with the government and people of Lebanon against those who would 
undermine Lebanon's sovereignty, threaten Lebanon's political 
stability, and seek conflict between Lebanon and its neighbors.

    Question 24. How will the Obama administration respond should 
Hezbollah do well in Lebanon's upcoming parliamentary elections and 
serve in a unity government or potentially even be called to form a 
government?

    Answer. Without speculating about the outcome of another country's 
elections, I would say that the administration will always stand with 
those in Lebanon who seek peace with their neighbors, stability and 
equality of opportunity at home, and a strong central government 
dedicated to these principles and to meeting the needs of all Lebanese.

    Question 25. What would you recommend be done to accomplish 
Hezbollah disarmament while preserving Lebanese stability? To what 
extent does U.S. military assistance to the Lebanese Armed Forces play 
a role? What are the broader strategic implications for U.S. military 
aid to Lebanon?

    Answer. President-elect Obama is committed to implementing U.N. 
Security Council Resolutions that reinforce Lebanon's sovereignty by 
requiring the disarming of militias and preventing their rearmament. We 
need to work with our partners on the Security Council to consider 
additional measures to toughen penalties for violators, and strengthen 
enforcement tools. Strengthening the institutions of the central 
government, including the Lebanese Armed Forces, is a key element of 
this strategy. As with any assistance to a foreign military, 
appropriate safeguards are necessary to ensure that our assistance is 
only used in ways that advance our interests.
Syria
    Question 26. Do you believe that continuing to isolate Syria is in 
our best interests or in the best interests of peace in the region?

    Answer. The United States and Syria have profound differences on 
important issues, and the President-elect and I believe that engaging 
directly with Syria increases the possibility of making progress on 
changing Syrian behavior. In these talks, we should insist on our core 
demands: Cooperation in stabilizing Iraq; ending support for terrorist 
groups; stopping the flow of weapons to Hezbollah; and respect for 
Lebanon's sovereignty and independence. We should engage directly to 
help Israel and Syria succeed in their peace efforts, which both 
parties have indicated could help advance the talks. The prospects of 
success in these talks are unknown, but we are committed to making 
every effort to help them succeed.

    Question 27. Will the administration be actively supporting Israel-
Syria proximity talks?

    Answer. Yes.
Saudi Arabia and the Gulf
    Question 28. During the Presidential campaign, you stated that the 
United States ``need[s] to be moving quickly toward a coming to terms 
with our oil companies and our oil producing country allies. We need to 
demonstrate our commitment to home-grown energy. We can't do that, I 
know, until the two oil men leave the White House but as soon as they 
do, we have to be ready aggressively.''

  <bullet> a. Is it the view of the Obama administration that such a 
        ``coming to terms'' is necessary with countries that produce 
        oil?

    Answer. The United States must free itself from dependence on 
foreign oil. Our addiction to foreign oil doesn't just undermine our 
national security and wreak havoc on our environment--it also cripples 
our economy and strains the budgets of working families. This is why 
President-elect Obama has proposed an investment of $15 billion a year 
over 10 years to develop alternative and renewable sources of energy. 
This plan will help to create millions of jobs, protect our 
environment, and move America in the direction of energy independence 
and away from foreign oil.

  <bullet> b. If so, what specific changes will such an approach 
        involve in U.S. policy toward oil producing states?

    Answer. Our principal goal will be to reduce our reliance on oil-
producing countries. The Obama-Biden comprehensive New Energy for 
America plan proposes strategically investing $150 billion over the 
next 10 years, which will help create millions of jobs and catalyze 
private efforts to build a clean energy future. The goal is to expand 
the use of American-made hybrid cars, ensure that 10 percent of our 
electricity comes from renewable energy sources by 2012, and 25 percent 
comes from renewable sources by 2025. We will implement an economywide 
cap-and-trade program to reduce greenhouse gas emissions 80 percent by 
2050, and strive to make America a global leader when it comes to 
energy efficiency and the environment.

    Question 29. What will your objectives be with respect to policy 
toward Saudi Arabia?

    Answer. Saudi Arabia can be a key partner in helping the United 
States achieve many of our foreign policy priorities. Foreign policy 
priorities of the Obama administration include ending the war in lraq 
responsibly, finishing the fight against the Taliban and al-Qaeda in 
Afghanistan, preventing Iran from acquiring nuclear weapons, combating 
international terrorism, and renewing American diplomacy to support 
strong alliances, and to seek a lasting peace in the Israeli-
Palestinian conflict. We will work with our international partners, 
including Saudi Arabia, to meet these goals. We will also work to 
promote reform and democratization, women's rights, and success in the 
struggle against extremism inside Saudi Arabia.
Iran
    Question 30. What steps to you intend to take as Secretary to 
address the threat posed by Iran's nuclear program? How can additional 
pressure on Iran be mobilized most effectively? What prospects do you 
see in this regard for further measures in the U.N. Security Council?

    Answer. The new administration will present the Iranian regime with 
a clear choice: Abandon your nuclear weapons program, support for 
terror and threats to Israel and there will be meaningful incentives; 
refuse, and we will ratchet up the pressure, with stronger unilateral 
sanctions; stronger multilateral sanctions in the Security Council; and 
sustained action outside the U.N. to isolate the Iranian regime. A 
nuclear-armed Iran is unacceptable, and all elements of American power 
are on the table to prevent Iran from obtaining a nuclear weapon--that 
must begin with the power of aggressive American diplomacy.

    Question 31. During the Presidential campaign, President-elect 
Obama expressed support for direct diplomacy with Iran.

  <bullet> a. What steps does the administration intend to take to 
        pursue such direct diplomacy with Iran?
  <bullet> b. Do you support the opening of a U.S. interests section in 
        Iran as a means for increased United States-Iranian dialogue?

    Answer. The Obama administration will support tough, aggressive, 
and direct diplomacy, without preconditions, with our adversaries. Note 
that there is a distinction between preparations and preconditions. For 
possible negotiations with Iran, there must be careful preparation--
including low-level talks, coordination with allies, the establishment 
of an agenda, and an evaluation of the potential for progress.
    The U.S. should support and participate in ongoing efforts with our 
European allies and assemble an international coalition that will exert 
a collective will on Iran so that it is in their own interest to 
verifiably abandon their nuclear weapons efforts.
    We will carefully prepare for any negotiations--open up lines of 
communication, build an agenda, coordinate closely with our allies, and 
evaluate the potential for progress.
    We will not sit down with Iran just for the sake of talking. But we 
are willing to lead tough and principled diplomacy with the appropriate 
Iranian leader at a time and place of our choosing if--and only if--it 
can advance the interests of the United States.
    We should be careful not to let our engagement with Iran be used by 
the Iranian regime in the runup to the June Presidential election--but 
the elections should not prevent us from starting a dialogue if we 
determine that there is a genuine intent to engage.
    By exhausting diplomacy, we will be better able to rally the world 
to our side, strengthen multilateral sanctions, and to convince the 
Iranian people that their own government is the author of its 
isolation.
    The decision regarding whether to open a U.S. interests section in 
Tehran is under review and no decision has been made yet.

    Question 32. Would you agree that Iran is in a position to impede 
as well as advance Israeli-Palestinian peace through its influence with 
Hezbollah and Hamas? How can we modify their behavior toward these 
regional issues?

    Answer. Iran poses a serious threat to Israel, as demonstrated by 
its pursuit of nuclear weapons and support of Hezbollah and Hamas. Iran 
has been a source of regional instability and an impediment to peace, 
and we intend to use all tools at our disposal to prevent Iran from 
acquiring a nuclear weapon and end its support of terror. This begins 
with direct, aggressive, and principled diplomacy and may include an 
expansion of sanctions.
lraq
    Question 33. What do you see as the top national security interests 
that remain for the United States with respect to Iraq?

    Answer. I would define our security interests in Iraq the same as 
how the President-elect has defined it: A transition to an Iraqi 
Government that can take responsibility for its future and that leads a 
country at peace with itself and its neighbors--a peace that prevents 
sectarian conflict, protects Iraq's sovereignty, and ensures that an 
al-Qaeda threat does not reemerge.

    Question 34. What opportunities do you see for the broader 
international community to become more involved in Iraq? Do you sense a 
willingness on the part of the EU or other organizations to engage more 
robustly?

    Answer. The Obama administration will pursue a diplomatic 
initiative with all of Iraq's neighbors--including Iran and Syria--and 
the U.N. to secure Iraq's borders, isolate al-Qaeda, and support 
national reconciliation within Iraq. It is in the interest of Iraq's 
neighbors and the international community to have a stable Iraq that 
does not become a battleground for sectarian tensions and animosities. 
And we will communicate that. More broadly, we have a range of 
diplomatic tools at our disposal that we can deploy to persuade and 
press Iraq's neighbors to play a constructive role. We have let these 
tools languish in recent years, but they have served us well in 
advancing our interests in other difficult conflicts. They can serve us 
well in Iraq.
    As for our European allies, they too have an interest in a stable 
Iraq, and I look forward to working with them to see how they might 
engage diplomatically or otherwise to make that possible.

    Question 35. The Bush administration suggested that one of the 
objectives of the surge was, to tamp down violence to provide the space 
for political actors to make the concessions necessary to bring about 
lasting peace and reconciliation. In your estimation, has that 
happened? What will you do to bring that reconciliation about?

    Answer. There have been security gains in Iraq, but political 
progress toward lasting peace and reconciliation has been less 
successful. The Obama administration will proceed with the following 
overall strategy and core principles we will bring to this set of 
security and political challenges.
    First, as we all know, Iraq is a sovereign country, and any steps 
we take on security matters moving forward will have to be taken in 
consultation with the Iraqis. We will certainly do our best to press 
the Iraqi Government to combat sectarianism in their security forces--
and we'll tie future training resources to progress on this front. 
Improved Iraqi security forces cannot fully replace U.S. forces, but 
they can certainly help, if the Iraqis step up.
    Second, we will take additional steps to help the Iraqi Government 
consolidate the security gains that have been made in the past 2 
years--gains that have facilitated more intensive and effective 
rebuilding and aid efforts. That will include an intensive diplomatic 
and political strategy, including an effort to forge a comprehensive 
compact with Iraq's neighbors.
    Third, we will pay particular attention to the humanitarian crisis 
in Iraq, which risks destabilizing parts of the country. We are 
committed to an aggressive effort to assist displaced Iraqis. But these 
are serious challenges, and much of this turns on the capacity and 
willingness of the Iraqis themselves.

    Question 36. Iran continues to be the most problematic of Iraq's 
neighbors from the U.S. perspective. How do you assess Iranian 
interests with respect to Iraq? What will your priorities be in seeking 
to manage Iran's impact on Iraq?

    Answer. Iran has been the largest beneficiary of the policy 
failures in Iraq. It has strengthened its position in the Middle East 
and continues to pursue nuclear weapons, issue threats against Israel, 
support terrorist organizations including Hezbollah and Hamas, and it 
continues to meddle in Iraq, where it seeks a Shia-dominated government 
that is too weak to challenge Iran's dominant regional position. 
President-elect Obama intends to use tough, principled diplomacy to 
mitigate the threats posed by Iran against its neighbors, including 
Iraq.
    Iraq is an independent, sovereign state and we wish to see it 
develop and flourish. Iraq will determine the character of its ties 
with its neighbors, including Iran. Having normal relations with trade 
is surely what Iraq seeks. Our interests are in supporting Iraqi 
independence. To the extent that Iran threatens that or seeks to 
destabilize Iraq out of a desire to build its leverage over Iraq and 
its future, our priorities will be geared to supporting Iraq's ability 
to shape its own destiny.

    Question 37. Do you believe current arrangements for the security 
of U.S. diplomatic personnel and facilities in Iraq are appropriate? Do 
you believe the Department can continue to rely on contractors such as 
Blackwater to provide security for its operations? Should the 
Department of State develop the capability to transport and guard 
diplomats in challenging environments such as Iraq and Afghanistan?

    Answer. Ensuring security for U.S. diplomatic personnel and 
facilities in Iraq is essential. Right now, much of the rebuilding is 
taking place under a security umbrella provided by the brave young men 
and women of our Armed Forces. Their departure from critical areas in 
Iraq will certainly change the security calculus. How we deal with this 
challenge--both generally and specifically with respect to Provincial 
Reconstruction Teams (PRTs)--has been and will continue to be the 
subject of discussions among the national security team and with the 
President-elect.
    Both the President-elect and I have been outspoken in calling for 
more oversight and accountability for private contractors and more 
tools to stop abuses in Iraq. I have been highly skeptical of heavily 
armed military contractors who have operated in Iraq without any law or 
court to rein them in or hold them accountable. These contractors have 
at times been reckless and have at times compromised our mission in 
Iraq.
    I look forward to working with the President-elect and the Congress 
to establish the legal status of contractor personnel, so that we can 
prosecute any abuses committed by private military contractors. In 
addition, our experience in Iraq has shown that there must be serious 
oversight and effective program management--and that starts at the 
State Department. I will be especially vigilant about this. Finally, it 
is important to remember that there are many private contractors in 
Iraq and elsewhere who are honorable, hardworking, and patriotic. But 
we have seen too many abuses in the past few years to do anything less 
than impose a new legal regime to hold security firms and individual 
personnel accountable when they act outside the law.
    The protection of State Department personnel operating in areas 
like Afghanistan and Iraq is an important issue and I look forward to 
working, along with other members of the President's national security 
team, to exploring the best way to address that issue if confirmed.

    Question 38. What impact do you anticipate the drawdown of U.S. 
forces in Iraq to have on the State Department's ability to carry out 
its operations there? What steps will you take as Secretary to ensure 
that State Department undertakes appropriate transition planning in 
connection with the military drawdown?

    Answer. As explained in my answer to the question above, much of 
the rebuilding in Iraq is taking place under a security umbrella 
provided by the brave young men and women of our Armed Forces. Their 
departure from critical areas in Iraq will certainly change the 
security calculus. How we deal with this challenge--both generally and 
specifically with respect to PRTs--has been and will continue to be the 
subject of discussions among the national security team and with the 
President-elect. But if confirmed as Secretary, I will ensure that the 
State Department undertakes all appropriate transition planning to deal 
with all contingencies concerning our diplomatic security that might 
arise from a reduction of military personnel.
                                 africa
Sudan/Darfur
    Question 39. During your campaign for President, you were critical 
of the U.N.'s response to the crisis in Darfur. What specific steps do 
you intend to take as Secretary to improve the effectiveness of U.N. 
efforts to address the situation in Darfur, including the United 
Nations-African Union Mission in Darfur (UNAMID)?

    Answer. Today, the most immediate and urgent means of providing 
protection as swiftly as possible to the civilians at risk is the rapid 
and full implementations of the deployment of the United Nations-
African Union peacekeeping force, UNAMID. The pace of UNAMID's 
deployment needs to be accelerated, combined with sufficient logistical 
support to protect civilians on the ground. If confirmed I will work 
with my colleagues and the President-elect to send a clear message to 
Khartoum that they must end obstruction of the U.N. force (UNAMID), 
including through endless bureaucratic hurdles and delays. We also need 
to address some of the U.N.'s own requirements that have inadvertently 
slowed UNAMID's deployment thus far. If necessary, the Obama 
administration will take steps to help move needed troops and equipment 
into place on an urgent basis.

    Question 40. Many have been critical of China's role in the 
Security Council in opposing stronger and more effective U.N. action on 
Darfur. What specific steps do you intend to take as Secretary to gain 
greater cooperation from China in efforts to address Darfur?

    Answer. Cooperation in the Security Council must be at the center 
of our efforts to build an effective and responsive U.N. With its fast 
growing economy, ever-growing global interests, and expanding 
population, China should be expected to assume a more active role on 
the Security Council, on Sudan and Darfur and elsewhere. The Council's 
capacity to effectively address key issues derives directly from the 
ability of its members to identify shared objectives and build 
pragmatic working relationships. This will be particularly true for the 
United States and China. Prospects for such collaboration on the 
Council improve when there are effective, sustained, direct, and 
serious consultations and negotiations among the Council Members. There 
are, and will continue to be, times when, despite best efforts, 
effective Council action is not possible.

    Question 41. During the Presidential campaign, you urged 
consideration of a greater role for NATO in addressing the situation in 
Darfur, including a potential NATO role in enforcing a no-fly zone.

  <bullet> a. Is it the position of the Obama administration that NATO 
        forces or assets should be deployed to Darfur?
  <bullet> b. Does the Obama administration believe that NATO forces 
        could play such a role without diminishing the effectiveness of 
        ongoing NATO operations in Afghanistan?
  <bullet> c. Current U.N. Security Council resolutions do not 
        authorize individual states operating independently from the 
        United Nations-African Union Mission in Darfur (UNAMID) to 
        enforce a no-fly zone over Darfur. Would the Obama 
        administration support the enforcement of a no-fly zone over 
        Darfur by individual states in the absence of additional 
        authority from the U.N. Security Council?

    Answer. President-elect Obama and Vice-President-elect Biden and I 
have been very clear and forceful in our condemnation of the genocide 
in Sudan and in our commitment to far more robust actions to try to end 
the genocide and maximize protection for civilians. We have made very 
clear our intent to pursue more effective diplomatic efforts to resolve 
the conflict that underlies the genocide.
    We have all also advocated the implementation of a no-fly zone as 
well as far more robust sanctions on the Government of Sudan, both of 
which Congress has also endorsed.
    We've made no final decisions on a no-fly zone, or on the 
deployment of NATO assets to Darfur. I would anticipate that the 
questions of Sudan and Darfur would be subject to early policy review 
of all steps that the U.S. can take to most effectively and urgently 
maximize protection for civilians. The impact of any actions on our 
interests elsewhere--including Afghanistan--would be part of that 
review.
Sudan/CPA
    Question 42. How will the Obama administration help sustain the 
Comprehensive Peace Agreement for Sudan which reaches a pivotal point 
with the referendum on secession in the next 2 years?

    Answer. As a guarantor of the CPA, the United States has a special 
responsibility to ensure that implementation of this landmark agreement 
remains a priority even in the midst of the Darfur crisis. We will work 
bilaterally to increase support to the Government of Southern Sudan to 
bolster capacity and good governance, and multilaterally to assure 
appropriate donor coordination and ongoing political and financial 
support for CPA implementation. The Comprehensive Peace Agreement aims 
to give the Sudanese people greater voice in their political future, 
and this will remain a priority. National elections that were supposed 
to be held by July 2009 will clearly by delayed, but the United States 
will work to ensure that the delay is not protracted, and that free, 
fair, safe elections are held before the year is out. Preparations for 
the 2011 referendum must remain on track as well to retain the 
confidence of the South.
Somalia
    Question 43. What steps do you believe should be taken to stabilize 
the security situation in Somalia?

    Answer. Somalia's complex emergency is daunting, and U.S. 
leadership is desperately needed to help address this multifaceted 
emergency. Failed states like Somalia provide dangerous opportunities 
to terrorist organizations and international criminals, and they 
destabilize entire regions.
    The U.S. will work with other donors and with Somalis to improve 
the security conditions for humanitarian operations on the ground. The 
United States will continue to work with allies and with the shipping 
industry to combat piracy in the Gulf of Aden and along the East 
African coast. Ultimately, Somalia can be stabilized only by ensuring 
that a competent, consensus-based government is in place with the 
capacity to provide order for the Somali people. We continue to look 
for diplomatic opportunities to stabilize the security situation in 
Somalia.

    Question 44. The Bush administration has advocated the 
establishment of a U.N. peacekeeping mission in Somalia. Do you support 
this idea? If so, what do you believe the appropriate size and mandate 
for such a mission would be?

    Answer. I believe we need to take a very careful look at this 
issue. There are no good solutions in Somalia. The question is whether 
a U.N. peacekeeping force, assuming it is successfully stoodup and 
deployed, advances our efforts to confront terrorism, address the 
humanitarian crisis, and promote reconciliation in Somalia. I expect to 
consider this issue in the near future with the President-elect and my 
colleagues in the Cabinet.
Zimbabwe
    Question 45. What actions will you take as Secretary of State to 
address the ongoing human rights and humanitarian crisis in Zimbabwe?

    Answer. The people of Zimbabwe have suffered for far too long under 
a corrupt leadership that does not serve the needs of its people. The 
destruction of Zimbabwe's economy and repeated abuses of power have 
been a catastrophe for Zimbabweans, and threaten the stability of the 
region. The United States and the world must take steps to address this 
growing crisis. Widened U.S. sanctions are appropriate. It was the 
right policy to have supported a U.N. Security Council resolution 
calling for targeted sanctions and an arms embargo. As Zimbabwe's 
crisis continues and becomes even more destabilizing to the Southern 
African region, South Africa, the African Union, and the SADC must play 
a stronger role in pressuring the Mugabe regime.
    It will require concerted and sustained diplomacy to try to get the 
international community to acknowledge the need to act to apply more 
pressure to the illegitimate government of Robert Mugabe, and to bring 
an end to the man-made humanitarian crisis that grips Zimbabwe today. 
The Zimbabwean people are suffering and the U.S. will push for more 
efforts, including having humanitarian NGOs resume activity in 
Zimbabwe. We will need to consider incentives for reform, and work 
closely with the EU and other international donors to create a very 
generous aid and recovery package for Zimbabwe. We would make very 
clear the specific and practical steps that any Zimbabwean Government 
can take to qualify for this package.
Eastern Congo
    Question 46. The conflict in Eastern Congo has brought human rights 
violations and humanitarian deprivation on a large scale, in the same 
region and involving some of the same actors that produced the Rwandan 
genocide. What actions will you take to help resolve this regional 
crisis?

    Answer. The situation in Congo is deeply disturbing. The President-
elect and I have both supported efforts on behalf of a lasting solution 
to Congo's political disputes. The United States can encourage all 
parties in Congo and in the region to pursue a negotiated solution and 
refrain from fueling additional conflict. Ending the crisis and 
preventing a return to widespread conflict will be a multilateral 
effort. The Security Council was right to take steps to strengthen 
MONUC, and the U.S. should support former Nigerian President Obasanjo's 
diplomatic efforts.
AFRICOM
    Question 47. What role do you foresee for the newly created Africa 
Combatant Command with regard to foreign policy and foreign assistance 
resources?

    Answer. The President-elect supports the concept of AFRICOM, as do 
I, but we want to make sure that it is implemented properly. I look 
forward to working on behalf of the President-elect, with Secretary 
Gates and General Jones, and with African nations on this issue. The 
original concept behind AFRICOM was that our engagement with Africa 
will be improved by streamlining our command structure so that there is 
a single unified command responsible for Africa, rather than three 
separate commands as has been the case. The President-elect has warned 
that we must be very careful not to overmilitarize our relations with 
African nations. On the other hand, there is a role to play for AFRICOM 
in helping train and equip African rapid response forces for 
peacekeeping operations. AFRICOM can also contribute to an enhanced 
capability of African nations to patrol their own waters.

    Question 48. How will the State Department and USAID interact with 
AFRICOM within Africa?

    Answer. A well-conceived AFRICOM--one that plays the traditional 
role of a combatant command rather than supplants the State 
Department's traditional role--can enhance U.S. Government efforts to 
foster peace and stability on the continent. I look forward to working 
with Secretary Gates and others to ensure that AFRICOM complements the 
efforts of State Department and USAID.
                              afghanistan
    Question 49. What steps do you believe the United States should 
take to promote Afghanistan's stability and development? How can we 
most effectively mobilize international support for such efforts? What 
role do you intend to play as Secretary on these issues?

    Answer. If I am confirmed, designing and implementing a more 
effective strategy in Afghanistan will be one of my highest priorities 
at the State Department. We have lost ground in Afghanistan over the 
past 7 years. Our strategy has to acknowledge Afghanistan as it is, not 
as we hoped it would be 7 years ago. We also have to acknowledge that 
we will not see progress in Afghanistan overnight. The President-elect 
and the entire national security team understand Afghanistan and 
northwest Pakistan are the central front in the war on terror, and we 
know that it is critical that we make progress there.
    I look forward to working with my colleagues to implement a new set 
of strategies that will help us confront the resurgence of the Taliban 
and the persistent threat of al-Qaeda in Afghanistan. Additional troops 
are certainly a part of that--though Secretary Gates can better speak 
to the military dimensions of our efforts in Afghanistan.
    The President-elect and I have consistently said that our strategy 
in Afghanistan cannot simply be about adding more troops. He has 
enunciated an approach that we call ``more for more''--more troops and 
assistance from the U.S. as we seek more from NATO allies, and more 
from an Afghan Government that needs to focus on improving the lives of 
its people. We also have to implement a coherent Pakistan strategy, one 
that involves more nonmilitary aid and more pressure on Pakistan to 
fight terror. With this set of principles, and with the resources, 
focus, and diplomatic effort that Afghanistan deserves--and has been 
denied because of our entanglement in Iraq--we believe that we can make 
progress in supporting the people of Afghanistan and preventing al-
Qaeda from staging future attacks.

    Question 50. Do you agree that the economic development aspect of 
stabilization and reconstruction in Afghanistan is as important as 
security sector reform and how will you assure it is properly 
resourced?

    Answer. Economic development is absolutely essential to 
Afghanistan's stabilization and reconstruction. It is inextricably 
linked to security. The President-elect has proposed a ``more-for-
more'' strategy which will provide additional nonmilitary aid each 
year--above and beyond what is given now. That money will be focused on 
initiatives dealing with education, infrastructure, human services, and 
alternative livelihoods for poppy farmers. And it will be accompanied 
by tougher anticorruption measures. We will tie aid to better 
performance by the Afghan national government, including anticorruption 
initiatives and efforts to extend the rule of law across the country. 
We will also work to ensure that investments are made not just in Kabul 
but out in Afghanistan's provinces.

    Question 51. How will you ensure that U.S. assistance to 
Afghanistan produces results and uses funds efficiently?

    Answer. As explained above, any U.S. assistance to Afghanistan will 
be accompanied by tougher anticorruption measures. We will tie aid to 
better performance by the Afghan national government, including 
anticorruption initiatives and efforts to extend the rule of law across 
the country. We will also work to ensure that investments are made not 
just in Kabul but out in Afghanistan's provinces. And, of course, I 
welcome congressional oversight and ongoing consultation with this 
committee as key tools in ensuring efficient and effective investment 
of American taxpayer resources.

    Question 52. How will you ensure our efforts in Afghanistan are 
based upon a regional strategic approach by the United States and its 
partners?

    Answer. Afghanistan is not just a challenge for the United States--
it is a critical security issue for our allies in NATO and for all 
countries in the region. Afghanistan's considerable problems will not 
be resolved without the cooperation of these countries, which requires 
a regional strategic approach. That is what I will seek to implement if 
confirmed.
    That is why we believe our NATO allies must do more. The Obama 
administration will seek greater contributions from them in 
Afghanistan. We will ask our NATO allies to reconsider national 
restrictions on NATO forces. The NATO force is short-staffed and some 
countries' contributing forces are imposing restrictions on where their 
troops can operate, tying the hands of commanders on the ground. The 
Obama administration will work with European allies to end these 
burdensome restrictions and strengthen NATO as a fighting force.

    Question 53. There is a consensus that the Afghan judiciary is both 
ineffective and corrupt, and has been neglected for years by the 
international community. Property rights, human rights, and sovereign 
rights are at constant risk. Prosecution of criminals including 
narcotics traffickers and corrupt officials is severely hampered. This 
opens up space for the Taliban's version of arbitration and dispute 
settlement among the people. How will you prioritize the reform and 
reestablishment of an effective judiciary and rule of law sector that 
is responsive to Afghanistan's Constitution and its people?

    Answer. Legal reform is absolutely vital for Afghanistan's future, 
and working with our partners, this is an issue that we must make a 
higher priority. As mentioned in a previous question, we will tie aid 
to better performance by the Afghan national government, including 
anticorruption initiatives and efforts to extend the rule of law across 
the country.
                                pakistan
    Question 54. What is your assessment of the effectiveness of 
current U.S. security sector cooperation with Pakistan? Is money for 
such programs being well spent, and is it helping Pakistan to become a 
more effective partner in fighting terrorism and in cooperating on 
other important U.S. interests? Are there ways in which this assistance 
can be made more effective?

    Answer. Since 2001, the U.S. assistance program to Pakistan has 
lacked strategic focus. The President-elect, the Vice-President-elect 
and I supported the Enhanced Partnership with Pakistan Act of 2008 as 
Senators--and I know I speak for each of us when I commend the ranking 
member for his leadership on this vital issue. But this is not a blank 
check. We should condition military aid on ensuring that Pakistan is 
taking on the extremists. Should the 111th Congress choose to 
reintroduce a new version of the legislation, we look forward to 
working with this committee and the Congress on legislation to help 
build a long-term relationship with Pakistan.

    Question 55. Do you believe that current levels of economic 
assistance to Pakistan are sufficient to achieve U.S. objectives in 
helping Pakistan to achieve political and economic stability? How 
should U.S. economic assistance be most effectively targeted to meet 
these objectives?

    Answer. No.

    Question 56. How will you engage a civilian government that is 
often at odds with powerful military and intelligence institutions?

    Answer. We need to ensure that we do as much as possible to engage 
a wide range of Pakistan's democratically elected civilian leaders. In 
addition, President Zardari needs the support of the military to 
improve relations with India--to include addressing historical military 
ties to extremist groups--and the military has sought politicians' 
support in defending military operations in the tribal areas.

    Question 57. Following the most recent Mumbai attacks and evidence 
pointing toward groups supported by Pakistan's intelligence services, 
what action will you take to ensure U.S. assistance does not provide 
the means to maintain those military and intelligence elements contrary 
to our interests?

    Answer. U.S. military assistance to Pakistan must be conditioned on 
Pakistan's efforts to close down training camps, evict foreign 
fighters, and preventing the Taliban and al-Qaeda from using Pakistan 
as a terrorist sanctuary. Nonmilitary assistance should be tripled, 
with a focus on the border regions, so that over the long term we are 
reducing the pull of the extremists.

    Question 58. Where do you rank the resolution of Kashmir in U.S. 
priorities for Pakistan? What role do you believe the United States can 
play to assist in the resolution of the Kashmir region?

    Answer. President-elect Obama and I are very concerned about rising 
tensions in Kashmir: The situation is dangerous for India, for 
Pakistan, and for the people of Kashmir. We must encourage all parties 
to work toward peaceful settlement.
                                 india
The Mumbai attacks in November 2008 are yet another attack in India 
suspected of emanating from groups in Pakistan that have support among 
Pakistan military and intelligence agencies. These attacks take place 
at moments of increasing cooperation between the Indian and Pakistan 
Government and are clearly intended to destabilize relations.

    Question 59. What actions will you take to ensure progress in 
political and economic development in the region despite this spoiler 
role of terrorist organizations?

    Answer. We are committed to do as much as possible throughout this 
critical region to promote political and economic development, and to 
shut down terrorist networks. In Pakistan, that means increasing 
nonmilitary assistance, making our military assistance accountable and 
conditional on Pakistani actions, and doing more to improve the lives 
of everyday people. In India, it means continuing to deepen our close 
partnership on a wide range of economic and development issues. We 
cannot, and will not, allow terrorists to stand in the way of progress.

    Question 60. What is your assessment of the reaction India has made 
to the attack to date?

    Answer. The Indian people--as well as victims from many other 
countries, including the United States--suffered a terrible tragedy 
with the Mumbai attacks. We should support its efforts to pursue a full 
investigation of who organized and plotted the attack, ultimately 
bringing the perpetrators to justice.

    Question 61. What is your assessment of the response Pakistan has 
taken since it provided information regarding the attackers?

    Answer. The Pakistani Government must do all it can to find out who 
perpetrated these horrible attacks and bring these terrorists to 
justice.

    Question 62. What support will you give to the recent civilian 
nuclear cooperation agreement with India and how will the U.S. ensure 
such cooperation is limited to civilian purposes?

    Answer. The Obama administration will favor a closer relationship 
between the U.S. and India and believes that civil nuclear cooperation 
will help build a better relationship. We need to explore how we can 
take advantage of nuclear agreement to build a wider and deeper 
relationship with India as well as to work together to cement progress 
on proliferation goals, including ratification of the Comprehensive 
Test-Ban Treaty. As the relationship deepens, the U.S. and India can 
work together to address global and regional problems of shared concern 
including proliferation, counterterrorism, poverty, and climate change.

    Question 63. In a 2007 article in Foreign Affairs, you wrote ``As 
cochair of the Senate India Caucus, I recognize the tremendous 
opportunity presented by India's rise and the need to give the country 
an augmented voice in regional and international institutions, such as 
the U.N.'' In what ways specifically do you believe India's voice at 
the U.N. should be augmented? Do you support India's desire to become a 
permanent member of the U.N. Security Council?

    Answer. The United States has an enduring interest in a maximally 
efficient and effective United Nations Security Council. Any expansion 
would need to preserve both those elements. We recognize that the 
Council was created many years ago at a time when there were very 
different international realities and that there is a strongly felt 
sentiment among many Member States that the Security Council should 
better reflect changing circumstances. The administration will support 
expansion of the Security Council in ways that would not impede its 
effectiveness and its efficiency. We need to make a serious, deliberate 
effort, consulting closely with key allies and capitals, as well as 
with the committee and the Congress, to find a way forward.
                               east asia
Japan and China
During the Bush administration, we witnessed an expansion of the United 
States-Japan relationship to new levels of cooperation on regional and 
global issues, including our respective national security concerns and 
areas of economic cooperation. Japan is eager to partner and closely 
collaborate with the United States to address present and future 
challenges within Asia. With the reemergence of China on a global and 
regional basis, there is elevated tension between China and Japan, and 
a return to debate on events of history involving both countries.

    Question 64. How can the United States most effectively nurture our 
important relationship with Japan while pursuing constructive 
engagement with China?

    Answer. Maintaining both a strong partnership with Japan and a 
constructive relationship with China are not contradictory; they are 
entirely consistent with U.S. interests.
    A strong and enduring United States-Japan alliance, based on common 
interests and shared values, is the centerpiece for both American and 
Japanese policy in the Asia-Pacific region. As the world's two 
wealthiest democracies, the United States and Japan have shared 
interests that cut across a range of challenging issues: Nuclear 
proliferation, terrorism, financial instability, poverty, and climate 
change, to name a few. As the relationship continues to broaden and 
deepen, we must strive to enhance communication and consultation 
between our two countries, and seek closer coordination on critical 
issues where we have shared interests and goals, such as how to best 
resolve the abductee issue in the context of efforts to achieve the 
complete and verifiable elimination of North Korea's nuclear weapons 
programs. This will ensure that the alliance continues to play its 
critical role of ensuring security, stability, and prosperity in the 
Asia-Pacific region.
    In our relationship with China, we should work where possible to 
expand the areas of cooperation while managing the areas of 
competition. It is essential that China's rise be peaceful. The United 
States cannot by itself ensure that result, but it can help create an 
environment in which China makes the right choices--choices such as 
contributing to global economic stability, ensuring fair trade, 
supporting international efforts to halt nuclear proliferation, ending 
support for repressive regimes such as those in Zimbabwe and Burma, 
protecting human rights, and combating global warming. The Obama 
administration will work to promote these and other important 
objectives in its interaction with China.
Trans-Pacific Trade Agreement
Last fall, U.S. Trade Representative Susan Schwab announced the 
beginning of talks on a regional trade agreement with Singapore, Chile, 
New Zealand, and Brunei, known as the Transpacific Trade Talks. An 
eventual Transpacific agreement could be an important doorway for 
further U.S. economic engagement in Asia. Other countries, including 
Australia, are considering participation as well.

    Question 65. Do you favor continued U.S. participation in the 
Transpacific Trade Talks?

    Answer. The Asia-Pacific region as a whole accounts for nearly 60 
percent of global GDP and nearly half of world trade. U.S. trade with 
Asian countries totals nearly $1 trillion annually. Our economic 
interaction with Asia underpins our overall relationship with that 
vital region and enhances both American prosperity and security. I 
support further expansion of trade with Asia, provided that it is safe, 
fair, and beneficial to American workers and consumers.
    Any trade agreements the Obama administration pursues will ensure 
the greatest possible benefits for American exporters, workers, and 
consumers; contain binding standards of labor and environmental 
protections; and be rigorously monitored and enforced. If confirmed, I 
look forward to working with Congress to review the status of the 
Transpacific Trade Talks and determine whether they will advance these 
objectives.

    Question 66. What are specific steps you will propose to increase 
U.S. trade interaction with East Asia?

Answer. As the President-elect and I have said, strengthening economic 
ties with Asia enhances both our prosperity and security. I support 
expanded trade with East Asia provided that it is safe, fair, and 
beneficial to American workers and consumers. The Obama administration 
will use all the tools at its disposal to expand market access in Asia 
for U.S. exporters, end unfair trade practices, and ensure that imports 
into the United States are safe. It is our shared belief that trade in 
low carbon energy technologies is a win-win for the United States: 
Providing growth in innovative industries in the United States while 
helping our friends in Asia meet their growing energy needs in a manner 
consistent with our shared climate goals. Ensuring that the United 
States will be a technology leader in this innovative field is a 
priority of the Obama administration.
ASEAN
The 10 nations comprising the Association of Southeast Asian Nations 
represent the fourth largest export market for the United States. Since 
its inception in 1967, with the original five nations of Indonesia, 
Malaysia, the Philippines, Singapore, and Thailand, ASEAN has been an 
important contributor to stability throughout Southeast and East Asia. 
Unfortunately, among ASEAN leaders, there has been a lingering 
perception that the region is not of significant interest to the United 
States. This impression has been reinforced by Secretary Rice's 
infrequency of visits to the region, and Assistant Secretary Hill being 
necessarily occupied with the North Korean nuclear issue.
    Over 2 years ago, I introduced, and the Senate passed legislation 
establishing the position of U.S. Ambassador for ASEAN Affairs. 
President Bush eventually proceeded to appoint Deputy Assistant 
Secretary of State, Scot Marciel, to serve as U.S. Ambassador to ASEAN. 
The United States was the first country to make such an appointment. 
Japan, China, Vietnam, and other countries have followed the U.S. 
example and appointed Ambassadors to ASEAN.

    Question 67. If confirmed, will you recommend continued appointment 
of a U.S. ambassador to ASEAN?

    Answer. I share your assessment of the critical importance of ASEAN 
and the need for the United States to enhance and elevate its relations 
with the region. In 2006, President-elect Obama was one of the 
cosponsors of your legislation, S. 2697, to establish the position of 
U.S. Ambassador for ASEAN Affairs, and both he and I were proud to 
support both that bill and your resolution in the last Congress 
commemorating the 30th anniversary of United States-ASEAN relations and 
encouraging President Bush to make this important appointment. If 
confirmed, I would recommend to the President the continued appointment 
of a U.S. ambassador for ASEAN affairs, and look forward to working 
with you and other Members of Congress to assure that this position 
continues to play an important role in advancing U.S. relations with 
the region.

    Question 68. Will you be prepared to travel to Southeast Asia early 
in your term of office?

    Answer. While it would be premature of me to comment on my future 
travel schedule if I am confirmed as Secretary of State, I understand 
the importance of consistent high-level U.S. diplomatic engagement with 
Southeast Asia and, if confirmed, would seek to explore all the options 
for early travel to the region.

    Question 69. What are additional ways of reinforcing the United 
States-ASEAN relationship?

    Answer. I believe that it is critical that the United States 
maintain a strong presence in the region, and that our diplomacy be 
active, forward-leaning, and engaged at every level. That includes, of 
course, the participation of the Secretary of State in such gatherings 
as the ASEAN Regional Forum meetings, but also consideration, when and 
as appropriate, of a Presidential-level summit with ASEAN. Also, if 
confirmed I would look forward to working with the President and with 
this committee to explore the desirability and feasibility of the 
United States signing the Treaty of Amity and Cooperation with ASEAN.
Six-Party Talks
The six-party talks focusing on the North Korea nuclear issue have 
provided a helpful forum in bringing together diplomats from Northeast 
Asia to consider the way forward to eliminate North Korea's nuclear 
program. While progress has been modest and incremental, the venue has 
provided opportunity for U.S. and other diplomats to compare notes on 
matters related to North Korea's nuclear program and other regional 
issues.

    Question 70. What do you view as the prospect for the six-party 
talks becoming a model, or perhaps the basis to establish a regular 
forum for multilateral discussion related to other issues of 
significance to the region?

    Answer. If confirmed, I am committed to pursuing vigorous and 
creative diplomacy to tackle a wide range of issues in Asia, working 
with other countries through existing international institutions and 
established diplomatic mechanisms or, if necessary, fashioning new 
ones. The six-party talks are one model of fashioning a multilateral 
discussion, but the particular framework will depend on the specifics 
of the goal we are trying to meet.
                         indonesia--peace corps
Indonesia has made remarkable progress in its move to democracy, with 
legislative and Presidential elections set for later this year. The 
United States-Indonesia partnership continues to expand with enhanced 
collaboration in areas of mutual interest including trade, education, 
and military matters. The United States has a window of opportunity to 
contribute to Indonesia's development, thereby also supporting regional 
stability. Indonesian officials have repeatedly expressed to the 
Foreign Relations Committee and to the executive branch, their interest 
in welcoming the Peace Corps to Indonesia.

    Question 71. Do you see this as a possibility, and will you 
encourage the Peace Corps to establish a presence in Indonesia?

    Answer. With close to 240 million people, the world's largest 
Muslim majority country, and the world's third largest democracy, 
Indonesia is the giant of Southeast Asia and a crucial and valued U.S. 
partner in Asia. Over the past several years--and in the face of 
economic and social turmoil as well as an unprecedented natural 
disaster in the December 2004 tsunami--Indonesia has made impressive 
progress on key reforms, human security, pursuing militant extremists, 
growing its economy, and reestablishing its role in ASEAN. Although 
there are of course areas where increased accountability and 
transparency are still needed, the Indonesian people have every reason 
to be proud of their accomplishments.
    Indonesia plays a central role in the region, and I look forward to 
working with the committee and others in Congress to explore 
appropriate ways to continue to develop and deepen cooperation between 
our two nations. If confirmed, I would encourage the Peace Corps to 
establish a presence in Indonesia as part of an enhanced United States-
Indonesia partnership that promotes democracy, leads to increased 
transparency and accountability, encourages economic growth and 
development, and enhances human rights and human security.
                              north korea
    Question 72. How do you assess the situation in North Korea 
regarding prospects for elimination of that country's nuclear program?

    Answer. North Korea's nuclear ambitions are a deep concern. The 
Obama administration will confirm the full extent of North Korea's past 
plutonium production and its uranium enrichment activities, and get 
answers to disturbing questions about its proliferation activities with 
other countries, including Syria. The North Koreans must live up to 
their commitments and fully and verifiably dismantle all of their 
nuclear weapons programs and proliferation activities. The objective 
must be clear: The complete and verifiable elimination of North Korea's 
nuclear weapons programs, which only expanded while we refused to talk. 
As we move forward, we must not cede our leverage in these negotiations 
unless it is clear that North Korea is living up to its obligations.

    Question 73. In your view, what is the best way forward, and will 
you be recommending elimination of North Korea's nuclear program in its 
entirety, or elimination of North Korea's nuclear weapons program and 
inventory?

    Answer. The new administration will pursue direct diplomacy 
bilaterally and within the six-party talks to achieve the complete and 
verifiable elimination of North Korea's nuclear weapons programs, and 
an accounting for North Korea's past plutonium production, uranium 
enrichment activities, and proliferation activities.
    Sanctions should only be lifted based on North Korean performance. 
If the North Koreans do not meet their obligations, we should move 
quickly to reimpose sanctions that have been waived, and consider new 
restrictions going forward.

    Question 74. Under what circumstances would you envision normalized 
relations between North Korea and the United States?

    Answer. Normalized relations will not be possible without the 
complete and verifiable elimination of North Korea's nuclear weapons 
programs, and an accounting for North Korea's past plutonium 
production, uranium enrichment activities, and proliferation 
activities. We must also continue to address North Korea's human rights 
abuses, which must be part of any normalization process.

    Question 75. Should the United States encourage continuation of the 
six-party talks, and under what conditions, if any, are you open to 
direct bilateral discussions between the United States and North Korea?

    Answer. The six-party framework has provided flexibility through 
which to pursue multilateral and bilateral approaches. We have the most 
leverage when presenting united positions supported by China, Japan, 
the Republic of Korea (ROK), and Russia. At the same time, the United 
States will continue to engage the DPRK bilaterally within the six-
party framework.

    Question 76. How will addressing North Korean human rights issues 
be configured in the administration's overall North Korea strategy?

    Answer. We remain concerned about improving the lives of the North 
Korean people, including the lives of refugees. The United States is 
now the largest provider of food aid to the DPRK through the World Food 
Program and U.S. NGOs under a May 2008 agreement. An Obama 
administration will continue to address North Korea's human rights 
abuses, including as part of any normalization process.

    Question 77. The North Korea-Burma relationship continues to grow. 
In addition to normalizing diplomatic relations, North Korea is among 
those countries exporting conventional weapons to Buma. As North Korean 
planes and ships continue to arrive in Burma, there are questions about 
possible collaboration between those two countries toward the 
development of Burma's nuclear program. North Korean officials have 
neither confirmed nor denied multiple committee inquiries as to whether 
their country is providing nuclear materials and technology to Burma 
for weaponization purposes. What will be your recommendation to the 
President in the event information is received confirming North Korean 
collaboration with Burma to develop nuclear weapons?

    Answer. The military regime in Burma is one of the most repressive 
regimes in the world, and is at the epicenter of a range of 
transnational threats, from narcotics to avian flu. Any information 
suggesting that North Korea is collaborating with Burma on a nuclear 
program would be very troubling and treated with the seriousness it 
demands.
                                 china
Vital Interests of China and the United States
In the November/December 2007 issue of ``Foreign Affairs,'' you wrote, 
``We must persuade China to join global institutions and support 
international rules by building on areas where our interests converge 
and working to narrow our differences. Although the United States must 
stand ready to challenge China when its conduct is at odds with U.S. 
vital interests, we should work for a cooperative future.''

    Question 78. In what ways today is China's conduct at odds with our 
vital interests, and how specifically would you propose to ``challenge 
China?''

    Answer. The Obama administration will seek to expand areas of 
cooperation with China, while also managing our differences and 
strengthening our ability to compete in the 21st century. We need to 
engage China on common interests like climate change, North Korea, and 
Iran, even as we continue to encourage its shift to a more open and 
market-based society. But to protect our interests and strengthen our 
economy, and to enforce the principles of our international trading 
system, this administration will seek a level playing field and stand 
firm on piracy of American intellectual property and illegal tariffs 
against U.S. firms. We have ceded too much leverage to China because of 
our debt and our singular focus on Iraq.
Strategic Economic Dialogue with China
During the last year, China and the U.S. held numerous formal and 
informal meetings, including sessions under the auspices of the United 
States-China Strategic Economic Dialogue (SED) and the United States-
China Joint Commission on Commerce and Trade. Treasury Secretary Henry 
Paulson was the leading administration interlocutor with China, as he 
represented the United States in SED sessions.

    Question 79. What is your perspective on the Strategic Economic 
Dialogue? Has it been a constructive forum with which to convey U.S. 
interests and engage with the Chinese?

    Answer. It is important to have high-level discussions to discuss 
economic issues with the Chinese Government. We are looking carefully 
at the question of how to develop this important engagement with China. 
We expect high-level engagement to continue in some form.

    Question 80. Will you be recommending continuation of the SED, and 
if so, whom should serve as the U.S. point person, the Secretary of the 
Treasury, yourself if confirmed by the Senate, or perhaps someone else?

    Answer. As explained above, if confirmed, I look forward to working 
with the President-elect and my colleagues at Treasury, Defense, and 
throughout the government to structure our diplomatic and political 
engagement with China.
China--Energy
In its 2008 report to Congress, the United States-China Economic and 
Security Review Commission observed that China's economy, energy use 
and environment ``are inextricably linked'' and that the linkages are 
not unique to China. ``China and the United States face similar 
challenges in devising energy policy, securing sufficient energy 
supplies to support the national economy and the desired standard of 
living, and addressing such related issues as climate change.'' You 
also have repeatedly pointed to the importance of cooperation on energy 
and environmental issues with China.

    Question 81. What is your perspective on the current ``United 
States-China Ten Year Energy and Environment Cooperation Framework?''

    Answer. The ``United States-China Ten Year Energy and Environment 
Cooperation Framework'' demonstrates the shared recognition of the 
energy and environmental challenges facing the United States and China. 
The Framework is aimed at developing new ideas for energy security, 
economic sustainability, and environmental sustainability. It works to 
identify, develop, and implement energy and environmental innovations 
for the future. If confirmed, I look forward to the opportunity to work 
on these critical issues as part of this Framework as well as other 
diplomatic means that we might establish.

    Question 82. What role should the State Department have in energy 
cooperation with the Government of China? Given the rapidity with which 
China's energy consumption is expanding, how can U.S. efforts to 
promote clean energy and improved efficiency be expanded and pursued 
with more urgency?

    Answer. Our economic policy toward China has to be closely 
coordinated with our foreign policy. They cannot be pursued in 
isolation to one another. We will press China to live up to its 
commitments in trade agreements and to meet its international 
responsibilities. We must vigorously defend U.S. trade interests with 
China by ensuring we operate on a level playing field.
    Energy security and climate change is one of the most pressing 
challenges facing the United States and the global community. The 
United States will take a leadership role in combating the threat of 
global climate change from the beginning of the new administration. The 
President-elect has specifically pledged to set a goal of an 80-percent 
reduction in global emissions by 2050--a policy goal I am committed to 
as well. In pursuit of that goal, we will ask the biggest carbon-
emitting nations to join a new Global Energy Forum to lay the 
foundation for the next generation of climate protocols.
    It is also our shared belief that trade in low carbon energy 
technologies is a win-win for the United States: Providing growth in 
innovative industries in the United States while helping our friends in 
Asia meet their growing energy needs in a manner consistent with our 
shared climate goals. Ensuring that the United States will be a 
technology leader in this innovative field is a priority of the Obama 
administration.

    Question 83. Given your concern for volatility and vulnerability of 
global oil supplies, what actions would you recommend to work with 
China in reducing growth of its dependence on oil?

    Answer. We need to work with China on agreeing to a global carbon 
cap. We also need to work closely with China and other countries on the 
development on low carbon energy technologies to reduce our shared 
reliance on carbon intensive energy.
China and Currency
    Question 84. In your opinion, is Chinese currency now being fairly 
valued against the U.S. dollar, and if not, what measures do you favor 
or oppose to bring the yuan into proper alignment?

    Answer. It is critical that China plays by the rules and acts as a 
positive force for balanced world growth. President-elect Obama has 
indicated his strong concerns with China's behavior on its currency. I 
will work with the other members of the economic team to forge an 
integrated strategy on how best to achieve our goals in our bilateral 
relationship with China in the current economic environment.

    Question 85. During the Presidential campaign, both you and Senator 
Obama supported legislation that would punish China for currency 
manipulation. Would the Obama administration favor similar legislation 
today?

    Answer. As described above, President-elect Obama has indicated his 
strong concerns with China's behavior on its currency. The incoming 
administration looks forward to working with Congress regarding the 
best strategy for addressing this behavior.
                                 russia
    Question 86. After 10 years of sharp disputes over Kosovo, NATO 
enlargement, democracy, missile defense, and now Georgia, our political 
relationship with Russia is in difficulty. How do you intend to reverse 
the downward spiral that threatens vital security and foreign policy 
interests, including reducing nuclear stockpiles, preventing WMD 
proliferation, and fighting terrorism?

    Answer. President-elect Obama seeks a future of cooperative 
engagement with the Russian Government on matters of strategic 
importance, while standing up strongly for American values and 
international norms. That is my view as well. Some of Russia's recent 
actions have been reprehensible and they have disrupted its relations 
with the West. As we confront those actions, we must not shy away from 
pushing for more democracy, transparency, and accountability. Still, 
there can be no return to the cold war. Russia is not the old Soviet 
Union, and this is not the 20th century. The new administration will 
work with Russia on areas of common strategic interest like 
counterterrorism and counterproliferation, while pressuring Russia when 
it interferes with its neighbors and abuses power at home--for example, 
on Georgia, where the President-elect condemned Russia's escalation of 
the conflict and clear invasion of Georgia's territory and illegal 
recognition of Abkhazia and South Ossetia as independent states. Real 
pressure on Russia will not come from rhetoric alone--it will come from 
a unified transatlantic alliance, and forging that unity will be one of 
my top priorities. If Russia refuses to abide by international norms, 
its standing in the international community will diminish.

    Question 87. Last year the administration submitted a Peaceful 
Nuclear Cooperation Agreement, or 123 Agreement, between the United 
States and Russia to the Senate for approval. After the Russian 
invasion of Georgia President Bush asked the Senate to suspend its 
consideration. Will President-elect Obama ask the Senate to approve the 
United States-Russia Peaceful Nuclear Cooperation Agreement?

    Answer. If I am confirmed, the President-elect and I will seek to 
cooperate with Russia on issues that are in our mutual interest--
including in our efforts to halt and reverse nuclear proliferation. The 
123 Agreement can be an asset to those efforts. But the Agreement's 
passage cannot be decided in isolation from the larger question of our 
relationship with Russia. If confirmed, I will look forward to working 
with the committee on charting the best way forward.
                                  nato
    Question 88. Early in 2009, NATO will hold a summit of the heads of 
state of each of the member governments. What will the U.S. position be 
on extending Membership Action Plans to Georgia and Ukraine?

    Answer. While there are different views among allies on the best 
way to promote eventual NATO membership for Georgia and Ukraine, it is 
essential that we work closely with our allies to develop a common 
approach on alliance enlargement. The NATO-Ukraine Commission and the 
NATO-Georgia Commission (established last summer) are other avenues 
available for deepening relations between the alliance and Georgia and 
Ukraine. NATO's door must remain open to European democracies that meet 
membership criteria and can contribute to our common security. How and 
when new countries might join must be determined together with all our 
allies in the alliance.

    Question 89. In 2006, I delivered a speech at a conference prior to 
the start of the NATO summit in Riga, Latvia. I urged leaders to 
identify the response to an energy cutoff as an Article V commitment 
and develop an action plan to respond to such attacks. I pointed out 
that my recommendation did not mean that I favored a military response 
to energy cutoffs. What steps will the administration take to develop a 
strategy for the alliance to prepare for, and respond to, the use of 
energy as a weapon or political tool against fellow members?

    Answer. Russia's decision to use energy as leverage against Ukraine 
and other countries in Europe demonstrates the urgency of developing a 
more coherent transatlantic energy strategy. You have been a leader in 
the efforts to develop such a strategy. The question of how the 
alliance guarantees security in the 21st century--not only against 
military threats but against a much broader array of threat, including 
to energy and cyber security--should be a major topic of discussion at 
the NATO summit in April. The discussion of potentially updating NATO's 
Strategic Concept must address the question of the nonmilitary aspects 
of allies' security, including energy security.
                               kazakhstan
    Question 90. What U.S. interests do you believe are most important 
in our relationship with Kazakhstan, and what do you believe the 
objectives of our policy toward Kazakhstan should be?

    Answer. The United States has been working to develop an effective 
and cooperative relationship with Kazakhstan since its independence in 
1991. Kazakhstan participates in the U.S.-led coalition against 
terrorism, shares information with the United States on mutual threats, 
and provides support for U.S. efforts in Afghanistan and Iraq. The 
United States has played an important role in building a more modern 
Kazakh military that can both meet Kazakhstan defense needs and help 
Kazakhstan fulfill its international responsibilities. Kazakhstan is 
also a key regional player in Central Asia and an important energy 
producer. The United States has an interest in helping Kazakhstan in 
its efforts to diversify its export routes and expand its energy trade 
with its neighbors.
    In 2010, Kazakhstan will become the first former Soviet state to 
hold the chairmanship of the OSCE. To carry out that important role 
effectively, Kazakhstan must improve its human rights record and do 
more to support democratic norms. The country's leadership has pledged 
to implement political reforms before assuming the OSCE chairmanship 
and the United States should hold them to that pledge.
                           western hemisphere
General
    Question 91. The United States remains the strongest outside power 
in Latin America by most measures, including trade and military 
cooperation. Yet U.S. influence has sunk to perhaps the lowest point in 
decades. Does improving the U.S. role in Latin America and the 
Caribbean require changes of policy or does it simply require a change 
in the way we communicate our current policy? What specific policy 
changes would you make that depart from the policies enacted during the 
last 8 years?

    Answer. President-elect Obama has made clear that after decades of 
pressing for top-down reform, we need an agenda in the Americas that 
works to advance democracy, security, and opportunity from the bottom 
up. There are aspects of existing policy that should be retained, 
albeit updated to meet evolving challenges. There must, however, be 
more of an emphasis on helping respond to the basic desires of the 
people throughout the Western Hemisphere in a way that advances U.S. 
interests and values.
Mexico
    Question 92. Is the Merida Initiative enough to combat the threat 
of widespread corruption in Mexico?

    Answer. The Merida Initiative is an important step in helping our 
partners in Mexico address rising security challenges that pose a 
threat to Mexico and the United States. The President-elect suggested 
during the campaign that he appreciated the vision you laid out, 
Senator, of an expanded Merida Initiative that incorporates our friends 
in Central America. I look forward to working with you, members of the 
committee, and other Members of Congress, in determining how we can 
most effectively support the rule of law in this important 
neighborhood.

    Question 93. There has been criticism in Mexico that a 2004 
decision by President Bush to allow a ban on U.S. sales of 
semiautomatic assault weapons to lapse has led to an increase in the 
number of such weapons in the hands of Mexican drug gangs, weapons 
trafficking from the United States to Mexico, and a growing level of 
violence that affects our societies on both sides of the border. Please 
provide your views regarding measures to ensure more cooperation among 
border officials to stem the movement of firearms across the border, 
such as e-trace and Project Gunrunner. Please provide your views 
regarding the presence of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) in Mexico--do we need more ATF agents in U.S. 
consulates in Mexico to stem the movement of firearms across the 
border?

    Answer. As the President-elect has made clear, we must do our part 
in helping staunch southbound flows that are crucial to the drug 
trafficking cartels, including the flow of guns, cash, and stolen 
vehicles from the United States to Mexico. Doing so will require 
cooperation across numerous federal agencies, between federal and state 
authorities and with Mexican counterparts. If confirmed, I look forward 
to ensuring that the State Department plays an important and effective 
role in such efforts. I also look forward to working with you, members 
of the committee, and other Members of Congress to determine the most 
effective means of achieving these goals.

    Question 94. The collapse of oil prices and the growing effect of 
the recession in the United States have compounded Mexico's problems. 
Mexico's state-owned oil giant Pemex, the provider of 37 percent of the 
government's income, is expected to produce less oil and generate fewer 
pesos for the government in 2009. U.S. manufacturers in northern 
Mexico, especially those connected to the auto industry, are cutting 
their workforces and some are even asking employees to accept pay cuts. 
Rising unemployment in Mexico could create instability, expand illegal 
immigration, and drive desperate Mexicans into participating in the 
drug trade. Given the importance of Mexico's ``oil income,'' please 
provide your views on working with the Mexican Government on a closer 
energy partnership.

    Answer. The interrelated challenges of inequality and insecurity 
pose significant challenges for Mexico and countries throughout the 
Americas. To help address these challenges and advance our interests 
and values, the United States has a strong interest in supporting 
bottom-up development in Mexico and throughout the region. President-
elect Obama's proposed Energy Partnership for the Americas, in which we 
hope Mexico would play an important role, could serve as a vehicle for 
working together to forge a path toward sustainable growth and clean 
energy. I look forward to working with you, members of the committee, 
and other Members of Congress as we flesh out how best to proceed in 
this and other areas of the bilateral United States-Mexico 
relationship.
Brazil
    Question 95. The committee passed the ``Western Hemisphere Energy 
Compact'' in September 2008 and will be reintroducing this legislation 
during the next Congress. Building on the Memorandum of Understanding 
(MOU) on biofuels signed in March 2006, this bill would create the 
framework for greater cooperation between Brazil and the United States 
in the sharing, research, and development of renewable energy 
technologies. Please provide your views regarding the MOU and if you 
will be continuing this initiative. Please provide your views regarding 
the ``Western Hemisphere Energy Compact.''

    Answer. The March 2007 Memorandum of Understanding to Advance 
Biofuels Cooperation and the work that has been done since then are an 
important feature of the United States-Brazil relationship. We look 
forward to ensuring that continued United States-Brazil energy 
cooperation is carried out in an environmentally sustainable manner and 
in a manner that spreads the benefits of alternative energy development 
throughout the region while expanding the market for U.S. green energy 
manufacturers and producers. It is also important that U.S. biofuel 
producers not be prejudiced by efforts to increase United States-Brazil 
cooperation. We must also ensure that all stakeholders, including those 
from the labor, environmental, and business sectors, are adequately 
represented in the biofuels cooperation process.
    I look forward to examining the specifics of the ``Western 
Hemisphere Energy Compact'' legislation in the coming weeks and months 
and working with you and other members of the committee to ensure that 
we work together to advance U.S. interests and value in the Americas 
through enhanced energy cooperation.

    Question 96. Please provide your views regarding the viability of 
devising MOUs with Brazil on food security and HIV prevention 
throughout Latin America, the Caribbean, and Africa.

    Answer. The current United States-Brazil relationship provides a 
foundation for a deeper, more comprehensive relationship between our 
two countries. There are a wide range of issues on which we hope to 
work closely with our Brazilian partners to help advance democratic 
governance, opportunity and security from the bottom up throughout the 
Americas. I look forward to your counsel, as well as that from other 
members of this committee and Congress, as a whole, regarding 
particular areas of potential focus as we endeavor to deepen the 
bilateral relationship.

    Question 97. President Lula has advocated the goal of opening 
Brazil's economy through trade liberalization. Lowering barriers to 
international trade is an important way to raise productivity growth. 
The benefits from greater trade include improved access to needed 
capital imports and technology to raise productivity and improve living 
standards. Please assess the feasibility of negotiating a Bilateral 
Investment Treaty (BIT) between the United States Government (USG) and 
the Government of Brazil (GOB). Please provide your views regarding the 
viability of negotiating a Tax Treaty with Brazil.

    Answer. As noted in response to Question 96, we believe there are a 
wide range of issues on which we hope to work closely with our 
Brazilian partners to deepen the bilateral relationship. I look forward 
to your counsel, as well as that from other members of this committee 
and Congress, as a whole, regarding particular areas of potential focus 
in that endeavor.
Colombia
    Question 98. Please provide your views regarding President Alvaro 
Uribe's desire to continue in power for a third consecutive term.

    Answer. As you are aware, the Colombian Congress is in the process 
of addressing the question of reelection. I do not believe it is proper 
for the United States to attempt to dictate the result of any internal 
democratic process in the region.

    Question 99. Despite the best effort and funding from the U.S., 
cocaine production continues unabated in Colombia. Please provide your 
views on the success or failure of Plan Colombia, on funding for 
alternative development efforts in Colombia, and on military assistance 
for Plan Colombia.

    Answer. The security situation in Colombia has improved, but very 
significant quantities of illicit narcotics continue to flow in 
significant quantities from Colombia to the United States. I look 
forward to working with Congress and our friends and partners in 
Colombia to ensure that future investments help staunch the flow of 
illegal drugs and help consolidate security gains to contribute to a 
durable peace in Colombia. To do so, we must learn from the successes 
and failures of the past. Continued support for Colombia through the 
Andean Counterdrug Initiative is important. That assistance must be 
updated to meet evolving challenges. We must provide meaningful support 
for Colombia's democratic, civilian institutions, and the rule of law.
    As we continue our struggle against the scourge of illegal drugs in 
our society and throughout the Americas, we must ensure that we are 
doing what is necessary here at home to reduce demand, enforce our laws 
through effective policing, and disrupt the southbound flow of money 
and weapons that are an essential element of the transnational illicit 
networks that operate in Colombia and elsewhere in the Americas. It is 
important that we work together with countries throughout the region to 
find the best practices that work across the hemisphere and to tailor 
approaches to fit each country.

    Question 100. Please provide your views on the Free Trade Agreement 
(FTA) with Colombia. Will you oppose the FTA in its current form? What 
changes need to be included in the current agreement to gain the 
administration's support?

    Answer. It is important that we not lose sight of the many aspects 
of the important, dynamic, and complex bilateral relationship that the 
United States and Colombia have when we discuss the United States-
Colombia Trade Promotion Agreement. I look forward to working to 
maintain the across-the-board vibrancy of the relationship.
    With regard to the trade agreement, it is essential that trade 
spread the benefits of globalization. Without adequate labor 
protections, trade cannot do that. Although levels of violence have 
dropped, continued violence and impunity in Colombia directed at labor 
and other civic leaders make labor protections impossible to guarantee 
in Colombia today.
    Colombia must improve its efforts. I look forward to working with 
members of this committee, as well as other Members of the Senate and 
House of Representatives to see what the United States can do to help 
contribute to an end to further violence and continued impunity 
directed against labor and other civic leaders in Colombia.
    The United States and Colombia have long enjoyed a close, mutually 
beneficial relationship. I am confident that through continued 
cooperation on the full array of bilateral issues, we can maintain and 
deepen that relationship. Active engagement with Colombia will be an 
important part of this administration's approach to hemispheric 
relations.
Cuba
    Question 101. The 50th anniversary of the Cuban Revolution on 
January 1, 2009, presents an auspicious moment to reexamine the 
contentious United States-Cuban relationship. Please provide your views 
on reviewing all elements of Cuba policy.

    Answer. There are many ways that we can send a message to the Cuban 
people that the United States intends to play a positive role in their 
future. President-elect Obama believes that Cuban-Americans especially 
can be important ambassadors for change in Cuba. As such, he believes 
that it makes both moral and strategic sense to lift the restrictions 
on family visits and family cash remittances to Cuba. We do not 
currently have a timeline for the announcement of such a new policy, 
and the Obama-Biden administration will consult closely with Congress 
as we prepare the change.
    President-elect Obama also believes that it is not time to lift the 
embargo on Cuba, especially since it provides an important source of 
leverage for further change on the island.

    Question 102. Despite the official embargo, agricultural trade 
represents a significant area of interaction between the United States 
and Cuba. Since the Trade Sanctions Reform and Export Enhancement Act 
(TSRA) of 2000 lifted sanctions on sales of agricultural commodities 
and medicine, the U.S. has become Cuba's most important food provider, 
although many restrictions and licensing requirements remain in place. 
Please provide your views on expanding trade with Cuba.

    Answer. We anticipate a review of U.S. policy regarding sales of 
agricultural commodities to Cuba and look forward to working with 
members of the committee and other Members of Congress as we move 
forward in the consideration of appropriate steps to take to help 
advance U.S. interests and values in the context of relations with 
Cuba.

    Question 103. The United States has pursued cooperation with Cuba 
in drug interdiction on a very limited case-by-case basis. Please 
provide your views on a broad formalized agreement or Memorandum of 
Understanding between the U.S. and Cuba in order to improve 
coordination of antidrug efforts and provide for exchange of 
information.

    Answer. Given the threat posed by narcotics trafficking, it is 
important to cooperate with Cuba where such cooperation is effective is 
stopping trafficking.

    Question 104. Cuba has been on the State Department's State 
Sponsors of Terrorism list since 1982. Please provide your views 
regarding why Cuba should or should not remain on the State 
Department's State Sponsors of Terrorism list.

    Answer. We anticipate a review of U.S. policy regarding Cuba and 
look forward to working with members of the committee and other Members 
of Congress as we move forward in the consideration of appropriate 
steps to take to help advance U.S. interests and values in the context 
of relations with Cuba,

    Question 105. Please provide your views on United States-Cuban 
cooperation on energy security and environmentally sustainable resource 
management, especially as Cuba begins deep-water exploration for 
potentially significant oil reserves.

    Answer. We anticipate a review of U.S. policy regarding Cuba and 
look forward to working with members of the committee and other Members 
of Congress as we move forward in the consideration of appropriate 
steps to take to help advance U.S. interests and values in the context 
of relations with Cuba.
Bolivia
    Question 106. Under the Bush administration benefits from the 
Andean Trade Promotion and Drug Eradication Act (ATPDEA) were suspended 
for Bolivia. This is a challenging topic and relationship for the U.S., 
but one in which the door to a more positive engagement needs to remain 
open for the sake of our broader interests in the region. Please 
provide your views on reinstating ATPDEA benefits.

    Answer. The unjustified expulsion of Ambassador Phillip Goldberg as 
well as other actions taken by the Bolivian Government against U.S. 
personnel and programs raises significant questions regarding Bolivia's 
desire for a constructive bilateral relationship. The future of ATPDEA 
benefits is one of the issues in the United States-Bolivia relationship 
that merits careful consideration as we move forward, particularly 
given our interest in helping promote economic opportunity from the 
bottom up throughout the Americas. I look forward to working with you, 
members of the committee and Members of Congress to ensure that U.S. 
policy in Bolivia helps advance our interests and values.
                             united nations
U.N. Security Council
    Question 107. Effective action by the U.N. Security Council to 
address threats to peace and security requires building support among 
Council members, including Russia and China. Difficulty in winning such 
support has hampered efforts in recent years to address a number of 
U.S. priorities in the Council, including stronger action to address 
the threat posed by Iran's nuclear program, the crises in Darfur and 
Zimbabwe, and human rights abuses in Burma. As Secretary, what steps 
would you take to increase the effectiveness of U.S. engagement in the 
Security Council?

    Answer. The President-elect and I believe that it is important for 
the United States to lead in strengthening the effectiveness of the 
United Nations, in modernizing it, so that it can be more capable of 
meeting the challenges of the 21st century. We believe that in light of 
the global challenges we face in the new century, the value and 
potential of the U.N. is as great if not more so today, than at its 
founding 60 years ago. Clearly, cooperation at the Security Council 
must be at the center of our efforts to build an effective and 
responsive U.N. on the challenges you cite, from Burma to Darfur to 
Iran to Zimbabwe. In this regard I am struck by the findings of the 
2005 congressionally mandated task force on the U.N., cochaired by 
Senator Mitchell and Speaker Gingrich, which said with respect to 
inaction to prevent mass atrocities, ``On stopping genocide, all too 
often `the United Nations failed' should actually read `members of the 
United Nations blocked or undermined action by the United Nations.' ''
    That is why working intensively and aggressively to secure Security 
Council cooperation is critical. We must both build pragmatic working 
relationships, while making our priorities clear. If confirmed, I look 
forward to working with Dr. Rice who is also committed to the principle 
that the Security Council should not be an obstacle to advancing 
critical foreign policy goals and interests. In this regard, it is also 
essential that our permanent representative in New York have the full 
backing of American diplomacy, including the full support of the 
Department of State to engage capitals in order to reinforce our 
diplomacy in New York.

    Question 108. There have been a number of proposals to increase the 
size of the U.N. Security Council and to expand the number of permanent 
members of the Council.

  <bullet> a. How do you believe U.S. interests would be affected by 
        the expansion of the Council's size or by the addition of more 
        permanent members?

    Answer. The President-elect and I agree that the Security Council 
was created many years ago at a time when there were very different 
international realities. Our administration will make a serious, 
deliberate effort, consulting with key allies and capitals, to find a 
way forward that enhances the ability of the Security Council to carry 
out its mandate and effectively meet the challenges of the new century. 
Obviously, this will not happen over night.

  <bullet> b. What factors do you believe most important in evaluating 
        any such proposals?

    Answer. We will support reforms that would not impede the Security 
Council's effectiveness and its efficiency. We would also consider how 
to enhance the standing of the Council in the eyes of those nations 
that seek a greater voice in international fora.

  <bullet> c. Changes in the composition of the Security Council would 
        require an amendment to the U.N. Charter, which in turn would 
        require the advice and consent of the Senate. Do you commit to 
        consulting with the Foreign Relations Committee in advance of 
        any future international discussions of proposals to change the 
        composition of the Council?

    Answer. If confirmed, not only would I commit to such 
consultations, I will actively seek out the Foreign Relations 
Committee's counsel and expertise on this important and challenging 
issue.
U.N. Human Rights Council
Critics contend that the new U.N. Human Rights Council is a marginal 
improvement at best over the discredited U.N. Human Rights Commission 
it replaced. The Bush administration decided not to seek membership to 
the Council and in June 2008 all but completely withdrew the United 
States from observer status, declaring that we would only engage with 
the Council when it involves ``matters of deep national interest.''

    Question 109. What is the position of the administration regarding 
the U.N. Human Rights Council?

    Answer. Unfortunately, the new Human Rights Council has strayed far 
from the principles of the authors of the U.N. Declaration of Human 
Rights. It has passed eight resolutions condemning Israel, a democracy 
with higher standards of human rights than its accusers, but it is only 
with difficulty that it adopted resolutions pressing Sudan and Myanmar. 
The United States should seek to reform the U.N. Human Rights Council. 
We need our voice to be heard loud and clear to call attention to the 
world's most repressive regimes, end the despicable obsession with 
Israel, and improve human rights policies around the globe.

    Question 110. Will the Obama administration seek to become a member 
of the Council at the next opportunity?

    Answer. If confirmed, I look forward to working with the President-
elect and the U.N. Permanent Representative and consulting with this 
committee as we review whether and when to run for election to a seat 
on the Council. Whether or not we seek election, we will certainly 
fully engage to make reform of the human rights system a priority of 
the United States.

    Question 111. What role does the administration see the Council 
playing in the field of human rights?

    Answer. American leadership on human rights is essential to making 
the world safer, more just, and more humane. As the President-elect has 
said, leadership begins at home, and we must lead by example, by ending 
torture, official cruelty, and by closing Guantanamo. But we also must 
go much further. We should work with others to shape human rights 
institutions and instruments tailored to the 21st century. We must work 
to make the U.N.'s human rights institutions more effective voices for 
those who are subjected to human rights violations. The President-elect 
has committed to champion accountability for genocide and war crimes, 
ending the scourge of impunity for massive human rights abuses. We will 
stand up for oppressed people from Cuba to North Korea and from Burma 
to Zimbabwe and Sudan. We will accord greater weight to human rights, 
including the rights of women and children, in our relationships with 
global powers, recognizing that America's long-term strategic interests 
are more likely to be advanced when our partners are rights-respecting. 
We will address human trafficking, both labor and sex trafficking, 
through strong legislation and enforcement to ensure that trafficking 
victims are protected and traffickers are brought to justice.

    Question 112. Does the administration believe the Council spends a 
disproportionate amount of attention criticizing Israel while ignoring 
more pressing human rights crises?

    Answer. Yes. There is no question that the Human Rights Council has 
been seriously flawed. Rather than focus its efforts and energies on 
the most egregious instances of human rights abuses around the world, 
in places like Burma, Zimbabwe, Sudan, and elsewhere, it has, as I said 
earlier, passed eight resolutions condemning Israel, a democracy with 
higher standards of human rights than its accusers, but it is only with 
difficulty that it adopted resolutions pressing Sudan and Myanmar.
U.N. Peacekeeping
In the 1990s, United Nations peacekeepers often found themselves sent 
without adequate political or military support to complete missions 
that were ill-designed. The United Nations seems to have learned the 
painful and tragic lessons of those events and has recently avoided 
inserting blue-helmeted troops in such ``no-win'' type operations.

    Question 113. Do you believe U.N. peacekeepers can effectively 
perform stabilizing or ``peace enforcement'' roles in situations, such 
as Somalia, where there is an ongoing conflict and no peace agreement 
among the parties?

    Answer. It is certainly the case, that the Security Council is 
indeed levying more requirements and mandates on U.N. peacekeepers than 
ever before. In Somalia, there are no good solutions. We have a serious 
counterterrorism challenge; a serious humanitarian concern and 
imperative; and an interest in trying to facilitate national 
reconciliation and long-term stability in Somalia. In this context, the 
question is whether a U.N. peacekeeping force, assuming it can be 
successfully established and deployed, would advance our efforts along 
all three of our objectives. If confirmed, I expect to consider this 
issue in the near future with the President-elect and my colleagues in 
the Cabinet.

    Question 114. Do you believe the consent of the parties is a 
necessary precondition to effective peacekeeping? Do you believe there 
are situations where U.N. peacekeepers should be authorized to deploy 
to a country without the consent of the host government?

    Answer. There are many different kinds of peacekeeping operations. 
The ideal circumstance is when the parties consent to the deployment of 
the peacekeeping mission. But there are times when the Security Council 
will authorize the use of force when the parties do not consent or 
oppose outside intervention. One thing we can no longer tolerate, 
however, is a circumstance such as in Sudan, when the government, in an 
effort to block full deployment of the African Union-United Nations 
mission, picks and chooses which troop contributions it is prepared to 
accept.
U.N. Peacekeeping Budget
For many years, the level of funding requested in the Contributions for 
International Peacekeeping Activities (CIPA) account was significantly 
below known requirement levels. Deficiencies were then routinely made 
up via supplemental appropriations. Many in Congress view this ``low-
balling'' as either shoddy bookkeeping or a disingenuous attempt to 
dodge difficult political issues.

    Question 115. Does the Obama administration intend to request funds 
for the CIPA account sufficient to meet the anticipated U.S. assessed 
dues for U.N. peacekeeping operations?

    Answer. It is the intention of the President-elect and my intention 
to meet our U.N. obligations in full and on time, and that requires us 
to make a determined effort to budget for peacekeeping operations as 
accurately as we can.

    Question 116. Are there any specific steps you believe the United 
Nations should take to reduce the overall size of the U.N. peacekeeping 
budget? If so, what are they?

    Answer. Over the last several years, U.N. peacekeeping has seen its 
greatest growth both in numbers and scales. A large portion of the 
U.N.'s budget is devoted to peacekeeping. It will be important that, as 
peacekeeping mandates come up for renewal, we appropriately scrutinize 
the objectives, mandate, and deployment of these peacekeeping forces. 
Any new peacekeeping mandate must also be evaluated to ensure that the 
U.N. has the capacity and resources to fulfill the added 
responsibility.

    Question 117. Are there any specific U.N. peacekeeping missions you 
would support reducing or terminating in order to reduce the costs of 
U.N. peacekeeping? If so, which missions do you believe should be 
reduced or terminated?

    Answer. The administration will review each peacekeeping operation 
as it comes up for renewal at the Security Council. The administration 
does not have a position about reducing supporting or terminating 
specific peacekeeping operations at this time.
Responsibility to Protect
In 2005, the United Nations World Summit endorsed the concept of a 
responsibility of states to protect populations from genocide, war 
crimes, ethnic cleansing, and crimes against humanity. The concept as 
endorsed by the United Nations provides that where states manifestly 
fail to protect their populations from such atrocities, the 
international community, acting through the U.N. Security Council, is 
prepared to take collective action in a timely and effective manner to 
provide such protection. The U.N. statement is silent on the question 
of intervention by individual states without authorization from the 
U.N. Security Council to protect populations in such situations.

    Question 118. Do you believe that individual states may 
legitimately use force to protect other states' populations from 
atrocities without U.N. Security Council authorization? Do you believe 
such a right is recognized in international law?

    Answer. I believe we must begin by making every effort to persuade 
those who might be inclined to use their veto to block action to stop 
or prevent mass atrocities from doing so. Our preference is to obtain 
Security Council approval because this enhances our ability to bring 
others along, shares the cost of the burdens, and increases the 
likelihood of success. Yet there may well be current and future 
instances in which despite our best efforts to obtain Security Council 
support we are unable to do so, as was the case with Kosovo, where the 
United States and its NATO allies took action initially without U.N. 
Security Council approval. That was the right thing to do at the time, 
and it must remain an option. As the President-elect has said, we are 
diminished if we fail to act in the face of mass atrocities and 
genocide.

    Question 119. If you believe in such a right, what principles 
should govern such interventions? What impact would such a doctrine 
have on the general prohibition in international law against the use of 
force between states except in cases of self-defense? How could states 
be prevented from using such a doctrine as a pretext to justify uses of 
force undertaken for ulterior political motives?

    Answer. The responsibility to protect is a norm that was supported 
by the United States, by the U.N. 2005 World Summit, and subsequently 
by the Security Council. The responsibility to protect is a doctrine 
that begins with prevention and encompasses the full range of policy 
options. The emphasis is on prevention, though we cannot and must not 
rule out the use of force if other options fail. My main concern about 
the responsibility to protect is not overuse, but the gap that exists 
between what the norm promises and the failure of the international 
community to live up to that norm with strong action in places like 
Darfur.

    Question 120. Some commentators have advocated that the five 
perrnanent members of the U.N. Security Council should forswear the use 
of the veto in the Council in cases where international intervention is 
proposed for ostensibly humanitarian reasons.
    Do you support the United States announcing a policy that it will 
not use its veto in the Security Council in some category of future 
cases involving proposals for humanitarian intervention?

    Answer. Our preference should be to obtain Security Council 
approval for an action because this enhances our ability to bring 
others along with us, shares the cost of the burdens, and increases 
legitimacy. This should not be a binary choice of foregoing our right 
as a Permanent Member of the Security Council or sacrificing a 
principle of a commitment to the protection of civilians. It is also 
unrealistic to believe that all possible future hypothetical scenarios 
can be identified in an evaluation of the use of the Security Council 
veto.

    Question 121. If so, would such a position preclude the United 
States from vetoing a hypothetical proposal for intervention in Gaza if 
some Council members asserted that such intervention was required for 
humanitarian reasons?

    Answer. No. The United States maintains an unwavering commitment to 
Israel, and will oppose efforts by the Security Council and elsewhere 
to put forward resolutions and other statements that seek to unfairly 
target the State of Israel.

    Question 122. Some commentators have advocated more frequent 
recourse to the U.N. General Assembly to authorize interventions for 
humanitarian reasons in cases where the Security Council fails to 
authorize such interventions.
    Do you support an expanded role for the U.N. General Assembly in 
authorizing humanitarian interventions in cases where the Security 
Council declines to do so?

    Answer. The United States should pursue those avenues, 
opportunities, and strategies that represent the best possibility of 
achieving our national objectives. This is not about the General 
Assembly versus the Security Council. President-elect Obama's 
overarching objective is advancing America's interests and values, 
protecting our security, and ensuring our prosperity.
                              arms control
    Question 123. In 2003, when administration officials testified 
before this committee in support of the Moscow Treaty, they pointed out 
that the agreement would be buttressed by the START Treaty's 
verification regime. The START verification regime is due to expire in 
December of this year. In other words, the underpinning of the START 
and Moscow Treaties and our strategic relationship depends upon 
something which is about to expire. What is your opinion on the 
importance of extending the START Treaty and what steps do you plan to 
take to address this matter?

    Answer. The Obama administration will seek deep, verifiable 
reductions in all U.S. and Russian nuclear weapons--whether deployed or 
nondeployed, strategic or nonstrategic. As a first step, we will seek a 
legally binding agreement to replace the current START Treaty which, as 
you point out, expires in December 2009.

    Question 124. I have been concerned by reports that the efficacy of 
the Chemical Weapons Convention is in doubt due to U.S. funding 
shortfalls. I understand that not all of the funding for this work 
comes from the State Department--some comes from the Department of 
Commerce. What steps will you take to ensure that U.S. treaty 
commitments are met?

    Answer. Uncertainty about when, or even whether, the U.S. will pay 
its bill has created problems each year for the OPCW in carrying out 
its inspection program, especially because the U.S. assessment 
constitutes 22 percent of OPCW's budget. Given the Obama 
administration's strong support for the Chemical Weapons Convention and 
the OPCW, the State Department will review this issue to see whether 
there are practical ways to address the problem of adequate funding for 
international organizations.

    Question 125. In 2006, I visited the headquarters of the 
International Atomic Energy Agency in Vienna, Austria, and its 
Safeguards Analytical Laboratory located a few miles away. Samples 
collected by IAEA inspectors during inspections are brought there to 
verify that there are no undeclared nuclear materials and activities. 
Unfortunately the laboratory's aging equipment and dangerous working 
conditions hamper the important work done there. This situation will 
likely worsen as more samples arrive there and as more states expand 
their nuclear power infrastructure. Such a situation could, in the 
future, shut down this critical nonproliferation facility. What steps 
will you take to ensure that the IAEA has the resources and leadership 
it needs to continue its important safeguards mission?

    Answer. The Obama administration will give strong support to the 
IAEA, especially its safeguards system which plays the crucial role of 
monitoring compliance with the nonproliferation treaty. At the urging 
of the United States and many other IAEA members, the Agency's 
responsibilities and workload have expanded rapidly in recent years, 
including in implementing Additional Protocols to members' safeguards 
agreements, assisting members to enhance the physical protection of 
their nuclear installations and materials, and, hopefully in the 
future, helping create and administer a nuclear fuel bank that can 
reduce incentives for countries to acquire their own fuel-cycle 
facilities. Yet the IAEA's budget has not kept pace with its growing 
responsibilities. It needs to strengthen its talented workforce and 
ensure that its monitoring equipment and facilities, such as its 
laboratory at Seibersdorf, are fully up to date. That is why President-
elect Obama has called for doubling the IAEA's budget over the next 4 
years.

    Question 126. When President-elect Obama was in the Senate we 
worked together to fashion legislation to dramatically increase funding 
for conventional weapons dismantlement and weapons and materials of 
mass destruction detection and interdiction assistance. Unfortunately, 
these efforts did not translate into an increased financial or 
leadership commitment from the Department of State. What plans do you 
have to revitalize State Department efforts in this area?

    Answer. I strongly support implementation of the Lugar-Obama 
legislation that was designed to strengthen U.S. efforts to assist 
other countries to dismantle conventional weapons as well as to detect 
and interdict materials and weapons of mass destruction. While some of 
the U.S. programs to address these problems are funded by other 
agencies, the State Department has responsibility for significant 
programs of its own, including the Small Arms/Light Weapons Destruction 
Fund and the Export Control and Related Border Security (EXBS) Program. 
It is my understanding that funding for conventional weapons 
destruction rose from $8.6 million in FY06 to $16 million in FY07 (when 
the Lugar-Obama legislation was adopted) to over $44 million in FY08. 
In FY07, $42 million was obligated to the EXBS program, which assists 
the capabilities of other states to detect and interdict WMD smuggling. 
The Lugar-Obama legislation requires that not less than 25 percent of 
the funds provided in the nonproliferation chapter of the Foreign 
Assistance Act be devoted to enhancing the capabilities of other 
countries to detect and interdict WMD materials. In FY07, EXBS spending 
was well over that threshold. So my understanding is that the 
legislation has had a significant impact. The Obama administration will 
review these and other assistance programs and decide what more may be 
needed to meet the requirements of the legislation and to support the 
important policy goals of conventional weapons destruction and the 
detection and interdiction of materials and weapons of mass 
destruction.
                            counterterrorism
    Question 127. In the 109th Congress you proposed legislation (S. 
1705) that among other things would designate an individual in the NSC 
to serve as the Senior Advisor to the President for the Prevention of 
Nuclear Terrorism, who would direct and coordinate U.S. policies for 
preventing nuclear terrorism. Would you continue to advocate such a 
position, or do you believe that this job can be handled by the Under 
Secretary of State for Arms Control and International Security and the 
Coordinator for Counterterrorism?

    Answer. Yes, I continue to advocate such a position. The 
possibility of terrorists acquiring and using weapons of mass 
destruction, especially nuclear weapons, is the gravest national 
security threat we face today. The Obama administration will therefore 
follow through on the President-elect's campaign pledge to appoint a 
White House Coordinator to address the threat of nuclear terrorism and 
the proliferation of weapons of mass destruction. Among the 
Coordinator's responsibilities will be to exercise budgetary oversight 
over all U.S. programs designed to address the WMD threat.

    Question 128. One of the keys to international counterterrorism is 
the cooperation among states, especially in several ungoverned tri-
border regions. Do you see greater role for the Department of State in 
this respect? What will be your counterterrorism philosophy?

    Answer. Our ability to contain and diminish the threat of 
international terrorism depends heavily on our ability to build 
partnerships among nations and deepen cooperation across a range of 
areas, including law enforcement, intelligence sharing, border 
controls, and safeguarding of hazardous materials. The United States--
and the State Department in particular--has historically played a 
central role in this area. I strongly believe that keeping terrorists 
on the defensive, reducing their room for maneuver, and preventing them 
from striking at us and our allies will require that the Department act 
energetically to build the international cooperation that is essential 
for confronting a transnational threat that no one country can 
successfully fight alone.
                                 energy
    Question 129. At a Presidential campaign debate on April 16, 2008, 
you stated: ``We are so much more dependent on foreign oil today than 
we were on 9/11, and that is a real indictment of our leadership.'' You 
have also repeatedly pointed to a concern that the Senate Committee on 
Foreign Relations has also warned of: The degree to which energy 
security issues--particularly dependence on foreign oil supplies--harm 
U.S. foreign policy and security. While growing attention has been 
given to the need to reform domestic energy policy to reduce oil usage, 
comparatively little attention has been given to the need for U.S. 
diplomatic engagement on energy.

  <bullet> a. What priority would you assign to energy security in U.S. 
        foreign policy? Is this an issue on which you would personally 
        engage? How would you ensure that energy security is integrated 
        into State Department activities?
  <bullet> b. As Secretary of State, what role will you play in 
        explaining to Americans the national security, economic and 
        humanitarian costs of our current domestic and global energy 
        portfolio?

    Answer. The President-elect identifies energy security as one of 
his top national security priorities during the campaign. I have long 
believed that energy security--and the twin challenge of climate 
change--are among the most pressing challenges facing the United States 
and the global community and must be among the top national security 
priorities. These are issues on which I will personally engage, and 
they will consistently receive high-level attention at the Department. 
I will work with our friends and partners around the world, who are 
facing the same challenges. I also intend to ensure that the Department 
works vigorously through the interagency process on these issues. I am 
still reviewing whether to make any organizational changes in the 
Department on these issues--I will certainly consult with the committee 
as we work to ensure that energy security plays a prominent role in 
State Department activities.
    If confirmed as Secretary, I will be active in making the case that 
the United States must free itself from dependence on foreign oil. Our 
addiction to foreign oil does not just undermine our national security 
and wreak havoc on the environment--it also cripples our economy and 
strains the budgets of working families. The United States and our 
friends and partners throughout the world are facing a protracted 
period of major energy challenges. Overdependence on individual 
countries or fuels creates vulnerabilities by permitting market 
distortions and opportunities for political blackmail. Along with the 
President-elect and my colleagues, I will urge a swift and effective 
response that focuses on improving energy efficiency, developing energy 
technologies that do not contribute to global warming, and for the 
near-term future, securing stable and diverse supplies of conventional 
energy.

    Question 130. Signed into law in December 2007, the Energy 
Independence and Security Act required the creation of a Department of 
State Coordinator for International Energy Affairs. This position, 
originally proposed in legislation offered on March 16, 2006, 
originated from my judgment that the myriad threats posed by global 
energy concerns require devoted attention by an individual with 
significant stature placed within the office of the Secretary of State, 
and with the political experience necessary to communicate and pursue 
our diplomatic energy priorities to a broad audience. The Senate 
Committee on Foreign Relations unanimously approved legislation 
mandating of the Coordinator position in a bill offered by myself with 
Senators Biden, Craig, Salazar, Landrieu, Coleman, Lieberman, Hagel, 
and Thune.
    Rather than appointing a full-time Coordinator as per congressional 
expectation, the current Secretary of State chose to ``dual-hat'' the 
Under Secretary of State for Economic, Energy and Business Affairs--a 
position that has also required, among other issues, responsibility for 
leading State Department engagement on the global financial crisis. 
Thus, the highest ranking State Department official exclusively devoted 
to energy issues remains at the level of Office Director.

  <bullet> a. Do you believe that energy security concerns warrant a 
        high-level, full-time State Department official?
  <bullet> b. What role will the Coordinator for International Energy 
        Affairs play in State Department activities if you are 
        confirmed as Secretary of State?
  <bullet> c. What staff support will be made available to the 
        Coordinator? What budgetary support will be available for the 
        Coordinator?
  <bullet> d. Do you intend to seek additional authorities or budgetary 
        support for the Coordinator and other energy security 
        activities within the 150 Account?

    Answer. I very much appreciate and agree with your initiative to 
elevate energy diplomacy as a key function in the Department of State, 
and do believe that energy security warrants high-level attention in 
the Department. Energy security must be an important and integrated 
element of our foreign policy. I am still reviewing whether to make any 
organizational changes in the Department, but of course I will 
implement the statutory requirement to have a Coordinator. If 
confirmed, I will also soon be working with OMB on the President's 
budget request for FY 2010, so it is premature for me to comment on 
issues involving budgetary support. I will be happy to consult with you 
further about this issue, if confirmed.

    Question 131. On March 31, 2008, a Presidential Envoy for Eurasian 
Energy was appointed. This position is not unlike that established 
under President Clinton, which was crucial in establishing energy 
cooperation amongst Azerbaijan, Georgia, and Turkey. The appointment of 
the current envoy position, made with the encouragement of Senators 
Lugar and Biden, came at a time when new opportunities for United 
States engagement in Central Asia are possible and while Russian 
authorities have made a strong effort to further their control of 
energy supplies in the greater Caspian region.

  <bullet> a. What level of U.S. engagement do you believe is helpful 
        to promote opening of trans-Caspian energy trade and 
        investment?

    Answer. Vigorous U.S. engagement to promote opening of trans-
Caspian energy trade and investment is an important priority for U.S. 
interests. Russia's cutoff of gas shipments to Ukraine (and by 
extension to much of the rest of Europe) in early 2009 (following a 
similar move in 2006) served as a sharp reminder of how dependent 
Europe is on energy imports from Russia. That energy dependence can 
create a degree of political dependence that we should seek to help the 
Europeans avoid. Just as the Clinton administration helped promote the 
Baku-Ceyhan-Tbilisi pipeline in the 1990s, the United States today 
should be heavily engaged in helping to promote stable and transparent 
energy trade in Europe--including between Russia and Ukraine--and 
energy diversification for Europe, a goal that requires more energy 
trade with producers in the Caspian region.

  <bullet> b. Do you intend to appoint, or encourage the President to 
        appoint, a full-time envoy for Eurasian energy?

    Answer. The complex issue of Eurasian energy requires high-level 
U.S. attention and engagement. If confirmed, I will consult with the 
President and with our energy and national security teams to determine 
the best way to devote that attention. The appointment of a strong, 
full-time envoy is one option worth serious consideration. No matter 
what staffing approach is employed, it will be essential to have a 
focused, well-elaborated strategy.

    Question 132. The proposed Nabucco natural gas pipeline project is 
intended to be the final link connecting Caspian region energy 
resources with European consumers that could substantially contribute 
to diversification of Europe's natural gas imports, but it is being 
challenged by the Russian-backed alternatives Nordstream and South 
Stream. The United States has been supportive of the Nabucco project, 
and numerous North Atlantic Treaty Organization and European Union 
Member States have attempted to make the Nabucco pipeline a reality. 
Unfortunately, their efforts have been stymied by other influential 
European governments that have more actively pursued independent deals 
with Russia for gas supplies. Failure to complete the Nabucco pipeline 
would be significant blow to European security, and challenge unity in 
the trans-Atlantic community.

  <bullet> a. If confirmed, what steps would you take to conclude 
        necessary political agreements for Nabucco to be constructed?

    Answer. The Nabucco pipeline could prove to be a critical element 
in the necessary efforts to diversity European energy supplies. 
Completing such an expensive, complicated, multinational project, 
however, will require painstaking alignment between commercial and 
governmental actors. An essential element of such a project will be the 
commercial fundamentals. A successful strategy to promote Nabucco or 
other pipelines along the Southern Corridor to European markets will 
require consistent, high-level political engagement, including by the 
United States. If confirmed, I and my team would strongly encourage our 
European allies to make the political agreements necessary to 
facilitate the construction of Nabucco or other pipeline capacity that 
can help Europe diversify its gas supply.

  <bullet> b. The Republic of Turkey has indicated a desire to 
        participate in the Nabucco project, but it has expressed 
        concerns for first meeting its projected domestic energy needs. 
        What is your perspective on steps the United States bilaterally 
        with Turkey, and multilaterally, can take to accelerate 
        progress on the necessary intergovernmental agreements?

    Answer. The President-elect has said that ``a close relationship 
with a stable, democratic, Western-oriented Republic of Turkey is an 
important U.S. national interest.'' I could not agree more. Turkey is a 
critical U.S. partner not only on energy issues but on a wide range of 
critical national security issues. Its cooperation is certainly 
critical to the success of gas diversification projects such as the 
Nabucco pipeline and the Turkey-Greece-Italy pipeline. If confirmed, I 
will seek to restore and develop the longstanding U.S. strategic 
partnership with Turkey--which has come under strain in recent years. 
Supporting Turkey's effort to develop and implement sound and 
sustainable energy policies is in the interest of Turkey, all of 
Europe, and the United States because it will help Turkey to be a 
reliable partner and transit country for gas flowing to other European 
markets.

    Question 133. The United States Senate, as part of its amendment to 
H.R. 6 in 2007, approved legislation I authored promoting enhanced ties 
between the International Energy Agency (IEA) and the Governments of 
the People's Republic of China and the Republic of India. One central 
component of such cooperation would be formal coordination of strategic 
petroleum reserves as those countries construct their domestic 
reserves. United States diplomats have encouraged such enhanced 
cooperation. You have repeatedly recognized the importance of enhanced 
formal ties with China and India on energy, including with the IEA.

  <bullet> a. What benefit and risks do you see to formal inclusion of 
        China and India in membership in the IEA?

    Answer. The IEA should be laying the groundwork now for eventual 
Chinese and Indian membership in order to achieve the benefits of: (1) 
Increasing energy policy coordination with rapidly growing energy 
consumers like China and India; (2) maximizing the opportunity for 
agreeing on energy standards and principles like transparent energy 
markets; (3) ensuring the coordinated release of strategic petroleum 
reserves during a major oil market disruption; and (4) maintaining its 
position as the voice of the world's major energy consuming nations.
    The center of energy demand growth is shifting away from the OECD 
countries to many of the world's developing countries. The IEA was 
created as an institution that represents the interest of the major 
energy consuming nations. If its membership does not change to reflect 
who those nations are today, its authority and effectiveness will 
erode.

  <bullet> b. Would you promote more formal inclusion of China and 
        India in the International Energy Agency, including in 
        coordination of strategic petroleum reserve usage?

    Answer. The great majority of increased global energy demand in 
coming years will come from emerging economies, in particular China and 
India. Both are also building strategic petroleum reserves. Given their 
growing weight in international energy markets it is in our interest to 
include them as members of the International Energy Agency and to 
coordinate closely with them on usage of strategic petroleum reserves 
in case of an oil supply emergency. Global energy security will benefit 
from the integration of their potentially large strategic reserves into 
the IEA system.

  <bullet> c. If necessary, would you promote revisions to the IEA's 
        underlying treaty if necessary to include China and India?

    Answer. Full membership would likely require the modification of 
the original 1974 International Energy Program treaty agreement that 
created the International Energy Agency (IEA), but the range of options 
potentially available to integrate China and India into the IEA have 
not yet been explored. The IEA makes decisions by consensus among the 
Member States, and consensus can and will be reached on how to prepare 
the IEA for eventual Chinese and Indian membership, even as China and 
India must also commit themselves to and prepare for IEA membership. 
The State Department will support these efforts, up to and including 
revision of the International Energy Program.

    Question 134. Access to reliable and affordable energy is vital to 
economic development, and the threat of global climate change 
underscores a common interest for developing countries to not build 
extensive infrastructure based around carbon-intensive power generation 
and usage. Likewise, production of renewable energy, particularly 
biofuels, offers a value-added product for rural areas in the 
developing world. In a Foreign Affairs article, you commented, ``We 
must also help developing nations build efficient and environmentally 
sustainable domestic energy infrastructures. Two-thirds of the growth 
in energy demand over the next 25 years will come from countries with 
little existing infrastructure.''

  <bullet> a. What role do you see for United States foreign assistance 
        in promotion of access to energy in developing countries?

    Answer. As developing countries address energy poverty, the United 
States should do all it can to promote the adoption of clean energy 
technology and best practices. The full suite of energy sources--oil, 
gas, coal, nuclear, and all renewables, in tandem with conservation and 
efficiency improvements--will be necessary to meet projected global and 
domestic energy demand over the next 25 years.
    U.S. foreign assistance that promotes energy access in the 
developing world should focus on clean energy technology--which 
includes renewable energy, energy efficiency, as well as clean coal 
technology. The United States leads in research, development and 
deployment of renewable energy.

  <bullet> b. What budgetary changes would be needed to increase U.S. 
        assistance in promoting energy access?

    Answer. Were the United States to give priority to the elimination 
of energy poverty, with a focus on enabling reliable, affordable, clean 
energy, we would need a very substantial increase in U.S. assistance.
    Most of the required investment, however, must come from the 
private sector. In order to mobilize that investment, major policy and 
regulatory reforms are needed in many countries. Neither public nor 
private utilities and their investors can generate the capital required 
to expand access to clean, sustainable energy supply, for example, when 
regulatory regimes prevent them from recovering their direct and 
indirect operating costs.
    Developing countries must bear primary responsibility for moving 
the reform process forward. When they do, U.S. assistance can support 
them in two major ways. First, our technical assistance can help to 
establish the overall regulatory and policy environment needed to 
stimulate large new public and private investments. And, second, our 
project-based financial guarantees and other support can help to reduce 
the perceived risks and costs of mobilizing the much larger flows of 
private sector financing required.

  <bullet> c. What is your perspective on how the United States can 
        promote global development of advanced biofuels from diverse 
        feedstocks such as specialty energy crops, agricultural waste, 
        and municipal waste?

    Answer. Sustainable biofuels is an area where the State Department 
can continue to foster global cooperation. The United States works both 
multilaterally and bilaterally to advance sustainable biofuels. If 
confirmed, I will review this ongoing work with an eye toward expanding 
this focus. Examples of work which could be expanded included the G-8-
launched Global Bioenergy Partnership as well as the United States-
Brazil Memorandum of Understanding on Biofuels Cooperation, which 
includes both research and development work on advanced biofuels, as 
well as broader efforts to establish common technical standards to 
foster a global market for these products.

    Question 135. As a United States Senator, you cosponsored S. 879 
``No Oil Producing and Exporting Cartels Act of 2007'' and S. 2976 
``OPEC Accountability Act.'' What repercussions do you believe legal 
actions against OPEC nations would have on United States economic 
interests, trade and security relationships, and U.S. companies 
operating in affected countries? If confirmed as Secretary of State, 
how do you intend to balance U.S. and global market dependence on 
reliable supplies of oil from OPEC nations with encouraging them to 
undertake more open-market behavior?

    Answer. Given ongoing U.S. court cases concerning these matters, as 
a potential administration official I need to respect the judicial 
process and not comment on these matters specifically at this time.
    If confirmed, I will support the President's efforts to promote 
U.S. energy security. This will include maintaining a strong dialogue 
with the major oil producing countries--both OPEC and non-OPEC 
members--to impress upon them the need to ensure adequate energy 
supplies to meet global energy demand.
                             climate change
During the Presidential campaign, you said that you would ``engage in 
high level meetings with leaders around the world every 3 months, if 
that's what it takes to hammer out a new agreement'' on climate change. 
You further indicated that ``my goal will be to secure a new agreement 
by 2010.''

    Question 136. What role do you intend to play in the Obama 
administration with respect to international negotiations on climate 
change? As Secretary, do you expect to meet with foreign leaders every 
3 months to discuss climate change?

    Answer. President-elect Obama has made it clear that the United 
States must reassert leadership in international negotiations on 
climate change. If confirmed, I will play a leading role as Secretary 
of State in the Obama administration's efforts in that regard. Given 
the urgency of the problem and the timeframe set out in the UNFCCC 
process, this issue would be a key priority for me and for the 
Department.

    Question 137. Parties to the U.N. Framework Convention on Climate 
Change agreed on a work plan aimed at producing a new climate change 
agreement by the end of 2009. Do you support this goal, or do you 
believe more time will be necessary to reach such an agreement?

    Answer. As President-elect Obama has emphasized, few challenges 
facing America--and the world--are more urgent than climate change. The 
science is beyond dispute and the facts are clear. Sea levels are 
rising. Coastlines are shrinking. We have seen record drought, 
spreading famine, and storms that grow stronger year after year.
    President-elect Obama has made it clear that his administration 
will mark a new chapter in U.S. leadership on climate change. Under 
President Obama, the U.S. will once again engage vigorously in the 
U.N.-sponsored climate negotiations. The U.S. will also pursue progress 
on climate change in subglobal, regional, and bilateral settings. The 
U.S. is fully prepared to agree to binding caps as part of the 
international climate negotiations. It is also apparent that, to solve 
this problem, all major emitting nations must join in the solution. 
Major developing nations such as China and India must not be far behind 
in making their own commitments. The precise nature of commitments 
sought from these countries will be shaped in the course of 
negotiations.
    We are committed to working with all nations to make the 2009 
Copenhagen conference under the U.N. Framework Convention on Climate 
Change a success. The world must move forward without delay to address 
this urgent problem.

    Question 138. Committee staff following the climate change 
negotiations have recommended that in addition to showing leadership in 
the forthcoming climate talks, the U.S. should engage China, India, and 
Brazil in high level bilateral discussions on a number of issues 
including climate change and energy security. Secretary Paulson has 
done that with China. Do you support holding similar discussions with 
Brazil and India?

    Answer. President-elect Obama has stated that he plans to pursue 
international agreements on climate change through a number of avenues 
in addition to the UNFCCC process, including multilateral discussions 
that include China, Brazil, and India.
                            public diplomacy
As Secretary Gates noted in 2007: ``Public relations was invented in 
the United States, yet we are miserable at communicating to the rest of 
the world what we are about as a society and a culture, about freedom 
and democracy, about our policies and our goals. It is just plain 
embarrassing that al-Qaeda is better at communicating its message on 
the Internet than America. As one foreign diplomat asked a couple of 
years ago, `How has one man in a cave managed to out-communicate the 
world's greatest communication society?' Speed, agility, and cultural 
relevance are not terms that come readily to mind when discussing U.S. 
strategic communications.''

    Question 139. How does the Obama administration intend to reverse 
this course of events? Additionally, does the administration believe 
the problem rests, as Secretary Gates said, with the method of 
communications, or rather with the message?

    Answer. The President-elect and I believe strongly that the 
challenge of restoring America's leadership in the world community 
hinges on improving the content of our policies; in altering the 
strategic approaches we employ in our dealings with the world 
(especially moving from unilateralism to a more balanced diplomatic and 
consultative strategic orientation); and third, we must have effective 
and respected traditional and public diplomatic capabilities. We can do 
a better job of attracting the best and the brightest. We must do a 
better job of giving our talented women and men the resources they need 
to guarantee that our strategy and our policies can be pursued 
successfully. All three elements are essential--policies, strategy, and 
instruments--and I, if confirmed by the Senate, intend to assure that 
each is strong, and that they all work together to be mutually 
reenforcing.

    Question 140. Does the Obama administration support the idea that 
there needs to be a collocation waiver for public diplomacy facilities 
that would enable them to remain outside of new embassy facilities 
where the security environment permits it?

    Answer. Ensuring the security and safety of U.S. Government 
employees overseas is very important to President-elect Obama. So too 
is the imperative for our people to get outside the guarded perimeters 
of embassy compounds to get to know the local populations, and to be 
known by them. If confirmed by the Senate, I intend to work closely 
with the professionals in the Bureau of Diplomatic Security to review 
collocation issues for public diplomacy. Another alternative that I 
would like to review is expanding the use of binational commissions to 
create welcoming and secure spaces for public diplomacy. I would be 
happy to keep you abreast of these actions as we move forward.
                              broadcasting
Many have criticized the Bush administration's decision to try to reach 
broader audiences in the Middle East through efforts such as Radio Sawa 
and Al Hurra TV. Critics argue that Sawa--which relies primarily on a 
pop-radio format with a smattering of news--fails to deliver sufficient 
information to serious listeners who desire to hear unfiltered news 
about their country and the rest of the world. Opponents of Al Hurra--
which attempts to serve as a counter to Al Jazeera--claim that it often 
fails to provide sufficient counterpoints to radical and inaccurate 
claims made by participants on many of its programs.

    Question 141. Does the Obama administration intend to continue 
funding Radio Sawa in its current, mostly music, format? Similarly, 
what changes does the administration intend for Al Hurra?

    Question 142. Does the Obama administration believe that the 
Broadcasting Board of Governors, which oversees both Al Hurra and Radio 
Sawa as well as Voice of America, Radio Free Europe, and Radio Free 
Asia, is the appropriate vehicle to provide managerial and policy 
guidance to the disparate broadcasting entities? Does the 
administration seek to alter or even replace the BBG?

    Answer. Let me answer these two questions together. For the most 
part, the performance of America's international broadcast entities has 
been quite successful in telling America's story (largely the task of 
the VOA), and in serving as important surrogates for missing 
independent media in countries where a free press and independent media 
have been repressed, such as Afghanistan and Burma, where RFE/RL and 
Radio Free Asia respectively operate. Beyond the precise content of the 
news, our international broadcast services demonstrate an essential 
lesson of free societies--the requirement of an independent media for a 
robust democracy.
    A robust and effective BBG in turn requires a strong and 
unambiguous firewall between the professional journalists and editors 
at BBG, and others in the U.S. Government whether at the White House or 
the State Department. I recognize this to be a fundamental requirement 
of effective international broadcasting.
    The BBG is an independent agency but the Secretary of State holds a 
seat on the Board, through which the Department can express its views. 
State also clears editorials for the VOA broadcasts. But the most 
effective BBG will be one at arms length from these and other 
government agencies.
    Now is the time to review the Arab language services--they have 
grown in listenership in recent years, and we should review their 
performance and impact to determine whether Al Hurra and Radio Sawa are 
achieving their full potential.
    We recognize that our biggest challenge is to ensure that our 
messages are listened to, considered and, we hope, acted upon by people 
in the Middle East, and Muslim societies around the world. To do this 
effectively, the BBG has learned that it must rely on the best market 
analysis to understand the unique listening habits and attitudes of the 
populations we seek to inform, and these conditions differ 
substantially from one country to its neighbor. So we must start with 
the market, and then devise our message accordingly, which more and 
more will include new digital platforms.
                     international law and treaties
Law of the Sea
During the 110th Congress, the Foreign Relations Committee reported the 
Law of the Sea Convention to the the Senate with the recommendation 
that the Senate provide its advice and consent to ratification of the 
Convention. The full Senate did not consider the Convention prior to 
its adjournment.

    Question 143. Do you support U.S. accession to the Law of the Sea 
Convention? If so, what U.S. interests do you believe U.S. accession to 
the Convention would advance?

    Answer. Yes. The President-elect has expressed his support for the 
Convention, and voted in favor of it as a member of this committee in 
the 110th Congress, and I strongly support it as well.
    I agree with the Chief of Naval Operations, and the other members 
of the Joint Chiefs of Staff, all of whom endorsed the Convention 
during the 110th Congress. Joining the Convention will advance the 
interests of the U.S. military and the United States more broadly. As 
the world's leading maritime power, a nation with the world's largest 
Navy, an extensive coastline, an expansive continental shelf, and 
substantial commercial shipping and marine environmental interests, the 
United States has as much as any nation to gain from joining the 
Convention.

    Question 144. Do you urge Senate action on the Convention during 
the 111th Congress? If so, what steps would you plan to take as 
Secretary to promote Senate action?

    Answer. As I said above, the President-elect and I have expressed 
our support for the Convention. When the administration takes office, 
it will promptly initiate a review of all treaties pending in the 
Senate and provide the committee with a Treaty Priority List as 
expeditiously as possible.
ICC
    Question 145. Does the Obama administration support the United 
States becoming a party to the Rome Statute of the International 
Criminal Court?

    Answer. Now that it is operational, we are learning more about how 
the ICC functions. Thus far, it has acted with professionalism and 
fairness--pursuing perpetrators of truly serious crimes, like genocide 
in Darfur, and atrocities in the Congo and Uganda. At the same time, we 
must also keep in mind that the United States has more troops deployed 
overseas than any nation. We need to make sure that they have maximum 
protection.
    I will work with the President-elect and other members of the 
Cabinet to consult thoroughly with our military commanders and other 
experts. We will examine the full record of the ICC before making any 
recommendations or reaching any decision on joining. If confirmed, I 
look forward to consulting closely with this committee as we consider 
our approach. Whether we work toward joining or not, we will end 
hostility toward the ICC and look for opportunities to encourage 
effective action in the ICC in ways that promote our interests by 
bringing war criminals to justice.

    Question 146. Do you believe the United States should seek to 
assist the ICC in its investigation and prosecution of crimes under the 
Rome Statute? If so, what sorts of assistance do you support and what 
principles should govern decisions about providing such assistance?

    Answer. I commend the Bush administration for its announced 
willingness to cooperate with the ICC in the Darfur investigation. The 
President-elect and I believe we should support the ICC's 
investigations, including its pursuit of perpetrators of genocide in 
Darfur.
Trade Agreements
    Question 147. During the Presidential campaign you advocated 
efforts to renegotiate aspects of NAFTA, and ``telling Mexico and 
Canada that we will opt out'' of the agreement unless it is revised.

  <bullet> a. Does the Obama administration intend to seek to 
        renegotiate NAFTA? If so, what changes in the agreement does it 
        intend to seek?
  <bullet> b. What changes to other aspects of NAFTA would you expect 
        Mexico and Canada to seek in any such negotiations?
  <bullet> c. Apart from NAFTA, will the Obama administration seek to 
        renegotiate other Free Trade Agreements to which the United 
        States is currently a party? If so, please indicate any such 
        agreements and what changes the administration intends to seek.
  <bullet> d. Given that NAFTA and other Free Trade agreements have 
        been approved by the Congress will you commit to consult with 
        the Congress in advance of any negotiations to change the terms 
        of such agreements, and to submit any changes to Congress for 
        its approval?

    Answer. I cannot speak to specific aspects of the new 
administration's trade policy, but I can provide my general views on 
the questions presented about NAFTA. President-elect Obama and I 
consider Mexico and Canada among our closest allies and friends and we 
approach the issue from that perspective. We have consistently 
supported modernizing NAFTA so that it works for Americans and working 
people and the environment for our partners in North America. The Obama 
administration will work with the governments of Canada and Mexico to 
achieve this objective. Improving the agreement will benefit workers 
and the environment in all three North American countries by ensuring 
that workers are not mistreated and the environment not despoiled by 
firms seeking a trade advantage. President-elect Obama also believes 
that there is also a broader cooperative agenda that the three NAFTA 
countries should pursue in the economic area, including such matters as 
energy management, improved border infrastructure and environmental 
cooperation.

    Question 148. What effects would the failure of pending Free Trade 
Agreements with Colombia, Panama, and South Korea have on relations 
with those nations? How would successful ratification impact relations 
with those nations?

    Answer. If confirmed, I look forward to building even stronger 
bilateral relationships with Colombia, Panama, and South Korea in the 
years to come. If confirmed, I also look forward to working with the 
United States Trade Representative, the Treasury Secretary, the 
Secretary of Commerce, and others on the President-elect's economic 
team on these issues. All of these nations have expressed a strong 
desire to see these FTAs ratified. We will communicate forthrightly 
with each of them, explaining that our past and present concerns with 
the FTAs are discrete and specific and have no bearing on the many 
collaborative dimensions of our alliance and friendship. We will also 
work to resolve these concerns to the satisfaction of all parties. 
Obviously, these nations would be pleased by ratification, but I 
believe that we have--and can continue to have--productive friendships 
even without FTAs in force.

    Question 149. What in your view will be the impact of the recent 
collapse of the World Trade Organization's Doha Development Round of 
trade negotiations? As Secretary, will you support efforts to revive 
the Doha Round?

    Answer. We still do not know the prospects for the Doha Round. They 
depend in part on the impacts of last-second decisions of the Bush 
administration concerning the December WTO Ministerial--impacts that 
are still playing out globally. I know that the new administration will 
assess those impacts carefully. As a general principle, the President-
elect believes that U.S. negotiators must not accept a bad deal just 
for the sake of an agreement. But it would certainly be disappointing 
if the WTO cannot make progress toward a successful Doha Round 
agreement that would increase American exports, support American jobs, 
strengthen the rules-based multilateral system, and advance development 
of the world's poorest countries. President-elect Obama supports, and 
as Secretary I would support, a successful conclusion of Doha--one that 
comports with his trade priorities and objectives.
ILO
In a 2007 article in Foreign Affairs, you wrote ``We can strengthen the 
International Labor Organization in order to enforce labor standards, 
just as we strengthened the World Trade Organization to enforce trade 
agreements.''

    Question 150. Is it the position of the Obama administration to 
pursue a binding mechanism under the auspices of the International 
Labor Organization to resolve disputes related to labor standards?

    Answer. The position of the Obama administration is to ensure that 
basic international labor standards are respected and enforced in the 
countries with which we establish our closest commercial relationships. 
We need to construct a process for evaluating and bringing to dispute 
resolution cases where producers abroad are violating these basic 
worker protections in order to gain an unfair advantage in trade. There 
is an interagency process at USTR that can access the resources and 
partnership of the Department of Labor and the State Department to 
initiate a new level of attention to labor issues in trade agreements 
and to enforcement of the agreements we have signed. And we will work 
closely with the ILO on the best mechanism for resolving disputes. 
There are numerous questions by labor experts about the adequacy of the 
current interagency process. We intend to have close cooperation of 
USTR, State, and Labor to assess and respond to these questions.

    Question 151. Will you commit to consult with the Foreign Relations 
Committee about the details of any proposal for such a mechanism before 
engaging in discussions of such a proposal internationally?

    Answer. Yes.
Medellin
On February 28, 2005, President Bush determined that the United States 
would comply with the judgment of the International Court of Justice in 
the Case Concerning Avena and Other Mexican Nationals (Mexico v. United 
States). To achieve such compliance President Bush issued a memorandum 
directing state courts to review and reconsider the convictions and 
sentences of the Mexican nationals at issue in the case, who were not 
advised in a timely fashion of their rights under the Vienna Convention 
on Consular Relations to have Mexican consular officials notified of 
their arrests in the United States on state criminal charges. In March, 
2008 the U.S. Supreme Court held in Medellin v. Texas that President 
Bush lacked the authority to compel the States to take such actions.

    Question 152. What further actions, if any, do you believe the 
federal and/or state governments should take to give effect to the 
ICJ's Avena judgment? As Secretary, what steps would you plan to take 
with respect to this issue?

    Answer. All nine justices on the Supreme Court recognized in the 
Medellin case that the United States had an international legal 
obligation under the Avena judgment. The question is how to achieve 
that. I understand that the Governor of Texas has indicated in a letter 
to Secretary Rice and Attorney General Mukasey that he would be willing 
to support review and reconsideration in the cases of those Mexican 
nationals affected by the Avena decision if the sentence and conviction 
has not already been reviewed. We will work with the State of Texas, 
and the other states involved, on a way forward in these cases that 
gives effect to the Avena judgment. I would also support an interagency 
review of how the United States can best give effect to the Avena 
judgment.

    Question 153. How would you plan to address Mexican concerns in the 
event that death sentences are carried out for any individuals at issue 
in the Avena case whose convictions and sentences had not been reviewed 
and reconsidered?

    Answer. The United States has an obligation under the Vienna 
Convention on Consular Relations to provide consular notification 
whenever a foreign national is arrested in the United States. Foreign 
governments likewise have a reciprocal obligation to provide 
notification to U.S. citizens detained overseas. We must comply with 
our obligations if we expect other countries to comply with theirs. We 
will redouble our efforts to work with state and local law enforcement 
to ensure that the United States fully implements the Vienna 
Convention's consular notification provisions.
                   global health and related matters
    Question 154. Worldwide, it is estimated that 132 million children 
are orphaned due to AIDS and other causes and millions more are highly 
vulnerable. Without protection and support, these children are 
susceptible to HIV and other diseases, recruitment by militias and 
violent extremist groups, sex trafficking, and other abuses. The 
Assistance for Orphans and Other Vulnerable Children in Developing 
Countries Act of 2005 (P.L. 109-95), required our government to devise 
a single, comprehensive strategy for addressing critical needs among 
the developing world's highly vulnerable children. Even though the bill 
was signed into law over 3 years ago, up to now, there has been no 
clear strategy of how to the U.S. Government should ensure programs to 
address the needs of orphans and vulnerable children are administered 
as Congress intended. Will you ensure that the plight of orphans and 
vulnerable children be a priority for the U.S. Government and the 
Department of State in particular?

    Answer. Addressing the plight of orphans and vulnerable children is 
a priority of the U.S. Government. Under the USG Strategy for Orphans 
and Other Vulnerable Children (submitted to Congress in June 2006), in 
2007-08 the USG spent almost $6 billion on foreign assistance programs 
to improve the lives of children and their families.
    If confirmed, I will ensure that orphans and vulnerable children 
continue to be a priority during the Obama administration. Six U.S. 
Government agencies and departments currently manage a range of 
programs that help children in dire need due to natural disasters, 
conflict, orphanhood, disease, abandonment, displacement, exploitation, 
abuse, or deep poverty. An interagency group is currently updating and 
refining the strategy to refocus our programs in light of the current 
global economic crisis that is making more children more vulnerable.

    Question 155. Last summer, Congress enacted the Tom Lantos and 
Henry J. Hyde United States Global Leadership Against HIV/AIDS, 
Tuberculosis, and Malaria Reauthorization Act of 2008. This legislation 
authorizes up to $48 billion over the next 5 years for HIV/AIDS 
prevention, treatment, and care programs, and includes $5 billion for 
malaria and $4 billion for tuberculosis. Given the current budget 
situation, should these programs be fully funded at the authorized 
levels?

    Answer. Congress sent a clear message to our partners around the 
world that the United States would remain committed to combating these 
three diseases by reauthorizing our programs to address them. As you 
noted, the Tom Lantos and Henry J. Hyde United States Global Leadership 
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 
authorizes up to $48 billion to combat the three diseases. The bill was 
passed with strong bipartisan majorities in both houses.
    Each year beginning with FY 2010, we will assess our progress 
toward our goals for each program and the larger budget context, and of 
course we will consult with Congress in formulating the President's 
budget request.

    Question 156. The Tom Lantos and Henry J. Hyde United States Global 
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization 
Act of 2008, includes language directing the United States to 
participate in negotiations for future Advanced Market Commitments for 
the purchase of futures vaccines to combat HIV/AIDS, tuberculosis, 
malaria, and other infectious diseases. The first advance market 
commitment (AMC) of $1.5 billion, funded by Canada, Italy, Norway, 
Russia, the United Kingdom, and the Bill & Melinda Gates Foundation, 
was announced on February 9, 2007, and is scheduled to launch later 
this year. This AMC will go to purchasing a vaccine for pneumococcal 
disease, an illness that kills around 1.6 million people--most of them 
children. The commitment itself has no cost unless and until a vaccine 
is developed. It is estimated that by 2030, a successful AMC project 
will prevent 5.4 million deaths. However, the United States did not 
participate in these negotiations and is not a part of this lifesaving 
initiative. Are you committed to upholding the Tom Lantos and Henry J. 
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Reauthorization Act of 2008 by directing the U.S. to show 
leadership by participating in future Advanced Market Commitments 
negotiations?

    Answer. It is my understanding that while the U.S. Government did 
not provide funding for the AMC pilot for pneumococcal disease, the 
outgoing administration supported the concept of the AMC pilot for 
pneumococcal disease. I will work closely with the Treasury Department, 
which the legislation tasks with leading negotiations on establishment 
of advanced market commitments, and other appropriate U.S. Government 
agencies, in monitoring the results of the AMC pilot for pneumococcal 
disease and discussing next steps with respect to AMCs for other 
infectious diseases.

    Question 157. Last Congress, I was the lead cosponsor of Vice-
President-elect Biden's legislation to address and combat international 
violence against women. It includes language to create a coordinator at 
the U.S. Department of State, with the rank of ambassador, to oversee 
all U.S. Government programs that pertain to combat violence against 
women and girls internationally, and to integrate programs that address 
gender-based violence already in existence. Do you support this bill, 
and how can the U.S. Government improve its ability to address the 
issue of gender-based violence?

    Answer. As you know, I was a cosponsor of the International 
Violence Against Women Act (IVAWA) in the last Congress. The 
advancement of women's concerns and issues has always been a high 
priority for me throughout my career. If confirmed by the Senate, that 
commitment will continue as I begin my work as Secretary of State. I 
will direct my staff to review the IVAWA and will work cooperatively 
with the Senate to ensure that we move quickly and diligently to end 
violence against women and girls around the globe.
    I know that within the State Department the office that addresses 
violence against women (VAW) also promotes the economic and political 
empowerment of women and the education of girls. It advocates for the 
mainstreaming of gender issues into broader policy concerns, against 
harmful traditional practices, and it opposes the social attitudes that 
hinder women's full equality. These efforts, too, are a crucial part of 
fighting the root causes and perpetuation of VAW. I will welcome the 
opportunity to discuss ways to improve and expand our work.
        transparency in extractive industries and related issues
    Question 158. The Senate Foreign Relations Committee staff report 
entitled ``The Petroleum and Poverty Paradox: Assessing U.S. and 
International Community Efforts to Fight the Resource Curse'' 
recommended that ``the Secretary of State should exercise more effort 
on transparency issues, and build on international momentum for 
extractive industry transparency at the United Nations, at the EITI 
(Extractive Industries Transparency Initiative) secretariat and through 
our embassies.''

  <bullet> a. Do you agree with this statement? If so, what steps to 
        you expect to take to support extractive industry transparency?

    Answer. I support a lead role for the State Department in advancing 
resource transparency at the United Nations, and through our leadership 
role in the EITI process. Our embassies continue to play an active part 
in promoting resource transparency and good governance in their host 
countries.

  <bullet> b. Do you agree with those who say that one of the most 
        effective ways for the U.S. to show its commitment to 
        extractive industries transparency, and to encourage more 
        transparency by developing countries, would be for the United 
        States to sign on as an EITI implementing country and submit 
        its oil and gas revenues to independent audit? If so, would you 
        commit to taking this step early in the administration?

    Answer. Domestic agencies, including many at the state and local 
levels of government, would have to examine this issue before the U.S. 
Government could make such a commitment. U.S. markets and systems for 
reporting revenues from resource extraction are already among the most 
transparent in the world. Oil and gas and minerals revenues from 
domestic production are subject to oversight by national, state, and 
local levels of government as well as the scrutiny of financial markets 
and our free media.

    Question 159. How can the administration better engage with China, 
India, and other emerging markets on issues around extractive industry 
transparency?

    Answer. The U.S. Government has been engaging with China, India, 
and a number of other governments on the benefits of supporting the 
Extractive Industries Transparency Initiative (EITI). Increased 
transparency will lead to more reliable suppliers of energy and other 
raw materials. As the countries with the fastest-growing energy 
consumption, China and India have an interest in expanding global 
energy supplies and raw materials access from stable countries. If 
confirmed I will direct State Department staff to continue to engage 
with China, India, and other emerging economies on EITI bilaterally and 
multilaterally, including through the United Nations.

    Question 160. The Senate Foreign Relations Committee report, ``The 
Petroleum and Poverty Paradox: Assessing U.S. and International 
Community Efforts to Fight the Resource Curse,'' asserts that ``U.S. 
bilateral assistance in extractive countries should be focused on good 
governance, transparency and building civil society.'' How do you think 
U.S. bilateral assistance, through USAID, OPIC, MCC, the U.S. Export 
Import Bank, and other agencies, should be prioritized in extractive 
countries?

    Answer. In economies dominated by extractive industries, good 
governance, transparency, and building civil society are critical to 
providing an environment conducive to sustained poverty reduction and 
democratic development. The United States and other donors should and 
do support those efforts with a range of assistance programs, including 
rule of law and governance reforms, public sector capacity-building, 
and strengthening of independent media and civil society checks and 
balances. For these efforts to be successful, the countries themselves 
must bear primary responsibility for leading this process.
    U.S. assistance programs rarely provide direct support to the 
development of extractive industries. When they do, it is important 
that we promote and support transparency and accountability in the 
public sector oversight, revenue collection, and other critical areas 
of good governance. I am committed to working with my colleagues at 
OPIC, MCC, the U.S. Export Import Bank, and other relevant agencies to 
ensure that the United States provides consistent, constructive policy 
leadership on this issue.

    Question 161. During the Presidential campaign, you expressed the 
view that sovereign wealth funds need to be more transparent and that 
``we need to have a lot more control over what they do and how they do 
it.''

  <bullet> c. Will the Obama administration seek to expand transparency 
        of sovereign wealth funds?

    Answer. The IMF, in conjunction with the OECD, and other relevant 
international bodies has articulated the Santiago Principles, which lay 
out the current thinking on the standards of best practice with regards 
to sovereign wealth funds. Increasing transparency is a central aim of 
the Principles. Accordingly, we will seek to increase transparency of 
sovereign wealth funds.

  <bullet> d. What role do you expect to have as Secretary with respect 
        to sovereign wealth funds and what steps do you intend to take 
        in this area?

    Answer. As Secretary, I will work with the President-elect and the 
economic team to ensure that U.S. workers reap the benefits of foreign 
investment while making sure that the investment goals of these funds 
are transparent and in the broader national interest.
                  international financial institutions
    Question 162. The United States provides foreign assistance 
directly through bilateral agencies and programs as well as 
multilaterally through the development banks and international 
organizations. How would you describe oversight of U.S. bilateral and 
multilateral development funds? Are there steps that should be taken to 
better monitor U.S. development financing thereby ensuring that our 
money reaches the intended recipients?

    Answer. It is critically important that we put in place a mechanism 
for transparency and accountability for bilateral and multilateral 
development funds.

    Question 163. The United States has committed to promoting 
transparency at the G-8 and other international venues. What part of 
the administration should have the lead on promoting transparency? What 
should be the role of the State Department?

    Answer. President-elect Obama has put a high priority on promoting 
transparency in government more broadly. I look forward to working with 
the President-elect and the Treasury Department to promote greater 
transparency at the G-8 and now G-20 as well.

    Question 164. The United States has participated in multilateral 
debt relief for the poorest countries so that they can spend their 
money on poverty reduction and development rather than debt repayment 
to the international community. Reportedly, some of these countries are 
now taking loans from emerging creditors such as China. How should the 
United States respond?

    Answer. It would clearly undermine the intended purpose of our 
multilateral debt relief if the beneficiary countries were to be 
incurring greater indebtedness from emerging bilateral donors such as 
China.
    I will make it a priority to work with China and other emerging 
biliateral donors to support the same set of donor practices and 
principles that have been agreed among the traditional bilateral donors 
in recent years including on policies intended to reduce indebtedness.
                        hunger and food security
    Question 165. Precipitous food price increases that occurred in 
2007 and 2008 created havoc in many parts of the world, causing riots, 
often violent, in some 19 countries, and plunging approximately 75 
million more people into poverty and increased vulnerability to 
malnourishment. It is estimated that nearly 1 billion people are 
presently food insecure. The United States is uniquely situated to help 
the world feed itself, and has the opportunity to recast its image by 
making the eradication of hunger one of the most prominent centerpieces 
of U.S. foreign policy.

  <bullet> a. Do you agree that hunger should be a more prominent focus 
        of U.S. global engagement?

    Answer. Yes. Alleviating hunger is a particular interest of mine 
and if confirmed, I intend to make it a more prominent focus of U.S. 
global engagement.

  <bullet> b. As Secretary, how would you address food insecurity?

    Answer. Over many years, we have tended to react to food crises in 
an ad hoc fashion, waiting for obviously deteriorating situations to 
turn to crises before reacting. Such delayed reactions are necessarily 
more costly in human and monetary terms. I intend to make food security 
a priority in our development programs so that we can invest up front 
in food production, affordability, security, education, and technology.

    Question 166. It is predicted that the world's population will grow 
to such an extent that by 2050, current food demand will double. If we 
are to avoid further deforestation by increasing land under 
cultivation, the world will need to rely on technological advances 
including biotechnology and genetically modified seed. Yet many 
countries, including those that are chronically food insecure, resist 
turning to this technology, largely due to European sentiment. What can 
the United States do to promote agricultural technology in general, and 
the benefits to be gained from biotechnological advances and food 
products derived from biotechnology?

    Answer. Agricultural biotechnology is a proven but underused tool 
available to increase crop yields, reduce pressure for agricultural 
land conservation, and help ensure that people have adequate supplies 
of nutritious food.
    The United States can help developing countries build the capacity 
to grow more food domestically, and assess and manage potential risks-
posed by biotech crops to increase confidence that such technology may 
be employed in a manner that preserves the health of their people and 
the diversity of their environment. I also believe that imposition of a 
global carbon cap when Kyoto expires in 2012 will help incentivize 
sound agricultural processes and reforestation.
    If confirmed, I will examine the issues surrounding these issues 
and consult with other agencies including the Department of Agriculture 
over the best way to proceed.

    Question 167. During the 110th Congress, I introduced S. 3529, the 
Global Food Security Act, to strengthen and bring greater focus to a 
range of United States programs designed to promote global food 
security through long-term investments in agriculture, higher 
education, and technology. Do you support the objectives and approach 
of this legislation?

    Answer. I support the objective of strengthening and bringing 
greater focus to U.S. programs designed to promote global food 
security. If confirmed, I look forward to working with Congress to 
develop legislation that will achieve these goals.
                                 ______
                                 
The MOU between the Clinton Foundation and the Presidential Transition 
Team provides that during your service as Secretary, the Foundation 
``will publish annually the names of new contributors.'' I believe that 
the interests of transparency and public confidence would be best 
served if this annual publication also included the amounts contributed 
by each contributor during the year covered by the report (or the 
amounts within a dollar range).

    Question 1. Will you urge the Clinton Foundation to include this 
information in its annual reporting?

    Answer. The Foundation has committed to reporting the amounts 
contributed by each contributor during the year covered by the report 
within the dollar ranges consistent with how it published its 
contributors in December 2008.

                              *    *    *

Under the MOU between the Clinton Foundation and the Presidential 
Transition Team, President Clinton personally will not solicit funds on 
behalf of the Clinton Global Initiative, but he retains the right 
personally to solicit funds on behalf of other initiatives of the 
Clinton Foundation.

    Question 2. What specific considerations do you believe warrant 
preventing President Clinton from fundraising on behalf of the Global 
Initiative during your tenure as Secretary?

    Answer. The Foundation and the Office of the President-elect 
reached agreement on a range of steps that go above and beyond the 
requirements of the law and the ethics rules. Their goal was to protect 
against even the appearance of a conflict of interest between his work 
and the duties of the Secretary of State. Because CGI invites foreign 
government officials and dignitaries, some of whom are visiting during 
the annual meeting of the U.N. General Assembly, President Clinton 
agreed to limit his fundraising efforts on behalf of CGI to avoid any 
appearance of a conflict of interest.

    Question 3. Do you believe that these considerations also apply to 
fundraising on behalf of other Clinton Foundation initiatives? If not, 
why not?

    Answer. While CGI involves the participation of many foreign 
officials and dignitaries, the other initiatives do not convene such an 
event with foreign government officials and dignitaries. I also think 
it is important to observe that the Office of Government Ethics (OGE) 
and the professional career ethics officials at the State Department 
have advised that neither the law nor the ethics regulations require 
President Clinton or the Foundation to take the voluntary steps they 
have taken. The Foundation is a nonprofit entity--neither my husband 
nor I have any financial interest.
    The Presidential Transition Team, the Foundation, and I also agree 
that not only would it be unnecessary for my husband to stop 
fundraising on behalf of the Foundation's other initiatives, but also 
that it would be harmful to the millions of lives the Foundation has 
affected and will affect in the future. The Clinton Foundation, a 
charitable organization of over 1,100 employees and volunteers working 
in more than 40 countries around the world, has affected more than 200 
million lives, including more than 1.4 million people in the developing 
world who receive life saving medicine purchased under Clinton 
Foundation agreements. That is nearly half of all people in the 
developing countries who receive treatment. If fundraising were to 
stop, the Foundation's continued efforts in this and other arenas would 
be in jeopardy.

                              *    *    *

Under the MOU between the Clinton Foundation and the Presidential 
Transition Team, the Clinton Global Initiative will not accept 
contributions from foreign governments apart from attendance fees for 
CGI events. The MOU contains no similar restriction on other Clinton 
Foundation initiatives accepting contributions from foreign 
governments.

    Question 4. What specific considerations do you believe warrant 
preventing the Global Initiative from accepting contributions from 
foreign governments during your tenure as Secretary?

    Answer. See response to Question 2 above. I also again want to 
observe that OGE and the professional career ethics officials at the 
State Department have advised that neither the law nor the ethics 
regulations require President Clinton or the Foundation to take the 
voluntary steps they have. Indeed, the Foundation and the Office of the 
President-elect agreed upon a range of steps that go above and beyond 
the requirements of the law and the ethics rules to ensure that even 
the appearance of a conflict of interest between his work and the 
duties of the Secretary of State was avoided.

    Question 5. Do you believe that these considerations also apply to 
Clinton Foundation initiatives other than the Global Initiative 
accepting contributions from foreign governments? If not, why not?

    Answer. See response to Question 3. The Clinton Foundation is 
combating climate change, childhood obesity and HIV/AIDS and it is 
bringing economic opportunity to people in America and around the 
world. NGOs like the Foundation bridge the gap between what governments 
can do and what is needed to be done. Since its inception foreign 
governments have been valuable partners of the Foundation, especially 
its HIV/AIDS work. For example, in the last 3 years alone, the Clinton 
HIV/AIDS Initiative has shown that it is possible and economically 
feasible to provide treatment for children. In partnership with 
UNITAID, an international drug and diagnostic purchasing facility, and 
with financial help from other governments, the Clinton Foundation now 
supports the treatment of approximately two-thirds of all children on 
HIV/AIDS treatment in the world. Governments' support is vital to this 
effort. All of these relationships with foreign governments were forged 
in advance of any consideration by President-elect Obama to nominate me 
to be Secretary of State and they should continue in support of such 
socially responsible work.
    The Memorandum of Understanding provides that should an existing 
contributing country elect to materially increase its commitment to the 
Foundation, or should a new contributor country elect to support a 
Foundation initiative, the Foundation will share the proposed 
contribution with the State Department's professional career ethics 
officials for review, and as appropriate the State Department's ethics 
officials will submit the matter for review to the White House 
Counsel's Office. In the event the State Department or White House has 
concerns, those concerns will be conveyed to me and to the Foundation 
for appropriate action.

                              *    *    *

Under the MOU between the Clinton Foundation and the Presidential 
Transition Team, the State Department's professional career ethics 
officials will review proposed contributions to the Clinton Foundation 
from foreign governments to identify any potential ethics concerns. The 
MOU provides no similar review process for contributions by foreign 
individuals or companies. I believe that contributions from foreign 
individuals and companies have the potential to raise appearances of 
conflicts of interest that are as serious as those raised by 
contributions from foreign governments.

    Question 6. In order to minimize such risks, will you consider 
urging the Clinton Foundation to follow the same ethics review process 
for proposed contributions of more than $50,000 from nongovernmental 
foreign sources that it has agreed under the MOU to follow for all 
proposed contributions from foreign governments?

    Answer. I understand and appreciate the suggestion; however, the 
agreement as written already goes far beyond what any spouse of a 
Cabinet official has ever done in terms of both limitations on the 
Clinton Foundation and on my husband's own actions as a private 
individual. Indeed, OGE and the professional career ethics officials at 
the State Department have advised that neither the law nor the ethics 
regulations require President Clinton or the Foundation to take the 
voluntary steps they have taken. I believe the extraordinary steps 
already being taken are sufficient to avoid even the appearance of a 
conflict of interest.

                              *    *    *

Under the MOU between the Clinton Foundation and the Presidential 
Transition Team, in the event that State Department or White House 
ethics officials have concerns about a proposed contribution to the 
Clinton Foundation that are related to your service as Secretary of 
State ``those concerns will be conveyed to [you] and to the Clinton 
Foundation for appropriate action.''

    Question 7. Under this arrangement, who will make the final 
decision about whether the Clinton Foundation will accept a 
contribution about which the State Department or White House has ethics 
concerns?

    Answer. The Clinton Foundation, as an independent entity with its 
own fiduciary obligations, has to decide whether to accept or decline a 
contribution. The Foundation has made clear that it will be guided by 
the advice of the State Department's professional career ethics 
officials under the terms of the Memorandum of Understanding. If the 
Foundation does accept a contribution about which the State Department 
has conflict of interest concerns, it would be with the understanding 
that the State Department's professional career ethics officials have 
recommended appropriate actions to address any such actual or perceived 
conflict.

    Question 8. Do you anticipate having a personal role in deciding, 
in light of State Department and White House ethics advice, whether the 
Clinton Foundation will accept particular contributions?

    Answer. No, I have no authority over or involvement in the 
fundraising or operations of the Foundation, so I cannot make decisions 
about particular contributions. The Memorandum of Understanding sets 
out the terms under which the Foundation and I will be guided by the 
State Department's professional career ethics officials.

    Question 9. In the event that the Clinton Foundation accepts a 
contribution about which State Department or White House ethics 
officials have expressed concerns that are related to your service as 
Secretary of State, do you intend to take any steps to notify the 
public of this fact and of the reasons the contribution was accepted in 
spite of the ethics concerns?

    Answer. President Clinton and the Foundation have agreed to an 
unprecedented level of transparency and review. I know that all parties 
will comply with the review process. The Foundation, President Clinton, 
and I will be guided by the advice from the State Department's 
professional career ethics officials--who may recommend recusal or 
other actions in response to a potential contribution, as opposed to 
recommending the Foundation decline it, and heed the recommendations 
provided. In following their guidance, I do not anticipate any 
publication of their guidance and the Foundation's actions with respect 
to their advice. Under the MOU between the Clinton Foundation and the 
Presidential Transition Team, the Clinton Foundation has agreed to 
``publish annually the names of new contributors.''

    Question 10. Do you believe it would enhance transparency and 
increase public confidence if the Clinton Foundation were to disclose 
large donations (e.g., those over $50,000) at the time the donation is 
made, rather than waiting until the end of the year?

    Answer. I understand and appreciate the suggestion; however, the 
agreement already goes far beyond what any spouse of a Cabinet official 
has ever done in terms of both limitations on his Foundation and his 
own actions as a private individual and the amount of transparency and 
disclosure that is being provided. And, OGE and the professional career 
ethics officials at the State Department have advised that neither the 
law nor the ethics regulations require President Clinton or the 
Foundation to take the voluntary steps they have. I believe the steps 
already being taken are sufficient to avoid even the appearance of a 
conflict of interest.

                              *    *    *

As drafted, the MOU between the Clinton Foundation and the Presidential 
Transition Team would not require the Clinton Foundation to disclose 
pledges it receives of amounts to be contributed in the future. Such 
amounts would be disclosed only in the year in which the Foundation 
receives the funds (assuming they are received during your tenure as 
Secretary of State). This would appear to permit donors to pledge to 
contribute funds to the Clinton Foundation during your tenure as 
Secretary, but to avoid public disclosure of their contributions so 
long as funds are not actually transferred to the Clinton Foundation 
until after the end of your tenure as Secretary.

    Question 11. Do you believe it would enhance transparency and 
increase public confidence if the Clinton Foundation were to disclose 
large pledges (e.g., those over $50,000) at the time such pledges are 
made, in addition to disclosing the contributions themselves in the 
years in which the money is contributed?

    Answer. I understand and appreciate the suggestion; however, the 
agreement already goes far beyond what any spouse of a Cabinet official 
has ever done in terms of both limitations on his Foundation and his 
own actions as a private individual and the amount of transparency and 
disclosure that is being provided. And, OGE and the professional career 
ethics officials at the State Department have advised that neither the 
law nor the ethics regulations require President Clinton or the 
Foundation to take the voluntary steps they have. The MOU already 
provides for the professional career ethics officials at the State 
Department to review proposed contributions from foreign countries; as 
pledges are synonymous with proposed contributions in this instance, 
they will review such pledges as well. I believe the steps already 
being taken are sufficient to avoid even the appearance of a conflict 
of interest.
                                 ______
                                 

      Responses to Questions Submitted by Senator Russell Feingold

    Question. Iraq. Our top national security concern must be the 
global fight against al-Qaeda and its affiliates, as well as the 
related struggle to prevent the expansion of safe havens or recruiting 
opportunities for our enemies around the globe. How we allocate our 
resources--the tools used in this struggle--are key to winning this 
fight and without a more global and comprehensive approach, we will be 
unable to make our country, or the world, a safer place. The current 
administration's decision to focus resources on Iraq has been a tragic 
mistake. Accordingly, please share your vision of how will you follow 
up on President-elect Obama's pledge to redeploy
the bulk of our troops from Iraq in 16 months? What steps do you expect 
the State Department will take to help ensure that transition occurs as 
safely and as smoothly as possible?

    Answer. The incoming administration will proceed with the following 
overall strategy and core principles, which we will bring to this set 
of security challenges. First, as we all know, Iraq is a sovereign 
country, and the steps we take on security matters moving forward will 
have to be taken in consultation with the Iraqis. We will certainly do 
our best to press the Iraqi Government to combat sectarianism in their 
security forces--and we will tie future training and equipping 
resources to progress on this front. Improved Iraqi security forces 
cannot fully replace U.S. forces in protecting reconstruction 
personnel, but they can certainly help, if the Iraqis step up. And our 
residual force will play a continued force protection role. Second, we 
will take additional steps to help the Iraqi Government consolidate the 
security gains that have been made in the past 2 years--gains that have 
facilitated more intensive and effective rebuilding and aid efforts. 
That will include an intensive diplomatic and political strategy, 
including an effort to forge a comprehensive compact with Iraq's 
neighbors. Third, we will pay particular attention to the humanitarian 
crisis in Iraq, which risks destabilizing parts of the country, 
including an aggressive effort to assist displaced Iraqis. But these 
are serious challenges, and much of this turns on the capacity and 
willingness of the Iraqis themselves.

    Question. Chief of Mission Authority. Over the past 8 years we have 
seen our military take on a broader role in counterterrorism operations 
around the world. Vital to the State Department's ability to maintain 
the helm of our foreign policy agenda, however, is a commitment from 
all U.S. departments and agencies to uphold Chief of Mission authority. 
Unfortunately, I have come across instances in which that authority has 
been challenged, or even compromised. What steps would you take, as 
Secretary of State, to ensure this authority is upheld and enforced, 
with regard to the military as well as to the Intelligence Community?

    Answer. I believe that the authority of the President's Chiefs of 
Mission overseas must be unambiguous and sacrosanct. In individual 
Letters of Instruction to each Chief of Mission (COM), the President 
gives the Chiefs of Mission full responsibility for the direction, 
coordination, and supervision of all U.S. Government employees within 
the host country or in the relevant mission to an international 
organization, with limited exceptions. National Security Decision 
Directive (NSDD) 38 gives Chiefs of Mission full responsibility for the 
size, composition, and mandate of overseas staffing.
    Chief of Mission authority is essential to ensuring that there is 
unity of effort in implementing the President's policies and pursuing 
our national interests overseas.
    As Secretary, I would do everything in my power to support Chiefs 
of Mission in exercising the authority and fulfilling the 
responsibilities that the President gives them. Such steps may include 
conducting periodic reviews of interagency operations and providing 
revised guidance, as appropriate.

    Question. Great Lakes. The situation in the Great Lakes region of 
Africa continues to be very dire--with already troublesome humanitarian 
crises exacerbated by renewed fighting in eastern Congo and the recent 
massacres by Lord's Resistance Army in Congo and Sudan. As Secretary of 
State, what will be your strategy to bring lasting peace and stability 
to this region of the continent? What further steps can be taken by the 
United States, key regional actors, and the international community to 
help address illegal armed groups in this region and end these ongoing 
crises?

    Answer. The situation in Congo is deeply disturbing. The President-
elect and I have both supported efforts on behalf of a lasting solution 
to Congo's political disputes. The Obama administration will work to 
support disarmament and demobilization in the Congo, recognizing the 
challenges that persist there.

    Question. Middle East Peace Process. Many experts believe that in 
order to have real progress on a Middle East Peace Process the United 
States must play a leading role, but it is essential to have greater 
participation and the support of Arab countries in the region. Do you 
believe this is an accurate reflection of what needs to happen and if 
so, in light of the recent conflict in Gaza, what steps will the State 
Department take to make this possible?

    Answer. I believe the Arab states have an important role to play in 
advancing efforts to achieve peace between Israelis and Palestinians. 
Their chief means to do so are providing political and economic support 
to the Palestinian Authority, and taking steps toward normalization 
with Israel. The Arab Peace Initiative contains some constructive 
elements which could be important bases for negotiations and for 
proactive steps to give the initiative a more operational character. I 
look forward to discussing these opportunities with Israeli, 
Palestinian, and Arab leaders and encouraging progress in these 
efforts.

    Question. More generally, what framework do you envision for future 
negotiations? Do you expect to have a special envoy and if so, what 
would be the mandate and how would that person work with the current 
envoys currently in the region--including General Jones, General 
Dayton, and Tony Blair?

    Answer. General Jones, General Selva, and General Dayton have each 
played important and constructive roles in advancing U.S. efforts to 
promote peace between Israel and the Palestinians. Former Prime 
Minister Blair has also made an excellent contribution as the Quartet's 
special envoy, promoting economic development and institution-building 
in the Palestinian areas. No decisions have been made about the 
personnel structure we will use to implement our Middle East peace 
efforts, but each of the important functions carried forward by the 
generals and Prime Minister Blair will need to be continued in whatever 
structure we ultimately decide upon.

    Question. LGBT. There is widespread recognition of the need to 
build a more robust and effective diplomatic and development corps. As 
part of that effort, it makes sense to consider ways to address 
challenges faced by lesbian, gay, bisexual, and transgender (LGBT) 
employees, particularly relating to domestic partner benefits and State 
Department policies that make it difficult for the partners of Foreign 
Service officers to travel and live at overseas posts. What would you 
do as Secretary of State to address these concerns? Will you support 
changes to existing personnel policies in order to ensure that LGBT 
staff at State and USAID receive equal benefits and support? What steps 
will you take to ensure that LGBT issues are taken into consideration 
in both organizational and policy decisionmaking?

    Answer. As we discussed in the hearing, this issue was brought to 
my attention during the transition, I've asked to have more briefing on 
it because I think that we should take a hard look at the existing 
policy. I know that many other diplomatic services, including those of 
our closest allies, have gone much further in providing training, 
protections, and benefits to the partners of LGBT employees. I will 
consult with you and keep you informed of the decisions we make going 
forward on this issue.
    As to ensuring that LGBT concerns are addressed in policy 
decisionmaking, President-elect Obama said during the campaign that 
human rights violations based on sexual orientation must ``be part and 
parcel of any conversations we have about human rights.'' If confirmed, 
I will work to ensure that our country stands on principle against 
human rights abuse or prejudice of any kind.

    Question. Local Health Systems. Despite the massive investment the 
United States has made in global health over the years, many health 
systems in the developing world remain unable to meet local and 
national needs. How can the State Department do more to ensure that our 
global health assistance programs are strengthening local health care 
delivery systems and infrastructure, as well as increasing the numbers 
and capacity of local health care workers?

    Answer. The President-elect and I agree that we need to invest even 
more in local health care delivery systems and infrastructure, and we 
intend to make this a priority. As one example, the new administration 
will work to more effectively coordinate PEPFAR with programs to 
strengthen health care delivery and address other global health 
challenges. It will work with developing nations to help them build the 
health infrastructure necessary to get sick people treated--more money 
for hospitals and medical equipment, and more training for nurses and 
doctors.

    Question. Nuclear Weapons. You have endorsed the view of Henry 
Kissinger, Sam Nunn, and other prominent nuclear and global experts--
including Secretary General Ki-moon--that we must reinvigorate our 
commitment to the Nuclear Non-Proliferation Treaty (NPT) in order to 
prevent the spread of nuclear weapons and the potential for nuclear 
terrorism, including in countries like Iran. They have argued that one 
of the key barriers to countering those threats is that nonnuclear 
weapons states have ``grown increasingly skeptical of the sincerity of 
the nuclear powers'' efforts to divest themselves of nuclear weapons, 
as required by that treaty. While I concur that for the time being we 
must maintain a reliable deterrent, please share your view on whether 
reductions are needed to rebuild faith in the NPT. If so, what steps 
would you pursue to make this a reality? What impact would the pursuit 
of new nuclear weapons by the United States have on our ability to 
realize these objectives?

    Answer. The Obama administration will have no higher national 
security priority than preventing nuclear proliferation and nuclear 
terrorism. Achieving those vital goals will require close cooperation 
with a wide range of international partners on such matters as 
strengthening the IAEA verification system, tightening controls on the 
transfer of sensitive nuclear technologies, and adopting effective 
means of enforcing compliance with nonproliferation obligations. To 
gain the support of those international partners for measures to 
reinforce the global nonproliferation regime, it is important that the 
United States and other nuclear weapon states party to the NPT 
demonstrate that they are serious about fulfilling their own NPT 
obligation to pursue nuclear disarmament.
    The Obama administration will therefore set a new direction in 
nuclear weapons policy, a direction headed toward the ultimate 
elimination of all nuclear weapons worldwide. An early priority will be 
to work with the Russians on a new, verifiable agreement to replace the 
START Treaty. We will reach out to the Senate to secure the 
ratification of the Comprehensive Test Ban Treaty and then launch a 
diplomatic effort to bring the treaty into force. We will seek to get 
negotiations underway on a verifiable treaty to prohibit the production 
of fissile materials for nuclear weapons. As long as nuclear weapons 
exist, the United States must retain a strong, safe, secure, and 
reliable nuclear deterrent. But the Obama administration will not 
authorize the development of new nuclear weapons. By restoring 
America's leadership role in reducing and eventually eliminating 
nuclear weapons, we will increase our leverage to build broad 
international support for measures needed to prevent nuclear 
proliferation and nuclear terrorism.

    Question. Will pledges for future contributions to the Clinton 
Foundation from domestic donors be subject to the same review process 
as those from foreign governments? If not, please provide an 
explanation as to why such pledges for domestic contributions would not 
raise the same issues, and should not trigger the same review process 
applied to foreign contributions under the Memorandum of Understanding.

    Answer. Should I be confirmed as Secretary of State, the Memorandum 
of Understanding between the Clinton Foundation and the Office of the 
President-elect provides that all future contributions to the Clinton 
Foundation--both domestic and foreign--will be subject to annual 
disclosure by the Clinton Foundation. Additionally, proposed new 
contributions from foreign governments or a proposed material increase 
in the contribution from a current foreign government donor to the 
Clinton Foundation will be reviewed by the State Department's 
professional career ethics officials who will advise me and the Clinton 
Foundation of any concerns as they relate to my service as Secretary of 
State. As I was not a party to MOU discussions between the Clinton 
Foundation and the Office of the President-elect, I am not in a 
position to address why specific decisions were made, but I do know 
that they were focused on avoiding even the appearance of a conflict of 
interest given the unique issues regarding foreign government 
contributions.
    Ultimately, however, there is no conflict between the foreign 
policy or domestic policy of the United States and the efforts of the 
Clinton Foundation seeking to reduce human suffering and increase 
opportunity for people in need. That has been demonstrated quite 
clearly in President Clinton's and former President Bush's efforts to 
raise relief funds, including from foreign governments and others, 
after Katrina and the tsunami.

    Question. While the Clinton Global Initiative will no longer accept 
contributions from foreign governments, the other initiatives that 
comprise the Clinton Foundation will continue to accept contributions 
from foreign governments. Please provide an explanation as to why these 
initiatives will still receive such contributions. In addition, while 
the Memorandum of Understanding does seek to address this issue, it 
notes that ``appropriate action'' will be taken if there is a concern 
about a proposed contribution. Please describe, under these 
circumstances, what you think ``appropriate action'' might entail.

    Answer. The Clinton Foundation and the Office of the President-
elect reached agreement on a range of steps that go above and beyond 
the requirements of the law and the ethics rules. Their goal was to 
avoid even the appearance of a conflict of interest between the 
Foundation's work and the duties of the Secretary of State. In that 
regard, they took into account that CGI invites foreign government 
officials and dignitaries to its annual event, some of whom are 
visiting during the annual meeting of the U.N. General Assembly, in 
reaching agreement that CGI would no longer accept contributions from 
foreign governments.
    With respect to all of the other initiatives, any relationships 
with foreign governments were forged prior to any consideration by 
President-elect Obama to nominate me to be Secretary of State and they 
should continue in support of such socially responsible work, These 
initiatives involve programs that combat HIV/AIDS, climate change, 
childhood obesity, and bring economic opportunity to people in America 
and around the world. Foreign governments have been valuable partners 
in these Foundation initiations since their inception, particularly 
with respect to its HIV/AIDS work. For example, in partnership with 
UNITAID, an international drug and diagnostic purchasing facility, and 
the financial help from other governments, the Clinton Foundation now 
supports the treatment of approximately two-thirds of all children on 
HIV/AIDS treatment in the world.
    To avoid any appearance of conflict concerns, the MOU specifically 
provides that should an existing contributing country elect to 
materially increase its commitment to the Foundation, or should a new 
contributor country elect to support a Foundation initiative, the 
Foundation will share the proposed contribution with the State 
Department's professional career ethics officials for review. In the 
event the State Department or White House has concerns, those concerns 
will be conveyed to me and to the Foundation for appropriate action 
based on consideration of all the facts and guidance from the 
professional career ethics officials. The Foundation is unlikely to 
pursue an opportunity that presents a conflict unless the State 
Department's professional career ethics officials recommend recusal, or 
taking some other appropriate actions to mitigate any perceived 
conflict. I will be guided by their advice.
                                 ______
                                 

       Responses to Questions Submitted by Senator Barbara Boxer

    Question. In a speech at the United States Institute of Peace, 
Secretary of Defense Robert Gates recently spoke of a problem that has 
continued to plague U.S. efforts in Afghanistan--the failure of many 
NATO allies to remove restrictions on their forces.
    Specifically, Secretary Gates said: ``NATO's operations are 
hamstrung by national caveats, where different countries impose 
different rules on where their forces can go and what they can do. A 
number of our allies and partners have stepped forward courageously--
showing a willingness to take physical risks on the battlefield and 
political risks at home. But many have defense budgets that are so low, 
and coalition governments that are so precarious, that they cannot 
provide the quantity or type of forces needed for this kind of fight.''

  <bullet> Are you satisfied by the troop commitment from our NATO 
        allies and with the flexibility they have given their forces to 
        perform various missions?
  <bullet> If confirmed, how will you work to ensure that our NATO 
        allies are committed to our effort, both politically and 
        militarily?

    Answer. The Obama administration deeply appreciates the continued 
commitment of our NATO allies and other partners to the international 
mission in Afghanistan. These countries provide over 31,000 troops, 
accounting for over half the strength of the International Security 
Assistance Force (ISAF). Our allies and partners recognize that 
securing Afghanistan against the threat posed by extremists and 
terrorists and providing a better future for the Afghan people is in 
our common interest.
    Troop shortfalls and caveats that limit the flexibility of ISAF 
forces remain a challenge in Afghanistan. While there has been some 
limited progress in this area recently, the United States continues to 
impress upon our allies and partners the importance of providing the 
commanders on the ground the forces they need and allowing them maximum 
possible flexibility in the employment of those forces.
    If confirmed, I look forward to consulting with our allies and 
partners to seek their views on the situation in-country as we review 
our Afghanistan strategy and make changes where necessary. As President 
Obama has made clear, if the United States increases our civilian and 
military presence in Afghanistan, we will look to our allies to join us 
in providing the resources necessary to help the Government of 
Afghanistan secure its country against violent extremists.

    Question. What is President Obama's strategy for Afghanistan, and 
what is your definition of victory?

    Answer. There have been several reviews of our strategy in 
Afghanistan in recent months. One is being conducted under the 
direction of General Petraeus, through CENTCOM, another by the Joint 
Staff, and a third by the National Security Council. The administration 
will review these reviews. We will also consult with our allies and 
partners, who have contributed a great deal to the efforts in 
Afghanistan, to solicit their thoughts on the way ahead. This process 
will take some time, but it will lead to our identifying a clear set of 
discrete goals that we are trying to achieve.
    Afghanistan is going to be a long and difficult effort, but as 
Secretary Gates stated, we can attain our strategic objectives--for 
Afghanistan to be a reliable, stable ally, capable of effectively 
governing its territories and borders, and no longer providing an 
operating base for al-Qaeda.

    Question. How do we ensure that we are using our military in the 
proper way, particularly as we commit more Americans to Afghanistan, 
and ask their families for further sacrifice?

    Answer. There is broad agreement that there can be no purely 
military solution to the war in Afghanistan. However, to date there 
have not been enough troops--neither international nor Afghan--on the 
ground to create the security conditions necessary to allow for an 
effective counterinsurgency strategy to take hold. This has 
particularly been the case in southern and eastern Afghanistan, where 
the void is increasingly filled by the Taliban. The United States is 
considering a further increase in our military presence, and we will 
look to our NATO allies and the Government of Afghanistan to do more as 
well. Additional troops will not only improve security, but they will 
also help train the Afghan National Police and the Afghan National 
Army, which will dramatically increase in size over the next 2 years.
    Over the coming year we will see improvements in the security 
situation, better civil-military coordination, and more effective 
counterinsurgency efforts. The impact of both our military and 
rebuilding efforts will be felt more concretely by the Afghan people, 
who will ultimately be responsible for the future of their nation.

    Question. How long do you foresee a substantial U.S. presence in 
Afghanistan?

    Answer. The situation in Afghanistan is extremely difficult and 
complex, and it will not be solved easily or quickly. The border region 
in Pakistan, where al-Qaeda leaders remain in hiding, is the central 
front in the fight against terrorism. We will use all the elements of 
our power--diplomacy, development, and defense--to work with those in 
Afghanistan and Pakistan who want to root out al-Qaeda, the Taliban, 
and other violent extremists.
    There have been several reviews of our strategy in Afghanistan in 
recent months. One is being conducted under the direction of General 
Petraeus, through CENTCOM, another by the Joint Staff, and a third by 
the National Security Council. The administration will review these 
reviews. We will also consult with our allies and partners, who have 
contributed a great deal to the efforts in Afghanistan, to solicit 
their thoughts on the way ahead. This process will take some time, but 
it will lead to our identifying a clear set of discrete goals that we 
are trying to achieve and help us to determine how long there will be a 
substantial U.S. presence in Afghanistan.

    Question. Do you think the United States should take a leadership 
role in the world in fighting global warming?
    If so, how do you believe we should change course?

    Answer. Yes. Climate change is a complex, urgent, and global 
threat. The United States will take the lead in addressing the climate 
crisis by making commitments of our own and engaging other nations to 
do the same.
    We recognize that feasible solutions will require all major nations 
joining together. Special Envoy for Climate Change Todd Stern will be 
the administration's chief climate negotiator, leading our efforts with 
the United Nations negotiations and those at the subglobal, regional, 
and bilateral level.

    Question. I have consistently said that an end to the violence in 
Darfur and a lasting peace in Sudan will require a negotiated solution 
between the Government of Sudan and rebel groups in Darfur. The United 
States led the efforts to broker a historic agreement--the 
Comprehensive Peace Agreement (CPA)--which ended a 20-year civil war 
between the Government of Sudan and Southern Sudanese rebels. That 
civil war had claimed over 2 million lives. The Darfur Peace Agreement 
(DPA), in contrast, has fallen apart.
    President Bush's first special envoy for Sudan, Senator John 
Danforth, played a critical role in forging the CPA. Will the Obama 
administration appoint a high-level special envoy for Sudan to lead 
American efforts end the genocide in Darfur?
    What diplomatic actions is the Obama administration prepared to 
take to forge a lasting peace in Sudan?

    Answer. I believe that the Darfur conflict requires a political 
solution that must be achieved through an inclusive negotiated 
settlement. There is no military solution to this conflict.
    U.S. special envoys have in the past aided peace in Sudan. As you 
mentioned, Senator Danforth was instrumental in bringing the parties 
together to negotiate the Comprehensive Peace Agreement (CPA). 
Ambassador Natsios and Ambassador Williamson both made crucial efforts 
to bring the Darfur parties to a negotiated settlement to that 
conflict. This administration will consider the appointment of a new 
special envoy for Sudan.
    The United States will continue to lead diplomatic initiatives 
aimed at helping the parties to reach a negotiated agreement to end the 
conflict in Darfur and to push for continued implementation of the CPA. 
The United States supports the ongoing efforts of United Nations/
African Union (AU) joint chief mediator Djibril Bassole to quickly 
reach a framework agreement outlining the next steps in the Darfur 
peace process, and appreciates the facilitating efforts of the 
Government of Qatar. The United States will continue to work with the 
parties in Sudan, the U.N., the AU, and key members of the 
international community, including members of the U.N. Security Council 
and Sudan's neighbors, to push for a resolution to the conflict in 
Darfur and implementation of CPA provisions, including North-South 
border demarcation, resolution of the Abyei dispute, and the holding of 
national elections in 2009 and a Southern referendum in 2011.

    Question. What steps will you take to reinvigorate the 
international community's efforts to provide protection to Darfuri and 
other Sudanese civilians who are at risk?

    Answer. The United States has led the international response to the 
protection of civilians throughout the Sudan. In 2005, we led the 
United Nations Security Council on the creation of the U.N. Mission in 
the Sudan (UNMIS); UNMIS has assisted the parties in North and South 
Sudan to implement the terms of the Comprehensive Peace Agreement (CPA) 
and enabled the delivery of humanitarian assistance as well as the 
protection and promotion of human rights. We will continue to work with 
UNMIS and with the Assessment and Evaluation Commission (AEC) to ensure 
that the CPA remains on track, particularly with Sudan's 2009 national 
elections and with the need to find a lasting solution to the disputed 
North-South border region. Additionally, we will continue to urge the 
U.N. and UNMIS to ensure the presence of adequate security forces and 
resources to protect vulnerable citizens in the UNMIS area of 
operations, particularly Abyei.
    To protect Darfuri internally displaced persons (IDPs) and 
refugees, the United States also led efforts in 2007 at the Security 
Council to get a Chapter VII-mandated force for Darfur. We remain 
committed to seeing this 26,000-troop United Nations-African Union 
Mission in Darfur (UNAMID) deployed as quickly as possible. To this 
end, we are airlifting containers of peacekeepers' equipment and 
supplies into Darfur this month. In addition to reinforcing the Darfur 
peacekeeping operation, we will keep pressure on all parties to the 
Darfur conflict to commit to the peace process led by Joint Chief 
Mediator Bassole and to participate in talks to be hosted by Qatar. The 
recent violence in North and South Darfur has reportedly claimed 
civilian lives and must stop. We will continue to lead at the Security 
Council to preserve the integrity of its resolutions on Darfur in the 
quest for a political solution to the crisis.
    In addition, USAID is saving lives in Darfur by supporting the 
basic needs of people living in IDP camps and other underserved areas, 
including food, water, sanitation and health. Our initiatives help to 
mitigate the effects of conflict, protect vulnerable people and support 
nascent efforts to promote a peaceful resolution to the crisis. USAID 
has provided displaced women with skills and resources to pursue 
income-generating activities that reduce the risk of sexual violence, 
expanded monitoring of human rights violations in Darfur and supported 
precedent-setting prosecution of sexual violence cases.

    Question. The Tibetan Policy Act of 2002 established the position 
of Special Coordinator for Tibetan Issues in the State Department. It 
is currently posted at the Under Secretary level in Democracy and 
Global Affairs.

  <bullet> Do you intend to appoint a Special Coordinator at a high 
        level, with adequate resources and access, to signal the Tibet 
        issue's importance to the U.S. Government?

    Answer. We are still looking at the issue of personnel 
appointments, but I can assure you that I take Tibetan issues seriously 
and plan to appoint a well-qualified coordinator, and I will ensure the 
coordinator has the resources to do the job.
    We are disappointed with China's human rights record, including 
with regard to its respect for human rights and religious freedom in 
Tibet. We will raise our concerns about this issue at the highest 
levels with the Chinese Government and press for progress. The Special 
Coordinator for Tibetan Issues will sustain our focus on these issues 
and will promote substantive dialogue, directed at achieving meaningful 
results, between the Dalai Lama and his representatives and the Chinese 
Government. We believe such talks provide the best hope for resolving 
longstanding tensions in Tibetan areas and for safeguarding the 
distinct ethnic, cultural, and religious identity of the Tibetan 
people.
                                 ______
                                 

        Responses to Questions Submitted by Senator Bill Nelson

                      holocaust restitution issues
    Question. The Office of the Special Envoy for Holocaust Issues 
serves a critically important task of developing and implementing U.S. 
policy with respect to the return of Holocaust-era assets to their 
rightful owners, compensation for wrongs committed during the 
Holocaust, and Holocaust remembrance.
    What will you do as Secretary of State to encourage those countries 
to take action, given that the countries were unjustly enriched when 
they nationalized insurance companies that never paid their policies to 
Holocaust victims and their surviving relatives?

    Answer. Compensation for wrongs committed during the Holocaust will 
be a priority for the State Department. If confirmed, I will continue 
to work to ensure that Holocaust survivors and the heirs of Holocaust 
victims obtain compensation for stolen property. In cases where 
nationalized insurance companies failed to pay claims or provide 
compensation to victims or heirs, I will instruct, if confirmed, the 
U.S. Special Envoy to work vigorously toward a resolution of the 
matter.

    Question. Will the United States be an active participant in the 
international conference on Holocaust issues, including assets, that is 
being held in Prague in June 2009 as part of the Czech Republic's 
European Union Presidency?

    Answer. My understanding is that the United States plans to 
participate very actively in the Prague Conference and is working 
closely with the Czech Republic to ensure that this Conference conducts 
a review of what progress has been made on Holocaust era assets issues 
and what additional steps should be taken. The U.S. Special Envoy for 
Holocaust Issues was in Prague January 26 to discuss the Conference and 
hosted a Czech delegation in Washington in November. I understand that 
the specific issues that the conference will address include the 
restitution of, or compensation for, confiscated property (real and 
movable); Jewish religious items displaced during the war; 
implementation of compensation programs established in 2000 and 2001; 
and Holocaust education.

    Question. If confirmed as Secretary of State, how will you work 
with your counterparts at the Defense and Justice Departments to create 
improved cooperation, coordination and accountability to confront the 
problem of sexual assault against contractors in Iraq, Afghanistan, and 
elsewhere?

    Answer. Last year, the Department of State's Bureau of Diplomatic 
Security established a dedicated special investigations unit in 
Washington, DC, staffed with trained and experienced investigators for 
the purpose of responding to and investigating sexual assaults and 
other violent crimes involving Chief of Mission personnel and 
contractors throughout the world. The investigators in this unit 
routinely liaise with their counterparts in the Justice and Defense 
Departments, as well as with host country authorities, to pursue the 
successful investigation and prosecution of sexual assaults involving 
U.S. Government personnel and contractors. As Secretary, I will ensure 
that the Department of State continues to pursue sexual assault 
violations that fall within our purview to the full extent of the law, 
and pledge to assist and work closely with DOD and DOJ elements where 
appropriate.

    Question. How will you pursue the issue of contractor 
accountability more generally if confirmed as Secretary of State?

    Answer. I strongly support efforts to achieve legal accountability 
for unlawful acts that the Department's contractors may commit abroad. 
As Secretary, I will ask my legal and legislative staffs to promptly 
review available options in this regard and to consult with the 
Department of Justice and other federal agencies.
                                 sudan
    Question. Since the United Nations Security Council imposed a full 
arms embargo on all belligerents in Darfur in 2005, it has been 
violated frequently.

  <bullet> What steps will you take to pressure countries such as China 
        and Russia to suspend arms shipments to Sudan?
  <bullet> What other measures--within a unilateral, bilateral, or 
        multilateral framework--will the U.S. Government adopt to 
        ensure that arms are not transferred to Darfur, a region where 
        mass atrocities are taking place?
  <bullet> The U.N. panel of experts that monitors the embargo has 
        recommended that the embargo be expanded to cover all of Sudan, 
        Chad, and northern parts of the Central African Republic. Do 
        you support expansion of the embargo?
  <bullet> If confirmed as Secretary of State, what measures can the 
        United States take to ensure that the embargo is enforced?

    Answer. The United States remains committed to finding a lasting 
political solution to the situation in Darfur through the exercise of 
every tool available, whether diplomatic, economic, or security 
related.
    The presence of weapons, despite the existence of a U.N. arms 
embargo covering the shipment of weapons into that area, is a 
significant contributing factor to the violence in Darfur. The 
willingness of some parties to overlook the implications of their 
engagement with the Government of Sudan (GOS) and contribution to the 
proliferation of weapons into Darfur is unfortunate. At this time we 
are examining the best and most productive method by which to address 
the situation in Darfur, including the possible expansion of an arms 
embargo to cover all of Sudan. While this approach presents obstacles 
to other areas of our assistance, including our efforts to support the 
Southern Sudan People's Liberation Army (SPLA), we are reviewing policy 
options.
    I can assure you of my enduring commitment to maintaining U.S. 
support for U.N. actions to strengthen the arms embargo. My efforts 
will include a commitment to the ongoing support of the UNSC Sudan 
Sanctions Committee's Panel of Experts (POE) and its mandate to monitor 
the implementation of the arms embargo and the targeted sanctions.
                                 ______
                                 

           Responses to Questions by Senator Robert Menendez

                              cuba policy
    Family travel and remittances to Cuba are specifically addressed in 
section 112 of the Cuban Liberty and Democratic Solidarity Act, which 
stresses the will of Congress that the President:
    (1) Before considering the reinstitution of general licenses for 
family remittances to Cuba, insist that, prior to such reinstitution, 
the Cuban Government permit the unfettered operation of small 
businesses fully empowered with the right to hire others to whom they 
may pay wages and to buy materials necessary in the operation of the 
businesses, and with such other authority and freedom as are required 
to foster the operation of small businesses throughout Cuba.
    (2) Before considering the reinstitution of general licenses for 
travel to Cuba by individuals resident in the United States who are 
family members of Cuban nationals who are resident in Cuba, insist on 
such actions by the Cuban Government as abrogation of the sanction for 
departure from Cuba by refugees, release of political prisoners, 
recognition of the right of association, and other fundamental 
freedoms.
    I understand that 59 of the 75 independent journalists and 
democratic opposition leaders that were arrested in the spring of 2004 
and arbitrarily given 20-30 year sentences remain in prison in 
isolated, deplorable conditions. In addition, thousands of others 
arrested before and since that time also remain in prison.

    Question. Do you have any intentions of recommending changes to 
Cuba family travel policy or remittances policy beyond the 2004 
regulations? If so, please specifically outline the changes to Cuba 
policy that you would recommend.

    Answer. There are many ways that we can send a message to the Cuban 
people that the United States intends to play a positive role in their 
future. The President believes that Cuban-Americans especially can be 
important ambassadors for change in Cuba. As such, he believes that it 
makes both moral and strategic sense to lift the restrictions on family 
visits and family cash remittances to Cuba. The administration will 
consult with Congress as we prepare these changes.
    President Obama also believes that it is not time to lift the 
embargo on Cuba, especially since it provides an important source of 
leverage for further change on the island.

    Question. President-elect Obama pledged to double foreign 
assistance by 2012 and stated that he would ensure that it focuses on 
bottom-up development. Exactly how will this goal be met? Specifically, 
how do you see resource levels for foreign assistance in the coming 
years? Given our critical economic problems, it is inevitable that 
efforts will be made to limit or reduce our spending on foreign 
assistance--how will you resist those efforts?

    Answer. President Obama remains committed to his goal of doubling 
foreign assistance, and intends to do so in a responsible manner. He 
recognizes that the budgetary constraints resulting from the current 
economic crisis may extend the timeframe for realizing this increase. 
Working in partnership with Congress, we are prepared to make smart, 
strategic budget choices that deal with our problems here at home while 
also continuing our investment and where appropriate increasing support 
for effective programs that save lives, strengthen our security, and 
restore America's position in the world.
    President Obama plans to put forward a robust FY 2010 budget 
request. The President and I will fight for these resources by 
investing them wisely with strong accountability measures and ensuring 
they are directed toward strategic goals. I hope that Congress will 
work with us in meeting the goal of doubling foreign assistance, and 
fully fund the President's budget request.

    Question. Who would control Foreign Assistance in your State 
Department? What would be the role of Deputy Secretary of State Jack 
Lew vis-a-vis USAID? Who will have budget authority over USAID? Do you 
see this as an elevation of stature over the current structure?

    Answer. These are important strategic issues. Jack Lew will be 
responsible for assisting me in the comprehensive management of the 
operations and resources of the Department. I intend to review closely 
all options, including those of authority and structure, and will look 
forward to consulting with the Congress as we move forward.
            deputy position at the national security council
    Question. If there were a Deputy position created for International 
Development at the National Security Council, how would the position 
interact with the Deputy Secretary of State and who would be setting 
budget and funding priorities for USAID?

    Answer. President Obama and I are committed to elevating 
development in U.S. foreign policy. The administration will be promptly 
reviewing whether fulfilling that objective will necessitate changes 
such as the creation of positions at the National Security Council. We 
look forward to hearing your thoughts and consulting with the Congress 
as we move forward.
                 millennium challenge corporation (mcc)
    Question. The MCC has had some problems getting started--the goals 
were too ambitious, the disbursements were slow, the money was not 
``additive'' as promised. However, I believe the MCC will offer some 
important learning and may very well turn out to be an effective 
component of our overall foreign assistance toolkit and should by no 
means be ``scrapped.''

  <bullet> What do you see as the future of the MCC?
  <bullet> Will the USAID Administrator have oversight responsibility 
        of the MCC?

    Answer. The State Department will continue to support MCC and its 
underlying principle of greater accountability in our foreign 
assistance programs. The MCC's mission of sustainable poverty reduction 
through long-term development is an important asset in America's smart 
power toolbox, and its focus on country ownership and accountability 
has helped build local capacity, encourage broad civil society 
consultation, and advance policy reform. The MCC's resources have 
proven to be a powerful incentive for countries to demonstrate their 
commitment to strengthening good governance, economic freedom, and 
investments in people. As I review our development assistance framework 
and goals, I will consider how best to build on the promise of MCC 
within the administration's overall development assistance strategy.
    We intend to review how the MCC programs can best be coordinated 
and leveraged, and we look forward to consulting with the Congress as 
we move forward.
                          institution-building
    Question. I supported President Bush's PEPFAR and Millennium 
Challenge Corporation (MCC) initiatives. However, I was concerned that 
funding for those initiatives would come at the expense of long-term 
development programs that, at their core, focus on building up the 
institutions of governance overseas that will ultimately need to take 
over and provide basic services to their people.
    In many cases, this is exactly what happened.

  <bullet> If confirmed, how would you prioritize long-term development 
        programs in the context of initiatives like PEPFAR and the MCC 
        to make sure that we are still investing in long-run welfare of 
        the institutions of governance overseas?

    Answer. President Obama has emphasized the importance of 
development assistance to America's foreign policy and national 
security. And we are both committed to doubling foreign assistance. The 
totals have to grow.
    Clearly, PEPFAR has experienced much success. MCC represents a 
worthy new approach to reducing poverty and sustaining economic growth 
in low- and middle-income countries that are committed to good 
governance and investing in their people. As you note, however, 
increases in those programs within the existing totals for foreign 
assistance impact the resources available for traditional development 
and foreign assistance programs. We must, therefore, increase 
assistance resources overall. At the same time, we must ensure that all 
foreign assistance programs work together to maximize their 
effectiveness and achieve measurable, sustainable results.
    As for the prioritization of long-term development programs, we 
intend to evaluate, in close consultation and cooperation with 
Congress, every spending priority based on what works and what doesn't, 
and what impacts America's national security and economic interests. We 
know, however, that long-term development programs play a vital role in 
our national security and we want to reinforce that linkage.
    We will work to ensure that these programs are efficient and 
effective, as we also advocate strongly for the appropriate level of 
resources for foreign assistance programs, both within the 
administration and to the Congress.

    Question. In your view, what changes need to occur in order to make 
USAID a principal player in U.S. foreign policy?

    Answer. The President's commitment to a strengthened and enhanced 
role for development in our foreign policy means a reinvigorated USAID, 
leading the formulation and implementation of U.S. development 
strategies and articulating the role of development in national 
security. We have to strengthen USAID so that it has greater capacity 
to respond quickly to changing requirements, is less reliant on 
contractors doing work that ought to be carried out by our own 
government professionals, and is better able to report the results 
achieved with taxpayer dollars. We are still in the process of thinking 
through the precise organizational design, and I look forward to the 
advice of the committee and Congress as we consider our approach. In 
moving forward with this process, my goal, and the goal of the 
President, is to enhance USAID's capacity and standing to carry out its 
vital mission.

    Question. Within the State Department, will there be a Director of 
Foreign Assistance? Will there be a USAID Administrator? Would the 
current F Bureau fall within the line of authority of the Deputy 
Secretary for management and resources? Or, would the Director of 
Foreign Assistance report directly to the Secretary of State?

    Answer. There will be a USAID Administrator. As for positions 
internal to the Department of State, I intend to closely review the 
issue of structure and reporting relationships, and will look forward 
to consulting with the Congress as we move forward.
                           staffing at usaid
    Question. There needs to be more flexibility at USAID to hire the 
technical expertise they need--both mid-level and high-level officials. 
The institutional culture needs to change to reflect an increased sense 
of accountability for programs, and this culture starts with the 
people. The last administration proposed increasing the number of 
Foreign Service officers. While this is positive, a much more thorough 
look at the overall workforce needs to take place to make sure we have 
the people we need, where we need them, when we need them.
    Do you have any specific plans to address staffing at USAID in 
broad terms? How would you handle Personal Services Contractors? 
Foreign Service Limited (FSL) appointments, and the loss of senior 
leadership in the Foreign Services due to retirement and minority 
recruitment and retention?

    Answer. The continued rebuilding of USAID staff is one of my 
highest priorities. While USAID's program budget has increased 
significantly in the last two decades, its direct-hire Foreign Service 
officer levels have dropped. USAID's strength has always been the 
quality and size of our field presence and I will diligently work to 
reestablish the leadership role we held in the past. Additionally, and 
based on a comprehensive study of almost every office and bureau in 
Washington by the USAID's Office of Human Resources (OHR), I plan on 
increasing USAID's Washington-based technical workforce. I want USAID 
to use permanent career staff to address its mission, as appropriate, 
and to begin to reduce its dependency on its multitude of nonpermanent 
hiring mechanisms which can be expensive and don't build institutional 
capacity.
    The various hiring mechanisms used by USAID provide the agency with 
flexibility to meet a variety of programmatic and administrative needs. 
These mechanisms are often used simply because USAID does not have the 
permanent staff to fulfill its mission. As USAID grows and trains its 
permanent staff through the DLI, it will rely less on nonpermanent 
mechanisms to meet its staffing need. These mechanisms, including FSL 
appointments and Personal Services Contracts, will and should continue 
to be used, however, for short-term and highly technical needs or where 
there is no need for permanent staff.
    Recognizing that USAID is facing the critical situation of an aging 
workforce that has been more than a decade in the making, USAID began a 
program of targeted mid-level career Foreign Service hiring. This 
hiring will help fill its ``missing middle'' and provide an essential 
cushion while the more DLI junior officers are hired, trained, and 
deployed. USAID must have a reasonably distributed Foreign Service by 
experience including entry, mid, senior, and executive level. I will 
continue to support USAID's mid-level hiring initiative while it 
rebuilds its junior ranks. It is essential that USAID has the ability 
to place experienced permanent employees in its field missions.
    Additionally, where possible, USAID should continue to use its 
various legal authorities to employ and reemploy Foreign Service 
officers wherever gaps exists. This approach will be necessary for the 
near term as newly hired employees under the Development Leadership 
Initiative (DLI's) and those hired since 2000 gain the specific USAID 
experience to perform at the higher level.

    Question. I know you are very familiar with the concerns that DOD 
is taking too large a role, particularly in Iraq and Afghanistan but in 
other countries as well, in programs that are better managed by our 
civilian agencies like USAID and the State Department. I know that the 
weakened condition of USAID is one major reason for this.

  <bullet> How do you intend to build up our civilian agencies so they 
        can win the interagency battles on foreign assistance-related 
        policy, strategy, and implementation?

    Answer. President Obama and I understand that we cannot counter 
insurgent and terrorist threats without civilian counterparts who can 
carry out economic and political reconstruction missions. We intend to 
strengthen these civilian capacities, recruiting our best and brightest 
to take on this challenge, and to increase both the numbers and 
capabilities of our diplomats, development experts, and other civilians 
who can work alongside our military. This increased capacity is 
important in the implementation of programs, but also, as you note, in 
policy and strategy discussions and decisionmaking.
    We will need to invest additional resources in the Department and 
USAID. The 25-percent increase in Foreign Service staffing that 
President Obama has called for would do much to address these needs for 
the State Department. In addition, USAID also needs additional capacity 
and, with the support of Congress, has started to increase its Foreign 
Service ranks. I look forward to working closely with Congress in order 
to obtain the funding needed to realize these personnel increases as a 
high priority.
                     funding for the united nations
    Question.

  <bullet> As Secretary of State, would you pay down our debt at the 
        United Nations?
  <bullet> Will you recommend that the President request sufficient 
        funding to meet our obligations to the United Nations, 
        peacekeeping operations, and other United Nations programs and 
        agencies?

    Answer. Since FY 2000, the United States has built up approximately 
$250 million in new arrears to the United Nations, consisting mainly of 
U.N. peacekeeping arrears due to the 25-percent peacekeeping cap and 
U.N. regular budget arrears due to shortfalls and exchange rate losses 
that occurred in FY 2007 and FY 2008. In addition to these arrears, the 
United States continues to delay its U.N. regular budget payments due 
to our deferral practice, which consists of paying our calendar year 
bill with funds from the following fiscal year.
    I will work to reverse our U.N. arrears and to ensure that our 
funding requests fully reflect our financial obligations so that the 
United States can pay its dues in full and on time. When we fail to do 
this, we undermine our credibility and effectiveness in working to 
achieve our objectives at the U.N. We support having a U.N. that is 
adequately resourced to carry out activities that are in our national 
interest.

    Question. Rising food prices have swelled the ranks of the world's 
hungry by tens of millions, with women and children bearing the brunt 
of the crisis. The U.N. Secretary General rallied the U.N. and Bretton 
Woods institutions to develop a comprehensive framework of action, and 
donor nations made bold pledges. The international community, however, 
has fallen woefully short in meeting those commitments.

  <bullet> What will the Obama administration do to address the global 
        food crisis?
  <bullet> Do you plan to send a senior delegation with robust 
        positions to the January 26-27 international conference 
        organized by the Spanish Prime Minister to take stock and give 
        renewed impetus to the U.N. comprehensive framework initiative?

    Answer. President Obama has made clear that alleviating hunger 
worldwide is a top priority of his administration. As he said on the 
first day of his Presidency, ``to the people of poor nations, we pledge 
to work alongside you to make your farms flourish and let clean waters 
flow; to nourish starved bodies and feed hungry minds.'' The President 
and I intend to focus new attention on food security so that developing 
nations can invest in food production, affordability, accessibility, 
education, and technology. We are committed to building a new 
partnership among donor states, developing nations, U.N. agencies, 
NGO's, the private sector and others to better coordinate policies, 
with a view toward achieving the Millennium Development Goals agreed to 
in 2000.
    I am sending a strong team composed of senior officials from across 
the U.S. Government to the Madrid Conference to convey the President's 
message. They will be emphasizing the need for action in three major 
areas. First, we must invest in agricultural research to improve 
potential crop production. Second, we must also invest in 
infrastructure related to agriculture in order to spread the benefits 
of new technology to all farmers, and improve the efficient delivery of 
food to markets. And third, we have to make markets themselves more 
efficient, both locally and globally. I also propose to send a 
videotaped message to the Conference to underscore my personal 
commitment to ending world hunger.

    Question. During the Bush administration, the United States decided 
not to seek a seat on the Human Rights Council.

  <bullet> Do you feel the U.S. tactic of disengagement has worked to 
        promote U.S. interests at the Council or to promote U.S. 
        leadership on the issue of human rights?
  <bullet> As Secretary of State, would you support--and put the 
        necessary diplomatic effort into--the United States seeking a 
        seat on the Human Rights Council?

    Answer. The administration is reviewing and considering the issues 
and policy options you raise in your question. This is an unfolding 
process and we look forward to engaging with you as our review 
progresses.
                         the situation in sudan
    Question.

  <bullet> Under what circumstances, if any, would Article 16 be 
        considered for the case of Sudan? Would the United States be 
        prepared to veto Article 16 at the Security Council?
  <bullet> What steps should be taken to reinvigorate UNAMID?
  <bullet> Who will have the Sudan portfolio and to whom will that 
        person report to?
  <bullet> Despite an international arms embargo, there is evidence 
        that weapons from other countries are being used in Darfur by 
        the Government of Sudan. What steps will you take to ensure 
        that the arms embargo is enforced?
  <bullet> Given its dependence on Sudanese oil, China has an interest 
        in a peaceful Sudan. What steps will you take to work with 
        China to ensure that the Comprehensive Peace Agreement holds, 
        and that the crisis in Darfur is ended through a negotiated 
        solution?

    Answer. At this point, the ICC's Pre-Trial Chamber has not yet 
ruled on the Prosecutor's application for an arrest warrant, and there 
is not currently an Article 16 resolution before the Security Council. 
We support the ICC's investigations into the matter and its pursuit of 
perpetrators of genocide in Darfur.
    The United States will continue to vitally support the United 
Nations/African Union Mission in Darfur (UNAMID) though U.N. dues, as 
well as through in-kind and personnel assistance to UNAMID. We will 
maintain a partnership with U.N. and diplomatic officials in New York, 
Sudan, and foreign capitals to help ensure UNAMID receives the 
personnel, material, financial, and political support it needs. In 
addition, we will continue to pressure the Government of Sudan to 
cooperate with UNAMID and will pressure UNAMID to pursue its mandate 
aggressively to protect civilians, facilitate humanitarian operations, 
and create conditions conducive to a lasting political settlement to 
the Darfur crisis.
    The Department is reviewing next steps in our approach to the 
situation in Sudan, including Darfur and implementation of the 
Comprehensive Peace Agreement (CPA).
    The presence of weapons, despite the existence of a U.N. arms 
embargo covering the shipment of weapons into that area, is a 
significant contributing factor to the violence in Darfur. There are 
several countries that are supplying arms to Sudan, and illicit arms 
transfers come across the border of neighboring countries, possibly 
with the knowledge or assistance of the governments. At this time we 
are examining the best and most productive method by which to address 
the situation, while we also review the impact of these efforts on our 
assistance to the Sudan People's Liberation Army (SPLA).
    Sudan plays a special role in China's energy diplomacy because a 
Chinese parastatal energy company--the China National Petroleum Company 
(CNPC)--is the dominant foreign actor in Sudan's energy industry, and 
China receives the majority of Sudan's oil exports. Therefore, although 
Sudan is only China's sixth-largest petroleum provider, Sudan's oil 
industry is largely dependent on Chinese support. Given China's 
significant economic participation in Sudan, the United States 
continues to encourage China to use its influence with the Government 
of Sudan constructively to help implement the Comprehensive Peace 
Agreement (CPA) and bring peace and security to Darfur. The United 
States frequently communicates with the Chinese Government, including 
the Chinese special envoy and the Chinese mission to the U.N., on 
Sudan-related issues. The United States has repeatedly asked China to 
exert additional pressure on the Government of Sudan to reduce violence 
in Darfur, provide additional support to UNAMID, and halt Chinese arms 
sales to Khartoum.
    China has shown some willingness to engage with Sudan and the 
international community on the issue of Darfur. China provided the 
first non-African personnel to the U.N./AU Mission in Darfur (UNAMID), 
consisting of a battalion of combat engineers, and provided $500,000 to 
the U.N. Trust Fund to support the AU/U.N. Darfur mediator. They also 
have a large troop contingent deployed to the U.N. Mission in Sudan 
(UNMIS). Given their longstanding policy of nonintervention, China is 
often reluctant to weigh in as heavily or punitively with the Sudanese 
as we would like, though they do raise certain issues with the Sudanese 
privately.
                                 darfur
    Question. I was pleased that the U.S. Government has finally 
provided some additional air support to help facilitate the 
peacekeepers' arrival in Darfur. I believe this is a signal of the 
greater engagement that the United States can and should be doing in 
Darfur. However, this is not enough, we need to do more.

  <bullet> How do you intend to step up these efforts in the next 
        administration?
  <bullet> What specifically can and should the United States be doing 
        in Darfur?
  <bullet> What steps will you take to reinvigorate the United Nation's 
        Hybrid Force in Darfur (UNAMID)?

    Answer. The United States has provided over $400 million of in-kind 
support to Darfur peacekeeping above and beyond its assessed U.N. dues. 
From 2004 through 2007, the United States was the African Union Mission 
in Sudan's (AMIS) largest donor. In December 2007, the United States 
assisted AMIS transition to the U.N./AU Mission in Darfur (UNAMID), and 
obtained a Presidential waiver of reimbursement to gift the U.N. with 
34 troop camps, vehicles, and communications equipment capable of 
supporting 9,000 Darfur peacekeepers.
    From 2007 to today, the United States has provided UNAMID Troop 
Contributing Countries (TCCs)--including Rwanda, Senegal, Ethiopia, 
Burkina Faso, and Tanzania--with over $100 million in training and 
equipment to deploy over 7,000 new peacekeepers to Darfur. Several of 
these newly trained and equipped units will deploy in 2009, and further 
increase UNAMID's capacity. The United States has recently added to 
this ongoing training and equipment assistance by providing the U.N. 
and its Member States with over $17 million in airlift assistance to 
and within Darfur. This airlift moved key UNAMID equipment from Rwanda, 
Ethiopia, the U.N. and other TCCs to and within Sudan. The United 
States also provides active-duty military officers to serve as staff in 
UNAMID's Darfur headquarters.
    In 2009, the United States will continue providing U.N. dues, in-
kind, and personnel assistance to UNAMID. The United States will work 
closely with U.N. and partner staff in New York, Sudan, and foreign 
capitals to help ensure UNAMID receives the personnel, material, 
financial, and political support it needs. The United States will 
continue to pressure the Government of Sudan to cooperate with UNAMID 
and will pressure UNAMID to aggressively pursue its mandate to protect 
civilians, facilitate humanitarian operations, and create conditions 
conducive to a lasting political settlement to the Darfur crisis.

    Question. Tough Actions on Darfur? Ambassador Richard Williamson 
recommended a series of tough actions to compel better behavior from 
the Government of Sudan. They included jamming radio communications in 
Khartoum, blockading Sudan's port to interrupt its oil sales and 
targeting its military aircraft that violate U.N. bans on offensive 
flights. Williamson was largely ignored by the current administration.

  <bullet> What is your position on these actions?

    Answer. It is critically important that the United States consider 
the full range of tools at our disposal as we work toward the full 
deployment of the United Nations/African Union Mission in Darfur 
(UNAMID), a resolution to the conflict in Darfur and implementation of 
the Comprehensive Peace Agreement (CPA). These issues are difficult 
ones that mandate careful deliberation and serious focus. At this time 
we are examining a number of options to determine the best and most 
productive methods by which to address the situation.
                              china/darfur
    Question. Given its dependence on Sudanese oil, China has an 
interest in Sudan.

  <bullet> What steps will you take to work with China to ensure that 
        the Comprehensive Peace Agreement holds and that the crisis in 
        Darfur is ended through a negotiated solution?

    Answer. Sudan plays a special role in China's energy diplomacy 
because a Chinese parastatal energy company--the China National 
Petroleum Company (CNPC)--is the dominant foreign actor in Sudan's 
energy industry, and China receives the majority of Sudan's oil 
exports. Therefore, although Sudan is only China's sixth-largest 
petroleum provider, Sudan's oil industry is largely dependent on 
Chinese support. Given China's significant economic participation in 
Sudan, the United States continues to encourage China to use its 
influence with the Government of Sudan constructively to help implement 
the Comprehensive Peace Agreement (CPA) and bring peace and security to 
Darfur. The United States frequently communicates with the Chinese 
Government, including the Chinese special envoy and the Chinese mission 
to the U.N., on Sudan-related issues. The United States has repeatedly 
asked China to exert additional pressure on the Government of Sudan to 
reduce violence in Darfur, provide additional support to UNAMID, and 
halt Chinese arms sales to Khartoum.
    China has shown some willingness to engage with Sudan and the 
international community on the issue of Darfur. China provided the 
first non-African personnel to the U.N./AU Mission in Darfur (UNAMID), 
consisting of a battalion of combat engineers, and provided $500,000 to 
the U.N. Trust Fund to support the AU/U.N. Darfur mediator. They also 
have a large troop contingent deployed to the U.N. Mission in Sudan 
(UNMIS). Given their longstanding policy of nonintervention, China is 
often reluctant to weigh in as heavily or punitively with the Sudanese 
as we would like, though they do raise certain issues with the Sudanese 
privately.

    Question. During your time in the Senate, you cosigned letters to 
President Bush in 2005 and 2006 urging him to recognize the Armenian 
genocide. As a Presidential candidate, you pledged that you would 
recognize the killings as genocide if you were elected.

  <bullet> As you know, I have been an advocate of changing the U.S. 
        policy of not officially recognizing the Armenian genocide. 
        Will you advocate to the President the formal recognition of 
        the Armenian genocide?

    Answer. The Obama administration will be looking closely at this 
challenging issue to address the concerns that have been raised. No 
decision has yet been made. Our focus will be on how the United States 
can help Armenia and Turkey come to terms with these tragic events in a 
way that honors and recognizes the victims, and helps clear the way for 
a future of peace and prosperity between the two countries.

  <bullet> What other steps would you take to expand and improve United 
        States-Armenian economic, political, and military relations?

    Answer. In terms of the United States-Armenia relationship, we seek 
to help Armenia strengthen the security, prosperity, and freedom of its 
citizens. Specifically, we hope to see normalized relations and open 
borders between Armenia and Turkey, a just and lasting peace settlement 
of the Nagorno-Karabakh conflict, and advancement of democratic and 
economic reform in Armenia. We hope to see Armenia fully integrated 
into East-West energy and other transportation networks.

    Question. More than 25,000 Turks recently added their names to an 
online statement apologizing for Ottoman war crimes committed against 
the Armenians during World War I. Intellectuals and politicians around 
the world--who have all accepted the incontestable fact of the Armenian 
Genocide--hailed this as an important step forward, noting an 
irreversible trend has commenced in Turkey. Unfortunately, freedom of 
speech is not a guaranteed right for citizens of Turkey. Article 301 of 
Turkey's penal code deliberately strangles free speech and can be and 
often is used to persecute and prosecute those who attempt to exercise 
this universal right, especially as it pertains to discussion of the 
Armenian Genocide.

  <bullet> How do you seek to address the inability of the Turkish 
        Government to allow this most basic freedom to its citizens and 
        bring an end to the use and misuse of Article 301?

    Answer. Clearly, there is much more to be done to expand freedom of 
expression in Turkey. Nevertheless, Turkey's recent amendments to 
Article 301, which had previously criminalized ``insulting 
Turkishness,'' mark a step forward; the amendments reduce the 
possibility for imprisonment and require the Minister of Justice to 
determine whether to accept a case for prosecution. While the 
amendments do not go far enough to meet European and American standards 
for free speech, the Justice Minister's new role should help reduce the 
number of cases brought by overzealous prosecutors for political and 
ideological motives.
    If confirmed as Secretary of State, I will continue to press the 
Turkish authorities to further this progress by ending legal action 
against citizens for expressing their views, whether under Article 301 
or other laws used to prosecute individuals for their speech. I will 
also coordinate with our European allies to encourage further expansion 
of freedom of expression in the context of Turkey's EU accession 
process.
                              tibet policy
    Question. The Tibetan Policy Act of 2002 established a Special 
Coordinator for Tibetan Issues in the Department of State. Do you 
intend to appoint a Special Coordinator at a high level, with adequate 
resources and access, to signal the Tibet issue's importance to the 
U.S. Government? If so, when might I expect such an appointment to take 
place?

    Answer. I can assure you that I take Tibetan issues seriously and 
plan to appoint a well-qualified coordinator at the earliest 
opportunity. I will ensure the coordinator has the resources to do the 
job.
    We are disappointed with China's human rights record and the lack 
of progress during eight rounds of talks between the Chinese Government 
and the Dalai Lama's representatives. We are also very concerned about 
the increased repression in Tibetan areas over the past year. We will 
raise our concerns about these issues at the highest levels with the 
Chinese Government and press for progress. The Special Coordinator for 
Tibetan Issues will sustain our focus on these issues and will promote 
substantive dialogue, directed at achieving meaningful results, between 
the Dalai Lama and his representatives and the Chinese Government. We 
believe such talks provide the best hope for resolving longstanding 
tensions in Tibetan areas of China and for safeguarding the distinct 
ethnic, cultural, and religious identity of the Tibetan people.
                           detained tibetans
    Question. In 2008, the United States and China resumed their 
bilateral human rights dialogue, but with little concrete progress. 
Will your Department raise political prisoners and human rights, 
including the cases of hundreds or thousands of detained Tibetans, with 
the Chinese outside of the dialogue process?

    Answer. Promoting greater respect for human rights and religious 
freedom is among our key foreign policy objectives in China. We 
document our concerns about these issues in our annual Human Rights 
Report. We take every opportunity to press China to uphold the 
fundamental human rights of the Chinese people, consistent with China's 
own constitution and international human rights standards. We will 
continue to monitor individual human rights cases of concern closely 
and to raise them regularly with the Chinese Government, urging the 
release of all who have been imprisoned for the peaceful expression of 
their political, social, or religious views.
    With respect to individuals detained and tried in connection with 
the unrest in Tibetan areas last spring, we are concerned about reports 
that these individuals were not afforded basic protections of due 
process. The United States Government will continue to seek information 
about the whereabouts and well-being of these individuals, and to call 
on the Chinese Government to ensure that all legal and administrative 
proceedings against such persons are conducted in a manner that is both 
transparent and consistent with Chinese law and international human 
rights standards.
                               durban ii
    Question. An issue you will have to focus on quickly is the World 
Conference Against Racism, commonly known as Durban II, which is 
scheduled for this April.

  <bullet> Will you work to try and ensure a positive agenda for the 
        conference?
  <bullet> If it appears that Durban II would follow an anti-Israel 
        agenda, will the United States refuse to attend the conference?

    Answer. The administration is currently reviewing our position on 
the Durban Review Conference. We have not made a decision with respect 
to U.S. participation in the conference, but we will consider in our 
deliberations the ongoing negotiations in Geneva on the Review 
Conference's outcome document.

    Question. Last year, the Bush administration submitted to Congress 
a peaceful nuclear cooperation agreement with Russia in accordance with 
section 123 of the Atomic Energy Act, despite the troubling behavior of 
Russia in relation to Iran's nuclear ambitions. While the agreement was 
later pulled in light of the situation in Georgia, its initial 
submission raised serious questions of priorities. Beyond Russia we 
have seen expanded nuclear cooperation and interest throughout the 
Middle East.

  <bullet> Do you believe a 123 agreement with Russia should be linked 
        to changes in Russia's policy toward Iran?
  <bullet> How do you view the spread of nuclear technology in the 
        Middle East? Should the United States cooperate on civilian 
        nuclear projects in the region? How can we make certain we do 
        not inadvertently contribute to nuclear proliferation in the 
        Middle East?

    Answer. The administration will seek to cooperate with Russia on 
issues that are in our mutual interest--including efforts to halt and 
reverse nuclear proliferation. We seek Russia's cooperation on Iran, 
for example, because it is in our interest to work together to prevent 
Iran from acquiring a nuclear weapons capability. The proposed United 
States-Russia Agreement for Peaceful Nuclear Cooperation (123 
Agreement), signed at Moscow May 6, 2008, can be an asset to our 
nonproliferation efforts. Russia's policy with respect to Iran will be 
one of the important factors taken into consideration as the 
administration considers whether to proceed with the proposed United 
States-Russia 123 Agreement again. But the decision to submit the 
agreement to Congress once again for review, and bring it into force, 
cannot be made in isolation from the larger question of our overall 
relationship with Russia.
    With regard to the spread of civil nuclear technology in the Middle 
East, the administration's goal is to ensure that any expansion of the 
means to produce peaceful nuclear energy in the region, and indeed 
globally, and any U.S. cooperation to help further such expansion, will 
apply the highest standards for safety, security, and nonproliferation. 
The most important measure we can take to prevent the expansion of 
nuclear energy from inadvertently contributing to weapons proliferation 
will be to discourage countries from seeking to acquire sensitive 
technologies, such as enrichment or reprocessing, that could be used to 
make a nuclear weapon.

    Question. You have been a strong advocate of compensation for 
persons who have been the victims of acts of terrorism and torture. 
During the Bush administration, such justice was denied to American 
citizens who had been seized by the Saddam Hussein regime in the period 
before the gulf war, and used as human shields.

  <bullet> As Secretary of State, would you support a resolution of 
        this situation, by calling on the Iraqis to compensate those 
        Americans who were seized and held as human shields?

    Answer. I intend to review this matter with a view to developing an 
effective approach for facilitating a resolution with Iraq, which 
includes making the claims of U.S. victims of terrorism a priority. The 
Department has engaged a range of involved parties, including officials 
in the Iraqi Government and the claimants' counsel, and will continue 
to engage with Iraq to encourage it to develop a resolution of these 
victims' claims.
    Iraq committed to work to settle existing claims and debts from the 
Saddam era, which would include claims from victims of acts of 
terrorism, in its request to the Security Council to extend the 
protections for an additional year for the Development Fund for Iraq 
(DFI) and Iraqi oil and gas exports and revenues, including protections 
from legal attachment. The United States supported U.N. Security 
Council Resolution 1859 (2008), extending the previous protections. 
Foreign Minister Zebari also affirmed that the Government of Iraq was 
fully committed to resolving all legitimate claims and complying with 
its obligations under international law.
                            mine ban treaty
    Question. The record now shows quite clearly that the United States 
does not need antipersonnel mines to fight its battles. The United 
States has not used these weapons in any of the numerous military 
operations it has undertaken since the treaty was opened for signing in 
1997. It has not used landmines since the 1991 gulf war; has not 
exported them since 1992; and has not produced them since 1997. It is 
in de facto compliance with the treaty's key provisions, except the ban 
on stockpiling.
    Korea has been cited as a reason for keeping antipersonnel mines, 
but current policy is to ban use of ``dumb'' mines in 2010, including 
in Korea. It is also our understanding that most U.S. mines in Korea 
have been, or will be, removed as a part of the end of the War Reserve 
Stockpile for Allies, Korea (WRSA-K) program.

  <bullet> What is your position about bringing the United States into 
        the Mine Ban Treaty?

    Answer. The incoming administration has not taken a position on the 
landmine treaty. We are committed to working with our friends and 
allies around the world to reduce the threat posed by landmines.
                        cluster munitions treaty
    Question. Unlike most of its allies, the United States has not 
signed the Convention on Cluster Munitions. The Bush administration did 
acknowledge that cluster munitions are of grave humanitarian concern, 
and in June 2008 Secretary Gates articulated a new U.S. policy which 
states that in 10 years, the military would stop using and begin 
destroying its arsenal (which consists of over 700 million 
submunitions). In so doing, Secretary Gates recognized both the problem 
with the weapons, and the eventual solution--but in a way that delays 
the implementation of this solution until 2018 and leaves the United 
States standing apart from most of its NATO allies.
    The Obama administration has made clear that it is committed to 
restoring our diplomatic alliances, and reengaging on matters of 
international humanitarian law. A spokeswoman for the Obama transition 
team told the Chicago Tribune on December 3 that the next President 
would ``carefully review the new treaty and work closely [with] our 
friends and allies to ensure that the United States is doing everything 
feasible to promote protection of civilians.''

  <bullet> Will the administration conduct a review of U.S. policy 
        regarding the use of cluster munitions? What are your views 
        about the United States signing onto the Convention on Cluster 
        Munitions?

    Answer. The incoming administration has not taken a position on the 
new cluster bomb treaty. I look forward to working with the President-
elect and the rest of the national security team on this issue in order 
to develop a policy that upholds our moral obligations while protecting 
our troops. The new administration will carefully review the treaty in 
consultation with military commanders and work closely with our friends 
and allies to ensure that the United States is doing everything 
feasible to promote protection of civilians--especially children.

    Question. As you know, I have long been an advocate for greater 
engagement in our hemisphere.

  <bullet> What are your ideas on how the United States can increase 
        its engagement with our neighbors in Latin America?

    Answer. One of the most significant aspects of our relationship 
with the Western Hemisphere is how multifaceted it is and how 
interconnected the United States is today with our neighbors in North, 
South, and Central America, and the Caribbean. I think it is important 
to recognize that our links are first and foremost human connections--
involving shared cultures, languages, values, and aspirations. These 
are often ties between families, and civil society, that transcend 
borders. We have vitally important economic, energy, and trade links, 
that have grown enormously over the last two decades, as well as unique 
geographic ties that give us all a special stake in each other's well-
being.
    All of this underscores the huge opportunities, and 
responsibilities, we have today to build stronger and more effective 
partnerships with our neighbors on the issues that matter most to all 
our peoples. The most important of these priorities are widely shared--
they include social and economic opportunity, access to quality 
education, citizen safety, public health, and protecting the 
environment.
    Good, pragmatic partnerships that work also have to be founded on 
mutual respect, a real sense of shared responsibility, and the 
imagination to move beyond old ways of looking at each other. They also 
need to be able to marshal all the tools and resources we have, 
collectively, at our disposal--for truly common efforts that can 
achieve big results.
    This is the approach we want to bring to our engagement in the 
region. It will order how we organize ourselves internally for that 
task, how we seek to allocate our resources, and how we reach out to 
our partners in the region.
    It will also shape the priority we give to initiatives that use new 
media, and people-to-people exchanges, to strengthen further the ties 
between our societies. This is especially important in the area of 
science, where more exchanges and sharing of expertise can help all of 
us build capabilities that will better enable us to tackle big common 
challenges.
    In short, while I am mindful of the many challenges we face in the 
Hemisphere, I am enthusiastic about the many opportunities we have to 
strengthen ties with the people in our region.
                                  iran
    Question.

  <bullet> How would you describe the urgency of dealing with the 
        Iranian threat? How high on the agenda is it for you and the 
        Obama administration?
  <bullet> What concrete steps would you expect the new administration 
        to take regarding Iran early in the year? Do you believe 
        sanctions should be imposed against the Iranian Central Bank?
  <bullet> Will you reach out to our allies and seek to establish with 
        them a timeline for talks with Iran?
  <bullet> Would you also seek the agreement of our allies to a regime 
        of sanctions should it become clear that progress through talks 
        is not possible?

    Answer. We are still reviewing policy and consulting on our initial 
steps on Iran. However, this administration places Iran high on its 
agenda, and sees great urgency in dealing with the Iranian threat, 
while also remaining open to opportunities for a more constructive path 
forward in United States-Iran relations.
    Over the next several months, we will be laying out our general 
framework and approach regarding Iran. And as the President said during 
his inauguration speech, if countries like Iran are willing to unclench 
their fist, they will find an extended hand from the United States.
    We continue to monitor Iranian financial institutions' attempts to 
evade international financial sanctions, but I cannot comment further 
on our internal processes.
    The President has publicly stated that he supports tough and direct 
diplomacy with Iran without preconditions, but I cannot offer 
additional details regarding any specific timeline for this process.
    Now is the time to use the power of American diplomacy to pressure 
Iran to fully meet its UNSC, NPT and IAEA obligations on its nuclear 
program, end support for terrorism, uphold its international human 
rights obligations, and cease threats toward Israel. President Obama 
and Vice President Biden will offer the Iranian regime a choice. If 
Iran addresses the international community's serious concerns about its 
nuclear program and ends support for terrorism, we will offer 
incentives like supporting membership in the World Trade Organization, 
economic investment, and a move toward normal diplomatic relations.
    However, if Iran continues its troubling behavior, we will explore 
additional diplomatic options. In carrying out this diplomacy, we will 
coordinate closely with our allies and proceed with careful 
preparation. Seeking this kind of comprehensive settlement with Iran is 
our best way to make progress.
   persecution of persons for sexual orientation and gender identity
    Question. Despite advances around the world, lesbian, gay, 
bisexual, and transgender people continue to face persecution, 
imprisonment, and even death at the hands of their governments, simply 
for being who they are. Homosexual activity remains subject to criminal 
penalty in more than 80 countries, in some cases punishable by death. 
Just last week, a group of AIDS activists in Senegal were sentenced to 
8 years in prison under the country's sodomy statute, and publicity 
around their procedurally questionable trial has created an atmosphere 
of extreme animosity to LGBT people. This is just one example. Yet, the 
United States refused last month to join a nonbinding U.N. General 
Assembly resolution calling on Member Nations to end discrimination 
based on sexual orientation and gender identity. Our Nation can, and 
must, be a leader in calling for respect of human rights around the 
world, including the rights of lesbian, gay, bisexual, and transgender 
people.

  <bullet> How will you work to advance these issues at the Department 
        of State?

    Question. We join those countries that deplore the jailing and 
execution of individuals because of their sexual orientation or gender 
identity.
    You can expect that I, my Deputies, Under Secretaries and Assistant 
Secretaries will raise LGBT issues in countries whenever it is 
appropriate to do so.
    In addition, I have asked that when a new Assistant Secretary for 
Democracy, Human Rights and Labor is appointed and confirmed that he or 
she consult with the LGBT community to hear their views regarding 
effective reporting on issues of concern to them in our country 
reports.
    On the statement issued by the Government of France, the 
administration is reviewing the issues and policy options. This is an 
unfolding process and we look forward to engaging with you as our 
review progresses.

    Question. At the Fourth Women's Conference in Beijing in 1995, you 
declared that women's rights were human rights. Do you believe that 
family planning assistance is a necessary component of women's, and 
therefore human, rights?

    Answer. Yes, and as I have said previously, women must not be 
denied the right to plan their own families. I look forward to working 
with the President, Members of Congress, my colleagues in the 
administration, and the NGO community to promote programs and policies 
that ensure women and girls have full access to health information and 
services.
                          ``global gag'' rule
    Question. On January 22, 2001, the 28th anniversary of the landmark 
U.S. Supreme Court decision Roe v. Wade, President George W. Bush 
issued an Executive order reinstating the global gag rule. This 
restriction prohibits overseas organizations that receive U.S. 
international family planning funds from providing abortion services, 
and from advocating for changes in abortion policy--even with their own 
private funds. The gag rule also limits the free speech by these 
organizations, prohibiting them from making public statements, drafting 
and distributing material, and sponsoring conferences pertaining to 
abortion law and policy. In September 2003, President Bush issued an 
Executive order expanding the gag rule into all programs--reproductive 
health or otherwise--that the United States funds, which has meant that 
even more women worldwide are denied basic health care services and 
access to family planning. Under the expansion, foreign NGOs that 
receive U.S. HIV/AIDS funds are not able to provide legal abortion 
information to women who are at risk for or have HIV/AIDS, even when 
such information could be life saving.

  <bullet> Do you support rescinding the global gag rule in its 
        entirety? If so, do you believe the best course of action is 
        via legislative or administrative means?

    Answer. As I stated on January 23, 2009, ``President Obama's repeal 
of the global gag rule, which has prevented women around the world from 
gaining access to essential information and health care services, is a 
welcomed and important step taken during the first days of the 
administration.''
                             climate change
    Question. According a CNA Corporation report entitled, ``National 
Security and the Threat of Climate Change'' authored by a distinguished 
group of retired generals and admirals, climate change is a security 
``threat multiplier''--meaning that as climate change begins to foment 
conflict over scarce natural resources, it destabilizes developing 
nation's economies. Vulnerable countries are already facing growing 
water scarcity, severe weather events, and increasing health risks.

  <bullet> How can the United States address these immediate 
        challenges, not only by reducing global greenhouse gas 
        emissions, but by helping the most vulnerable countries to 
        prepare for and adapt to the consequences of global warming?
  <bullet> Do you plan to support proposals in international climate 
        negotiations to provide innovative financing and other support 
        to developing countries to help them cope with climate impacts?

    Answer. USAID has been a leader in advancing climate, clean energy, 
and conservation activities in the developing world, drawing the clear 
and important link between solving the climate problem and promoting 
sustainable development globally. We are committed to building on this 
work to help developing nations build efficient and environmentally 
sustainable energy infrastructures through technology development, 
adaptation assistance, and support for environmental mitigation so that 
nations have the tools and the means to address this crisis.
    The United States will also actively pursue innovative approaches 
to providing financial, technical, and institutional support to 
developing countries, especially the most vulnerable.
    We look forward to working with Congress as we develop our thinking 
on these critical issues.

    Question. Tropical deforestation and degradation is responsible for 
20 percent of the world's greenhouse gas emissions. To what degree will 
you address tropical deforestation as a key goal of our foreign and 
domestic policies on reducing global warming?
    More specifically:

  <bullet> Do you support providing resources to help build the 
        capacity of tropical nations to

      <all> Reduce the rate of tropical deforestation and
      <all> Eventually earn credits through international carbon 
            markets?

  <bullet> Would you ensure that U.S. climate change negotiators urge 
        support for tropical deforestation in international climate 
        agreements?

    Answer. Deforestation and forest degradation are important to the 
administration and we are committed to finding multiple ways to reduce 
deforestation and promote sustainable forest management, including 
through international climate agreements.
    The United States is committed to addressing all causes of climate 
change, including deforestation. The United States supported specific 
inclusion of ``reducing emissions from deforestation and forest 
degradation'' (REDD) in the Bali Action Plan.
    We also support exploring new ways to assist, and incentivize, 
developing countries actions to address land use practices that result 
in GHG emissions, or encourage those that sequester carbon. We believe 
that doing so will not only have a positive impact on global warming, 
but also on biodiversity, ecosystem services, and sustainable 
development.
    We will be examining, as part of the UNFCCC negotiations, a range 
of options to incentivize ``REDD'' activities, including the use of 
carbon credits, in close consultation with Congress as it develops 
comprehensive legislation on climate change.
                                 ______
                                 

    Responses to Questions Submitted by Senator Robert P. Casey, Jr.

                 grand strategy and u.s. foreign policy
    Question. Historically, the United States has adopted one of four 
grand strategies, or some combination of the four: Neoisolationism 
(avoidance of foreign entanglements), selective engagement (traditional 
balance of power realism that works to ensure peace among the major 
powers), cooperative security (a liberal world order of interdependence 
and effective international institutions), and primacy (American 
unilateralism and continued hegemony).
    Which grand strategy, or combination of strategies, do you think 
best describes how you would seek to promote U.S. national security 
today?

    Answer. I appreciate that the members of the committee, the 
American people, and many others around the globe are interested in how 
the Obama administration will protect our security, advance our 
interests, and promote our values in the world. The President-elect has 
promised a new direction for our foreign policy, and while we must 
always take into account the lessons of history, it should not be 
surprising that the paradigms of the past neither adequately describe 
our present realities, nor provide a comprehensive guide to what we 
should do about them. In my prepared statement, I will explain why 
today's world requires that we practice what some have called ``smart 
power,'' which entails leading with diplomacy, and marrying principles 
and pragmatism to advance our security and interests in an increasingly 
complex and interdependent world.
                        global education for all
    Question. In the 110th Congress, you introduced the Education for 
All Act, an important piece of legislation to invest up to $10 billion, 
over 5 years, as part of an international effort to enroll in school 
the 75 million children in poor and conflict-affected countries that 
have been left behind. During the course of his campaign, President-
elect Obama committed to erasing the global primary education gap by 
2015 and capitalizing a ``Global Education Fund'' with at least $2 
billion in funding toward the goal of universal access.
    As Secretary of State, will international basic education remain a 
priority for you? If so, please describe what policies you would like 
to design and implement to support it, how would you envision Congress 
supporting your efforts, and how this significant investment will 
benefit the recipients, and the United States?

    Answer. The United Nations developed the Millennium Development 
Goals to help reduce the crippling burden of global poverty. One of 
those goals is to achieve universal primary education by the year 2015. 
The United States joined other U.N. Member States in adopting the MDGs 
in 2000, and I applaud our Government's commitment to reaching all of 
these goals, including universal primary education. I look forward to 
implementing President-elect Obama's vision and ensuring that the U.S. 
remains a leader in efforts to help all girls and boys access quality 
basic education. We should coordinate our efforts with others, 
including the World Bank's Fast Track Initiative, in order to maximize 
our investment in global education.
    I know there are many ideas as to how the United States can best 
contribute to the global efforts to achieve universal basic education, 
and, if confirmed, I look forward to working with my colleagues in 
Congress and education experts to develop a comprehensive strategy for 
education assistance.
    I believe that any strategy should include the following 
components:

  <bullet> Adequate access to at-risk children: Our efforts to achieve 
        universal education must reach all children, particularly those 
        who are most likely to be out of school. We must ensure that 
        children in conflict areas or disaster sites have the 
        opportunity to continue their education. We must ensure that 
        often-marginalized populations, such as children with 
        disabilities and indigenous or minority ethnic groups, have 
        access to education. And it is imperative that our global 
        education efforts include increasing enrollment of girls, who 
        currently account for a majority of children that lack access 
        to education.
  <bullet> Quality education: Our efforts to achieve universal basic 
        education cannot simply be measured by enrollment figures. 
        Rather, we must ensure that every child has access to a quality 
        education, and is in an environment that is conducive to 
        learning. Specifically, we must ensure that we have adequate 
        resources, including a trained teacher workforce and 
        educational materials, and an environment that is free from 
        violence.
  <bullet> Accountability: We must ensure that our increased investment 
        comes with a plan for coordination, so that we are 
        complementing, not duplicating, other efforts. It is also 
        important to have strong management within our Government to 
        oversee these efforts, facilitate cooperation among agencies 
        and other partners, and ensure that we are making continued 
        progress toward universal basic education.
                            weapons in space
    Question. The Bush administration refused to engage in multilateral 
talks regarding any constraints on the testing or deployment of 
antisatellite weapons. China conducted one such test in 2007 that 
produced tens of thousands of pieces of space debris that will last for 
a century or more. Space debris can be lethal to satellites upon which 
American citizens, our Armed Forces, and the American economy depend. 
What is your view toward diplomatic initiatives to increase space 
security?
    Please outline your broad views on whether or not the deployment of 
new weapons in space enhances or undermines U.S. national security. 
Under your leadership, will the State Department pursue diplomatic 
initiatives to enhance space security?

    Answer. During the campaign, President-elect Obama outlined his 
view that weaponizing space was not in America's interest. That remains 
his view and my view.
                          land mine ban treaty
    Question. More than 10 years ago, President Clinton was a leader in 
the global effort to ban antipersonnel landmines, being the first head 
of state to call for the ``eventual elimination'' of these weapons in 
1994. The world community rallied, and 122 governments signed the Mine 
Ban Treaty in December 1997. The United States did not sign, as 
objections were raised by the Pentagon about the possible continued 
need for these weapons. At that time, President Clinton set out a 
policy that would have the United States developing alternative 
technologies and joining the treaty by 2006. The Bush administration 
then undertook a review of this policy and announced in February 2004 
that the United States new policy was to never join the treaty.
    Please outline whether or not you intend to revisit the U.S. 
position on the Land Mine Ban Treaty as Secretary of State.

    Answer. The incoming administration has not taken a position on the 
landmine treaty. We are committed to working with our friends and 
allies around the world to reduce the threat posed by landmines.
                        cluster munitions treaty
    Question. On December 3, 2008, 94 nations, including some of the 
United States closest military allies such as Great Britain, France, 
and Australia, signed a treaty in Oslo, Norway, banning the production, 
stockpiling, transfer and use of cluster munitions. The Bush 
administration did not participate in the negotiation of the treaty and 
did not sign it. However, the U.S. Government did acknowledge that 
these are weapons of grave humanitarian concern, and in June 2008 
Secretary Gates articulated a new U.S. policy that in 10 years, the 
military would stop using and begin destroying its arsenal of cluster 
munitions.
    A spokeswoman for the Obama Transition Team was quoted on December 
3 in The Chicago Tribune that the next President would ``carefully 
review the new treaty and work closely [with] our friends and allies to 
ensure that the United States is doing everything feasible to promote 
protection of civilians.''
    Can you confirm that this policy review will take place? If so, 
what is the timeframe for the policy review? Please outline the broad 
principles that are likely to guide the Obama administration's policy 
review on cluster munitions.

    Answer. The incoming administration has not taken a position on the 
new cluster bomb treaty. I look forward to working with the President-
elect and the rest of the national security team on this issue in order 
to develop a policy that upholds our moral obligations while protecting 
our troops. The new administration will carefully review the treaty in 
consultation with military commanders and work closely with our friends 
and allies to ensure that the United States is doing everything 
feasible to promote protection of civilians--especially children.
                                 china
    Question. By 2025, China is expected to have the world's second 
largest economy and be a leading military power. It also could be the 
world's largest importer of natural resources and the biggest polluter. 
Many believe that the United States-China relationship is the most 
important bilateral relationship in the world. While the United States 
and China have fundamental differences on key issues, including the 
future status of Taiwan, it also has common areas of cooperation, such 
as securing the peaceful nuclear disarmament of North Korea.
    Please outline how the United States will view China under 
President Obama. Will the Obama administration view China as a national 
security threat to the United States, a cooperative partner for a 
common security agenda, or some combination of the two?

    Answer. It is difficult to put a label on a complex relationship. 
We have to find ways to work cooperatively with China on issues of 
shared concern--including climate change, North Korea, and 
proliferation--while we also candidly and frankly express our views 
when and where we disagree--as on democracy, human rights, for example. 
With American leadership and this pragmatic approach, we can improve 
our relationship with China and advance our shared interests. That is 
the approach that I will take into my job if I am fortunate enough to 
be confirmed.
                       the role of special envoys
    Question. Numerous press reports indicate that you are looking at 
the appointment of a series of regional envoys to manage such hotspots 
as the Middle East, Iran, South Asia, North Korea, and other crises.
    Can you describe your thinking behind this approach of appointing a 
series of special envoys to help manage the key foreign policy hotspots 
for the next administration?
    How will these special envoys coexist with the regional Assistant 
Secretaries; e.g., for Near Eastern Affairs, for South Central Asian 
Affairs, etc.? Do we run the risk that these regional Assistant 
Secretaries will be marginalized?
    How will you ensure that the interagency process will be respected 
as these special envoys carry out their duties? That the equities of 
the Defense Department, the National Security Council, and other key 
executive branch components are not ignored or brushed off?

    Answer. If confirmed, I am committed to using the full range of 
tools and resources at my disposal to ensure that the State Department 
carries out its vital mission during this challenging time. I hope to 
bolster the Department's senior ranks by becoming the first Secretary 
to fill the second Deputy Secretary position. I've asked Jack Lew to 
join me at the State Department, so that we can tap into his expertise 
in budgeting and management to ensure that the Department has the 
resources it needs to carry out its mission, and that those resources 
are deployed effectively. And like Secretaries of State have in the 
past, I anticipate using envoys as additional means to achieve the 
President-elect's goals for America's foreign policy. No specific 
decisions have been made about specific envoys, but I can tell you that 
these envoys will work in tandem with the Department's existing 
structures--and collaboratively through the interagency process--to 
bring additional focus and resources to a given issue or area.
                                  iran
    Question. Iran is likely to be the most serious foreign policy 
challenge that confronts President Obama. Over the past 3 years, 
despite the passage of a series of United Nations Security Council 
resolutions imposing sanctions, Iran has continued to steadily move 
forward on its nuclear program, drawing closer and closer to mastering 
the uranium enrichment cycle that can provide the fissile material for 
a nuclear weapon. For the past 2 years, I have encouraged the Bush 
administration to take a look at the utility of placing further 
pressure on Iran by assembling an embargo on exports of reprocessed 
gasoline products to Iran. As you know, despite its vast oil resources, 
Iran does not have sufficient refining capacity to supply its consumers 
and economy with sufficient gasoline, leaving it to import refined gas.
    Should the United States lead an international effort to ban the 
export of reprocessed gasoline products, an essential ingredient for 
Iran's industrial economy, to increase the pressure on Iran's 
leadership to end its nuclear activities in defiance of the United 
Nations?

    Answer. We are closely monitoring this situation, and remain 
cognizant of potential pressure points with Iran. We will examine a 
range of options to apply pressure to the Government of Iran to end its 
illicit nuclear program, and preventing Iran from importing refined 
gasoline will be one such option we examine. The incoming 
administration will work with our international allies to persuade the 
Iranian regime that verifiably abandoning its nuclear weapons efforts 
is in its best interest.
                      jubilee act and debt relief
    Question. The current financial crisis is having impacts all around 
the world and it threatens to reduce progress toward meeting global 
poverty reduction goals in Africa, Asia, and Latin America. In the last 
Congress, working with the ranking member, Senator Lugar, Senator Dodd, 
and 23 other Senate cosponsors, I introduced the Jubilee Act for 
Responsible Lending and Expanded Debt Relief, to build on previous 
rounds of debt cancellation to make all impoverished nations with 
accountable governments eligible for bilateral and multilateral debt 
relief. I look forward to introducing the legislation again this 
spring.
    What should be done to alleviate the impact of the global economic 
crisis on the world's most impoverished countries? What is your view on 
the role of debt relief as a tool to help poor countries free up their 
resources to fight poverty? Specifically, do you support expanding the 
list of poor countries eligible for debt cancellation to include all 
transparently and accountably governed impoverished countries that 
qualify for so-called ``IDA only'' assistance from the World Bank?

    Answer. President-elect Obama and I each cosponsored the Jubilee 
Act in the Senate, and believe that the United States and its G-8 
partners must complete debt cancellation for all of the Heavily 
Indebted Poor Countries (HIPC)--a commitment the President-elect 
enumerated during the campaign. I have been supportive also of 
expanding the list of HIPC countries, and will urge that the new 
administration give that full consideration as part of our foreign 
assistance program.
                  the millennium challenge corporation
    Question. The Millennium Challenge Corporation, or MCC, has been 
one of President Bush's signature development programs. It has been 
both praised as encompassing innovative and creative ideas, as well as 
criticized for being too slow to disburse funds once a compact has been 
signed.
    I am a strong backer of the MCC, as I believe the idea of linking 
expanded U.S. foreign assistance to governments that demonstrate a 
record of good governance, market-based economic stewardship, 
transparency in budgets, and anticorruption practices is a solid one--
we should reward those governments that do the right thing by their 
people.
    Can you describe to the committee your general views on the MCC? Is 
this an initiative that will continue with strong support under the 
Obama administration? How do you envision the MCC fitting into broader 
U.S. foreign assistance reform efforts this administration may pursue?

    Answer. The MCC is a unique tool in America's foreign policy 
portfolio. It has the potential to incentivize poverty reduction, 
improve health structures, and better governance in developing 
countries. President-elect Obama supports the MCC, and the principle of 
greater accountability in our foreign assistance programs. However, 
there are clear challenges within the MCC, such as the pace of 
implementation of compacts and the danger of a lack of coordination 
with overall U.S. foreign assistance. If confirmed, I look forward to 
working with the Congress to integrate the MCC as a key part of a 
modernized foreign assistance architecture.
                   violence against iraqi christians
    Question. Violence in Mosul this previous fall drove away large 
numbers of Iraqi Christians. This violence is emblematic of a larger 
pattern of severe persecution by extremists that threatens to deprive 
Iraq of her non-Muslim citizens. It also highlights the possibility of 
increased violence ahead of provincial elections.
    For over 1,000 years, Iraq has been home to people of many faiths 
who have lived and worshipped side by side, including Shiites, Sunnis, 
Jews, Yazidis, and Christians. This long and proud tradition has made 
Iraq a cradle of human civilization.
    How do you intend to work with the Iraqi Government to ensure that 
Iraqi Christians are not singled out for persecution and violence?

    Answer. Religious persecution is anathema to Americans. We believe 
in the freedom to worship, and there is an office in the State 
Department that is committed to religious freedom. I will work with our 
international allies to speak out strongly against discrimination and 
oppression in any form--in Iraq and elsewhere--because it violates not 
only American values, but also American security interests throughout 
the world.
                                 ______
                                 

      Responses to Questions Submitted by Senator George Voinovich

                 special envoy to combat anti-semitism
    In 2004, I was fortunate to have you join me as a cosponsor of the 
Global Anti-Semitism Review Act of 2004 (P.L. 108-332). As you know, 
this legislation created the Office of the Special Envoy to Monitor and 
Combat Anti-Semitism at the State Department. This office, housed in 
the Bureau of Democracy, Human Rights, and Labor (DRL) is tasked with 
the development and implementation of policies and projects to support 
efforts to combat anti-Semitism.

    Question. Jewish communities throughout the world cannot afford a 
gap in coverage. Can you assure members of the committee that the 
special envoy position will be expeditiously filled by a competent and 
capable individual?

    Answer. President-elect Obama and I are strongly committed to 
combating global anti-Semitism, and all forms of hate and prejudice. 
The Special Envoy to Monitor and Combat Anti-Semitism is a key post in 
enabling the United States to fulfill this mission, and it will be 
filled by a strong individual.
                   relationship with u.n. ambassador
    I understand that President-elect Obama has decided to elevate the 
position of U.N. Ambassador to Cabinet-level status. I also understand 
that the Ambassador's staff and policy apparatus is housed within the 
State Department bureaucracy that technical1y reports to the Secretary 
of State.

    Question. What is your vision for your relationship with Susan Rice 
and the U.N. Ambassador's office in terms of policy formulation, 
messaging, and management?

    Answer. I look forward to a very close and cooperative relationship 
with Dr. Rice, the Permanent Representative designee. In elevating the 
position to Cabinet rank, the President-elect intended, in part, to 
demonstrate to the U.S. people and the rest of the world the importance 
of global engagement. This is an arrangement that has substantial 
historical precedent, and I am confident that this structure will serve 
the President-elect and his entire foreign policy team well.
                       defense trade cooperation
    International arms sales help to sustain U.S. jobs, reduce the cost 
of weapons procurement by the Department of Defense, help to grow small 
businesses, and support the national security and foreign policy 
objectives of the U.S. Government. It is important that the Obama 
administration continue to support arms sales as an important foreign 
policy tool.

    Question. Senator Clinton, does the committee have your commitment 
to support critical arms sales to our partners and allies around the 
world?

    Answer. As you know, controlling the export of commercial defense 
items is a significant Department responsibility. I am very much aware 
that the committee has long been concerned about the efficiency and 
effectiveness of the export licensing process. I am just getting up to 
speed on these issues but am committed to work closely with Congress as 
we consider international sales.

    Question. Does the incoming administration intend to pursue 
ratification of defense trade cooperation treaties with the United 
Kingdom and Australia?

    Answer. The proposed defense trade cooperation treaties would 
permit the export of certain U.S. defense articles and services to the 
United Kingdom and Australian governments, and select British and 
Australian companies that meet specific requirements--without U.S. 
export licenses or other approvals. I know that the committee 
leadership has expressed support for the objectives of the treaties, 
but that there were unresolved questions that ultimately precluded 
committee action on the treaties in the previous Congress. I look 
forward to consulting with the Foreign Relations Committee to discuss 
the appropriate way to address these treaties.
                  great lakes water ouality agreement
    Question. The Great Lakes Water Quality Agreement (GLWQA) with 
Canada is now up for renegotiation. What will be your priorities in 
changes to the agreement?

    Answer. The Great Lakes Water Quality Agreement (GLWQA) with 
Canada, which was last updated in 1987, has made a significant, 
continuing contribution to the health of the Great Lakes and to the 
quality of life of people in both countries. An interagency working 
group cochaired by the State Department and the Environmental 
Protection Agency is now reviewing U.S. positions on what changes to 
the agreement, if any, we should seek going forward. I look forward to 
receiving its recommendations at an early date.

    Question. What mechanisms will you put into place to ensure that 
the GLWQA with Canada is implemented and legally enforceable in the 
U.S.?

    Answer. This issue will be considered as part of the ongoing 
review.
                                 ______
                                 

        Response to Question Submitted by Senator Lisa Murkowski

    Question. President Bush signed legislation that supports Taiwan's 
observer status in the World Health Organization (WHO). As Secretary of 
State, you would be working with health leaders in other countries to 
improve the international health security network. The SARS epidemic, 
the catastrophic tsunami that ravaged Southeast Asia, and the threat of 
avian flu all demonstrate the importance of international cooperation 
in fostering global health security. Along those lines, how will you 
work to improve Taiwan's participation in the World Health 
Organization?

    Answer. I commend Taiwan's President Ma and China's President Hu 
Jintao for seizing the opportunity created by President Ma Ying-jeou's 
election this past March. I sincerely hope they will continue this 
progress, as the United States gains from peaceful, stable cross-Strait 
relations, including development of economic ties and cross-Strait 
security. In this context, and consistent with the ``one China'' 
policy, I believe that it is appropriate for the United States to 
support Taiwan's efforts to expand its international space, such as 
observer status at the World Health Assembly. It is important for 
Beijing to demonstrate to the people of Taiwan that the practical and 
nonconfrontational approach taken by President Ma toward the mainland 
can achieve positive results. As you note, there are myriad public 
health issues that result from Taiwan's continued exclusion from 
appropriate participation in the World Health Organization, and like 
you I believe that the United States should work with Taiwan to see 
that situation rectified.
                                 ______
                                 

         Responses to Questions Submitted by Senator Jim DeMint

                       foreign policy philosophy
    Question. Much has been made of the Bush administration putting 
military preemption on the policy table as a possible option against 
states hosting terrorists or adversarial states on the verge of 
developing weapons of mass destruction. Yet, in the mid-90s, the 
Clinton administration considered undertaking a preemptive strike 
against North Korea in light of its nuclear weapons program and its 
unwillingness to return to the strictures of the NPT. Will the Obama 
administration keep the possibility of military preemption as a policy 
option and, if so, what will be the parameters guiding its use?

    Answer. As the President-elect has said many times, there is no 
greater duty for any President than keeping the American people safe. 
He has made clear that he will use all tools of American power to do 
that. Decisions about ordering military force rest with the President, 
and as such I cannot comment on it.

    Question. Do you believe that tensions between Iran and the 
international community result primarily from misunderstandings or from 
conflicting objectives? If the latter, how will increased diplomatic 
engagement with Iran help reduce these tensions?

    Answer. The Iranian regime's stated objectives and practices--such 
as supporting terrorist groups like Hamas and Hezbollah, pursuing a 
nuclear program in defiance of the international community, and calling 
for the destruction of Israel--are directly counter to U.S. national 
security and interests. That is why the new administration will present 
the Iranian regime with a clear choice: Abandon your nuclear weapons 
program, support for terror and threats to Israel, and there will be 
meaningful incentives; refuse, and we will ratchet up the pressure, 
with stronger unilateral sanctions; stronger multilateral sanctions in 
the Security Council; and sustained action beyond the U.N. to isolate 
the Iranian regime. By exhausting diplomacy, we will be better able to 
rally the world to our side, strengthen multilateral sanctions, and to 
convince the Iranian people that their own government is the author of 
its isolation.

    Question. What is your view regarding the status within the 
international system of the independent, sovereign state in general, 
and the importance of preserving and protecting American sovereignty in 
particular? Do you ascribe to traditional views of national sovereignty 
or to the theory of ``global governance''?

    Answer. The overriding duty of our foreign policy is to protect and 
advance America's security, interests, and values. If confirmed, my 
first priority as Secretary of State will be to promote policies to 
keep our people, our Nation, and our allies secure. Our world has 
undergone an extraordinary transformation in the last two decades. The 
clear lesson of the last 20 years is that we must both combat the 
threats and seize the opportunities of our interdependence. And to be 
effective in doing so we must build a world with more partners and 
fewer adversaries. America cannot solve the most pressing problems on 
our own, and the world cannot solve them without America.

    Question. What are your views regarding several controversial 
multilateral treaties and efforts by the United Nations that, if 
supported or ratified by the United States, would erode American 
sovereignty?

    Answer. The new administration has not made any decisions on the 
timing of submission of treaties to the Senate. As in the case of any 
treaty that the President may support, the administration will work 
closely with this committee and the Senate leadership on devising and 
implementing a strategy for successful approval of by the full Senate.
    The President-elect and I have both supported ratification of the 
Law of the Sea Convention and he has publicly committed to working 
actively to ensure that the U.S. ratifies the Convention. The 
Convention remains an important piece of unfinished treaty business.
    The incoming administration agrees with the Chief of Naval 
Operations, and the other members of the Joint Chiefs of Staff, all of 
whom endorsed the Convention during the 110th Congress. Joining the 
Convention will advance the interests of the U.S. military. As the 
world's leading maritime power, the United States benefits more than 
any other nation from the navigation provisions of the Convention. 
Those provisions, which establish international consensus on the extent 
of jurisdiction that States may exercise off their coasts, preserve and 
elaborate the rights of the U.S. military to use the world's oceans to 
meet national security requirements.
    Joining the Convention will enhance, not restrict, our ability to 
interdict shipment of weapons of mass destruction on the ocean. The 
Convention's navigation provisions derive from the 1958 law of the sea 
conventions, to which the United States is a party, and also reflect 
customary international law accepted by the United States. As such, the 
Convention will not affect applicable maritime law or policy regarding 
interdiction of weapons of mass destruction, their means of delivery, 
and related materials,
    Like the 1958 conventions, the LOS Convention recognizes numerous 
legal bases for taking enforcement action against vessels and aircraft 
suspected of engaging in proliferation of weapons of mass destruction, 
including exclusive port and coastal State jurisdiction in internal 
waters and national airspace; coastal State jurisdiction in the 
territorial sea and contiguous zone; exclusive flag State jurisdiction 
over vessels on the high seas (which the flag State may, either by 
general agreement in advance or approval in response to a specific 
request, waive in favor of other States); and universal jurisdiction 
over stateless vessels.
    Nor will the Convention undermine the Proliferation Security 
Initiative (PSI). PSI requires participating countries to act 
consistent with national legal authorities and ``relevant international 
law and frameworks,'' which includes the law reflected in the Law of 
the Sea Convention. Finally, nothing in the Convention impairs the 
inherent right of individual or collective self-defense (a point which 
is reaffirmed in the Resolution of Advice and Consent proposed by the 
committee in the 110th Congress).
                              middle east
Iraq
    Question. It no longer requires a willing suspension of disbelief 
to imagine the emergence of a peaceful, stable, democratic Iraqi state 
that is an ally in the war on terror. Such a development, as Deputy 
Prime Minister Barham Salih recently noted, creates a remarkable 
opportunity to integrate a normal Iraq that can contribute to regional 
security into the Arab world for the first time in decades. What steps 
do you propose to take to accelerate and facilitate this integration? 
What larger regional opportunities do you see in the prospect of such a 
reintegration? In particular, what measures are you prepared to take to 
persuade the Saudis to reopen their Embassy in Baghdad?

    Answer. The President-elect and I are committed to active regional 
diplomacy to assist in consolidating Iraq's security gains. In recent 
months, there have been hopeful signs that Iraq's neighbors are 
beginning to more fully engage the Iraqi Government, including high-
level visits by foreign officials and commitments by Bahrain, Jordan, 
Syria, and the United Arab Emirates to open embassies in Baghdad. 
Although Saudi Arabia has not yet committed to following suit, the 
Kingdom has dispatched a delegation to inspect the situation in Iraq 
and examine the possibility of opening an embassy. The State Department 
will work to build on this momentum to assist in fully reintegrating 
Iraq into the region and fostering cooperative relationships with 
Iraq's neighbors, including Saudi Arabia.

    Question. Currently, the State Department relies heavily on 
contractors to provide security for U.S. diplomatic personnel and 
facilities aboard. Considering the substantial improvements in the 
accountability, transparency, and government oversight of security 
contractors in Iraq do you feel that we are close to achieving the 
right balance between supervisory functions being conducted by U.S. 
Government personnel and the security functions carried out by 
contractors who employ vetted and trained U.S. military and law 
enforcement veterans?

    Answer. Ensuring security for U.S. diplomatic personnel and 
facilities in Iraq is essential. Right now, much of the rebuilding is 
taking place under a security umbrella provided by the brave young men 
and women of our Armed Forces. Their departure from critical areas in 
Iraq will certainly change the security calculus. How we deal with this 
challenge--both generally and specifically with respect to Provincial 
Reconstruction Teams (PRTs)--has been and will continue to be the 
subject of discussions among the national security team and with the 
President-elect.
    Both the President-elect and I have been outspoken in calling for 
more oversight and accountability for private contractors and more 
tools to stop abuses in Iraq. I have been highly skeptical of heavily 
armed military contractors who have operated in Iraq without any law or 
court to rein them in or hold them accountable. These contractors have 
at times been reckless and have at times compromised our mission in 
Iraq.
    I look forward to working with the President-elect and the Congress 
to establish the legal status of contractor personnel, so that we can 
prosecute any abuses committed by private military contractors. In 
addition, our experience in Iraq has shown that there must be serious 
oversight and effective program management--and that starts at the 
State Department. I will be especially vigilant about this. Finally, it 
is important to remember that there are many private contractors in 
Iraq and elsewhere who are honorable, hardworking, and patriotic. But 
we have seen too many abuses in the past few years to do anything less 
than impose a new legal regime to hold security firms and individual 
personnel accountable when they act outside the law.

    Question. CBO has stated that contractors are less expensive to the 
Federal Government. Do you believe we should continue to utilize 
security contractors? If not, what are your specific plans to replace 
contractors in this security role? How large would Diplomatic Security 
have to grow in order to bring this security function in-house?

    Answer. If confirmed as Secretary of State, I will work with the 
President-elect and other administration officials to determine what 
the appropriate staffing levels should be to pursue the President-
elect's policies and priorities, and what should be the role of 
contractors. The protection of State Department personnel operating in 
areas like Afghanistan and Iraq is an important issue, and I look 
forward to working along with other members of the President's national 
security team to exploring the best way to address that issue if 
confirmed.
Syria
    Question. Many believe Syria was responsible for the assassination 
of former Lebanese Prime Minister Rafiq Hariri and the series of 
assassinations of Syria's opponents in Lebanon as well. While Syria has 
withdrawn its troops from Lebanon, it has yet to send an ambassador to 
Beirut, continues to manipulate Lebanese politics, and arms the 
nation's most significant terror group (also a political party), 
Hezbollah. In addition, Syria has facilitated the traffic of extremists 
into Iraq to kill Americans and was for several years building a North 
Korean designed nuclear reactor outside its obligations under the NPT.
    Rumors abound that the Obama administration intends to change the 
Bush administration's approach to Syria, including returning an 
ambassador. Do you believe that there should be any change in the 
United States-Syria relationship for as long as Syria refuses IAEA 
inspectors access to suspect nuclear sites, refuses to close its 
borders to terror groups, and continues to arm Hezbollah, one of the 
world's most potent terror groups, and fails to participate with the 
Hariri tribunal? What exactly are your positions on this issue and can 
you commit that these will be prerequisites to any rapprochement 
between the United States and Syria?

    Answer. The United States and Syria have profound differences on 
important issues, and the President-elect and I believe that engaging 
directly with Syria increases the possibility of making progress on 
changing Syrian behavior. In these talks, we should insist on our core 
demands: Cooperation in stabilizing Iraq; ending support for terrorist 
groups; cooperation with the IAEA; stopping the flow of weapons to 
Hezbollah; and respect for Lebanon's sovereignty and independence.
Israel
    Question. As Secretary of State, how would you characterize the 
United States-Israel relationship? What do you see as the major 
challenges to the relationship?

    Answer. The United States-Israel relationship is a profound and 
deep partnership between two democracies based on shared interests and 
shared values. We have strong and enduring political and security 
relationships, to the benefit of both countries, but our partnership 
extends to the economic, scientific, and cultural spheres as well. We 
stand together and support each other against many of the same threats. 
And while we may not always agree on every issue, there is no issue 
that can shake our fundamental commitment to Israel's security and 
well-being. The major challenge we face is helping Israel achieve its 
quest for both peace and security, which requires leaving no stone 
unturned in the search for peace between Israel and its neighbors, 
while remaining vigilant against those who seek to do Israel harm.

    Question. With Palestinian elections for the Presidency taking 
place sometime in the coming year, there is the possibility that Hamas 
will take control. What will the Obama administration policy be if the 
Palestinian Authority is run or effectively controlled by Hamas?

    Answer. I prefer not to speculate about the outcome of future 
elections in other countries. Our policy on Hamas is clear: We support 
the Quartet's conditions on any dealings with Hamas--recognition of 
Israel, renunciation of violence, and abiding by past agreements.

    Question. Recently news outlets have reported the Obama 
administration intends to begin low-level discussions with Hamas. Do 
you support President-elect Obama's policy to talk with Hamas? If so, 
what role will you play in helping facilitate these conversations?

    Answer. Those new reports are false. Our policy on Hamas is clear: 
We support the Quartet's conditions on any dealings with Hamas--
recognition of Israel, renunciation of violence, and abiding by past 
agreements.

    Question. Many believe there will be no enduring peace between 
Israel and the Palestinians until the schools in the Palestinian areas 
no longer use textbooks that deny Israel's right to exist. Will you 
commit that no U.S. foreign assistance will be used to fund education 
programs that use textbooks which deny Israel's right to exist?

    Answer. I have worked for many years to address the problem of 
Palestinian textbooks that delegitimize Israel and its right to exist. 
I agree that ending incitement and educating children in hate is 
essential for peace to take hold. I am committed to working to ensure 
that no U.S. foreign assistance funds programs that use such textbooks.

    Question. In view of comments you made in June 2008 that the United 
States will never ``impose a made-in-America solution'' to the Israeli-
Palestinian conflict, what role do you think the United States should 
take in helping to bridge the gaps between the two parties on sensitive 
issues like Jerusalem, refugees, and borders?

    Answer. These issues are indeed among the most sensitive issues the 
parties face, which is why Israelis and Palestinians have designated 
them as final status issues. It is clear that no agreement on these 
issues can last unless the parties themselves agree to it, and it 
cannot be imposed upon them by any outside actor. The United States 
should do whatever we can to support Israelis and Palestinians in their 
peace efforts and help ensure they have the opportunities to reach such 
agreements.

    Question. The United States has long maintained a policy-espoused 
by Presidents of both parties--of opposing the many one-sided Security 
Council resolutions that, more often than not, criticize Israel, but 
fail to address other issues, such as Palestinian terrorism. More than 
41 anti-Israel Security Council resolutions have been vetoed by the 
United States over the years.

  <bullet> Do you support the use of the American veto to block one-
        sided anti-Israel resolutions in the Security Council?
  <bullet> What do you believe should be the standard employed in 
        deciding whether to veto or not?
  <bullet> How would you have advised President-elect Obama to vote on 
        the recent U.N. resolution on Israel and Hamas? Would you have 
        recommended a veto or voting for, against, or abstaining?

    Answer. Yes. The United States has a long history of using its veto 
at the Security Council to ensure that it does not pass resolutions 
that unfairly target the State of Israel. Each proposed resolution must 
be judged on its merits, but the Obama administration is prepared, 
whenever appropriate, to continue this American role in the Security 
Council. I do not want to speculate on what future resolutions might 
look like. When it is in the U.S. interest, we will continue to use our 
veto as necessary,
    As for U.N. Security Council Resolution 1860, we are obviously very 
concerned about the serious situation in Gaza and southern Israel. 
President-elect Obama has spoken about his deep concern for the loss of 
civilian life in Gaza and Israel, and I think we all agree that it is 
very important that a durable cease-fire be achieved. That will require 
an end to Hamas rocket fire at Israeli civilians, an effective 
mechanism to prevent smuggling of weapons into Gaza, and an effective 
border regime. We will work hard with our international partners to 
make sure all these elements happen. The cease-fire should be 
accompanied by a serious effort to address the immediate humanitarian 
needs of the Palestinian people and a longer term reconstruction and 
development effort. The Bush administration is in the middle of 
sensitive diplomatic negotiations on behalf of the United States, so I 
think it is best that I not comment specifically on the negotiations 
underway. I will say that we plan to be actively engaged on diplomacy 
in the Middle East in pursuit of peace agreements to resolve conflicts, 
and when necessary, to bring hostilities to an end. We are committed to 
helping Israel and the Palestinians achieve their goal of two states 
living side by side in peace and security, and will work toward this 
goal from the beginning of the administration.
Iran
    Question. Do you think that economic, diplomatic, and political 
efforts to persuade Iran to abandon its nuclear weapons program can 
succeed in the absence of the credible threat of military force against 
Iran?

    Answer. President-elect Obama has stated that he will use all 
elements of American power--political, diplomatic, economic--to prevent 
Iran from obtaining a nuclear weapon. Yet when it comes to protecting 
America's security, he would never take the military option off the 
table.

    Question. President-elect Obama has talked about direct and tough 
diplomacy with Iran. What steps does the administration intend to take 
to pursue such direct diplomacy with Iran? Do you believe that the 
United States should meet unconditionally at senior levels with the 
Iranian regime? Do you believe that the preconditions listed in several 
U.N. Security Council resolutions demanding Iran suspend enrichment are 
not preconditions to U.S. negotiations with Iran?

    Answer. The Obama administration will support tough, aggressive, 
and direct diplomacy, without preconditions, with our adversaries. Note 
that there is a distinction between preparations and preconditions. For 
possible negotiations with Iran, there must be careful preparation--
including low-level talks, coordination with allies, the establishment 
of an agenda, and an evaluation of the potential for progress.
    The U.S. should support and participate in ongoing efforts with our 
European allies and assemble an international coalition that will exert 
a collective will on Iran so that it is in their own interest to 
verifiably abandon their nuclear weapons efforts.
    We will carefully prepare for any negotiations--open up lines of 
communication, build an agenda, coordinate closely with our allies, and 
evaluate the potential for progress.
    We will not sit down with Iran just for the sake of talking. But we 
are willing to lead tough and principled diplomacy with the appropriate 
Iranian leader at a time and place of our choosing--if, and only if--it 
can advance the interests of the United States.
    We should be careful not to let our engagement with Iran be used by 
the Iranian regime in the runup to the June Presidential election--but 
the elections should not prevent us from starting a dialogue if we 
determine that there is a genuine intent to engage.

    Question. Under what conditions would you implement sanctions under 
the Iran Sanctions Act?

    Answer. While pursuing a policy of tough and direct diplomacy, the 
Obama administration will use various means to increase economic 
pressure on Iran to persuade it to abandon its pursuit of nuclear 
weapons. We will be guided by the law when it comes to applying 
statutory sanctions. If there are entities in violation of the Iran 
Sanctions Act, we will take necessary steps under that statute.

    Question. 1. With high oil prices, several Persian Gulf nations 
expressed concern with an assertive Iran and sought a closer 
relationship with the U.S. What do you believe the role of the U.S. 
should be in the Middle East?

    Answer. The U.S. should support and participate in ongoing efforts 
with our allies and partners in the region to assemble an international 
coalition that will exert a collective will on Iran so that it is in 
their own interest to verifiably abandon their nuclear weapons efforts.

    Question. Last year, the Bush administration submitted to Congress 
a peaceful nuclear cooperation agreement with Russia in accordance with 
section 123 of the Atomic Energy Act. The administration and Middle 
East nations have also expressed interest in expanded nuclear 
cooperation throughout the Gulf Region. How do you view the spread of 
nuclear technology in the Middle East? What standards would you propose 
to guide cooperation on civilian nuclear projects in the region?

    Answer. The Obama administration will carefully study cooperation 
on civilian nuclear projects in the region, focusing especially on its 
implications for our bilateral relationships and for our 
nonproliferation objectives in the Middle East and globally.
                              central asia
    Several nations in Central Asia are currently drafting religion and 
assembly laws. Just recently, after intense international pressure, 
President Nazarbayev of Kazakhstan sent his nation's religion law to 
the Kazakh Supreme Council for review, where it is expected to die or 
be changed substantially. There is serious concern that these laws in 
both Kazakhstan and Kyrgyzstan, are being used to limit faith-based 
organizations from being allowed to operate in-country and at the same 
time consolidate the power of local religious leaders.

    Question. The freedom to assemble and religious freedom are core 
values of U.S. society and are building blocks of a strong civil 
society. How do you intend to promote these values in U.S. foreign 
policy as a whole and in central Asia specifically?

    Answer. The President-elect and I believe that it is a false choice 
to argue that we must either pursue our interests or our values. We are 
most effective when we pursue in parallel and at the same time. The 
President-elect has expressed support for organizations such as the 
National Endowment for Democracy, which offer us a way to interact 
directly with those fighting for greater pluralism in the world, 
including in Central Asia.
Afghanistan
    Question. President-elect Obama has commented frequently about the 
need for a ``surge'' in Afghanistan. Do you believe the success of the 
surge in Iraq can be replicated in Afghanistan?

    Answer. If I am confirmed, designing and implementing a more 
effective strategy in Afghanistan will be one of my highest priorities 
at the State Department. We have lost ground in Afghanistan over the 
past 7 years. Our strategy has to acknowledge Afghanistan as it is, not 
as we hoped it would be 7 years ago. We also have to acknowledge that 
we will not see progress in Afghanistan overnight. The President-elect 
and the entire national security team understand Afghanistan and 
northwest Pakistan are the central front in the war on terror, and we 
know that it is critical that we make progress there.
    I look forward to working with my colleagues to implement a new set 
of strategies that will help us confront the resurgence of the Taliban 
and the persistent threat of al-Qaeda in Afghanistan. Additional troops 
are certainly a part of that--though Secretary Gates can better speak 
to the military dimensions of our efforts in Afghanistan.

    Question. Unlike Iraq, most Afghanis lack the education level and 
the country lacks many of the basic institutions necessary to create a 
stable and secure government and society. How do you believe this will 
shape any surge strategy?

    Answer. The President-elect and I have consistently said that our 
strategy in Afghanistan cannot simply be about adding more troops. He 
has enunciated an approach that we call ``more for more''--more troops 
and assistance from the U.S. as we seek more from NATO allies, and more 
from an Afghan Government that needs to focus on improving the lives of 
its people. We also have to implement a coherent Pakistan strategy, one 
that involves more nonmilitary aid and more pressure on Pakistan to 
fight terror. With this set of principles, and with the resources, 
focus and diplomatic effort that Afghanistan deserves--and has been 
denied because of our entanglement in Iraq--we believe that we can make 
progress in supporting the people of Afghanistan and preventing al-
Qaeda from staging future attacks.
    Economic development is absolutely essential to Afghanistan's 
stabilization and reconstruction. It is inextricably linked to 
security. The President-elect has proposed a ``more-for-more'' strategy 
which will provide additional nonmilitary aid each year--above and 
beyond what is given now. That money will be focused on initiatives 
dealing with education, infrastructure, human services, and alternative 
livelihoods for poppy farmers. And it will be accompanied by tougher 
anticorruption measures. We will tie aid to better performance by the 
Afghan national government, including anticorruption initiatives and 
efforts to extend the rule of law across the country. We will also work 
to ensure that investments are made not just in Kabul but out in 
Afghanistan's provinces.

    Question. On trips to Afghanistan, my staff and I found a glaring 
lack of coordination among reconstruction efforts. For instance, 
schools were built with no teachers to teach in them, large sums of 
money were spent to meet the requirements of USAID personnel in 
Washington without any lasting affects on the ground, and large 
portions of U.S. foreign aid allocated for Afghanistan stayed in the 
U.S., there was no comprehensive list of reconstruction projects, and 
PRTs do not communicate routinely to compare successes and mitigate 
deficiencies. What is your plan to ensure U.S. foreign aid is spent 
effectively and provide the oversight necessary to ensure U.S. taxpayer 
money is not wasted?

    Answer. I welcome congressional oversight and ongoing consultation 
with this committee as key tools in ensuring efficient and effective 
investment of American taxpayer resources. I agree that our development 
and reconstruction efforts need to be better planned, coordinated, and 
tied to a broader strategy. If confirmed I will work with my colleagues 
in the Department, at USAID, DOD, and elsewhere to make that happen. In 
addition, any U.S. assistance to Afghanistan will be accompanied by 
tougher anticorruption measures. We will tie aid to better performance 
by the Afghan national government, including anticorruption initiatives 
and efforts to extend the rule of law across the country. We will also 
work to ensure that investments are made not just in Kabul but out in 
Afghanistan's provinces.

    Question. NATO's International Security Assistance Force has been 
plagued by a lack of commitments from NATO allies and caveats they 
place on their forces deployed to Afghanistan. While many European 
leaders speak of the commitment to Afghanistan, they do not advocate 
the need for the mission among their own citizens and to lift their 
caveats. What do you believe can be done to reduce the number of 
caveats--especially ones that U.S. commanders have highlighted as the 
most egregious?

    Answer. Afghanistan is not just a challenge for the United States--
it is a critical security issue for our allies in NATO and for all 
countries in the region. Afghanistan's considerable problems will not 
be resolved without the cooperation of these countries, which requires 
a regional strategic approach. That is what I will seek to implement if 
confirmed.
    That is why we believe our NATO allies must do more. The Obama 
administration will seek greater contributions from them in 
Afghanistan. We will ask our NATO allies to reconsider national 
restrictions on NATO forces. The NATO force is short-staffed and some 
countries contributing forces are imposing restrictions on where their 
troops can operate, tying the hands of commanders on the ground. The 
Obama administration will work with European allies to end these 
burdensome restrictions and strengthen NATO as a fighting force.
Pakistan
    Question. Since 9/11, the United States has given more and more 
assistance to Pakistan, both in FMF and in development assistance. 
While Pakistan has in some ways stepped up in aiding the war on terror, 
in many ways the government has allowed and even supported the 
resurgence of the Taliban and other al-Qaeda affiliated groups. Do you 
believe that Pakistan has done everything possible to combat extremist 
groups, including fighting the cross-border movement of extremists into 
Afghanistan? How important is Pakistani military and intelligence 
support for groups like Lashkar-e-Taiba, the group responsible for the 
recent Mumbai terrorist attacks? Should the United States use its 
assistance as leverage to wean Pakistan military and intelligence away 
from extremist groups?

    Answer. We need to ensure that we do as much as possible to engage 
a wide range of Pakistan's democratically elected civilian leaders. 
U.S. military assistance to Pakistan must be conditioned on Pakistan's 
efforts to close down training camps, evict foreign fighters, and 
preventing the Taliban and al-Qaeda from using Pakistan as a terrorist 
sanctuary. Nonmilitary assistance should be tripled, with a focus on 
the border regions, so that over the long term we are reducing the pull 
of the extremists.

    Question. In your opinion, does the unilateral use of American air 
strikes against terrorist targets in Pakistan contribute to or detract 
from the development and execution of a sound American political and 
military strategy in the region? Would you advocate relying more on 
such targeted strikes, restricting them, or keeping about the same 
policy we have today? In general terms, do you think that a counter-
terrorism strategy that relies primarily on such long-range strikes 
into sovereign states can be successfbl, and what price do you think 
the U.S. pays for pursuing such policies over the long term?

    Answer. We need a stronger and sustained partnership between 
Afghanistan, Pakistan, and NATO to secure the border, take out 
terrorist camps, and crack down on cross-border insurgents. We cannot 
tolerate a safe haven for al-Qaeda terrorists who threaten the American 
people. Pakistan and the international community must commit to a more 
comprehensive approach along the border--one that involves robust 
economic investment and development, good governance and government 
accountability, and enhanced security and law enforcement capacity. If 
Pakistan is willing to go after high-level terrorist targets like Osama 
bin Laden, we must give Pakistan all of the support it needs. The 
United States must also provide more assistance to benefit the 
Pakistani people directly, so that our nations forge a deeper and more 
sustainable partnership.
    Our ability to contain and diminish the threat of international 
terrorism depends heavily on our ability to build partnerships among 
nations and deepen cooperation across a range of areas, including law 
enforcement, intelligence-sharing, border controls and safeguarding of 
hazardous materials. The United States--and the State Department in 
particular--has historically played a central role in this area. I 
strongly believe that keeping terrorists on the defensive, reducing 
their room for maneuver and preventing them from striking at us and our 
allies will require that the Department act energetically to build the 
international cooperation that is essential for confronting a 
transnational threat that no one country can successfully fight alone.
                                 europe

    Question. During the 110th Congress, Senator Obama and I 
cosponsored legislation and strongly supported extending the Membership 
Action Plan (MAP) to Ukraine and Georgia. As President-elect Barack 
Obama has stated, ``Ukraine and Georgia . . . have declared their 
readiness to advance a NATO Membership Action Plan . . . they should 
receive our help and encouragement as they continue to develop ties to 
Atlantic and European institutions.'' Do you support extending the MAP 
to Ukraine and Georgia?

    Answer. While there are different views among allies on the best 
way to promote eventual NATO membership for Georgia and Ukraine, it is 
essential that we work closely with our allies to develop a common 
approach on Alliance enlargement. The NATO-Ukraine Commission and the 
NATO-Georgia Commission (established last summer) are other avenues 
available for deepening relations between the Alliance and Georgia and 
Ukraine. NATO's door must remain open to European democracies that meet 
membership criteria and can contribute to our common security. How and 
when new countries might join must be determined together with all our 
allies in the alliance.

    Question. In the French-sponsored cease-fire agreement reached with 
Russia after the invasion of Georgia, the Russians agreed to return to 
preconflict troop positions and numbers. As yet, this has not happened. 
What steps will the Obama administration take to ensure the agreement's 
terms are fully abided by and, if not, what policy consequences can we 
expect to see in United States-Russia policy for Moscow not abiding its 
terms?

    Answer. The President-elect and I have consistently insisted that 
Russia must fully comply with the cease-fire agreement, which means 
that it must return its troops in Georgia to preconflict positions. We 
have also made clear--both before and after the conflict--that Russian 
troops must be replaced with truly independent, international 
peacekeepers. Russia must know that its relations with the West will be 
harmed by a failure to implement all the provisions of the cease-fire 
agreement it signed.

    Question. In October 2008, during a television interview, Russian 
President Medvedev articulated a five-point doctrine that would govern 
Russia's foreign policy. Among other statements, he stated that ``there 
are regions in which Russia has privileged interests. These regions are 
home to countries with which we share special historical relations and 
are bound together as friends and good neighbors.'' Medvedev elaborated 
that these countries are ``the countries on our borders are priorities, 
of course, but our priorities do not end there.''

  <bullet> a. Do you believe the nations on Russia's border have a 
        right to determine who they wish to ally themselves with? Do 
        you think it is in America's interests to resist Russian 
        attempts to regain de facto control over portions of the Former 
        Soviet Union and, if so, what measures would you favor? What do 
        you think the U.S. can do to reassure our nervous NATO allies 
        in Eastern Europe that America will not abandon them to Russian 
        threats, even if NATO appears unwilling to stand up to Moscow?

    Answer a. The President-elect and I feel very strongly that the 
concept of ``privileged interests'' has no place in today's Europe. The 
democratic nations of Europe all have the right to determine what 
alliances they want to join, and their independence and sovereignty 
must be respected. We will seek to cooperate with Russia on a wide 
range of issues of common concern, but we cannot accept the notion that 
Russia or any other country has a special say over the future of its 
independent neighbors. The Obama administration will make this 
principle clear to our NATO allies, our other friends in Europe, and to 
Russia.

  <bullet> b. In November, Russian President Medvedev called for a new 
        Europe-wide security pact, essentially replacing the Final 
        Helsinki Accords of 1975. Among the principles he suggests 
        should be part of that new order is outlawing any expansion of 
        alliance relations that can be seen coming at the expense of 
        another country. In turn, after completion of the Russia-
        European Union summit in November, French President Nicolas 
        Sarkozy stated that he was interested in there being a mid-2009 
        summit which could lay down a blueprint for ``a future pan-
        European security structure.'' Is the Obama administration in 
        favor of such an effort? If so, how will NATO's pledges to 
        Ukraine and Georgia for future NATO membership be taken account 
        of? And if the administration is not in favor of negotiations 
        on new European security architecture, how will it signal that 
        fact to our European allies?

    Answer b. President Medvedev has not offered many details about his 
proposal, explained why it is needed, or explained how a new security 
pact would differ from the OSCE, an existing pan-European security 
organization. We will always be open to ideas about how European 
security can be ensured but, as already noted, could not accept 
constraints on sovereign European countries' right to choose their own 
alliance relationships. Whether candidates for NATO join the alliance 
will depend on their readiness for membership and a consensus among 
NATO members that they should join--not on the decisions of any third 
party. If confirmed I will seek to engage early on with our NATO allies 
and others on the best ways to promote security across the continent 
and around the world.
                            missile defense
    Question. It was suggested during the campaign, and during the 
early days of the post-election transition, that the U.S. might extend 
its nuclear deterrent umbrella to include Israel and other Gulf 
Cooperation Council (GCC) states. Do you support that idea?
    Before we use the threat of nuclear weapons to defend these 
countries, do you agree we should have nonnuclear measures in place 
like missile defense? Will you support deeper missile defense 
cooperation with all these states?

    Answer. The new administration has not taken a position on 
extending the nuclear deterrent in the Middle East but has a commitment 
to stopping the spread of nuclear weapons. I look forward to working 
with the President-elect, the Department of Defense, and the rest of 
the new administration's national security team to address the issue of 
deterrence and what role missile defense should play in security 
arrangements in the Middle East.

    Question. The NATO Alliance recently recognized in its Bucharest 
communique ``the substantial contribution to the protection of allies 
from long-range ballistic missiles to be provided by the planned 
deployment of European-based United States missile defence assets.'' 
Will you stand with our NATO allies and reaffirm the importance of 
missile defense?

    Answer. The Obama administration has been very clear that we will 
make a decision on whether to move forward or not with the proposed 
missile defense system in Europe based on an assessment of whether it 
works and is cost-effective.

    Question. Russia has a significant number of nuclear-tipped 
interceptors surrounding Moscow as a ballistic missile shield to 
protect much of Russia. Additionally, Russia has hundreds of ICBMs, 
including many on mobile launchers, as a significant element of their 
nuclear deterrent. Do you believe Russia has any practical reason to 
fear 10 interceptors in Poland that defend the U.S. and our NATO allies 
against Iranian missiles?

    Answer. The missile defense system with component parts in Poland 
would be in response to rogue states like Iran--not Russia. As stated 
above, the Obama administration will make a decision on whether to move 
forward or not, with the proposed missile defense system in Europe 
based on an assessment of whether it works and is cost-effective. 
Russia's decision to deploy missiles in Kaliningrad or not, will not 
influence our decisions.
                                 africa
    Question. From genocide to humanitarian crises, from military 
dictators to bad agriculture policy. Many of the problems in Africa 
have been created by poor leadership--political, military, and 
economic. What new policies do you believe are necessary to change the 
``business as usual'' conditions on the continent?

    Answer. In Africa, the foreign policy objectives of the Obama 
administration are rooted in security, political, economic, and 
humanitarian interests, including: Combating al-Qaeda's efforts to seek 
safe havens in failed states in the Horn of Africa; helping African 
nations to conserve their natural resources and reap fair benefits from 
them; stopping war in Congo; ending autocracy in Zimbabwe and human 
devastation in Darfur; supporting African democracies like South Africa 
and Ghana--which just had its second change of power in democratic 
elections; and working aggressively to reach the Millennium Development 
Goals in health, education, and economic opportunity.

    Question. Last year Congress passed legislation authorizes up to 
$48 billion over the next 5 years for HIV/AIDS prevention, treatment, 
and care programs. This occurred despite the Congressional Budget 
Office's projection that the U.S. Government could not spend more than 
$35 billion effectively. Do you believe it is wise to authorize 
spending levels above our ability to spend the money--especially at a 
time when U.S. budget pressures are skyrocketing?

    Answer. The President-elect has applauded President Bush's efforts 
to combat HIV/AIDS, and pledged to continue and enhance PEPFAR. There 
are an estimated 33 million people across the planet infected with HIV/
AIDS. We must do more to fight the global HIV/AIDS pandemic, as well as 
malaria and tuberculosis. The President-elect is committed to fully 
implementing the President's Emergency Plan for AIDS Relief and to 
ensuring that best practices, not ideology, drive funding. He has 
committed to investing $50 billion over 5 years to strengthen the 
program and expand it to new regions of the world, including Southeast 
Asia, India, and parts of Europe. At the same time, the new 
administration will work to more effectively coordinate PEPFAR with 
programs to strengthen health care delivery and address other global 
health challenges. The new administration will also increase U.S. 
contributions to the Global Fund to ensure that global efforts to fight 
endemic disease continue to move ahead through multilateral 
institutions as well. As part of these efforts, the new administration 
will work with drug companies to reduce the costs of generic 
antiretroviral drugs. And it will work with developing nations to help 
them build the health infrastructure necessary to get sick people 
treated--more money for hospitals and medical equipment, and more 
training for nurses and doctors.

    Question. Under PEPFAR ``Abstinence'' and ``Be Faithful'' 
components of our ABC method have been effective tools in the fight 
against AIDS. However, it is important to note that these components 
were requested by leaders in Africa who advised a single pillar would 
not be a wise policy. Will you continue to support the A and B 
components of PEPFAR?

    Answer. We will review and consult PEPFAR options.
AFRICOM
    Question. The organizational structure of U.S. Africa Command is an 
effort to better coordinate the disparate parts of the U.S. Government 
that all support each other in the promotion of defense, development, 
and diplomacy. This command could represent a paradigm shift for 
interagency coordination if properly supported. Do you intend to fully 
support this command and the direction it is attempting to go?

    Answer. The President-elect supports the concept of AFRICOM, as do 
I, but we want to make sure that it is implemented properly. I look 
forward to working on behalf of the President-elect, with Secretary 
Gates and General Jones, and with African nations on this issue. The 
original concept behind AFRICOM was that our engagement with Africa 
would be improved by streamlining our command structure so that there 
is a single unified command responsible for Africa, rather than three 
separate commands as has been the case. The President-elect has warned 
that we must be very careful not to overmilitarize our relations with 
African nations. On the other hand, there is a role to play for AFRICOM 
in helping train and equip African rapid response forces for 
peacekeeping operations. AFRICOM can also contribute to an enhanced 
capability of African nations to patrol their own waters.

    Question. How will the State Department and USAID interact with 
AFRICOM within Africa?

    Answer. A well-conceived AFRICOM--one that plays the traditional 
role of a combatant command rather than supplants the State 
Department's traditional role--can enhance U.S. Government efforts to 
foster peace and stability on the continent. I look forward to working 
with Secretary Gates and others to ensure that AFRICOM complements the 
efforts of State Department and USAID.
                                  asia
China
    Question. Under President Clinton, China was considered a 
``strategic partner''; however, under the Bush administration China was 
regarded as a ``strategic competitor.'' Which do you feel more accurate 
defines the current relationship between the U.S. and China?

    Answer. I would note that although President Bush used the term 
``strategic competitor'' in his first Presidential campaign, once in 
office he worked to build a relationship with China that he called 
``candid, constructive and cooperative.'' The Clinton administration 
called for ``building toward a constructive strategic partnership with 
China''; it did not assert that such a partnership already existed.
    The fact is that the U.S. relationship with China contains elements 
of both cooperation and competition. We should work where possible to 
expand the areas of cooperation while managing the areas of 
competition. It is essential that China's rise be peaceful. The United 
States cannot by itself ensure that result, but it can help create an 
environment in which China makes the right choices--choices such as 
contributing to global economic stability, ensuring fair trade, 
supporting international efforts to halt nuclear proliferation, ending 
support for repressive regimes such as those in Zimbabwe and Burma, 
protecting human rights, and combating global warming. The Obama 
administration will work to promote these and other important 
objectives in its interaction with China.

    Question. In the December 2007 issue of Foreign Affairs, you wrote 
that, ``The United States and China have vastly different values and 
political systems . . .'' and that ``we disagree profoundly on issues 
ranging from trade to human rights, religious freedom, labor practices, 
and Tibet'' while still asserting that there is much we can accomplish 
together. In the context of this bilateral relationship, how do you 
propose that we make progress on these issues related to human dignity 
where we are at such odds? Will our Ambassador in Beijing be given 
clear instruction that they are to press, both publicly and privately, 
the Chinese Government on their human rights record?

    Answer. Again, there are areas in which we can and do cooperate 
with China, and areas where we disagree. One of the areas in which we 
do not see eye to eye is human rights. The Obama administration will 
work to support movement toward democracy and greater human rights in 
China, including for Tibetans. Neither President-elect Obama nor I will 
be shy about pressing China on our concerns about human rights issues 
at every opportunity and at all levels, publicly and privately, both 
through our mission in China and in Washington.

    Question. Given China's increasing political, military, and 
economic strength in the region, how would you institutionalize a 
departmentwide or governmentwide comprehensive and consistent strategy 
to pressure China to release dissidents and political prisoners, 
curtail its human right abuses, end its support of rogue regimes in 
places like Burma and the Sudan, and end its practice of forced 
repatriation of North Korean refugees?

    Answer. The U.S. relationship with China is multifaceted, and our 
policy toward China likewise has many elements involving many U.S. 
Government agencies. Under the Obama administration, China policy will 
be directed from the top by the President and coordinated by the NSC 
and NEC. We will make early decisions about the precise institutional 
arrangements for coordinating the various strands of our China strategy 
and for engaging with the Chinese, but the issues you enumerated--
advancing human rights in China, ending Beijing's support for rogue 
regimes, and ensuring appropriate treatment of refugees--will be 
important objectives of our policy under any institutional framework.
Taiwan
    Question. International Commerce and security in East Asia rests in 
large part with stability in the Taiwan Strait. Thirty years ago, 
Congress passed the Taiwan Relations Act to ensure that Taiwan 
possessed a credible military deterrent. The Bush administration 
recently reversed course on moving forward with foreign military sales 
to Taiwan only after intense pressure. With the Chinese military budget 
growing and the buildup of Chinese forces across the Taiwan Strait, do 
you support foreign military sales to Taiwan? Do you support the sale 
of F-16s and submarines specifically? As secretary do you commit to 
work with our allies who could support some of the equipment to Taiwan? 
If you do not support these sales, how do you propose Taiwan replace 
its aging fighter aircraft and protect its merchant shipping?

    Answer. When the Bush administration announced its decision to 
notify Congress concerning the package of weapons systems for Taiwan 
this past fall, President-elect Obama welcomed that announcement. This 
package represents an important response to Taiwan's defense needs, was 
fully consistent with U.S. obligations under the Taiwan Relations Act, 
and helps to contribute to Taiwan's defense and the maintenance of a 
healthy balance in the Taiwan Strait. I take very seriously our 
responsibility under the Taiwan Relations Act to make available to 
Taiwan defense articles and services that will enable it to maintain a 
sufficient self defense capability, and for the United States to 
continually review and assess Taiwan's defense needs. But I do not 
think it appropriate to speculate on specific weapons systems or what 
future assessments might hold. The Taiwan Relations Act calls for U.S. 
defense authorities to advise the President on Taiwan's defense needs. 
I look forward to hearing their views. Like President-elect Obama, I 
believe that strengthening of Taiwan's defenses consistent with the 
Taiwan Relations Act will not undermine the process of reduction of 
tensions across the Strait and can actually promote it.

    Question. Over the years, high-level contacts between U.S. 
Government officials and Taiwan officials have decreased as U.S. 
guidelines issued by the State Department have grown more restrictive. 
In keeping with the requirements of the Taiwan Relations Act, do you 
support revising these restrictions at a time when U.S. security and 
economic interests continue to grow? Will you support Cabinet-level 
visits to Taiwan, like President Clinton?

    Answer. In his letter to President Ma Ying-jeou on May 20, 2008, 
President-elect Obama stated that he believed the United States should 
strengthen channels of communication with officials of Taiwan's 
Government. I share that view and believe that it is important that the 
United States seek to rebuild a relationship of trust with Taiwan, and 
support for Taiwan's robust democracy. I support the ``one China'' 
policy of the U.S., adherence to the three U.S.-PRC joint communiques 
concerning Taiwan, and observance of the Taiwan Relations Act, and on 
that foundation I would hope that we can both open necessary channels 
that have become blocked in recent years as well as resume, in an 
appropriate fashion, the sorts of Cabinet-level visits and exchanges 
that the United States and Taiwan enjoyed before the George W. Bush 
administration when issues in our relations warrant. These sorts of 
visits and exchanges--with U.S. officials traveling to Taiwan, and 
Taiwan officials to the United States--are positive for both the United 
States and Taiwan and can also contribute to greater cross-Strait 
stability.
North Korea
    Question. In the past you have criticized the Bush administration 
suggesting they should bypass the six-party talks and negotiate 
unilaterally with North Korea. How do you view the current state of the 
six-party talks? Do you believe the U.S. should have removed North 
Korea from the state sponsor of terror list before North Korea 
accounted for all of its proliferation activities and Japanese and 
South Korean abductees? Should we accept less than Libya style 
disarmament?

    Answer. The new administration will pursue direct diplomacy 
bilaterally and within the six-party talks to achieve the complete and 
verifiable elimination of North Korea's nuclear weapons programs, and 
an accounting for North Korea's past plutonium production, uranium 
enrichment activities, and proliferation activities.
    Sanctions should only be lifted based on North Korean performance. 
If the North Koreans do not meet their obligations, we should move 
quickly to reimpose sanctions that have been waived, and consider new 
restrictions going forward.

    Question. Do you support China's policy of repatriating North 
Korean refugees? Will you pressure China to stop this practice?

    Answer. We are greatly concerned about the status of refugees from 
North Korea who have fled that repressive regime. If confirmed, I am 
committed to working with relevant international organizations, our 
regional partners, and countries like China to ensure that refugees 
from North Korea are treated humanely and in ways consistent with 
international law.

    Question. Do you agree that it is essential that we get to the 
bottom of suspicions that North Korea is working on a covert uranium 
enrichment capability? If confirmed as Secretary of State, will you 
ensure that we agree to no diplomatic solution to the nuclear standoff 
with North Korea that does not permit us to conduct the verification 
necessary to be satisfied that North Korea has shut down and dismantled 
not just its plutonium production capability, but also whatever uranium 
enrichment capability it has?

    Answer. The Obama administration will confirm the full extent of 
North Korea's past plutonium production and its uranium enrichment 
activities, and get answers to disturbing questions about its 
proliferation activities with other countries, including Syria. The 
North Koreans must live up to their commitments and fully and 
verifiably dismantle all of their nuclear weapons programs and 
proliferation activities. If they do not, there must be strong 
sanctions. We will only lift sanctions based on North Korean 
performance. If the North Koreans do not meet their obligations, we 
should move quickly to reimpose sanctions that have been waived, and 
consider new restrictions going forward. The objective must be clear: 
The complete and verifiable elimination of North Korea's nuclear 
weapons programs, which only expanded while we refused to talk. As we 
move forward, we must not cede our leverage in these negotiations 
unless it is clear that North Korea is living up to its obligations.
South Korea
    Question. President Obama talked about restoring our image and 
reinvigorating our presence in Asia. How will you do that if we do not 
move forward with the Korea FTA which Senator Obama stated he opposed 
during the campaign?

    Answer. South Korea is an important friend and ally and if 
confirmed I look forward to building an even stronger bilateral 
relationship in the years to come. If confirmed, I look forward to 
working with the United States Trade Representative, the Treasury 
Secretary, the Secretary of Commerce, and others on the President-
elect's economic team on these issues. We will communicate forthrightly 
and fairly with South Korea, explaining that our concerns with the FTA 
are discrete and specific and have no bearing on the many collaborative 
dimensions of our alliance and friendship. We will also work to resolve 
these concerns to the satisfaction of both parties.
                           western hemisphere
    Question. Despite the fact that the U.S. remains the preeminent 
power in Latin America, Russia, China, and Iran are actively engaged 
and competing with the U.S. for influence.

  <bullet> Many diplomats and businessmen warned about the effects of 
        the U.S. Congress not passing the Free Trade Agreement (FTA) 
        with Colombia and the damage this could have on U.S. relations 
        in Latin America. What policies do you propose to correct the 
        damage that will be done to our relations with Latin America if 
        the FTA is not quickly passed?
  <bullet> Do you support the FTA in its current form?

    Answer. Let me address both of these questions together. It is 
important that we not lose sight of the many aspects of the important, 
dynamic, and complex bilateral relationship that the United States and 
Colombia have when we discuss the United States-Colombia Trade 
Promotion Agreement. I look forward to working to maintain the across-
the-board vibrancy of the relationship.
    With regard to the trade agreement, it is essential that trade 
spread the benefits of globalization. Without adequate labor 
protections, trade cannot do that. Although levels of violence have 
dropped, continued violence and impunity in Colombia directed at labor 
and other civic leaders makes labor protections impossible to guarantee 
in Colombia today.
    Colombia must improve its efforts. I look forward to working with 
members of this committee, as well as other Members of the Senate and 
House of Representatives to see what the United States can do to help 
contribute to an end to further violence and continued impunity 
directed against labor and other civic leaders in Colombia.
    The United States and Colombia have long enjoyed a close, mutually 
beneficial relationship. I am confident that through continued 
cooperation on the full array of bilateral issues, we can maintain and 
deepen that relationship. Active engagement with Colombia will be an 
important part of this administration's approach to hemispheric 
relations.
                       foreign management issues

    Question. It has been suggested that USAID should be elevated to an 
independent Cabinet agency, as in Great Britain. But the result there 
indicates that such a step would make it more difficult to shape 
development programs in a way that would advance the national interest 
and make for a coherent strategy. What are your views?

    Answer. President-elect Obama, many of the leaders selected to 
serve in his Cabinet, and many members of this committee believe that 
development can and should be a prominent piece of U.S. foreign policy 
and our national security strategy. But, to be effective, development 
assistance needs to be strengthened and modernized. The President-elect 
has committed to enhancing our foreign assistance architecture to make 
it more nimble, innovative, and effective. This means a reinvigorated, 
empowered USAID, playing a central role in the formulation and 
implementation of critical development strategies. Development serves 
our national interest as well as improves our Nation's global image. 
Increasing stability and opportunity in poor countries creates new 
allies, but also reduces the pool of people living in desperate 
situations who are susceptible to being drawn toward extremist 
tendencies.
    That said, no decisions have been made on a specific organizational 
design, and I look forward to working with you and the rest of this 
committee, as well as the House Committee on Foreign Affairs, to help 
improve development assistance. The goal of President-elect Obama--and 
my goal--is to enhance USAID's capacity and standing to carry out its 
vital missions.

    Question. During the Bush administration, Foreign Service officers 
often complained--in public--about the necessity to work in dangerous 
embassies or in isolated provincial reconstruction teams. How do you 
intend to reform the Foreign Service to meet the needs of the 21st 
century? Do you believe the Foreign Service simply needs to be larger, 
or are there problems with the State Department corporate culture that 
should be addressed?

    Answer. Based on the briefings I have received so far, I do not 
believe the Department has an adequate number of personnel. The men and 
women of the Foreign Service and Civil Service also need additional 
training opportunities, as well as resources, to carry out the many 
responsibilities assigned to the Department. If confirmed, I intend to 
work closely with the President and the Congress to secure the 
necessary resources for the Department.
    The opportunities and challenges in front of all of us are both 
promising and daunting. The objectives that the President-elect has set 
forth are compelling, demanding and necessary to meet our interests. To 
meet these goals, I am seeking to recruit strong, experienced 
professionals to join the Department. I am using every position 
available to maximize the possibility for success and to manage an 
unprecedented number of responsibilities for our Nation's security and 
prosperity.
    I intend to use both Deputy positions that are available in law--to 
manage the overall foreign policy agenda and to manage the operations 
and resources needed for success, Jim Steinberg, if confirmed, will be 
responsible for assisting me in the formulation and conduct of our 
foreign policy; Jack Lew, if confirmed, will be responsible for 
assisting me in the management of the operations and resources of the 
Department.
    I also will recommend to the President-elect under secretaries and 
assistant secretaries who are at the top of their fields, who think 
strategically and are strong diplomats and managers of talent. And, I 
will employ a time-honored tradition to make use of special envoys who 
will work in a focused fashion to address some of our most difficult 
challenges.

    Question. American diplomats and diplomacy increasingly need a 
range of skills and knowledge that go beyond traditional limits, 
including the need to work more closely with U.S. military officers and 
officials of other agencies, to oversee large reconstruction and 
development projects, and to help build strategic partnerships with 
fragile democracies and allies. What steps do you intend to take to 
prepare the State Department to master these new roles? What is your 
plan to upgrade the training and education of State Department 
personnel?

    Answer. If confirmed, I intend to be a strong advocate for 
resources for the Department including appropriate education and 
training for State Department personnel. I also plan to review the 
current training and education efforts and consider what changes in 
education and training are necessary and required. The President-elect 
has made it clear that he wants to strengthen the civilian capacity of 
the State Department and other agencies to work alongside our military, 
and we will pursue that goal.

    Question. Given the expected constraints of a growing Federal 
budget deficit, a global financial crisis, continued commitments to 
conflict and crises overseas, what priorities will you establish in 
assistance areas to guide difficult tradeoff decisions as Secretary?

    Answer. The President-elect has made it clear that he will review 
the Federal budget with new scrutiny and a commitment to initiatives 
that are effective, accountable, and make a real difference in the 
American people.
    In these challenging economic conditions, we will have to make 
strategic budget choices--choices which increase the security of this 
country and strengthen our position in the world. Targeting extreme 
poverty and preventable global diseases like AIDS and malaria in 
vulnerable countries is both smart and strategic. It saves lives, 
builds friendships in volatile places, and creates new opportunities 
for America around the world. It is in America's national interest to 
continue to support activities that are measurable successes, are 
consistent with our values, and improve our security. These will be my 
touchstones as I prepare the development assistance budget priorities 
for the State Department.
                           foreign assistance

    Question. President-elect Obama made commitments to ``elevate, 
empower, consolidate and streamline'' U.S. development programs. During 
your own campaign, you said you would ensure U.S. development 
assistance is spent in a ``smart, coordinated, and efficient manner 
with a measurable impact on people's lives.'' With foreign assistance 
programs scattered across more than 20 different Federal agencies, how 
do you intend to address inefficiencies and incoherence within the 
current structure in order to help maximize the impact of U.S. 
assistance and instability that threaten prosperity and security 
globally and at home?

  <bullet> What metrics should the U.S. Government use to gauge the 
        success of U.S. foreign assistance programs? If the metrics are 
        not met would you advocate for the elimination of a program?

    Answer. President-elect Obama and this Congress will evaluate every 
spending priority based on what works and what does not, and what fits 
best with America's national security and economic interests. Working 
in partnership, Congress and the Obama administration will have to make 
smart, strategic budget choices that deal with our problems here at 
home while also continuing to support effective initiatives that save 
lives, strengthen our security, and restore America's position in the 
world.

    Question. Over the past five decades, the Foreign Assistance Act of 
1961--which was originally written and enacted to confront the cold-war 
threats of the 20th century--has swelled into a morass of rules, 
regulations, objectives, and directives. Foreign policy experts on both 
sides of the aisle--including former USAID administrators from both 
Democratic and Republican administrations--have said writing a new 
Foreign Assistance Act is central to clarifying the mission, mandate, 
and organizational structure for U.S. foreign assistance. The Project 
on National Security Reform also recently recommended a ``comprehensive 
revision of the Foreign Assistance Act of 1961.''

  <bullet> How do you propose we redesign the foreign assistance of the 
        U.S.? Do you promise to work closely with both parties in 
        Congress to ensure reforms meet the needs of the 21st century?

    Answer. The President-elect is committed to a strengthened and 
enhanced role for foreign assistance and development in our foreign 
policy, as am I. It is both right and smart for the United States to 
renew its leadership as a nation that seeks to promote opportunity and 
security around the world. To that end, the President-elect has 
committed to doubling U.S. foreign assistance over his first term, and 
I look forward to working closely with the Congress to fulfill this 
goal. The President-elect has said that the current economic crisis 
could slow increases in foreign assistance.
    Our foreign assistance infrastructure must be able to meet the 
challenges we face today while anticipating those in the months and 
years ahead. We should look at areas which can be better coordinated 
and streamlined, and would look forward to engaging the committee on 
ideas for reform. The President-elect has stressed the need for clearer 
leadership and coordination in Washington, and continued efforts to 
prevent abuses and corruption among recipient countries. Similarly, we 
should look at those areas which have proved effective and build on 
those successes, while determining if poorly performing initiatives are 
able to be improved. I pledge to work closely with both parties in 
Congress on these important issues.

  <bullet> Where do you believe the Millennium Challenge Corporation 
        fits into any new restructuring?

    Answer. President-elect Obama supports the MCC, and the principle 
of greater accountability in our foreign assistance programs. It 
represents a worthy new approach to proverty reduction and combating 
corruption. However, there are challenges within the MCC. Pace of 
implementation is certainly one challenge, as is the danger of a lack 
of coordination with overall U.S. foreign assitance. The Obama 
administration looks forward to working to build on the promise of the 
MCC as we move forward with modernizing U.S. foreign assistance 
programs.

    Question. What is your position on linking U.S. foreign aid to 
human rights conditions? For example, Egypt, the second largest 
recipient of U.S. aid since 1979. They persist in major abuses of human 
rights and religious freedom. Would you consider conditioning aid to 
Egypt based on the government meeting certain benchmarks like the 
release of political prisoners, lifting of media restrictions, etc.

    Answer. I look forward to working with you on how best to address 
human rights concerns in Egypt.
                coordination with department of defense

    Question. The ability of the Department of Defense to conduct 
contingency planning, rapidly respond to natural disasters with 
humanitarian relief, and its vast experience in civil-military affairs 
is a cornerstone of American foreign policy and soft power projection. 
Important victories like the Berlin Airlift, the 2004 Tsunami Response, 
Pakistani Earthquake Relief in 2006, and hundreds of other humanitarian 
relief operations conducted by DOD provide immense credibility and 
benefit to America's image abroad. What do you see as the relationship 
between State Department and the Department of Defense in public 
diplomacy, humanitarian relief operations, and soft power projection?

    Answer. The President-elect has repeadedly asserted that we must 
more effectively integrate our military and civilian tools of national 
power to have a successful and sustainable national security strategy. 
If confirmed as Secretary of State, I am committed to coordinating 
efforts closely with the Department of Defense in Iraq and elsewhere 
and to instill that culture of cooperation in the Department. Secretary 
Gates and I worked well together during my service on the Senate Armed 
Services Committee and I am confident that we can work together to 
ensure that we continue to close coordination gaps between the 
Department of State and the Department of Defense. In order to 
facilitate that coordination, we must strengthen our civilian capacity 
to operate alongside our military.

    Question. There are several Department of Defense core competencies 
that are critical to the success of State Department operations; rapid 
global mobility (airlift operations), provincial reconstruction teams, 
and DOD's massive logistics system (rapidly distribute humanitarian 
relief via land, air, and sea). How do you foresee the State Department 
partnering with the DOD to increase collaboration and increase 
utilization of these areas of expertise? Do you support the Global 
Peace Operations Initiative (GPOI)? If so, how can the capabilities of 
the State Department and DOD be more effectively merged?

    Answer. As stated in response to the previous question: The 
President-elect has repeatedly asserted that we must more effectively 
integrate our military and civilian tools of national power in order to 
have a successful and sustainable national security strategy. If 
confirmed as Secretary of State, I am committed to coordinating efforts 
closely with the Department of Defense in Iraq and elsewhere and to 
instill that culture of cooperation in the Department. Secretary Gates 
and I worked well together during my service on the Senate Armed 
Services Committee and I am confident that we can work together to 
ensure that we continue to close coordination gaps between the 
Department of State and the Department of Defense. In order to 
facilitate that coordination, we must strengthen our civilian capacity 
to operate alongside our military.

    Question. As a Senator, you voted for Commander's Emergency 
Response Program funding, but at a lower figure than requested, and 
then criticized how it was being spent. According to commanders on the 
ground, CERP has been cited as being an invaluable tool to improve 
security and stability in areas of conflict. Do you support the 
continuation of CERP funding and at levels our commanders on the ground 
request? If not, how do you propose replacing this vital tool of 
foreign aid and diplomacy?

    Answer. CERP funding is an important tool for military commanders. 
However, the President-elect and I believe that we must strengthen our 
civilian capacity to operate alongside our military. If confirmed, one 
of my priorities as Secretary will be to work with Congress to increase 
resources of the Department as well as to make better use of the 
resources the Department already has.
                             united nations
International Atomic Energy Agency
    Question. Will you pledge to consult closely with the members of 
this committee concerning who the U.S. will support as the next 
Executive Director of the International Atomic Energy Agency?

    Answer. Yes.
Human Rights Council
    Question. In its first few months, the Obama administration will 
decide whether to change existing U.S. policy to attend the Durban 
Review Conference (Durban II) and fully participate in the United 
Nations Human Rights Council by seeking a seat in the upcoming May 
election. Would you recommend that the President continue current 
policy or reverse it?

    Answer. Unfortunately, the new Human Rights Council has strayed far 
from the principles of the authors of the U.N. Declaration of Human 
Rights. It has passed eight resolutions condemning Israel, a democracy 
with higher standards of human rights than its accusers, but it is only 
with difficulty that it adopted resolutions pressing Sudan and Myanmar. 
The United States should seek to reform the U.N. Human Rights Council. 
We need our voice to be heard loud and clear to call attention to the 
world's most repressive regimes, end the despicable obsession with 
Israel. If confirmed, I look forward to working with the President-
elect and the U.N. Permanent Representative and consulting with this 
committee as we review whether and when to run for election to a seat 
on the Council. Whether or not we seek election, we will certainly 
fully engage to make reform of the human rights system a priority of 
the United States.
    The United Nation's 2001 World Conference Against Racism in 
Durban--Durban I--was a disgrace. The idea of Durban I was to have a 
historic global stand against racism, which this administration 
certainly agrees is an important undertaking. But as the President-
elect has said, Durban I degenerated into an ugly display of anti-
Israel and anti-Semitic outrages. The next administration will work 
hard in an effort to ensure that the 2009 Conference--which will take 
place in Geneva in April--does not once again get twisted into a forum 
for hatred and bias, like its predecessor. We want to review what we 
can do to that end but, unfortunately, there are indications that this 
conference will be just as deeply flawed. The President-elect and I 
both believe that we must stand up to prejudice in all of its forms--
including the scourge of anti-Semitism. We will not throw up our 
hands--we'll keep working to help put the conference on a responsible 
path. But if those efforts fail, then the U.S. will not participate.
U.N. Peacekeeping
    Question. U.S. taxpayers have continually seen reports of United 
Nations peacekeepers that have robbed from, beaten, or sexually 
assaulted the very people they were sent to protect. What policies will 
you support to ensure the U.N. peacekeepers are held to high moral 
standards of conduct?

    Answer. United Nations peace operations play an important role in 
promoting peace and stability, preventing conflict, resolving conflict, 
and stabilizing conflict zones once war has ended. The new 
administration will be committed to preventing misconduct by U.N. 
military, police, and civilian peacekeeping personnel, with a 
particular focus on sexual exploitation and abuse, as well as on 
financial offenses such as fraud and black market activities. The U.N. 
has undertaken a number of preventive and disciplinary measures, such 
as establishing codes of conduct, training, investigative procedures, 
and public awareness programs. Disciplinary action by governments 
contributing personnel is also critical.
U.N. Reform
    Question. Under the Bush administration, there was a concerted 
effort to improve transparency and accountability at the U.N. However, 
these successes were limited to the Secretariat and not the myriad 
other funds and agencies that make up the U.N. Do you support these 
efforts and what policies will you promote to improve reform of the 
U.N.?

    Answer. Both Democratic and Republican Presidents have understood 
for decades that when the U.N. and related institutions work well, they 
enhance our influence. And when they don't work well--as in the cases 
of Darfur and the farce of Sudan's election to the former U.N. 
Commission on Human Rights, for example--we should work with likeminded 
friends to make sure that these institutions reflect the values that 
motivated their creation in the first place.
    We must prioritize U.N. reform, including greater transparency, 
accountability, and efficiency. The U.N. needs to modernize. Outdated 
structures and bloated management structures continue to undermine 
performance. The United States has a critical role to play helping to 
spearhead reform efforts.
                                 energy

    Question. According to a National Association of Manufacturers' 
Study, energy is the second largest cost of doing business in America. 
Access to affordable energy provides a competitive advantage for the 
U.S., vis-a-vis other countries. Will you support treaties or other 
types of international agreements that require an increase in U.S. 
Government subsidies to our energy sector or raise the cost of energy 
production in the U.S.?

    Answer. I will consult closely with other members of the new 
administration's energy policy team as well as with Congress before 
negotiating international agreements that could impact our energy 
policy in the United States.
                                 ______
                                 

         Response to Question Submitted Senator Johnny Isakson

    Question. Since 1997, the Republic of China (Taiwan) has pursued 
observer status at the annual meeting of the World Health Assembly 
(WHA), the supreme decisionmaking body of the World Health Organization 
(WHO). Taiwan will once again seek observer status when the 2009 
meeting of the WHA begins this May in Geneva.
    Taiwan has engaged in this effort because the preservation of 
global public health is one of the most important areas for 
international participation and cooperation. As witnessed in recent 
years, the threats posed by SARS and the avian flu did not respect 
national boundaries, and multilateral efforts were essential to effect 
preventative measures and control their proliferation. Occasional 
reports of outbreak of epidemic diseases demonstrate the need for 
active regional cooperation and global collaboration to preserve public 
health.
    In 2004, the U.S. Congress passed, and President Bush signed, 
Public Law 108-235, which authorized the Secretary of State to pursue 
observer status for Taiwan at the annual WHA meeting.

   If confirmed, would you reaffirm U.S. policy to support Taiwan's 
        WHA observer status? Could you describe steps that you would 
        take to advance this objective?

    Answer. I commend Taiwan's President Ma and China's President Hu 
Jintao for seizing the opportunity created by President Ma Ying-jeou's 
election this past March. I sincerely hope they will continue this 
progress, as the United States gains from peaceful, stable cross-Strait 
relations, including development of economic ties and cross-Strait 
security. In this context, and consistent with the ``one China'' 
policy, I believe that it is appropriate for the United States to 
support Taiwan's efforts to expand its international space, such as 
observer status at the World Health Assembly. It is important for 
Beijing to demonstrate to the people of Taiwan that the practical and 
nonconfrontational approach taken by President Ma toward the mainland 
can achieve positive results. As you note, there are myriad public 
health issues that result from Taiwan's continued exclusion from 
appropriate participation in the World Health Organization, and like 
you I believe that the United States should work with Taiwan to see 
that situation rectified.
                                 ______
                                 

        Responses to Questions Submitted by Senator David Vitter

    Question. What MOU language makes it crystal clear that future, 
nonattendance-fee contributions to the Clinton Global Initiative (CGI) 
will be publically disclosed?

    Answer. Thank you for the opportunity again to set the record 
straight on this issue. The only ``nonattendance-fee contributions'' to 
the Clinton Global Initiative (CGI) are sponsorship fees. In reaching 
agreement on the MOU, the Transition and the Foundation took into 
account that CGI already publishes all sponsors on an annual basis. And 
to be clear: CGI will continue its practice of disclosing the names of 
all sponsors on an annual basis. Thus, as I said in my testimony today, 
CGI is not covered in the MOU for this purpose ``because they already 
have a practice of disclosing all of their contributions. There is no 
need to require it.''

    Question. What MOU language makes it crystal clear that future 
foundation contributions from contributors will be publically 
disclosed?

    Answer. The MOU provides: ``In anticipation of Senator Clinton's 
nomination and confirmation as Secretary of State, the foundation will 
publish its contributors this year. During any service by Senator 
Clinton as Secretary of State, the foundation will publish annually the 
names of new contributors.''
    The MOU's use of ``new contributors'' includes all ``new 
contributions.'' In my response to Senator Kerry's questions for the 
record, I attempted to address any lack of clarify on this matter by 
stating: ``As I understand from the MOU, should I be confirmed, the 
foundation wiIl publish annually the names of all contributors for that 
year.''
    To restate for record here, all new contributions will be reported, 
without regard to whether the contributor has given before.

    Question. You have said that even the appearance of conflicts of 
interest must be avoided. Does the Foundation's acceptance of a major 
contribution fiom the Alavi Foundation after your nomination to be 
Secretary of State meet that test?

    Answer. The appearance of a conflict of interest must be assessed 
based upon all the facts and circumstances. In this instance, I have 
confirmed with the Foundation that it has not accepted a contribution 
from the Alavi Foundation after my nomination. The only contribution 
from the Alavi Foundation was published with all the other contributors 
on December 18, 2008.

    Question. Do you believe the U.S. is in violation of the text, 
history, practice or intent of article VI of the Nuclear Non-
Proliferation Treaty (NPT)?

    Answer. No; I do not.

    Question. Section 33 of the Arms Control and Disarmament Act 
requires that all measures that ``obligate the United States to reduce 
or limit the Armed Forces or armaments of the United States in a 
militarily significant manner'' be undertaken with respect to article 
11, section 2, clause 2 of the United States Constitution--the Treaty 
clause--requiring the advice and consent of Senators. Are you committed 
to compliance with this law?

    Answer. Yes; I am committed to comply with that law. The Obama 
administration will consult closely with the Congress on the form in 
which any agreements are submitted to the Congress.

    Question. Both you and President-elect Obama cosponsored 
legislation in the 110th Congress that would prohibit a so-called 123 
civil nuclear cooperation agreement from entering into force or being 
carried out as long as Russia continues to provide nuclear cooperation 
and advanced conventional weapons sales, including advanced air defense 
systems, to Iran. Can we assume that the President-elect and you 
continue to believe that is the right policy and as a consequence, the 
Obama administration will not push for Russia 123 to come into force 
until the objectives of that legislation are satisfied?

    Answer. Entry into force of the United States-Russia agreement for 
civil nucIear cooperation (the 123 Agreement) could bring significant 
benefits for the United States. At a technical level, an agreement 
could help accelerate U.S. nuclear energy research and development 
plans in such areas as fast neutron reactors, where the Russians 
possess both experience and facilities not available in the U.S. A 123 
Agreement also supports U.S. commercial interests by allowing U.S. 
firms to sell nuclear materials, equipment, and technologies to Russia 
and to team up with Russian companies in joint ventures to develop and 
market reactors and other products to third countries. But perhaps the 
most important benefit of a 123 Agreement is that it can facilitate a 
cooperation in preventing nuclear proliferation and nuclear terrorism--
including by allowing the U.S. to contribute materially to Russia's 
multilatera1 uranium enrichment facility at Angarsk and by promoting a 
more promising political and legal environment for pursuing a range of 
cooperative threat reduction programs (e.g., nuclear security upgrades 
in Russia). In light of Russia's behavior in the Georgia conflict, the 
Bush administration decided that the timing was not appropriate last 
year for pursuing congressional approval of the United States-Russia 
123 Agreement. The Obama administration will review this issue and 
decide how to proceed, taking into such factors as the potential 
benefits of the deal, Russia's compliance with its commitments to stop 
sensitive nuclear cooperation between Russian entities and Iran, and 
the context of the overall United States-Russia relationship.

    Question. Senator, the question of how to halt Iran's illegal 
nuclear weapons program is surely the most immediate question that will 
confront the new administration. WhiIe the Bush administration managed 
to get a series of U.N. Security Council Resolutions on the matter, it 
is widely accepted that the sanctions agreed to in those resolutions 
have been insufficient. Regardless of what one thinks of the President-
elect's plan for unconditional diplomatic engagement, I assume you 
agree that for it to be successful, the U.S. must approach that 
engagement from a position of strength, which means we must be using 
all the tools at our disposal?

    Answer. President-elect Obama has stated that he will do everything 
in his power to prevent Iran from obtaining a nuclear weapon, beginning 
with the power of aggressive American diplomacy. We will use all tools 
at our disposal, and no options are off the table. President-elect 
Obama said during the campaign that his administration will present the 
Iranian regime with a clear choice: Abandon your nuclear weapons 
program, support for terror and threats to Israel, and there will be 
meaningful incentives. Refuse, and we will ratchet up the pressure, 
with stronger unilateral sanctions; stronger multilateral sanctions in 
the Security Council; and sustained action outside the U.N. to isolate 
the Iranian regime. By pursuing tough, direct diplomacy, we will be 
better able to rally the world to our side, strengthen multilateral 
sanctions, and to convince the Iranian people that their own government 
is the author of its isolation.

    Question. The President-elect made the following statements during 
the campaign:

          a. ``I will do everything in my power to prevent Iran from 
        obtaining a nuclear weapon--everything in my power to prevent 
        Iran from obtaining a nuclear weapon--everything.''
          b. ``. . . while we should take no option, including military 
        action, off the table, sustained and aggressive diplomacy 
        combined with tough sanctions should be our primary means to 
        prevent Iran from building nuclear weapons.''
          c. ``Tough-minded diplomacy would include real leverage 
        through stronger sanctions. . . . It would mean full 
        implementation of U.S. sanction laws.''
          d. ``We should also pursue other unilateral sanctions that 
        target Iranian banks and Iranian assets.''
          e. In July 2007, Barack Obama was asked by a video 
        questioner: ``Would you be willing to meet separately, without 
        precondition, during the first year of your administration, in 
        Washington or anywhere else, with the leaders of Iran, Syria, 
        Venezuela, Cuba, and North Korea? . . .'' ``I would,'' he 
        answered.

    Do you agree with these statements? Can we expect the new 
administration to promptly and aggressively use all sanctions options 
at the disposal of the United States?

    Answer. The President-elect and I are committed to opening a new 
chapter in American foreign policy and developing new approaches to the 
challenges and opportunities we face. The Obama administration will 
support tough, aggressive, and direct diplomacy, without preconditions, 
with our adversaries. Note that there is a distinction between 
preparations and preconditions. For possible negotiations with Iran, 
the President-elect and I both believe that there must be careful 
preparation--such as low-level talks, coordination with allies, the 
establishment of an agenda, and an evaluation of the potential for 
progress.
    We will carefully prepare for any negotiations. We will not sit 
down with Iran just for the sake of talking. But we are willing to lead 
tough and principled diplomacy with the appropriate Iranian leader at a 
time and place of our choosing--if, and only if--it can advance the 
interests of the United States.
    While pursuing a policy of tough and direct diplomacy, the Obama 
administration will use various means to increase economic pressure on 
Iran to persuade it to abandon its pursuit of nuclear weapons. We will 
be guided by the law when it comes to applying statutory sanctions. If 
there are entities in violation of the Iran Sanctions Act, we will take 
necessary steps under that statute.

    Question. Treasury Under Secretary Stuart Levey has been remarkably 
successful at isolating Iran's economy, chiefly its banks. As a 
Senator, did you support these efforts? As Secretary of State, will you 
pledge to this panel that the State Department will fully support the 
Treasury Department?

    Answer. When it comes to targeting the finances of terrorists and 
other threats to U.S. national security, we expect to build on the 
efforts of the Bush administration. If I am confirmed I will look to 
hit the ground running on these issues, because we can't risk any 
delays when dealing with terrorists and dangerous regimes. At the same 
time, we will review all of these initiatives with an eye toward 
continuing what is effective, improving what should be improved, and 
beginning new initiatives where they are needed. I look forward to 
working closely with the committee in doing so.

    Question. The President-elect made this statement on the campaign 
trail: ``Tough-minded diplomacy would include real leverage through 
stronger sanctions. . . . It would mean full implementation of U.S. 
sanction laws.'' Are you familiar with the Iran Sanctions Act, which 
punishes companies--foreign and domestic companies--that invest in 
Iran's energy sector and was not used by the Bush administration?

    Answer. President-elect Obama is committed to taking the necessary 
steps to have policies consistent with existing U.S. sanctions laws.

    Question. Do you agree that sanctions legislation only deters bad 
actors as long as they believe there is a reasonable chance that a 
violation will be caught and punished?

    Answer. The prospect of punishment can deter bad actors, which is 
why we must ensure that violators of sanctions legislation are held 
responsible for their crimes. President-elect Obama is committed to 
implementing U.S. sanctions laws and existing U.N. Security Council 
Resolutions. We need to work with our partners on the Security Council 
to consider additional measures to toughen penalties for violators, and 
strengthen enforcement tools.

    Question. Iran is racing ahead to build its own domestic refinery 
capacity in order to protect itself from disruptions to its imported 
supply of gasoline and diesel. In one of its most recent large-scale 
domestic refinery projects, the Chinese firms Sinopec and China 
National Offshore Oil Co. and the Malaysian firm SKS Ventures are 
significant investors. Would you please let me know in a letter within 
30 days of your taking office at State whether these firms' activities 
are in violation of the Iran Sanctions Act or International Emergency 
Economic Powers Act (IEEPA)?

    Answer. We are closely monitoring this situation, and remain 
cognizant of potential pressure points with Iran. The incoming 
administration will work with international partners to persuade the 
Iranian regime that its best interest is to verifiably abandon its 
nuclear weapons efforts.

    Question. As Secretary, would you commit to this committee that the 
Department would investigate investments in the Iranian Energy sector 
that appear to violate that act and promptly and completely answer any 
inquiries from members of this committee who ask about specific 
reported transactions?

    Answer. I am committed to working with the committee on these 
important efforts.

    Question. Additionally, I'm curious if you agree with the 
President-elect, when he said the following during the campaign: ``if 
we can impose the kinds of sanctions that, say, for example, Iran right 
now imports gasoline, even though it's an oil producer, because its oil 
infrastructure has broken down, if we can prevent them from importing 
the gasoline that they need and the refined petroleum products, that 
starts changing their cost-benefit analysis. That starts putting the 
squeeze on them.'' (Debate, October 7, 2008) Can we expect that you'll 
work to target Iran's reliance on imported gasoline in order to achieve 
this change in the regime's ``cost-benefit analysis''?

    Answer. As stated earlier, we are closely monitoring this 
situation, and remain cognizant of potential pressure points with Iran 
including its importation of refined gasoline.

    Question. Do you agree that it should be U.S. policy to dissuade 
other countries from supplying (directly or through companies that do 
business within their territory) refined petroleum products to Iran?

    Answer. The incoming administration views with great concern the 
role that Iran is playing in the world, including its sponsorship of 
terrorism, its continuing interference with the functioning of other 
governments and its pursuit of nuclear weapons. We continue to look at 
the issue of Iran's importation of refined gasoline as a part of our 
larger foreign policy review.

    Question. The U.S. and the EU have been negotiating with the 
Iranians for several years through the EU-3 (France, Germany, U.K.) 
with no results. The Europeans have had the precondition of a 
suspension of uranium enrichment before agreeing to any payoffs to the 
Iranian regime. There have been four U.N. Security Council resolutions 
that also call for the suspension of the enrichment.
    Do you support the U.S. going alone and unilaterally offering Iran 
``negotiations without preconditions'' thus abandoning our European 
allies and reversing course away from the U.N. Security policy 
currently in place?

    Answer. We believe that our best chance to gain Iranian compliance 
with the demands of the international community comes though using all 
tools at our disposal, ranging from direct, aggressive, principled 
diplomacy, to tougher unilateral sanctions, to enhanced multilateral 
sanctions.

    Question. President Bush signed legislation that mandates the U.S. 
support Taiwan's observer status in the World Health Organization (WHO) 
and each year the administration must report to Congress on steps taken 
to assist Taiwan in that effort. In an era where diseases such as SARS 
and Avian Influenza can travel the world at the speed of an 
international flight and tens of millions of lives could be at risk, a 
lack of participation by Taiwan in the WHO is a danger not only for 
Taiwan's population but our national security, and the world's, as 
well. Will you work with Taiwan and will the administration be engaged 
with the U.N. and other stakeholders to assist Taiwan in gaining 
Observer Status within the WHO as well as aggressively support Taiwan's 
entry into other international bodies?

    Answer. I commend Taiwan's President Ma and China's President Hu 
Jintao for seizing the opportunity created by President Ma Ying-jeou's 
election this past March. I sincerely hope they will continue this 
progress, as the United States gains from peaceful, stable cross-Strait 
relations, including development of economic ties and cross-Strait 
security. In this context, and consistent with the ``one China'' 
policy, I believe that it is appropriate for the United States to 
support Taiwan's efforts to expand its international space, such as 
observer status at the World Health Assembly. It is important for 
Beijing to demonstrate to the people of Taiwan that the practical and 
nonconfrontational approach taken by President Ma toward the mainland 
can achieve positive results. As you note, there are myriad public 
health issues that result from Taiwan's continued exclusion from 
appropriate participation in the World Health Organization, and like 
you I believe that the United States should work with Taiwan to see 
that situation rectified.

    Question. 0ne of the most effective means of building relationships 
and ties between Taiwan and U.S. officials is for personal meetings and 
briefings. The administration has an opportunity with two new 
Presidents--President-elect Obama here and President Ma in Taiwan--to 
build these relationships through visits by Cabinet members and senior 
political appointees. Conversely, visits by Taiwanese Cabinet ministers 
and other senior officials here would be extremely beneficial to a 
wide-range of U.S. officials. This also fits in with President-elect 
Obama's desire to broadly engage the world community. Would you agree 
that these visits make sense for Taiwan?

    Answer. As I noted in my response to Senator DeMint, in his letter 
to President Ma Ying-jeou on May 20, 2008, President-elect Obama stated 
that he believed the U.S. should strengthen channels of communication 
with officials of Taiwan's Government. I share that view and believe 
that it is important that the United States seek to rebuild a 
relationship of trust with Taiwan, and support for Taiwan's robust 
democracy. I support the ``one China'' policy of the U.S., adherence to 
the three U.S.-PRC joint communique concerning Taiwan, and observance 
of the Taiwan Relations Act.

    Question. In 2007, you voted against a resolution labeling Iran's 
Revolutionary Guard a ``terrorist'' organization. Is it still your 
contention that Iran's Revolutionary Guard is not a ``terrorist'' 
organization?

    Answer. I'm not aware of voting against any such resolution. Both 
the President-elect and I agree that the Iranian Revolutionary Guard 
should be labeled a ``terrorist'' organization.

    Question. For most of the Clinton and much of the Bush 
administrations a great deal of effort was focused on bringng about an 
end to the Israel-Palestinian conflict, In spite of these efforts, it 
remains unclear as to whether conditions are ripe for a deal. The 
Palestinian leadership is weak and divided and Hamas, committed to 
Israel's destruction, controls Gaza.

  <bullet> Do you directly support Israel's right to defend themselves?
  <bullet> What are your realistic expectations for negotiations in the 
        coming months? How ripe is the situation for resolution? Can 
        the U.S. ``force'' the process?
  <bullet> How would you assess Arab support for the peace process and 
        for Mahmoud Abbas? What can you do to encourage the Arab states 
        to make good on their pledges to Palestinians and to play a 
        more constructive role?
  <bullet> With Palestinian elections for the Presidency taking place 
        sometime in the coming year, there is the possibility that 
        Hamas will take control. What will the Obama administration 
        policy be if the Palestinian Authority is run or effectively 
        controlled by Hamas?

    Answer. Israel faces many threats to its security, and President-
elect Obama and I will always support Israel's right to defend itself. 
We also share a belief that Israel's security would benefit from peace 
agreements with its neighbors. President-elect Obama has pledged to 
work actively from the beginning of his administration to help Israel 
and the Palestinians achieve peace and security through a two-state 
solution, because this is in both parties' interests, and chiefly, 
because it is in the United States interests. Throughout 2008, he urged 
Israel and the Palestinian Authority to make as much progress as 
possible in their negotiations that arose out of the Annapolis 
conference, so that a functioning process could be continued in 2009. 
And indeed, the parties report that progress has been made in these 
talks, which they hope to build upon. Our commitment is to help them 
build on that progress and achieve their goal of two states living side 
by side in peace and security. That commitment remains, even in the 
face of very difficult and challenging events, such as the recent 
events in Gaza and southern Israel.
    I believe the Arab states have an important role to play in 
advancing efforts to achieve peace between Israelis and Palestinians. 
Their chief means to do so are providing political and economic support 
to the Palestinian Authority, and taking steps toward normalization 
with Israel. The Arab Peace Initiative contains some constructive 
elements which could be important bases for negotiations and for 
proactive steps to give the initiative a more operational character. I 
look forward to discussing these opportunities with Israeli, 
Palestinian, and Arab leaders and encouraging progress in these 
efforts.

    Question. With Palestinian elections for the Presidency taking 
place sometime in the coming year, there is the possibility that Hamas 
will take control. What will the Obama administration policy be if the 
Palestinian Authority is run or effectively controlled by Hamas?

    Answer. I prefer not to speculate about the outcome of future 
elections in other countries. Our policy on Hamas is clear: We support 
the Quartet's conditions on any dealings with Hamas--recognition of 
Israel, recognition of Israel, renunciation of violence, and abiding by 
past agreements.

    Question. The Financial Action Task Force (FATF) is an 
intergovernmental body whose purpose is the promotion of national and 
international policies to combat money laundering and terrorist 
financing. FATF has a list of 40 recommendations and 9 special 
recommendations it uses to test whether financial institutions are 
taking necessary precautions to avoid terror financing, money-
laundering, and other illicit activities.
    Will you commit to protecting the U.S. taxpayer from inadvertently 
funding such things as genocide in Burma or weapon sales to terrorists 
by North Korea by prohibiting U.S. funds from going to any U.N. system 
entity or other foreign development organization that transfers funds 
to banks within states that are not certified by FATF?

    Answer. This is an important issue. Your proposal is one that I 
have not yet had the opportunity to review or consider. I look forward 
to conducting that review and consulting with you as we move forward. 
The United States, in coordination with allies and partners, has made 
great strides in preventing terrorism supporters from misusing the 
formal financial sector. I will work with the President-elect and my 
fellow Cabinet members as the United States deploys all the tools of 
national power to continue cracking down on terror-funding, including 
military action, law enforcement investigations, prosecutions, and 
diplomatic and intelligence activities.

    Question. The Federal Funding Accountability and Transparency Act 
(FFATA), coauthored by President-elect Obama, requires all Federal 
funding to be put on the public Web site, USAspending.gov. This 
includes all contract, subcontract, grant, and subgrant data such as 
the amount of award, source of funds, and the intended purpose of the 
funds.
    Despite this law, the State Department has failed to comply by not 
listing all its contributions to entities within the U.N. system, such 
as the U.N. Development Program, UNICEF, or UNESCO. Other U.S. agencies 
that transfer U.S. funds to U.N. entities--such as the Departments of 
Agriculture, Commerce, Defense, Treasury, Interior, Energy, and 
Education--have either ignored FFATA or only have submitted partial 
information for their U.N. funding.
    Shouldn't the U.S. taxpayers know where their money is going at the 
U.N., and if you are confirmed, what will you do to ensure compliance 
at the State Department and other U.S. agencies with the FFATA re U.N. 
system funding?
    Why should the U.S. fund a U.N. entity or any other grantee or 
subgrantee of the State Department if it does not comply with U.S. law 
as found in the FFATA, and supply subgrant information to be posted on 
USAspending.gov?

    Answer. I have not been fully briefed on the FFATA, but I look 
forward to reviewing this issue and consulting with you on it as we 
move forward. I take very seriously my responsibility to the U.S. 
taxpayer to ensure that our U.N. contributions are well-spent and well-
managed. I also take very seriously my commitment to complying with the 
law. If I am confirmed, I intend to work closely with Congress and the 
members of this committee on this and the entire range of issues 
pertaining to the United Nations.

                                  <all>

</pre></body></html>
